No. _____
IN THE

Supreme Court of the United States
___________

TRADING TECHNOLOGIES INTERNATIONAL, INC.,
v.

Petitioner,

IBG, LLC, et al.,
___________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Federal Circuit
___________

PETITION APPENDIX
___________

STEVEN F. BORSAND
ADAM J. FAIER
TRADING TECHNOLOGIES
INTERNATIONAL
222 S. Riverside
Plaza, Ste. 1100
Chicago, IL 60606

ANDREW M. GROSSMAN
Counsel of Record
RENEE KNUDSEN
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

App. i
TABLE OF APPENDICES
Appendix A: Federal Circuit Decision on ’055
Patent and ’768 Patent, Trading Technologies
Int’l, Inc., v. IBG LLC, et al. ........................ App. 1
Appendix B: Federal Circuit Decision on
’382 Patent, Trading Technologies Int’l,
Inc., v. IBG LLC, et al. ................................ App. 6
Appendix C: Federal Circuit Denial of
Petition for Rehearing on ’768 Patent,
Trading Technologies Int’l, Inc., v.
IBG LLC, et al.............................................. App. 8
Appendix D: Federal Circuit Denial of
Petition for Rehearing on ’382 Patent,
Trading Technologies Int’l, Inc., v.
IBG LLC, et al............................................ App. 10
Appendix E: PTAB Decision on ’055 Patent,
IBG LLC, et al. v. Trading Technologies
Int’l, Inc. ..................................................... App. 12
Appendix F: PTAB Decision on ’768 Patent,
IBG LLC, et al. v. Trading Technologies
Int’l, Inc. ..................................................... App. 66
Appendix G: PTAB Decision on ’382 Patent,
IBG LLC, et al. v. Trading Technologies
Int’l, Inc. ................................................... App. 150
Appendix H: Relevant Statutory
Provisions................................................. App. 201

App. ii
Appendix I: Patent No. 7,685,055 ........... App. 207
Appendix J: Patent No. 7,693,768 .......... App. 326
Appendix K: Patent No. 7,725,382.......... App. 398

App. 1
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
___________

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG, LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
___________

2018-1105

___________

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00009.
------------------------------------------------------------

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.

App. 2
IBG, LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
___________

2018-1302

___________

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00054.
------------------------------------------------------------

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG, LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
___________

2018-1438

___________

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00087.
------------------------------------------------------------

App. 3
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
UNITED STATES, ANDREI IANCU, UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND
DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenors
___________

2018-1443

___________

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00086.
___________

Decided: May 21, 2019
___________

MICHAEL DAVID GANNON, Baker & Hostetler
LLP, Chicago, IL, argued for appellant. Also represented by LEIF R. SIGMOND, JR., JENNIFER
KURCZ; ALAINA J. LAKAWICZ, Philadelphia, PA;
STEVEN BORSAND, JAY QUENTIN KNOBLOCH,
Trading Technologies International, Inc., Chicago, IL.
BYRON LEROY PICKARD, Sterne Kessler Goldstein & Fox, PLLC, Washington, DC, argued for appellees in 2018-1105, 2018-1302, 2018-1438. Also represented by ROBERT EVAN SOKOHL, RICHARD M.
BEMBEN, JON WRIGHT.

App. 4
KATHERINE TWOMEY ALLEN, Appellate Staff,
Civil Division, United States Department of Justice,
Washington, DC, argued for intervenor United
States. Also represented by MARK R. FREEMAN,
SCOTT R. MCINTOSH, JOSEPH H. HUNT;
THOMAS W. KRAUSE, JOSEPH MATAL, FARHEENA YASMEEN RASHEED, Office of the Solicitor, United States Patent and Trademark Office, Alexandria, VA.
AMY J. NELSON, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
argued for intervenor Andrei Iancu in 2018-1443. Also
represented by THOMAS W. KRAUSE, JOSEPH
MATAL, FARHEENA YASMEEN RASHEED.
___________

Before HUGHES, MAYER, and LINN, Circuit
Judges. HUGHES, Circuit Judge.
Trading Technologies International, Inc., appeals
four Covered Business Method Review decisions of
the Patent Trial and Appeal Board finding Trading
Technologies’ patents ineligible under 35 U.S.C.
§ 101. Recently, this Court issued two precedential
opinions affirming Board decisions finding several of
Trading Technologies related patents unpatentable
under § 101. Trading Techs. Int’l, Inc. v. IBG LLC,
921 F.3d 1084 (Fed. Cir. 2019) (IBG I); Trading Techs.
Int’l, Inc. v. IBG LLC, 921 F.3d 1378 (Fed. Cir. 2019)
(IBG II). The parties submitted supplemental briefing
on whether IBG I dictated the outcome of the present
appeals. The parties also discussed the effect of IBG I
and IBG II at oral argument.

App. 5
We are not persuaded by Trading Technologies’ arguments that the patents at issue here, U.S. Patent
Nos. 7,412,416 B2; 7,818,247 B2; 7,685,055 B2; and
7,693,768 B2, are distinguishable from the patents invalidated in IBG I and IBG II. Like IBG I and IBG II,
the challenged patents “focus[] on improving the
trader, not the functioning of the computer.” IBG II,
921 F.3d at 1383; see also IBG I, 921 F.3d at 1091.
Although these patents may provide different information than the patents in IBG I and IBG II, information is “intangible” and its “particular content…
does not change its character as information.” Elec.
Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353
(Fed. Cir. 2016). We therefore hold that IBG I and
IBG II control and affirm the Board’s decisions.
We also find Trading Technologies waived its constitutional arguments. See IBG II, 921 F.3d at 1385.
AFFIRMED

App. 6
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
___________

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
___________

2018-1489

___________

Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No.
CBM2016-00090.
___________

JUDGMENT
___________

MICHAEL DAVID GANNON, Baker & Hostetler LLP,
Chicago, IL, argued for appellant. Also represented by
LEIF R. SIGMOND, JR., JENNIFER KURCZ; ALAINA J.
LAKAWICZ, Philadelphia, PA; STEVEN BORSAND, JAY
QUENTIN KNOBLOCH, Trading Technologies International, Inc., Chicago, IL.

App. 7
BYRON LEROY PICKARD, Sterne Kessler Goldstein
& Fox, PLLC, Washington, DC, argued for appellees.
Also represented by ROBERT EVAN SOKOHL, RICHARD
M. BEMBEN, WILLIAM H. MILLIKEN, JON WRIGHT.
MELISSA N. PATTERSON, Appellate Staff, Civil Division, United States Department of Justice, Washington, DC, argued for intervenor. Also represented
by MARK R. FREEMAN, KATHERINE TWOMEY ALLEN,
COURTNEY DIXON, SCOTT R. MCINTOSH, JOSEPH H.
HUNT; THOMAS W. KRAUSE, JOSEPH MATAL, FARHEENA YASMEEN RASHEED, Office of the Solicitor,
United States Patent and Trademark Office, Alexandria, VA.
___________

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (NEWMAN, DYK, and WALLACH, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
July 1, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 8
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
___________

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG, LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
___________

2018-1302

___________

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2016-00054.
___________

ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
___________

Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
and HUGHES, Circuit Judges*.
*

Circuit Judge Stoll did not participate.

App. 9
PER CURIAM.
ORDER
Appellant Trading Technologies International, Inc.
filed a combined petition for panel rehearing and rehearing en banc. The petition was referred to the
panel that heard the appeal, and thereafter the petition for rehearing en banc was referred to the circuit
judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on September 10, 2019.
FOR THE COURT
September 3, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 10
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
___________

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
___________

2018-1489

___________

Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No.
CBM2016-00090.
___________

ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
___________

Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
and HUGHES, Circuit Judges*.

*

Circuit Judge Stoll did not participate.

App. 11
PER CURIAM.

ORDER

Appellant Trading Technologies International, Inc.
filed a combined petition for panel rehearing and rehearing en banc. The petition was referred to the
panel that heard the appeal, and thereafter the petition for rehearing en banc was referred to the circuit
judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on September 25, 2019.
FOR THE COURT
September 18, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 12
UNITED STATES PATENT AND
TRADEMARK OFFICE
___________

BEFORE THE PATENT TRIAL AND
APPEAL BOARD
___________

IBG LLC and INTERACTIVE BROKERS LLC,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
___________

Case CBM2016-00009
Patent No. 7,685,055 B2
___________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and JEREMY M. PLENZLER, Administrative
Patent Judges.
PETRAVICK, Administrative Patent Judge.
FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

App. 13
I. INTRODUCTION
A. Background
IBG LLC and Interactive Brokers LLC1 (collectively, “Petitioner”) filed a Petition (Paper 5, “Pet.”) on
October 23, 2015 that requests review under the transitional program for covered business method patents
of U.S. Patent No. 7,685,055 B2 (Ex. 1001, “the ‘055
patent”). Petitioner challenges the patentability of
claims 1-19 (“the challenged claims”) of the ‘055 patent under 35 U.S.C. §§ 101 and 103. On April 28,
2016, we instituted a covered business method patent
review on the following grounds:
Ground Prior Art
§ 101
n/a
§ 103
TSE2
§ 103
§ 103

TSE and
Gutterman3
TSE and Belden4

Challenged Claims
1–19
1, 3, 4, 6–15 and
17–19
2 and 5
16

Paper 20 (“Institution Decision” or “Inst. Dec.”).

This proceeding was terminated with respect to CQG, INC. and
CQGT, LLC and they are no longer petitioners in this proceeding. See Paper 16.
2 Tokyo Stock Exchange Operation System Division, FUTURES/OPTION PURCHASING SYSTEM TRADING TERMINAL OPERATION GUIDE (1998) (Ex. 1008).
3 Gutterman et al., U.S. Patent No. 5,297,031 (issued Mar. 22,
1994) (Ex. 1006).
4 Belden et al., WO 90/11571 (published Oct. 4, 1990) (Ex. 1010).
1

App. 14
Thereafter, Trading Technologies International,
Inc. (“Patent Owner”) filed a Patent Owner’s Response on July 21, 2016 (Paper 32, “PO. Resp.”) and
Petitioner filed a Reply (Paper 42, “Pet. Reply”) to Patent Owner’s Response.
Patent Owner filed a Motion for Observations (Paper 52, “PO Mot. for Observations”) and Petitioner
filed a response (Paper 54) to Patent Owner’s Motion
for Observations.
Petitioner filed a Motion to Exclude (Paper 49,
“Pet. Mot. to Exclude”), and Patent Owner filed an
Opposition (Paper 57) to Patent Owner’s Motion. Petitioner filed a Reply (Paper 60) in support of its Motion.
Patent Owner filed a Motion to Exclude (Paper 59,
“PO Mot. to Exclude”) and Petitioner filed an Opposition (Paper 55) to Patent Owner’s Motion. Patent
Owner filed a Reply (Paper 61) in support of its Motion.
We held a hearing of this case on January 6, 2017.
Paper 70 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written Decision is issued pursuant to 35 U.S.C.
§ 328(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1-19 of the
’055 patent are patent ineligible under 35 U.S.C.
§ 101.

App. 15
B. Related Matters
The ’055 patent is the subject of numerous related
U.S. district court proceedings. Pet. 2–3; Paper 8, 2–
8; Paper 17, 1.
The ’055 patent was the subject of a petition for
covered business method patent review in TD Ameritrade Holding Corp. v. Trading Technologies International, Inc., CBM2014-00137 (PTAB). In CBM201400137, covered business method patent review terminated prior to entry of a final written decision, due to
settlement between the parties.
C. The ’055 Patent
The ’055 patent is titled “System and Method for
Automatic Re-positioning of Market Information in a
Graphical User Interface,” and issued March 23,
2010, from Application No. 11/417,547 filed May 3,
2006. Ex. 1001, 1.
The ’055 patent discloses that many exchanges
throughout the world use electronic trading. Id. at
1:36–38. Exchange participants use specialized interactive trading screens to monitor positions on the exchange. See Id. at 2:3–6. “The bids and asks in the
market make up the market data and everyone logged
on to trade can receive this information if the exchange provides it.” Id. at 2:27–28.
The ’055 patent discloses a graphical user interface (“GUI”) displaying information related to a commodity and a method of automatically re-positioning
the information. Id. at Abstract. The ’055 patent’s Figure 16A is reproduced below.

App. 16

Figure 16A depicts the GUI of the ’055 patent. The
GUI includes a plurality of columns, including a static
price axis, which includes a plurality of price values
for the commodity, such as “102.60.” Id. at Fig. 16A;
7:67–8:18. Columns 1608 and 1610 are aligned with
the static price axis and dynamically display buy (i.e.,
bid) quantities and sell (i.e., ask) quantities, respectively, for the corresponding price values of the static
price axis. Id. at Fig. 16A; 26:10–11. Column 1602 displays the last traded price (“LTP”), and the inside
market (i.e., the highest buy price and lowest sell
price at which there is quantity currently in the market) is marked with inside market indicator 1606,
which is a solid line spanning columns 1608 and 1610.
Id. at Fig. 16A; 26:3–14.
The GUI can re-position a designated item of interest, such as the LTP or inside market indicator, in

App. 17
the display. Id. at 26:4–45. For example, if the LTP or
inside market moves a designated number of cells
away from the top or bottom of the display screen, the
display, including the static price axis, is repositioned
so that LTP or inside market is centered on the display. See Id. Manual re-positioning can also be used
in conjunction with automatic re-positioning. Id. at
26:33–37.
D. Illustrative Claim
Claims 1 and 17 of the ’055 patent are independent. Claim 1 recites a method, and claim 17 recites a
corresponding computer readable medium. Claim 1 of
the ’055 patent is illustrative of the challenged claims
and is reproduced below.
1. A method for re-positioning a static price axis
on a graphical user interface for displaying
market information of a commodity being
traded at an electronic exchange, the method
comprising:
receiving market information relating to a
commodity from an electronic exchange via a
computing device, the market information comprising an inside market with a current highest
bid price and a current lowest ask price for the
commodity;
displaying a first plurality of price levels
along a static price axis on a graphical user interface of a display device associated with the
computing device, where the first plurality of
price levels range from a lowest value to a highest value along the static price axis;

App. 18
in response to an input command received
via an input device associated with the computing device, adjusting the first plurality price
levels among a range of price levels to an adjusted plurality of price levels including the
first plurality of price levels;
displaying a bid and ask display region on
the graphical user interface, the bid and ask
display region comprising a plurality of locations corresponding to the first plurality of
price levels displayed along the static price
axis, wherein each location corresponds to one
of the first plurality of price levels, and wherein
a number of the plurality of locations changes
according to adjusting the first plurality of price
levels;
displaying a first indicator representing a
quantity associated with the current highest
bid price at a first location in the plurality of
locations of the bid and ask display region,
wherein the first indicator ascends or descends
the static price axis as changes in the current
highest bid price occur as a result of each of the
plurality of price levels along the static price
axis not changing positions on the graphical
user interface unless a reposition command is
received;
displaying a second indicator representing a
quantity associated with the current lowest ask
price at a second location in the plurality of locations of the bid and ask display region,
wherein the second indicator ascends or descends the static price axis as changes in the

App. 19
current lowest ask price occur as a result of
each of the plurality of price levels along the
static price axis not changing positions on the
graphical user interface unless the reposition
command is received;
receiving the reposition command to reposition the static price axis when a designated
price is within a designated number of price levels from the lowest value or the highest value
along the static price axis; and
responsive to receiving the reposition command, automatically re-positioning the static
price axis on the graphical user interface such
that a current inside market price is displayed
at a new desired location.
II. ANALYSIS
A. Claim Construction
In a covered business method patent review, the
Board interprets claim terms in an unexpired patent
according to the broadest reasonable construction in
light of the specification of the patent in which they
appear. 37 C.F.R. § 42.300(b); see Cuozzo Speed Techs.
LLC v. Lee, 136 S. Ct. 2131, 2144–46 (2016) (upholding the use of the broadest reasonable interpretation
standard). Under that standard, and absent any special definitions, we give claim terms their ordinary
and customary meaning, as they would be understood
by one of ordinary skill in the art at the time of the
invention. In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007). Any special definitions for claim

App. 20
terms must be set forth with reasonable clarity, deliberateness, and precision. In re Paulsen, 30 F.3d 1475,
1480 (Fed. Cir. 1994).
i. “static price axis”
Petitioner argues that the ’055 patent defines
“static price axis” as “a price column where prices ‘do
not normally change positions unless a re-centering
command is received.’” Pet. 16–17 (citing Ex. 1001,
8:16–18; Ex. 1003 ¶ 71).
Patent Owner proposes two “clarifications” to this
definition. PO Resp. 40–41. First, Patent Owner argues that “the construction requires that the price levels do not change positions unless a re-centering or
repositioning command is received” to be consistent
with the claim language itself. Id. at 40. Second, Patent Owner argues that “the construction should [not]
be limited to a price column, but should refer to a reference line.” Id. Additionally, Patent Owner argues
that a price axis is “a reference line, against which
bids/ask[s] are plotted, that does not skip price levels”
and that “a price level is a location/area provided on
the screen with which a price may be (but is not required to be) displayed.” Id. at 41 (citing Ex. 2169
¶¶ 75–81).
Upon consideration of the parties’ arguments and
evidence, we are persuaded that the broadest reasonable construction, in light of the specification of the
’055 patent, of “static price axis” is a price column or
reference line where prices do not normally change
positions unless a re-centering or re-positioning command is received. This is consistent with the ’055 patent, which states:

App. 21
It is to be understood that, in this context, static
does not mean immovable, but rather means
fixed in relation. For example, with a static
price scale, the scale itself may be movable, but
the prices represented remain fixed in relation
to each other, subject to consolidation or expansion.
Ex. 1001, 4:53–58. This also is consistent with the
claim language, itself, which includes steps of receiving a re-positioning command and, in response, re-positions the static price axis. Ex. 1001, 34:60–67. We
also are persuaded that a “static price axis” includes
a reference line along which bids or asks are plotted.
This is consistent with the ’055 patent disclosure of
the static price axis and the plain meaning of the
term. See Id. at 7:67–8:16, Ex. 2071, 4 (dictionary definition of “axis”).
We, however, are not persuaded that the broadest
reasonable interpretation requires a price axis that
does not skip price levels and that price levels are locations/areas provided on the screen with which a
price may be (but is not required to be) displayed. Patent Owner’s proposed clarification is inconsistent
with the ’055 patent. The ’055 patent discloses that
[t]he representative prices for the given commodity are shown in column 304 [(i.e., the price
axis)], where the prices are static and increment in “ticks,” where a tick is the minimum
change in a price value that is set by the exchange for each commodity. The prices can be
displayed as ticks, as multiples of ticks or in
any other fashion… Other price display convention may alternatively be used, as long as the

App. 22
requisite price information is conveyed to the
user.
Ex. 1001, 7:67–8:9; see also Id. at 7:43–50 (disclosing
that the static prices can be displayed in any matter
and that just market depth levels or working orders
can be displayed). The ’055 patent also discloses displaying indicators in only a portion of a cell because a
price falls between prices in a static price scale. See
Id. at 13:58–67, 17:65–18:2, 18:47–51, 29:25–37.
We determine that the broadest reasonable interpretation in light of the specification of the ’055 patent
of static price axis is a price column or reference line
where prices do not normally change positions unless
a re-centering or re-positioning command is received.
ii. “computer readable medium”
Claims 17–19 are directed to “[a] computer readable medium having computer-readable instructions
thereon.” See Ex. 1001, 36:1–2. Petitioner contends
that, when given the broadest reasonable interpretation, the “computer readable medium” of claims 17–
19 encompasses transitory, propagating signals.
Pet. 33–34 (citing In re Nuijten, 500 F.3d 1346, 1357
(Fed. Cir. 2007)).
Patent Owner argues that it would be unreasonable to construe claims 17–19 as encompassing signals
per se. PO Resp. 25–26. First, Patent Owner argues
that “the USPTO guidance relied upon” is directed to
examination, which is pre-issuance, and these proceedings are post-issuance. Id. at 25. Patent Owner
contends that “it would be unreasonable to adopt a
construction that would have made a patent invalid

App. 23
at the time of issuance.” Id. Second, Patent Owner argues that intrinsic evidence in the prosecution history
show that the claims are directed to non-transitory
media and that this is consistent with the specification of the ’055 patent, which describes the relevant
field as being interface software run on an end-user
computer or terminal. Id. (citing Ex. 1002, 165, Ex.
1001, 2:1–6, 4:60–5:7).
Upon consideration of the parties’ arguments and
evidence, we are persuaded that the broadest reasonable construction, in light of the specification of the
’055 patent, of computer readable medium encompasses transitory, propagating signals. We are not
persuaded by Patent Owner that this construction is
inconsistent with the specification of the ’055 patent.
We are not persuaded that, because the ’055 patent
describes the software running on an end-user computer or terminal, the computer readable medium is
limited to non-transitory media. As Petitioner points
out, “[t]he specification of the ’055 patent neither defines nor provides examples of a computer-readable
medium.” Pet. 33. It does not limit computer readable
medium to non-transitory media or preclude transitory propagating signals per se. See Subject Matter Eligibility of Computer-Readable Media, 1351 Off. Gaz.
Pat. Office 212 (Feb. 23, 2010) (“The broadest reasonable interpretation of a claim drawn to a computer
readable medium…typically covers forms of non-transitory tangible medium and transitory propagating
signals per se….”).
Patent Owner argues that “the USPTO guidance
relied upon” is directed to examination in a pre-issuance context and, thus, should not be relied upon in a

App. 24
post-issuance context. PO Resp. 25. It is not clear
from Patent Owner’s argument to what USPTO guidance Patent Owner is referring as Patent Owner provided no citation to any USPTO guidance. See Id. In
our Institution Decision, we cited Ex parte Mewherter,
107 USPQ2d 1857, 1859–63 (PTAB May 8, 2013)
(precedential). Inst. Dec. 25, n.7. Ex parte Mewherter
refers to the guidance in Subject Matter Eligibility of
Computer-Readable Media. Ex parte Mewherter, 107
USPQ2d at 1859. Inasmuch as Patent Owner’s argument is directed to Subject Matter Eligibility of Computer-Readable Media, Patent Owner’s argument is
unpersuasive. Although the guidance provided in
Subject Matter Eligibility of Computer-Readable Media is not binding upon the Board, Patent Owner provides no persuasive reason for the Board to depart
from this guidance. Like in a pre-issuance context,
during covered business method patent review,
claims are given their broadest reasonable interpretation in light of the specification. 37 C.F.R.
§ 42.300(b); see Cuozzo Speed Tech., 136 S. Ct. at
2144–46.
Further, we are not persuaded by Patent Owner
that intrinsic evidence in the prosecution history
shows that the claims are directed to non-transitory
media. See PO Resp. 25. Patent Owner directs our attention to a statement made by the examiner in the
prosecution history of the ’055 patent—”a computer
readable medium (known in the computer art as a
floppy disk, cd-rom, hard drive, zip drive, jazz drive
etc.).” Id. (quoting Ex. 1002, 165). Contrary to Patent
Owner’s argument, this statement does not limit computer readable medium to non-transitory media but
allows for other types of media.

App. 25
We determine that the broadest reasonable interpretation of “computer readable medium having computer-readable instructions thereon,” in light of the
specification of the ’055 patent, encompasses transitory, propagating signals.
iii. Other Terms
We do not need to construe any other claim terms
for purposes of our decision. See, e.g., Wellman, Inc. v.
Eastman Chem. Co., 642 F.3d 1355, 1361 (Fed. Cir.
2011) (“[C]laim terms need only be construed ‘to the
extent necessary to resolve the controversy.’”) (citation omitted).
B. Requirements for Covered Business
Method Patent Review
Section 18 of the AIA5 provides for the creation of
a transitional program for reviewing covered business
method patents. Section 18 limits review to persons
or their privies who have been sued or charged with
infringement of a “covered business method patent,”
which does not include patents for “technological inventions.” AIA § 18(a)(1)(B), (d)(1); see 37 C.F.R.
§ 42.302.
In compliance with 37 C.F.R. § 42.302(a), Petitioner certifies that it has been sued for infringement
of the ‘055 patent. Pet. 3; see Paper 8, 3.
i. “Method or Corresponding Apparatus for Performing Data Processing or Other Operations Used in the
Practice, Administration or Management of a Financial Product or Service”
Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 329 (2011) (“AIA”).

5

App. 26
The statute defines a “covered business method
patent” as
[a] patent that claims a method or corresponding apparatus for performing data processing or
other operations used in the practice, administration, or management of a financial product
or service.
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A covered
business method patent can be broadly interpreted to
encompass patents claiming activities that are financial in nature. Transitional Program for Covered
Business Method Patents—Definitions of Covered
Business Method Patent and Technological Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1338–
41 (Fed. Cir. 2016) (determining that a patent was a
covered business method patent because it claimed
activities that are financial in nature); Unwired
Planet, LLC v. Google, Inc., 841 F.3d 1376, n. 5 (Fed.
Cir. 2016) (stating that “we endorsed the ‘financial in
nature’ portion of the standard as consistent with the
statutory definition of ‘covered business method patent’ in Blue Calypso”), Versata Development Group,
Inc. v. SAP America, Inc., 793 F.3d 1306, 1324–25
(Fed. Cir. 2015) (“[The statute] on its face covers a
wide range of finance-related activities.”).
A patent need have only one claim directed to a
covered business method to be eligible for review. 77
Fed. Reg. at 48,736 (Response to Comment 8). We
take claim 1 as representative.
Petitioner contends that the ’055 patent is a covered business method patent because it claims a

App. 27
method or corresponding apparatus for performing
data processing or other operations used in the practice, administration, or management of a financial
product or service. Pet. 3–5. Petitioner argues that
claims 1 and 17 are directed to a method and corresponding apparatus for displaying and re-positioning
market data used for trading commodities, which is a
financial activity. Id. at 4–5. Petitioner additionally
argues that claim 16 claims a financial activity, because it recites sending a trade order to an electronic
exchange. Id. Petitioner further argues that the ’055
patent discloses that it is directed to electronic trading, which is a financial activity. Id. (citing Ex. 1001,
1:29).
Patent Owner disagrees. Patent Owner does not
dispute that the claims of the ’055 patent “include financial terms” but disputes that the claims perform
data processing or other operations, as required by
the statute. PO Resp. 26–28. First, Patent Owner argues that “data processing” should be interpreted according to the definition of “data processing” found in
the glossary for class 705 of the United States Patent
Classification System, which is “[a] systematic operation on data in accordance with a set of rules which
results in a significant change in the data.” Id. at 26–
27 (quoting Ex. 2121, 4). Patent Owner argues that
the claims of the ’055 patent are not directed to data
processing under this definition because the claims
are concerned with displaying information in a specific manner and not concerned with processing the
information that is displayed. PO Resp. 27. Patent
Owner asserts that the claimed invention is not directed to a business method. Id. at 27–28. According
to Patent Owner, the legislative history “makes clear

App. 28
that improvements to software tools or GUIs, even if
used for trading or other financial activities, were intended to be outside the scope of CBM [review].” Id.
at 34 (citing Ex. 2126, S5428, S5433 (157 Cong. Rec.
S5428 (daily ed. Sept. 8, 2011) (statements of Sens.
Schumer and Durbin)).
As an initial matter, Patent Owner’s arguments
concerning the legislative history are not persuasive.
Although the legislative history includes certain
statements that certain novel software tools and
graphical user interfaces that are used by the electronic trading industry worker are not the target of
§ 18 of the AIA (see Ex. 2126, S5428, S5433) the language of the AIA, as passed, does not include an exemption for user interfaces for commodities from covered business method patent review. Indeed, “the legislative debate concerning the scope of a CBM review
includes statements from more than a single senator.
It includes inconsistent views….” Unwired Planet,
841 F.3d at 1381. For example, in contrast to the
statements cited by Patent Owner, the legislative history also indicates that “selling and trading financial
instruments and other securities” is intended to be in
the scope of covered business method patent review.
See Ex. 2126, S5432 (statements of Sen. Schumer).
“[T]he legislative history cannot supplant the statutory definition actually adopted…. The authoritative
statement of the Board’s authority to conduct a CBM
review is the text of the statute.” Unwired Planet, 841
F.3d at 1381. Each claimed invention has to be evaluated individually to determine if it is eligible for a covered business method patent review. A determination
of whether a patent is eligible for a covered business

App. 29
method patent review under the statute is made on a
case-by-case basis. 37 C.F.R. § 42.301(b).
Turning to the ’055 patent, we are persuaded by
Petitioner that the ’055 patent is a covered business
method patent. According to the specification of the
’055 patent, “the present invention is directed to electronic trading” (Id. at 1:28) and, in particular, to repositioning market information in a GUI. (Id. at 3:3–
5). The information relates to tradable objects, which
are financial products, such as stocks, options, bonds,
futures, currency, etc. Id. at 5:8–17. The ’055 patent
discloses that the invention involves processing the
information for display — “[t]he trading application
…processes this information.” Ex. 1001, 6:26–30.
The disclosed invention is reflected in claim 1 of
the ’055 patent, which is directed to “[a] method for
repositioning a static price axis on a graphical user
interface for displaying market information of a commodity being traded at an electronic exchange.”
Ex. 1001, 34:15–17. The claimed method recites steps
of displaying market information received from an
electronic exchange along a static price axis, adjusting the static price axis, and repositioning the static
price axis. Id. at 34:19–67.
Electronic trading is a financial service or activity.
Tradable objects are financial products. A method of
computing and displaying financial information for a
tradable object on a graphical user interface for use in
electronic trading is a method for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service. We, thus, are persuaded by Petitioner that

App. 30
the ‘055 patent is a covered business method patent.
See Pet. 4–5, Pet. Reply. 29–30.
Patent Owner argues that the statute requires
that the “data processing” cause a significant change
in the data, and that data processing that merely displays the data, like the data processing disclosed in
the ’055 patent, is not significant. PO Resp. 26–27.
Patent Owner’s argument is based upon the assumption that “data processing” in the statute is interpreted according to the definition of “data processing”
found in the glossary for class 705 of the United
States Patent Classification System. See Id. Patent
Owner, however, does not sufficiently explain why
this definition is controlling, as opposed to the plain
meaning of “data processing.” We, thus, are not persuaded that “data processing” as recited by the statute precludes data processing for the purpose of displaying the data. As pointed out above, the ’055 patent, itself, discloses processing market information
received from an electronic exchange. Ex. 1001, 6:26–
30. We, thus, are not persuaded that the ’055 patent
does not claim “performing data processing…used in
the practice, administration, or management of a financial product or service” (AIA § 18(d)(1)).
In any event, the statute does not limit covered
business method patents to only those that claim
methods for performing data processing used in the
practice, administration, or management of a financial product or service. It includes methods for performing “other operations” used in the practice, administration, or management of a financial product or
service. Claim 1’s method for repositioning a static
price axis on a graphical user interface for displaying

App. 31
market information of a commodity being traded at
an electronic exchange is an operation used in the
practice, administration, or management of a financial product or service.
We determine that Petitioner has shown by a preponderance of the evidence that the ’055 patent is a
covered business method patent.
ii. Technological Invention Exception
Even if a patent includes claims that would otherwise be eligible for treatment as a covered business
method, review of the patent is precluded if the claims
cover only “technological invention[s],” as defined by
37 C.F.R. § 42.301(b). The definition of “covered business method patent” in § 18(d)(1) of the AIA does not
include patents for “technological inventions.”
To determine whether a patent is for a technological invention, we consider “whether the claimed subject matter as a whole [1] recites a technological feature that is novel and unobvious over the prior art;
and [2] solves a technical problem using a technical
solution.” 37 C.F.R. § 42.301(b). The following claim
drafting techniques, for example, typically do not render a patent a “technological invention”:
(a) Mere recitation of known technologies, such
as computer hardware, communication or computer networks, software, memory, computerreadable storage medium, scanners, display devices or databases, or specialized machines,
such as an ATM or point of sale device.
(b) Reciting the use of known prior art technology to accomplish a process or method, even if

App. 32
that process or method is novel and non-obvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64.
Both prongs must be satisfied in order for the patent to be excluded as a technological invention. See
Versata, 793 F.3d at 1326–7.
Petitioner contends that the claims of the ’055 patent do not recite a technological feature that is novel
and unobvious over the prior art and do not solve a
technical problem using a technical solution. Pet. 6–
12. Petitioner argues that the claims are “implemented using conventional computer hardware such
as personal computers, servers, networks, displays,
and input devices and therefore do not include a technological feature or implement a technological solution.” Id. at 6–7. Petitioner also argues that the ’055
patent solves a business problem: “reading a display
of prices for a commodity and entering a trade order
before the price for the commodity changes.” Id. at 8–
9 (citing Ex. 1001, 2:16–17, 35–67). Petitioner cites to
the Declaration of Kendyl A. Roman (Ex. 1003) and
the Declaration of David Rho (Ex. 1004) for support.
Patent Owner argues that “Petitioners fail to address whether the claims recite a technical feature
that is purportedly novel and unobvious” and contends that the claimed combination of the adjusting
and repositioning feature with the static price axis
and dynamic indicators is novel and unobvious. PO

App. 33
Resp. 29, 31–32. Patent Owner, further, argues that
the claims solve a technical problem with a technical
solution. Id. at 29–32. According to Patent Owner, the
claimed invention solves the problem of indicators
moving off the display as the market data changes.
See Id. at 9. Patent Owner contends:
Speed, efficiency, and usability problems were
created for some users because, if the indicators
were located off, or close to off, the displayed
static price axis, the user would have to spend
time taking an action such as scrolling or manually repositioning to find the state of the market, and the GUI tool did not convey the state
of the market precisely or efficiently for these
users.
Id. Patent Owner cites to the Declaration of Eric
Gould-Bear (Ex. 2168) and the Declaration of Dan R.
Olsen, Jr. (Ex. 2174) for support.
Contrary to Patent Owner’s argument, Petitioner
contends in the Petition that the claims do not recite
a technical feature that is novel and unobvious. Pet.
6–8. Claim 1 recites a method that requires the display of certain information in a certain arrangement
on a GUI and allows for the adjusting or re-positioning of the information on the display. Ex. 1001, 34:15–
67. The first step of the method is to receive market
information via a computer for a tradeable object from
an electronic exchange. Id. at 34:19–23. The subsequent steps of the method relate to displaying and positioning/repositioning the market information on a
GUI. Id. at 34:24–67. The ’055 patent discloses that it

App. 34
is known that electronic exchanges provide market information to connected traders’ computers. See Id. at
2:27–28.
As Petitioner points out, the ’055 patent, itself, discloses that the technical features of claim 1 were
known. Pet. 6–8. The ’055 patent discloses that its
system can be implemented “on any existing or future
terminal or device.” Ex. 1001, 5:2–7, 39–43. Computers or terminals are known to include displays. The
’055 patent discloses that the input device can be a
mouse, a known input device. Ex. 1001, 2:1–13, 5:24–
27. The ’055 patent discloses “commercially available
trading applications” that provide electronic trading
interfaces that display bid and ask quantities in association with a static price scale. Id. at 5:66–6:7. The
’055 patent states that “[t]he preferred embodiments,
however, are not limited to any particular product
that performs the translation, storage and/or display
functions.” Id. at 5:66–6:7.
The trading application…processes this information and maps it to positions in a theoretical
grid program or any other comparable mapping
technique for mapping data to a screen. The
physical mapping of such information to a
screen grid, for display on a client device…,
may be done by any technique known to those
skilled in the art. The present invention is not
limited by the method used to map the data to
the screen display.
Id. at 6:27–35.

App. 35
Given the above, we determine that claim 1 does
not recite a technological feature that is novel and unobvious over the prior art. Because both prongs must
be satisfied for a patent to be excluded from covered
business method patent review for being a technological invention, we find that the ’055 patent is eligible
for a covered business method patent review for at
least the reason that claim 1 fails to recite a technological feature that is novel and unobvious.
Notwithstanding our determination above, we also
are persuaded by Petitioner that the ’055 patent does
not solve a technical problem with a technical solution.
The ’055 patent discloses that exchanges are volatile and move rapidly and that to profit a trader must
react quickly. Ex. 1001, 2:14–16.
To profit in these markets, traders must be able
to react quickly. A skilled trader with the quickest software, the fastest communications, and
the most sophisticated analytics can significantly improve the trader’s own or the trader’s
firm’s bottom line. The slightest speed advantage can generate significant returns in a
fast moving market. In today’s securities markets, a trader lacking a technologically advanced interface is at a severe competitive disadvantage.
Id. at 2:16–24. “The more time a trader takes entering
an order, the more likely the price on which the trader
wanted to bid or offer will change or not be available
in the market” because “[t]he market is fluid as many

App. 36
traders are sending order to the market simultaneously.” Id. at 2:39–43. “If a trader intends to enter an
order at a particular price, but misses the price because the market prices moved before the trader could
enter the order, the trader may lose hundreds, thousands, even millions of dollars.” Id. at 2:49–53. “It is
therefore desirable for electronic trading systems to
offer tools that can assist a trader in adapting to an
electronic marketplace, and help the trader to make
trades at desirable prices.” Id. at 2:64–67. “A trader
may use automatic positioning to always have a visual reference of where the market is trading, increasing the likelihood of entering quantities and having
those quantities filled at desirable prices.” Id. at
26:30–34
As can be seen from the above, the problem disclosed in the ’055 patent is a trader having to read a
display of prices for a commodity and enter a trade
order before the price for the commodity changes. As
Petitioner points out, this is a financial issue or a
business problem, not a technical problem. Pet. 8–10.
If the market or exchange did not rapidly change,
then there would be no need for a trader to enter orders rapidly or for a GUI to accomplish such. We,
thus, determine that at least claim 1 of the ’055 patent
does not recite a technical solution to a technical problem, as required by the second prong of the test to determine whether a patent is for a technological invention.
As the ’055 patent is a covered business method
patent and is not precluded for being a technological
invention, the ’055 patent is eligible for covered business method patent review.

App. 37
C. Patent Subject Matter Eligibility
Petitioner contends that claims 1–19 are unpatentable under 35 U.S.C. § 101 as being directed to
ineligible subject matter. Pet. 18–34. Patent Owner
disagrees. PO Resp. 13–24.
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of
this title.
There are, however, three judicially created exceptions to the broad categories of patent-eligible subject
matter in § 101: laws of nature, natural phenomena,
and abstract Ideas. Alice Corp. Pty. Ltd. v. CLS Bank
Int’l, 134 S. Ct. 2347, 2354 (2014); Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract Idea, itself, is patent-ineligible, an application of the abstract Idea may be patent-eligible. Alice, 134 S. Ct. at 2355. Thus, we must
consider “the elements of each claim both individually
and ‘as an ordered combination’ to determine whether
the additional elements ‘transform the nature of the
claim’ into a patent-eligible application.” Id. (citing
Mayo, 132 S. Ct. at 1297–98). The claim must contain
elements or a combination of elements that are “sufficient to ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
Idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).

App. 38
Claims 1–16 recite a method, which falls into the
process category of patent-eligible subject matter of
§ 101. Claims 17–19 recite a computer readable medium having computer-readable instructions thereon.
When given the broadest reasonable interpretation,
in light of the specification of the ‘055 patent, claims
17–19 encompass subject matter that falls into the
manufacture category (e.g., non-transitory media), as
well as subject matter that falls outside the four statutory classes of subject matter (e.g., propagating transitory signals).
i. Subject Matter Outside the Four
Statutory Categories
First, we turn to Petitioner’s contention that
claims 17–19 are unpatentable under 35 U.S.C. § 101
because they encompass subject matter that falls outside the four statutory categories of patentable subject matter. Pet. 33–34. Patent Owner disagrees. PO
Resp. 25–26.
Claims 17–19 recite “[a] computer readable medium
having
computer-readable
instructions
thereon.” Ex. 1001, 36:1–2. Above, we determine that
computer readable medium, when given the broadest
reasonable construction in light of the specification of
the ‘055 patent encompasses transitory, propagating
signals. Transitory, propagating signals are not covered by the four statutory classes of subject matter of
35 U.S.C. § 101. In re Nuijten, 500 F.3d at 1352. Petitioner has shown sufficiently that claims 17–19 are
unpatentable under 35 U.S.C. § 101 as encompassing
subject matter that falls outside the four statutory
categories of patentable subject matter.

App. 39
ii. Abstract Idea
Next, we turn to Petitioner’s contention that
claims 1–19 are unpatentable under 35 U.S.C. § 101
as being directed to an abstract Idea. Pet. 18–33. We
take independent claim 1 as representative.6
Petitioner argues that claim 1 encompasses the
abstract Idea of “repositioning market information on
a GUI…and electronic trading” which is a “fundamental economic practice long prevalent in our system of
commerce.” Pet. 18 (quoting Bilski v. Kappos, 130 S.
Ct. 3218, 3231 (2010)). Petitioner further argues that
providing a trader with financial information to facilitate market trades is subject matter that “can be performed in [the human] mind, or by a [human] using a
pen and paper.” Id. at 18 (citing CyberSource Corp. v.
Retail Decisions, Inc., 654 F.2d 1366, 1372 (Fed. Cir.
2011)), 21–24.
“The ‘abstract Idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over the
prior art’ to determine if the claim’s ‘character as a
whole’ is directed to excluded subject matter.’” Affinity Labs of Texas, LLC v. DirectTV, LLC, 838 F.3d
1253, 1257 (Fed. Cir. 2016) (quoting Genetic Techs.
Ltd. v. Merial LLC, 818 F.3d 1369, 1376 (Fed. Cir.
2016) and Elec. Power Grp., LLC v. Alstom S.A., 830
F.3d 1350, 1353 (Fed. Cir. 2016); see also Enfish, LLC
v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir.
2016). There is no definitive rule to determine what
Independent claim 17, the only other independent claim, corresponds to claim 1 in that it recites a computer readable medium
having computer-readable instructions thereon that causes a
computer to execute a method substantially the same as the
method of claim 1. Thus, claim 1 is representative of claim 17.

6

App. 40
constitutes an “abstract Idea.” Rather, the Federal
Circuit has explained that “both [it] and the Supreme
Court have found it sufficient to compare claims at issue to those claims already found to be directed to an
abstract Idea in previous cases.” Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334 (Fed. Cir. 2016); see
also Amdocs (Israel) Ltd. v. Openet Telecom, Inc., 841
F.3d 1288, 1294 (Fed. Cir. 2016) (explaining that, in
determining whether claims are patent-eligible under
§ 101, “the decisional mechanism courts now apply is
to examine earlier cases in which a similar or parallel
descriptive nature can be seen—what prior cases
were about, and which way they were decided”).
Notwithstanding Patent Owner’s arguments,
which we address below, we determine that Petitioner
has shown7 that claim 1 is directed to the abstract
Idea of repositioning market information on a GUI for
electronic trading, which is a fundamental economic
practice.
Claim 1 recites in the preamble “a method for repositioning a static price axis on a graphical user interface for displaying market information of a commodity being traded at an electronic exchange.” Ex.
1001, 34:15–17. The method steps include receiving
current highest bid price and current lowest ask price
for a tradable object; displaying a first and adjusted

As explained above, determining whether a claim is directed to
an abstract idea calls upon us to look at the focus of the claimed
advance over the prior art. In order to do so, we must make findings of fact as to the prior art at the time of the invention. Those
facts must be supported by a preponderance of the evidence. 35
U.S.C. § 326(e).
7

App. 41
static price axis displaying market information in locations along the static price axis; and automatically
repositioning the static price axis when a designated
price is within designated price levels from the lowest
value or highest value of the static price axis. Id. at
34:19–67. We agree with Petitioner that claim 1 encompasses the abstract Idea of providing a trader
with financial information to facilitate market trades,
a fundamental economic practice, and steps that can
be performed using pen and paper, or even in a
trader’s mind. See Pet. 27–30.
As can be seen from its steps, the focus of claim 1
is repositioning market information displayed on a
GUI for electronic trading. This focus is consistent
with the disclosure of the ’055 patent, which states
that “[t]he preferred embodiments relates to…automatic repositioning of market information in a graphical user interface.” Ex. 1001, 3:3–5. The focus of claim
1 is also consistent with the problem disclosed by the
’055 patent, which is a trader missing an intended
price because the market changed during the time required for a trader to read the prices displayed and to
enter an order. Id. at 1:47–67.
Claim 1 does not recite any limitations that specify
how the computer implements the steps or functions
for using a GUI. For example, claim 1 does not specify
how the computer maps the bid quantities, ask quantities, and prices to the display. The ’055 patent also
does not disclose an unconventional or improved
method of mapping the bid quantities, ask quantities,
and price axis to the display. It states that “[t]he physical mapping of such information to a screen grid for
display…may be done by any technique known to

App. 42
those skilled in the art” and that “[t]he present invention is not limited by the method used to map the data
to the screen.” Id. at 6:31–35.
The ’055 patent discloses that many exchanges
throughout the world utilize electronic trading and
discloses that it is known that electronic trading includes analyzing displayed market information and
updated market information to send trade orders to
an exchange. See Id. at 1:36–2:12. Exhibit 1018 discloses that long before the ’055 patent, traders maintained books that plotted bids and asks (e.g., the market depth) along a price axis. See Ex. 1018, 44–46. Figure 4-2 of Exhibit 1018 is reproduced below.

App. 43
Figure 4-2 depicts a page of a book of a trader. Id. at
44–45. Orders to buy or sell a commodity are plotted
along a price axis. For example, Figure 4-2 shows the
best bid at 22¼ and the best ask at 22⅝. Id. at 44.
Petitioner’s declarant Mr. Román testifies that:
Claim 1 could be performed by a human using
pen-and-paper or a white board. The persons
could be told the highest bid and offer, which he
or she could plot along a price axis. If the person
wanted to adjust the display as recited in claim
1, he or she could do it by redrawing or merely
adding additional price levels to the top or bottom… The person could replot with updated
data as it came in. If the data plotted off the
existing axis (i.e., came within a set number of
prices from either end of the axis), the person
could reposition the axis by redrawing it.
Ex. 1003 ¶ 69.
Given this, we determine that repositioning market information displayed for electronic trading is a
fundamental economic and conventional business
practice. We are persuaded by Petitioner that the
method of claim 1 could be performed in the human
mind or with the aid of pen-and-paper with little difficulty. See Pet. 21 (citing Ex. 1018, 44–46; Ex. 1005,
Fig. 4; Ex. 1003 ¶¶ 68–70).
The claims at issue here are like the claims at issue in Affinity Labs. In Affinity Labs, the claim at issue recited an application that enabled a cellular telephone to present a GUI displaying a list of media
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838

App. 44
F.3d at 1255–56. The claim also recited that the cellular telephone was enabled to transmit a request for
the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the claims
at issue in Apple, Inc. v. Ameranth, Inc., 842 F.3d
1229 (Fed. Cir. 2016). In Ameranth, the claim at issue
recited a GUI that displayed menu items in a specific
arrangement, a hierarchical tree format. Menu items
were selected to generate a second menu from a first
menu. Ameranth 842 F.3d at 1234. In both Affinity
Labs and Ameranth, the court determined that the
claims were not directed to a particular way of programming or designing the software, but instead
merely claim the resulting systems. The court thus
determined that the claims were not directed to a specific improvement in the way computers operate. Affinity Labs, 838 F.3d at 1260–61; Ameranth, 842 F.3d
at 1241. Here, the claims also recite the resulting GUI
and are not directed to specific improvements in the
way the computers operate. “Though lengthy and numerous, the claims [that] do not go beyond requiring
the collection, analysis, and display of available information in a particular field, stating those functions in
general terms, without limiting them to technical
means for performing the functions that are arguably
an advance over conventional computer and network
technology” are patent ineligible. Elec. Power Grp.,
830 F.3d at 1351. “Generally, a claim that merely describes an ‘effect or result dissociated from any
method by which [it] is accomplished’ is not directed
to patent-eligible subject matter.” Ameranth, 842 F.3d
at 1244 (quoting Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1348 (Fed. Cir. 2015)).

App. 45
Claim 1 of the ’055 patent is unlike the claims at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) and Enfish. In DDR Holdings, the court determined that the claims did not embody a fundamental economic principle or a
longstanding commercial practice. The claims at issue
in DDR Holdings were directed to retaining website
visitors, which the court determined was a problem
“particular to the Internet.” DDR Holdings, 773 F.3d
at 1257. The court also determined that the invention
was “necessarily rooted in computer technology in order to overcome a problem specifically arising in the
realm of computer networks” and that the claimed invention did not simply use computers to serve a conventional business purpose. Id. In Enfish, the claim
at issue was directed to a data storage and retrieval
system for a computer memory. Enfish, 822 F.3d at
1336–37. The court determined that the claims were
directed to an improvement in the functioning of a
computer and were not simply adding conventional
computer components to well-known business practices. Id. at 1338. Here, in contrast, claim 1 is directed
to a fundamental economic principle or a longstanding commercial practice and not directed to an improvement in the computer but simply to the use of
the GUI in a method of placing an order based on displayed market information, as well as updating market information.
When we compare claim 1 at issue to those claims
already found to be directed to an abstract Idea in previous cases, we are persuaded that claim 1 is more
similar to those claims found to encompass an abstract Idea than those determined not to encompass
an abstract Idea. Claim 1 is similar to the claims in

App. 46
Electric Power, which did “not go beyond requiring the
collection, analysis, and display of available information in a particular field, stating those functions in
general terms, without limiting them to technical
means for performing the functions that are arguably
an advance over conventional computer and network
technology.” Elec. Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350, 1353 (Fed. Cir. 2016).
We have considered all of Patent Owner’s arguments regarding why the claims are not directed to an
abstract Idea but are not persuaded by such arguments. PO Resp. 13–20. Patent Owner argues that
Petitioner oversimplifies the claims and ignores the
structure and functionality recited in the claims,
which Patent Owner deems to be the functionality of
the claimed GUI itself. Id. at 13–14. We disagree that
Petitioner has oversimplified the claims and ignores
the structure and functionality recited in the claims.
Nor are we persuaded by Patent Owner’s arguments that the claimed GUI improves the functioning
of the computer to solve a problem rooted in computer
technology. PO Resp. 9–11, 14–17, 22–24. Patent
Owner argues that the claims solve a problem with
prior GUIs that included a static price axis and dynamic indicators, that the indicators could move off or
close to off the displayed static price axis, and the user
would have to manually adjust the price axis. Id. at
14–15. This problem, however, is not a problem rooted
in computer technology. As discussed above, Mr. Roman’s testimony and Exhibit 1018 indicate that indicators moving off or close to off a static price axis occurs when plotting market data manually, which

App. 47
causes the price axis to have to be adjusted or repositioned. See Ex. 1002 ¶¶ 58–70; Ex. 1018,44-46.
Patent Owner argues that the claims are not directed to an abstract Idea because they are not directed to a fundamental Idea, longstanding commercial practice, a business method, or a generic GUI. PO
Resp. 16–20. Patent Owner argues that in contrast to
many other cited cases, the claims here are directed
to the specific structure, make-up, and functionality
of a particular GUI. Id. Patent Owner argues that the
claimed GUI tool builds on and is an improvement to
trading screens like those in the ’132 patent and, thus,
the claims of the ’055 patent are even more clearly patent eligible. Id. at 6–9;. The claims of the ’055 patent,
however, do not build on and are broader in some aspects than the claims of the ’132 patent. For example,
claim 1 of the ’055 patent does not recite the single
action order feature claimed by the ’132 patent. The
‘132 patent was involved in Trading Technologies International, Inc., v. CQG, INC., No. 2016-1616, 2017
WL 192716 (Fed. Cir. Jan. 18, 2017). In that case, the
court indicated that even those narrower claims are
on the line between patent eligibility and ineligibility
(see Id. at *4 (noting the “close question[] of eligibility”)). The specification of the ’055 patent is different,
and the ’055 patent claims and discloses features not
discussed in the ’132 patent. Thus, comparing the
claims of the patents involved in Trading Technologies is not particularly helpful here. Trading Technologies, 2017 WL 192716 at *2.

App. 48
iii. Inventive Concept
Next we turn to “the elements of each claim both
individually and ‘as an ordered combination’ to determine whether the additional elements ‘transform the
nature of the claim’ into a patent-eligible application.”
Alice, 134 S. Ct. at 2355 (quoting Mayo, 132 S. Ct. at
1297–98).
Petitioner argues that the additional elements of
the claims, both individually and as an ordered combination, do not recite anything more meaningful
than the abstract Idea. Pet. 29–31. Petitioner further
argues that the claims are not rooted in computer
technology because they do not overcome a problem
specifically arising in the realm of computers or computer networks. Id. at 44–46.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded that Petitioner has shown that none of the additional claim elements in claim 1 transforms the nature of the claims
into a patent-eligible application. Claim 1 of the ’055
patent recites “[a] method for repositioning a static
price axis on a graphical user interface for displaying
market information.” Ex. 1001, 34:15–16. The method
includes a step of receiving information from an electronic exchange. Id. at 34:19–23. Claim 1 also recites
the adjusting feature and the re-positioning feature.
Id. at 34:24–33, 60–67. Claim 1 further recites the
step of displaying a bid and ask display region, which
has locations that correspond to price levels along a
static price axis, on a GUI and displaying quantity indicators in the locations. Id. at 34:34–59. The indicators move along the static price axis as the market
changes. Id.

App. 49
The ’055 patent discloses receiving market information from an exchange and displaying the information on a GUI is old and well-known, routine and
conventional activity. Id. at 1:34–2:34; see also Id. at
5:1–6, 5:38–42 (disclosing that any existing terminal
device or network architecture could be used). Receiving market data from an exchange is nothing more
than routine data gathering and does not transform
the abstract Idea into a patent-eligible invention. See
CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d
1366, 1370 (Fed. Cir. 2011).
The ’055 patent discloses that the use of software
to create specialized interactive trading screens is
known and the range of features varies according to
the software. Ex. 1001, 2:1–7. The ’055 patent also
discloses that the physical mapping of the information to the screen could be done by any known technique and that the invention is not limited by the
method used to map the data to the screen. Id. at
6:26–35. The use of software or a GUI to display market information is a well-understood, routine, conventional activity that does not add significantly more to
the abstract Idea. Mayo, 132 S. Ct. at 1298. The use
of a computer or GUI to display information in a
known arrangement (see Ex. 1018, 44–46) is nothing
more than a mere field of use limitation. “Most obviously, limiting the claims to the particular technological environment…is, without more, insufficient to
transform them into patent-eligible applications of
the abstract Idea at their core.” Elec. Power Grp., 830
F.3d at 1354.
Given the above, we determine that the individual
elements of claim 1 do not transform the nature of the

App. 50
claim into a patent-eligible application. They do not
add significantly more to the abstract Idea or fundamental economic practice. Considering all of the elements as an ordered combination, we determine, on
this record, that the combined elements also do not
transform the nature of claim 1 into a patent-eligible
application.
Patent Owner argues that the claims pass part
two of Alice because they recite an inventive concept.
PO Resp. 19–24. Patent Owner argues that the claims
of the ’055 patent recite significantly more because
the claims allegedly specify a high level of detail, the
claimed combination of GUI features/functionality is
not pre-solution or post-solution activity, and the
claimed functionality was not routine and conventional. Id. at 23–24. Patent Owner does not explain
sufficiently what about the claims qualifies as an inventive concept and as discussed above the individual
elements of the claims do not transform the nature of
the claims into a patent-eligible application. They do
not add significantly more to the abstract Idea or fundamental economic practice. Contrary to Patent
Owner’s argument, the claims simply recite the use of
a generic computer with routine and conventional
functions. Further, considering all of the elements as
an ordered combination, we determine that the combined elements also do not transform the nature of the
claims into a patent-eligible application.
We determine that Petitioner shows sufficiently
that claims 1 and 17 are patent ineligible under 35
U.S.C. § 101.

App. 51
iv. Dependent Claims
Petitioner contends that the additional elements
recited by dependent claims 2–16, 18, and 19 do not
add significantly more to the abstract Idea so as to
render the claims patent-eligible. Pet. 32–33. On this
record, we determine that Petitioner sufficiently
demonstrates that dependent claims 2–16, 18, and 19
are patent ineligible under 35 U.S.C. § 101. Patent
Owner makes no arguments directed to the additional
elements of the dependent claims.
D. Grounds Under 35 U.S.C. § 103
Section 103 forbids issuance of a claim when
the differences between the subject matter
sought to be patented and the prior art are such
that the subject matter as a whole would have
been obvious at the time the invention was
made to a person having ordinary skill in the
art.
35 U.S.C. § 103. The ultimate determination of obviousness under § 103 is a question of law based on underlying factual findings. In re Baxter Int’l, Inc., 678
F.3d 1357, 1362 (Fed. Cir. 2012) (citing Graham v.
John Deere Co., 383 U.S. 1, 17–18 (1966)). These underlying factual considerations consist of: (1) the
“level of ordinary skill in the pertinent art,” (2) the
“scope and content of the prior art,” (3) the “differences between the prior art and the claims at issue,”
and (4) “secondary considerations” of non-obviousness
such as “commercial success, long-felt but unsolved
needs, failure of others, etc.” KSR Int’l Co. v. Teleflex
Inc., 550 U.S. 398, 406 (2007) (quoting Graham, 383
U.S. at 17–18).

App. 52
i. Obviousness of Claims 1, 3, 4, 6–15
and 17–19 over TSE
Petitioner contends that claims 1, 3, 4, 6–15 and
17–19 are unpatentable under 35 U.S.C. § 103 over
TSE. Pet. 34–65.
Patent Owner disagrees for numerous reasons. PO
Resp. 51–84. In particular, Patent Owner contends
that TSE is not prior art. Id. at 43–50. It is not necessary for us to determine the prior art status of TSE.
Regardless of TSE’s prior art status, for the reasons
discussed below, Petitioner fails to show by a preponderance of the evidence that the claims of the ’055 patent are unpatentable over TSE.
a. Overview of TSE
TSE is a guide for operating a trading terminal of
the Tokyo Stock Exchange. Ex. 1008, 1. The trading
terminal displays a GUI for depicting market information on a Board/Quotation Screen (see Id. at 107).
The Figure on page 107 of TSE is reproduced below.

App. 53

Figure depicting the Board/Quotation Screen.
The Board/Quotation Screen includes a central order price at column 11. Id. at 111. To the left and right
of order price column 11, are ask and bid orders in
respective columns 12, 13, and 14. Id.
The Board/Quotation Screen has a compressed
mode and an uncompressed mode. Reproduced below
is a figure that appears on page 68 of TSE.

App. 54
The figure depicts the Board/Quotation Screen in
compressed and non-compressed mode. In non-compressed mode, all prices (i.e., the claimed adjusted
price levels) are displayed on the Board/Quotation
Screen, and, in compressed mode, only prices that satisfy certain conditions (i.e., the claimed first plurality
of price levels), such as having an order, are displayed. Id. at 68. The Board/Quotation Screen can be
moved between the compressed mode and uncompressed mode by selecting a radio button using a
mouse. Id. at 69.
The Board/Quotation Screen also has a basic board
screen mode and a scrolling mode. Id. at 115. In basic
board screen mode, the information is updated so that
a “Board Display Center Price” is always displayed in
the center. Id. TSE discloses that the centering occurs
upon the occurrence of different events, such as if the
central price falls within the range of the top or bottom three prices. Id. In scrolling mode, the central
price’s position does not change automatically (Id);
however, TSE does disclose a “Home Button” for returning the Board/Quotation Screen to the basic
board screen centered on the central price (Id. at 110,
116).
b. Independent Claims 1 and 17
Claim 1 recites the following limitations:
displaying a first plurality of price levels
along a static price axis on a graphical user interface of a display device associated with the
computing device, where the first plurality of
price levels range from a lowest value to a highest value along the static price axis;

App. 55
in response to an input command received
via an input device associated with the computing device, adjusting the first plurality price
levels among a range of price levels to an adjusted plurality of price levels including the
first plurality of price levels;
displaying a bid and ask display region on
the graphical user interface, the bid and ask
display region comprising a plurality of locations corresponding to the first plurality of
price levels displayed along the static price
axis, wherein each location corresponds to one
of the first plurality of price levels, and wherein
a number of the plurality of locations changes
according to adjusting the first plurality of price
levels
Ex. 1001, 34:24–41. Claim 17 recites similar limitations. Id. at 36:11–25.
In the Petition, Petitioner asserts that TSE discloses these claim limitations. Pet. 45–52. Petitioner
equates price levels 002, 004, and 007 depicted on
TSE’s compressed price display, reproduced above, to
the claimed first plurality of price levels and equates
price levels 001, 002, 003, 004, 005, 006, and 007 depicted on TSE’s non-compressed price display to the
claimed adjusted plurality of price levels, also reproduced above. Id. at 47. Petitioner argues that TSE
teaches the claimed adjustment by transitioning from
the compressed display to the non-compressed display. Id. at 47.
Petitioner contends that the first plurality of price
levels are displayed along a static price axis when

App. 56
they are displayed along the price axis in the noncompressed display, after the claimed adjustment has
occurred. Id. at 45–46. Petitioner also contends that
the non-compressed display has a bid display region
to the right of price axis 11 and an ask display region
to the left of price axis 11. Id. at 50–51.
With regards to the claimed “plurality of locations
corresponding to the first plurality of price levels displayed along the static price axis, wherein each location corresponds to one of the first plurality of price
levels” (Ex. 1001, 34:36–39), Petitioner states the following:
FIG. C of Mr. Roman’s Declaration (reproduced
below) labels three exemplary locations to highlight that each location correspond to a different price level of the first plurality of price levels displayed along the price axis. (Roman
Decl., ¶ 103.)

Roman Decl., FIG. C

App. 57
When transitioning TSE’s Board Screen from a
compressed display to a non-compressed display (i.e., the claimed “adjusting”), the “number
of the plurality of locations changes according
to adjusting the first plurality of price levels.”
For example, as shown in the figure on 0068 of
TSE, the number of levels changes from three
to seven when the “first plurality of price levels”
is adjusted to the “adjusted plurality of price
levels.” (TSE, p. 0068.) Thus, TSE discloses the
“displaying a bid and ask display region” step.
(Roman Decl., ¶104.)
Pet. 51–52; see also Pet. Reply 15–23 (discussing price
levels and corresponding locations on TSE’s compressed display). As can be seen from the above, Petitioner relies upon locations in the bid and ask region
of TSE’s compressed display to teach the claimed plurality of locations. Claim 1 requires that the plurality
of locations correspond to the first plurality of price
levels displayed along the static price axis. Ex. 1001,
34:35–37. In annotated Figure C, the first plurality of
price levels are displayed along the price axis of the
compressed display.
Patent Owner disputes that the price axis of the
compressed display is static. PO Resp. 54–55, 59–60.
In particular, Patent Owner argues that “in the compressed mode, there is no ‘static price axis’” because
“when new orders are added at price levels that did
not previously have any order (or when the market
changes to remove previous orders from a price), the
price levels change positions based on these market
changes.” Id. (citing Ex. 2331, 34:17–37:5; Ex. 2169
¶ 91).

App. 58
Patent Owner’s argument is persuasive. TSE discloses that in compressed mode, only prices that satisfy certain conditions, such as having an order, are
displayed. Id. at 68. For example, as can be seen in
the figure on page 68 of TSE, reproduced above, only
prices 002, 004, and 007 are displayed in the compressed display. During cross-examination, Petitioner’s declarant Mr. Rho indicated that under certain circumstances the prices would move relative to
each other when TSE’s Board/Screen was in compressed mode.
Q. Okay. All right. So in this compressed mode
figure that we’ve been looking at on page 12 of
your declaration, there are prices shown at 002,
004, and 007, correct?
A. There are prices at 002, 004 and 007. That is
correct.
....
Q. Okay. Well, let’s assume 006 is added but the
center price is still 004. In that scenario, 006
would be added between 004 and 007, 007
would move up, and 004 would stay in the same
place, correct?
....
THE WITNESS: That seems correct, yes.
Ex. 233134:20–37:5.
Mr. Rho’s testimony indicates that the price axis
of the compressed screen is not a static price axis. The
broadest reasonable interpretation in light of the
specification of the ’055 patent of static price axis is a
price column or reference line where prices do not nor-

App. 59
mally change positions unless a re-centering or re-positioning command is received. As Mr. Rho testified,
certain price levels of TSE’s compressed mode price
axis change positions relative to each other in certain
circumstances when a re-centering or re-positing command is not received. For example, on TSE’s compressed display shown in the figure on page 68, reproduced above, price 007 would move up relative to price
004 when an order at price 006 was added, but the
center price is still 004. We, thus, are persuaded by
Patent Owner that Petitioner has failed to establish
that TSE discloses a bid and ask display region comprising a plurality of locations corresponding to the
first plurality of price levels displayed along the static
price axis, as required by claims 1 and 17.
Petitioner argues that TSE’s price axis in compressed mode is static because TSE discloses the price
levels do not change positions in compressed, scrolling
mode unless the user selects the home button to return the price axis to a designated position and because TSE allows for one-half the length of the price
axis to be the designated number for causing the price
axis to reposition every time the designated price
leaves the center. Pet. 49–50, Pet. Reply 17–20. Petitioner’s argument is unpersuasive because it does not
address Mr. Rho’s testimony, reproduced above. Petitioner fails to explain sufficiently why the price axis
of TSE’s compressed mode is a static price axis if price
levels can change positions relative to each other under certain circumstances when a re-centering or repositing command is not received.
In the Petitioner’s Reply, Petitioner contends that
even if the Board accepts Patent Owner’s arguments,

App. 60
transitioning TSE’s display from boardx4 mode to
boardx2 mode satisfies the disputed claim limitations.
Pet. Reply 20, 23–25. Petitioner’s Reply raises a new
issue and exceeds the proper scope of a reply.8 Although the Petition discusses TSE’s boardx4 mode and
boardx2 mode in its overview of TSE (Pet. 35–40) and
in connection with other claim limitations (Id. at 57),
the Petition does not rely upon transitioning TSE’s
display from boardx4 mode to boardx2 mode to satisfy
the disputed limitations above (see Id. at 45–52). Petitioner proffers a second Declaration of David Rho to
support its argument made in its Reply. Like the Petition, the testimony of Mr. Rho in his second Declaration discusses how transitioning TSE’s display from
boardx4 mode to boardx2 mode satisfies the disputed
claim limitations. Ex. 1035 ¶¶ 23–25. As provided in
37 C.F.R. § 42.23(b), a “reply may only respond to arguments raised in the corresponding opposition…or
patent owner response.” One indication that a new issue has been raised in a reply is where a petitioner
submits “new evidence necessary to make out a prima
facie case” of unpatentability of an original claim. Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756,
48,767 (Aug. 14, 2012). An argument that raises a
new issue will not be considered. Id. We, thus, will not
consider Petitioner’s contention that transitioning
TSE’s display from boardx4 mode to boardx2 mode
During trial, Patent Owner objected to Petitioner’s Reply as
raising new issues for the first time. See Paper 64, Ex. 3006. In
response, we authorized Patent Owner to file a listing identifying the portions of the Reply that allegedly raise new arguments
and authorized Petitioner to file a listing identifying where the
alleged new arguments were first raised in the record. See Papers 44, 45. We have taken into consideration the listings.
8

App. 61
satisfies the disputed claim limitations raised for the
first time in Petitioner’s Reply.
For the reasons given above, we determine that
Petitioner fails to show by a preponderance of the evidence that claims 1 and 17 of the ’055 patent are unpatentable under 35 U.S.C. § 103 over TSE.
c. Dependent Claims 3, 4, 6–15, 18, and 19
Claims 3, 4, 6–15, 18, and 19 depend from claims
1 and 17. For the same reasons as discussed above
with regards to the patentability of claims 1 and 17
over TSE, we determine the Petitioner fails to show
by a preponderance of the evidence that claims 3, 4,
6–15, 18, and 19 are unpatentable over TSE.
ii. Obviousness of Dependent Claims 2 and 5 over
TSE and Gutterman and Obviousness of Dependent
Claim 16 over TSE and Belden
Claims 2, 5, and 16 depend from claim 1. For the
same reasons as discussed above with regards to the
patentability of claim 1 over TSE, we determine the
Petitioner fails to show by a preponderance of the evidence that claims 2, 5, and 16 are unpatentable over
TSE. Petitioner does not rely upon Gutterman or
Belden to cure the deficiency of TSE discussed above.
III. MOTIONS TO EXCLUDE
A. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibits 1007,
1008, and 1011. PO Mot. to Exclude 1–2. Exhibit 1007
is TSE, and Exhibit 1008 is the English language
translation of TSE. Petitioner relies on Exhibits 1007
and 1008 to establish unpatentability of the challenged claims under 35 U.S.C. § 103. Patent Owner

App. 62
objects to these documents for lack of authenticity
and/or for inadmissible hearsay. Id. We find it unnecessary to consider the specific objection to the admissibility of Exhibits 1007 and 1008, because Petitioner’s arguments regarding patentability are not
persuasive for the reasons provided above, even assuming Exhibits 1007, 1008, and 1011 to be admissible.
Ex. 1011 is the transcript of Mr. Kawashima’s deposition concerning the prior art status of TSE. Petitioner relies on Exhibit 1011 to establish the prior art
status of TSE. Patent Owner objects to this document
for lack of authenticity and/or for inadmissible hearsay. PO Mot. to Exclude 1–2. We find it unnecessary
to consider the specific objection to the admissibility
of Exhibit 1011, because it was not necessary for use
to determine the prior art status of TSE for the reasons provided above, even assuming Exhibits 1007,
1008, and 1011 to be admissible.
In addition, Patent Owner also moves to exclude
portions of Petitioner’s Reply, portions of a second
Declaration of David Rho (Ex. 1035), and portions of
the testimony of Dr. Olsen (Ex. 1038). Id. at 6. Patent
Owner objects to these documents as being outside
the scope of reply or direct questioning and/or unfairly
prejudicial. PO Mot. to Exclude 6–12. Petitioner relies
on the objected to portions of the second Declaration
of David Rho and Petitioner’s Reply to support its arguments that transitioning TSE’s display from
boardx4 mode to boardx2 mode satisfies the disputed
claim limitations. Pet. Reply 20, 23–25. As explained
above, we did not consider the specific arguments and
portions of Exhibit 1035. Patent Owner’s argument,

App. 63
thus, is moot. Petitioner relies upon the objected to
testimony of Dr. Olsen to argue that TSE discloses a
static price axis in compressed, non-scrolling mode.
Id. at 18. We find it unnecessary to consider the specific objections to the admissibility of portions of Ex.
1038, because Petitioner’s arguments concerning the
unpatentability of the claims over TSE are unpersuasive, even assuming the objected to portions of Ex.
1038 is admissible.
Accordingly, we dismiss Patent Owner’s Motion to
Exclude as moot.
B. Petitioner’s Motion to Exclude
Petitioner moves to exclude Exhibits 2030, 2032,
2168, 2292–2296, 2334, and 2339 and to exclude
¶¶ 127–128 of Exhibit 2169 because the “documents
are irrelevant and/or constitute hearsay to which no
exception applies.” Pet. Mot. to Exclude 1.
Exhibits 2030 and 2032 are a jury verdict and
docket entry, respectively, associated with an earlier
district court case involving Patent Owner and a third
party. Although Patent Owner relies on Exhibit 2030
in its Response, we do not find where it relies on Exhibit 2032. In any event, we understand Patent
Owner to rely on at least Exhibit 2030 in support of
its arguments that TSE is not prior art. PO Resp. 48,
n. 8. Petitioner moves to exclude the exhibits as irrelevant and inadmissible. Pet. Mot. to Exclude 3–4. We
find it unnecessary to consider the specific objections
to the admissibility of Exhibits 2030 and 2032, because it was not necessary for us to determine the
prior art status of TSE for the reasons provided above.

App. 64
Exhibit 2168 is a Declaration of Eric Gould-Bear.
Patent Owner relies upon the testimony of Mr. GouldBear to support its argument that the ’055 patent is
not eligible for covered business method patent review and that the ’055 is patent eligible. PO Resp. 24,
27, 29, 30, 32, 32. Petitioner objects to Ex. 2168 for
lack of relevance. Pet. Mot. to Exclude 4–5. We find it
unnecessary to consider the specific objection to the
admissibility of Ex. 2168, because Patent Owner’s arguments regarding the eligibility of the ’055 patent
are not persuasive for the reasons provided above,
even assuming Exhibit 2168 to be admissible.
Exhibit 2169 is a Declaration of Christopher
Thomas. Exhibits 2292–2296 are transcripts from a
related district court proceeding. Patent Owner’s declarant Mr. Thomas relies upon Exhibits 2292–2296
to support his testimony regarding the technical nature of the ’055 patent. See Ex. 2169 ¶¶ 127–128. Petitioner objects to the Exhibits for lack of relevance
and impermissible hearsay. Pet. Mot. to Exclude 7–8.
Petitioner objects to ¶¶ 127–128 of Exhibit 2169 for
containing impermissible hearsay and improper expert testimony because Mr. Thomas relies upon Exhibits 2292–2296. Id. at 5-6. We find it unnecessary
to consider the specific objection to the admissibility
of ¶¶ 127–128 of Exhibit 2169 and Exhibits 2292–
2296, because Patent Owner’s arguments regarding
the technical nature of the ’055 patent are not persuasive for the reasons provided above, even assuming
¶¶ 127–128 of Exhibit 2169 and Exhibits 2292–2296
to be admissible.
Exhibits 2334 and 2339 are both a Declaration of
Harold Abilock. Patent Owner relies upon Exhibits

App. 65
2334 and 2339 and argues that the challenged claims
are patentable over TSE. PO Resp. 61–63, 67–68, 78.
Petitioner objects to these declarations for lack of relevance. Pet. Mot. to Exclude 8–9. We find it unnecessary to consider the specific objection to the admissibility of Exhibits 2334 and 2339, because Petitioner’s
arguments regarding patentability are not persuasive
for the reasons provided above, even assuming Exhibits 2334 and 2339 to be admissible.
Accordingly, we dismiss Petitioner’s Motion to Exclude as moot.
IV. CONCLUSION
For the foregoing reasons, we determine that Petitioner shows, by a preponderance of the evidence, that
claims 1–19 of the ’055 patent are patent-ineligible
under 35 U.S.C. § 101. Petitioner fails to show, by a
preponderance of the evidence, that claims 1–19 of the
’055 patent are unpatentable under 35 U.S.C. § 103.
V. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that claims 1–19 of the ’055 patent are
patent-ineligible under 35 U.S.C. § 101;
FURTHER ORDERED that Patent Owner’s Motion to Exclude Evidence is dismissed;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence is dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R. § 90.2

App. 66
UNITED STATES PATENT AND
TRADEMARK OFFICE
___________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
___________

IBG LLC,
INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
___________

Case CBM2016-00054
Patent 7,693,768 B2
___________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and JEREMY M. PLENZLER, Administrative
Patent Judges.
PETRAVICK, Administrative Patent Judge.
FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

App. 67
I. INTRODUCTION
A. Background
IBG LLC, Interactive Brokers, LLC, TradeStation
Group, Inc., and TradeStation Securities, Inc. (collectively, “Petitioner”), filed a Petition requesting covered business method (“CBM”) patent review of
claims 1–23 (the “challenged claims”) of U.S. Patent
No. 7,693,768 B2 (Ex. 1001, “the ’768 patent”). Paper
4 (“Pet.”). Petitioner challenges the patentability of
claims (“the challenged claims”) of the ’768 patent under 35 U.S.C. § 101 and § 103.
On October 18, 2016, we instituted a CBM patent
review on the following grounds:
References
N/A
TSE1 and
Belden2
TSE, Belden,
and Cooper3

Basis
§ 101
§ 103
§ 103

Claims Challenged
1–23
1–13, 15, 16, 18, and
21–23
14, 17, 19, and 20

Paper 10 (“Institution Decision” or “Inst. Dec.”).
Thereafter, Trading Technologies International,
Inc. (“Patent Owner”) filed a Patent Owner’s Response on January 1, 2017 (Paper 21, “PO. Resp.”)

Tokyo Stock Exchange Operation System Division, Futures/Option Purchasing System Trading Terminal Operation
Guide (1998) (Ex. 1016). Citations to this reference refer to its
English translation (Ex. 1017).
2 PCT Pub. No. WO 90/11571, pub. Oct. 4, 1990 (Ex. 1012,
“Belden”).
3 Alan Cooper, About Face: The Essentials of User Interface Design (1995) (Ex. 1022).
1

App. 68
and Petitioner filed a Reply (Paper 40, “Pet. Reply”)
to Patent Owner’s Response.
Patent Owner filed a Motion for Observations (Paper 52, “PO Mot. for Observations”) and Petitioner
filed a Response (Paper 54) to Patent Owner’s Motion
for Observations.
Petitioner filed a Motion to Exclude (Paper 44,
“Pet. MTE”) and Patent Owner filed an Opposition
(Paper 52) to Patent Owner’s Motion. Petitioner filed
a Reply (Paper 53) in support of its Motion.
Patent Owner filed a Motion to Exclude (Paper 48,
“PO MTE”) and Petitioner filed an Opposition (Paper
50, “PO MTE Opp.”) to Patent Owner’s Motion. Patent
Owner filed a Reply (Paper 54, “PO MTE Reply”) in
support of its Motion.
An oral hearing was held on June 23, 2017. Paper
58 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written Decision is issued pursuant to 35 U.S.C.
§ 328(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–23 of the
’768 patent are unpatentable.
B. Related Proceedings
The parties indicate that the ’768 patent is the
subject of numerous related U.S. district court proceedings. Pet. 2; Paper 6, 1–5.
The application that issued as the ’768 patent ultimately claims, under 35 U.S.C. § 320, the benefit of
application 09/590,692, that issued as the ’132 patent.

App. 69
The ’132 patent was the subject of Technologies International, Inc., v. CQG, Inc., 675 Fed. Appx. 1001 (Fed.
Cir. 2017) (“CQG”). The Federal Circuit determined
that the claims of the ’132 patent are patent eligible
under 35 U.S.C. § 101.
U.S. Patent No. 6,772,132 (“the ’132 patent”) was
also the subject of petitions for CBM patent review in
TD Ameritrade Holding Corp. v. Trading Technologies International, Inc., CBM2014-00135 (PTAB),
CQG, Inc. v. Trading Technologies International, Inc.,
CBM2015-00058 (PTAB), and IBG LLC v. Trading
Technologies International, Inc., CBM2015-00182
(PTAB). Trial was instituted, but later terminated
due to settlement, for CBM2014-00135. Institution
was denied for CBM2015-00058. Institution was
granted for CBM2015-00182, and a final written decision issued on February 28, 2017.
Numerous other patents are related to the ’768 patent and the related patents are or were the subject of
numerous petitions for CBM patent review and reexamination proceedings. Pet. 2; Paper 6, 5–7; Paper 8,
1.
C. The ’768 Patent
The ’768 patent is titled “Click Based Trading with
Intuitive Grid Display of Market Depth” and issued
on April 6, 2010. Ex. 1001, (45), (54). The invention of
the ‘768 patent “is directed to the electronic trading of
commodities.” Id. at 1:16–17. The ’768 patent discloses a graphical user interface (“GUI”), named the
Mercury display, and a method of using the Mercury
display to displaying market information and placing

App. 70
trade orders for a commodity on an electronic exchange. Id. at 1:17–22, 3:5.
Before turning to a discussion of the Mercury display, a discussion of a conventional method of trading
using a GUI is helpful. Figure 2 of the ’768 patent is
reproduced below.

Figure 2 of the ’768 patent depicts a common GUI
(“the Fig. 2 GUI”) that displays market information
and is used to place trade orders for a commodity on
an electronic exchange. Id. at 5:8–12, Fig. 2; see also
PO Resp. 6–7 (describing the Fig. 2 GUI as “widely
used”); Ex. 1018 ¶ 21 (describing the Fig. 3 GUI as a
common dynamic screen); Ex. 2169 ¶¶ 61–62, 69 (describing the Fig. 2 GUI as “ubiquitous by the time of
the invention” and “prevalent”). As can be seen from
the above, the Fig. 2 GUI’s screen has a grid having
columns and rows. Row 1 shows the inside market.
Ex. 1001, 5:14–16. The inside market is the highest
bid price and the lowest ask price. Id. at 4:56–58.
Rows 2–5 show the market depth, which are other
bids or asks in the market. Id. at 4:52–56, 5:16–20.
The market information updates dynamically as the
market updates. Id. at 5:23–25. The inside market,

App. 71
however, is always displayed in row 1, a fixed location. Ex. 2169 ¶ 54.
Other prior art GUIs, similar to the Fig. 2 GUI,
arrange the market information in the grid differently. Patent Owner’s declarant Christopher Thomas
testifies that similar dynamic GUIs “displayed the locations for the best bid and ask prices such that the
prices were displayed vertically (e.g., with the location for the best ask price being displayed above the
location for the best bid price).” Ex. 2169 ¶ 60.
In the Fig. 2 GUI, “the user could place an order
by clicking on a location (e.g., a cell) in one of the price
or quantity columns.” Ex. 2169 ¶¶ 58–59. Patent
Owner’s declarant Christopher Thomas testifies that
“[s]ome of such dynamic screens permitted single action order entry that consisted of a trader pre-setting
a default quantity and then click (e.g., using a singleclick or a double-click) on a dynamic screen to cause a
trade order to be sent to the exchange at the pre-set
quantity.” Ex. 1008 ¶ 20; see Ex. 1031, 7.
Other types of conventional trading GUIs used order entry tickets to send trade orders to an electronic
exchange. Ex. 2169 ¶ 50. An order entry ticket is “in
the form of a window, with areas for a trader to fill
out order parameters for an order, such as the price,
quantity, an identification of the item being traded,
buy or sell, etc.” Id.; see also Ex. 1001, 2:21–23, 34–36
(describing a trader manually entering trade order
parameters).
Figure 3 of the ’768 is reproduced below.

App. 72

Figure 3 of the ’768 patent illustrates an example
of the Mercury display with example values for trading a commodity including prices, bid and ask quantities relative to price, and trade quantities. Ex. 1001,
3:41–42, 7:1–3.
The Mercury display is similar to the Fig. 2 GUI
in that both display market information in a grid having rows and column and both provide for single action order entry. See id. at 6:59–64, 7:32–33, 4:8–18,
9:1–54, Fig. 6, steps 1306–1315. The Mercury display

App. 73
differs from the Fig. 2 GUI in the arrangement of the
market information in the grid. In the Mercury display, price values for the commodity are displayed in
a price column 1005 (i.e., a price axis). Id. The ’768
patent explains that the price column does not display
whole prices but rather representative ticks. Id. at
7:33–36. The values in the price column of the Mercury display “are static; that is, they do not normally
change positions unless a re-centering command is received.” Id. at 7:42–44. Bid and ask quantities are displayed in columns 1003 and 1004, respectively, and
are aligned with the corresponding price value in
price column 1005. See id. at 7:27–33. The bid quantities and ask quantities move up and down as the
market changes, and, thus, the location of the inside
market moves up and down. See id. at 8:33–43.
Although Figure 3 of the ’768 patent displays the
market depth, the ’768 patent discloses that:
How far into the market depth the present invention can display depends on how much of
the market depth the exchange provides. Some
exchanges supply an infinite market depth,
while others provide no market depth or only a
few orders away from the inside market. The
user of the present invention can also cho[o]se
how far into the market depth to display on his
screen.
Id. at 5:1–7. The ’768 patent, thus, indicates that in
some instances the screen will display only the inside
market (i.e., the highest bid price and the lowest ask
price) and not the market depth.

App. 74
The Mercury display may also display other information. Column 1002 contains various parameters
and information used to execute trades, such as the
default quantity displayed in cell 1016. See id. at
7:65–8:32. The number next to the W in cell 1007 indicates the trader’s orders that are in the market and
not yet filled. Id. at 7:53–58.
D. Illustrative Claim
Claims 1 and 23 are independent. Claim 1 is illustrative of the claimed subject matter and is reproduced below:
1. A method of placing a trade order for a commodity on an electronic exchange using a
graphical user interface and a user input device, said method comprising:
receiving data relating to the commodity from
the electronic exchange, the data comprising an
inside market with a highest bid price and a
lowest ask price currently available for the commodity;
dynamically displaying via a computing device
a first indicator in one of a plurality of areas in
a bid display region, each area in the bid display region corresponding to a price level along
a price axis, the first indicator representing a
quantity associated with at least one order to
buy the commodity at the highest bid price;
dynamically displaying via the computing device a second indicator in one of a plurality of
areas in an ask display region, each area in the
ask display region corresponding to a price level

App. 75
along the price axis, the second indicator representing a quantity associated with at least one
order to sell the commodity at the lowest ask
price;
displaying an order entry region comprising a
plurality of locations for receiving single action
commands to send trade orders, the plurality of
location including:
(a)
at least one first fixed location corresponding to a first price level along the price
axis associated with the highest bid price currently available in the market, wherein upon
receipt of new data representing an updated
highest bid price currently available for the
commodity, the at least one first fixed location
continues to correspond to the first price level
even if the first price level is no longer associated with the highest bid price currently available in the market; and
(b)
at least one second fixed location corresponding to a second price level along the price
axis associated with the lowest ask price currently available in the market, wherein upon
receipt of new data representing an updated
lowest ask price currently available for the commodity, the at least one second fixed location
continues to correspond to the second price
level even if the second price level is no longer
associated with the lowest ask price currently
available in the market;
updating the display of the first indicator such
that the first indicator is moved relative to the

App. 76
price axis to a different area in the bid display
region corresponding with a different price
level along the price axis in response to receipt
of new data representing an updated highest
bid price currently available for the commodity;
updating the display of the second indicator
such that the second indicator is moved relative
to the price axis to a different area in the ask
display region corresponding with a different
price level along the price axis in response to
receipt of new data representing an updated
lowest ask price currently available for the commodity; and
setting a plurality of parameters for a trade order relating to the commodity and sending the
trade order to the electronic exchange in response to a selection of a particular location of
the order entry region by a single action of a
user input device.
Ex. 1001, 11:46–12:36.
II. ANALYSIS
A. Claim Construction
In a covered business method patent review, claim
terms are given their broadest reasonable interpretation in light of the specification in which they appear
and the understanding of others skilled in the relevant art. See 37 C.F.R. § 42.300(b); Cuozzo Speed
Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–46 (2016)
(upholding the use of the broadest reasonable interpretation standard). Applying that standard, claim
terms are presumed to have their ordinary and cus-

App. 77
tomary meaning as would be understood by one of ordinary skill in the art in the context of the patent’s
specification. See In re Translogic Tech., Inc., 504 F.3d
1249, 1257 (Fed. Cir. 2007).
1. “single action”
Claims 1 and 23 both recite “a selection of a particular location of the order entry region by a single
action of a user input device.” Ex. 1001, 12:34–36,
14:55–57.
Petitioner contends that “single action” should be
construed to be “any action by a user within a short
period of time, whether comprising one or more clicks
of a mouse button or other input device” as defined in
the specification of the ’768 patent. Pet. 14 (quoting
Ex. 1001, 4:14–18).
Patent Owner states that Petitioner’s proposed
construction “is sufficient for these proceedings so
long as the construction is limited to ‘an action by a
user…’ or ‘one action by a user…’ because the claim
itself specifically identifies that the action be a ‘single’
action.” PO Resp. 10 (emphasis omitted). Patent
Owner argues that any other construction would not
be reasonable because it would be contrary to the
specification and the plain and ordinary meaning. Id.
A patentee may rebut the presumption that claim
terms have ordinary and customary meaning by
providing a definition of the term in the specification
with reasonable clarity, deliberateness, and precision.
In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). As
Petitioner points out, the ’768 patent provides such a
definition. Pet. 14. The specification of the ’768 patent
states:

App. 78
the specification refers to a single click of a
mouse as a means for user input and interaction with the terminal display as an example of
a single action of the user. While thus describes
a preferred mode of interaction, the scope of the
present invention is not limited to the use of a
mouse as the input device or to the click of a
mouse button as the user’s single action. Rather, any action by a user within a short period
of time, whether comprising one or more clicks
of a mouse button or other input device, is considered a single action of the user for the purposes of the present invention.
Ex. 1001, 4:8–18 (emphasis added). As can be seen
from the above, the ’768 patent defines “single action,”
with reasonable clarity, deliberateness, and precision,
as “any action by a user within a short period of time,
whether comprising one or more click of a mouse button or other input device.” Id. We, thus, construe “single action” according to its definition in the ’768 patent. In re Paulsen, 30 F.3d at 1480.
Patent Owner’s proposed construction is inconsistent with the definition in the ’768 patent. The definition explicitly states that more than one click of a
mouse button by a user is considered a “single action”
for the purposes of the present invention. Ex. 1001,
4:8–18. Further, dependent claim 9 similarly shows
that “single action” should not be limited to one action
by a user, as it recites that the “single action…consists of a double click of the user input device” (Ex.
1001, 12:66–13:8).
For the reasons given above, we construe “single
action” to mean “any action by a user within a short

App. 79
period of time, whether comprising one or more clicks
of a mouse button or other input device” (Ex. 1001,
4:14–18).
2. Entered Order Indicator
Claim 6 recites “an entered order indicator” and
“the entered order indicator represents an order pending at the electronic exchange.” Ex. 1001, 12:56–60.
Patent Owner argues that “[a person of ordinary skill
in the art] would readily recognize that the entered
order indicator must indicate to the user that the user
has an order at a particular price level along the price
axis” because the specification of the ’768 patent discloses “‘an entered/working’ column (E/W) that ‘displays the current status of the trader’s order.’” PO
Resp. 13 (citing Ex. 1001, 7:50–58, Figs. 3–4; Ex. 2169
¶ 30).
As Petitioner points out, Patent Owner’s argument is inconsistent with the plain language of claim
6, which explicitly states that an “entered order indicator represents an order pending at the electronic exchange.” Pet. Reply 2. The plain language does not require the entered order indicator to indicate to the
user that the user has an order at a particular price
level along the price axis. Patent Owner’s construction is an attempt to read a limitation from the specification of the ’768 patent into the claims. If a feature
is not necessary to give meaning to what the inventor
means by a claim term, it would be “extraneous” and
should not be read into the claim. Renishaw PLC v.
Marposs Societa’ Per Azioni, 158 F.3d 1243, 1249; E.I.
du Pont de Nemours & Co. v. Phillips Petroleum Co.,
849 F.2d 1430, 1433 (Fed. Cir. 1988).

App. 80
The plain language of claim 6 state that an “entered order indicator represents an order pending at
the electronic exchange.” No further construction is
required.
3. Other Terms
Patent Owner proposes explicit constructions for
other claim terms. See PO Resp. 1–4. We do not need
to explicitly construe these other claim terms in order
to resolve the issues before us. Vivid Techs., Inc. v.
Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999) (Only terms which are in controversy need to be
construed, and then only to the extent necessary to
resolve the controversy.)
B. Covered Business Method Patent
1. Standing
Section 18 of the AIA4 provides for the creation of
a transitional program for reviewing covered business
method patents. Section 18 limits review to persons
or their privies who have been sued or charged with
infringement of a “covered business method patent,”
which does not include patents for “technological inventions.” AIA § 18(a)(1)(B), (d)(1); see 37 C.F.R.
§ 42.302. Petitioner certifies that it was sued for infringement of the ’768 patent. Pet. 3 (citing Exs. 1003,
1004). Patent Owner does not dispute this. See generally PO Resp.
2. Whether the ’768 Patent is a CBM Patent
Under § 18(a)(1)(E) of the AIA, we may institute a
transitional review proceeding only for a CBM patent.
Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 329 (2011) (“AIA”).

4

App. 81
A CBM patent is a patent that “claims a method or
corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or
service, except that the term does not include patents
for technological inventions.” AIA § 18(d)(1); see also
37 C.F.R. § 42.301 (defining “[c]overed business
method patent” and “[t]echnological invention”). To
determine whether a patent is eligible for a covered
business method patent review, the focus is on the
claims. Secure Axcess, LLC v. PNC Bank N.A., 848
F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims, in
the traditional patent law sense, properly understood
in light of the written description, that identifies a
CBM patent.”). One claim directed to a CBM is sufficient to render the patent eligible for CBM patent review. See id. at 1381 (“[T]he statutory definition of a
CBM patent requires that the patent have a claim
that contains, however phrased, a financial activity
element.”).
In our Institution Decision, we determined that
the Petitioner had shown that the ’768 patent is a
CBM patent. Inst. Dec. 9–12. Patent Owner urges us
to reconsider our determination and find that the ’768
patent is not eligible for CBM review. See PO Resp.
63–65. We, however, are not apprised of any sufficient
reason to change our original determination.

App. 82
a. “Method or Corresponding Apparatus for Performing Data Processing or Other Operations Used in the
Practice, Administration or Management of a Financial Product or Service”
The statute defines a “covered business method
patent” as “[a] patent that claims a method or corresponding apparatus for performing data processing or
other operations used in the practice, administration,
or management of a financial product or service.” AIA
§ 18(d)(1); see 37 C.F.R. § 42.301(a). A covered business method patent can be broadly interpreted to encompass patents claiming activities that are financial
in nature. Transitional Program for Covered Business
Method Patents—Definitions of Covered Business
Method Patent and Technological Invention, 77 Fed.
Reg. 48734, 48735 (Aug. 14, 2012); Blue Calypso, LLC
v. Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir.
2016) (determining that a patent was a covered business method patent because it claimed activities that
are financial in nature); Unwired Planet, LLC v.
Google, Inc., 841 F.3d 1376, n. 5 (Fed. Cir. 2016) (stating that “we endorsed the ‘financial in nature’ portion
of the standard as consistent with the statutory definition of ‘covered business method patent’ in Blue Calypso”), Versata Development Group, Inc. v. SAP
America, Inc., 793 F.3d 1306, 1324–25 (Fed. Cir.
2015) (“[The statute] on its face covers a wide range
of finance-related activities.”).
A patent need have only one claim directed to a
covered business method to be eligible for review. 77
Fed. Reg. at 48,736 (Response to Comment 8). We
take claim 1 as representative.

App. 83
Petitioner asserts that claim 1 is directed to a covered business method because it recites a method of
placing a trade order for a commodity on an electronic
exchange including the steps of displaying market information and sending a trade order, which are financial in nature. Pet. 4–5. As Petitioner points out, claim
1 recites displaying market information, including indicators of a highest bid and a lowest ask in the market, and sending a trade order to an electronic trading
exchange. Pet. 4; Ex. 1001, 11:46–12:34.
Displaying market information and sending a
trade order to an electronic exchange are activities
that are financial in nature. A method for placing a
trade order for a commodity on an electronic exchange
is a method for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service.
Patent Owner does not dispute that the ’768 patent claims a method used for a financial product or
service, but does dispute that the ’768 patent claims
data processing. PO Resp. 90–91. Patent Owner’s argument is based upon the assumption that “data processing” in the statute is interpreted according to the
definition of “data processing” found in the glossary
for class 705 of the United States Patent Classification System. See id. Patent Owner, however, does not
sufficiently explain why this definition is controlling,
as opposed to the plain meaning of “data processing.”
We, thus, are not persuaded that “data processing” as
recited by the statute precludes data processing for
the purpose of displaying the data. The ’768 patent
discloses processing market information for display
on a client terminal and for sending an order to an

App. 84
exchange. See e.g., Ex. 1001, 4:60–61 (“The present invention processes this information and maps it
through simple algorithms and mapping tables to positions in a theoretical grid program…). We, thus, are
not persuaded that the ’768 patent does not claim
“performing data processing…used in the practice,
administration, or management of a financial product
or service” (AIA § 18(d)(1)).
In any event, the statute does not limit CBM patents to only those that claim methods for performing
data processing used in the practice, administration,
or management of a financial product or service. It includes methods for performing “other operations”
used in the practice, administration, or management
of a financial product or service. The statute states
that the “other operations” are those that are “used in
the practice, administration, or management of a financial product or financial service.” AIA § 18(d)(1).
There appears to be no disagreement that the claimed
method steps are operations used in the practice, administration, or management of a commodity or trading a commodity on an electronic exchange, e.g., a financial service. See generally PO Resp. 90–91. The
’768 patent, therefore, at least claims “other operations used in the practice, administration, or management of a financial product or financial service” (AIA
§ 18(d)(1)).
Patent Owner contends that the Legislative History confirms that the claimed invention is not a covered business method because “it specifically states
that GUI tools for trading are not the types of inventions that fall within CBM jurisdiction.” PO Resp. 92
(citing Ex. 2126, S5428, S5433).

App. 85
Although the legislative history includes certain
statements that certain novel software tools and
graphical user interfaces that are used by the electronic trading industry worker are not the target of
§ 18 of the AIA (see Ex. 2126, S5428, S5433), the language of the AIA, as passed, does not include an exemption for user interfaces for commodities trading
from covered business method patent review. Indeed,
“the legislative debate concerning the scope of a CBM
review includes statements from more than a single
senator. It includes inconsistent views….” Unwired
Planet, 841 F.3d at 1381. For example, in contrast to
the statements cited by Patent Owner, the legislative
history also indicates that “selling and trading financial instruments and other securities” is intended to
be within the scope of covered business method patent
review. See Ex. 2126, S5432 (statements of Sen.
Schumer); see also id. at S54636–37 (statements of
Sen. Schumer expressing concern about patents
claiming “double click”), 157 Cong. Rec. S1360 at
S1364 (Mar. 8, 2011) (statements of Sen. Schumer explain that “method or corresponding apparatus” encompasses “graphical user interface claims” and “sets
of instructions on storage media claims.”) “[T]he legislative history cannot supplant the statutory definition actually adopted…. The authoritative statement
of the Board’s authority to conduct a CBM review is
the text of the statute.” Unwired Planet, 841 F.3d at
1381. Each claimed invention has to be evaluated individually to determine if it is eligible for a CBM patent review. A determination of whether a patent is
eligible for a CBM patent review under the statute is
made on a case-by-case basis. 37 C.F.R. § 42.301(b).

App. 86
For the reasons stated above, we are persuaded by
Petitioner that the ’768 patent “claims a method or
corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or
service” and meets that requirement of § 18(d)(1) of
the AIA.
3. Exclusion for Technological Inventions
Even if a patent includes claims that would otherwise be eligible for treatment as a covered business
method, review of the patent is precluded if the claims
cover only “technological invention[s],” as defined by
37 C.F.R. §42.301(b). The definition of “covered business method patent” in § 18(d)(1) of the AIA does not
include patents for “technological inventions.” To determine whether a patent is for a technological invention, we consider the following: “whether the claimed
subject matter as a whole [(1)] recites a technological
feature that is novel and unobvious over the prior art;
and [(2)] solves a technical problem using a technical
solution.” 37 C.F.R. § 42.301(b). Both prongs must be
satisfied in order for the patent to be excluded as a
technological invention. See Versata, 793 F.3d at
1326–7; Apple Inc. v. Ameranth, Inc., 842 F.3d 1229,
1240 (Fed. Cir. 2016). The following claim drafting
techniques, for example, typically do not render a patent a “technological invention”:
(a)
Mere recitation of known technologies,
such as computer hardware, communication or
computer networks, software, memory, computer-readable storage medium, scanners, display devices or databases, or specialized machines, such as an ATM or point of sale device.

App. 87
(b)
Reciting the use of known prior art technology to accomplish a process or method, even
if that process or method is novel and non-obvious.
(c)
Combining prior art structures to
achieve the normal, expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012). The Federal Circuit has held that a claim does not include a “technological feature” if its “elements are nothing more than
general computer system components used to carry
out the claimed process.” Blue Calypso, 815 F.3d at
1341; see also Versata, 793 F.3d at 1327 (“the presence
of a general purpose computer to facilitate operations
through uninventive steps does not change the fundamental character of an invention”).
With respect to the first prong, Petitioner contends
that rather than reciting a technical feature that is
novel or unobvious over the prior art, the claims of the
’768 patent generally recite trading software that is
implemented on a conventional computer. Pet. 5–7.
When addressing “whether the claimed subject matter as a whole recites a technological feature that is
novel and unobvious over the prior art,” Patent
Owner alleges that “Petitioners fail to address
whether the claims recite a technical feature that is
novel and unobvious.” PO Resp. 91. That is incorrect.
See Pet. 5–7; Inst. Dec. 11 (discussing Petitioner’s contention).
We are persuaded by Petitioner’s contentions that
at least claim 1 of the ’768 patent does not recite a

App. 88
novel and non-obvious technological feature. Pet. 5–7
(citing Ex. 1007 ¶¶ 73–74). The specification of the
’768 patent treats as well-known all potentially technological aspects of the claims. For example, the ’768
patent discloses that its system can be implemented
“on any existing or future terminal or device” (Ex.
1001, 4:4–7), each of which is known to include a display, and discloses that the input device can be a
mouse (id. at 4:9–11), which is a known input device.
The ’768 patent further discloses that “[t]he scope of
the present invention is not limited by the type of terminal or device used.” Id. at 4:7–9. The ’768 patent
also describes the programming associated with the
GUI as insignificant. See, e.g., id. at 4:60–66 (explaining that the “present invention processes [price, order, and fill] information and maps it through simple
algorithms and mapping tables to positions in a theoretical grid program” and “[t]he physical mapping of
such information to a screen grid can be done by any
technique known to those skilled in the art”). That at
least claim 1 of the ’768 patent does not recite a novel
and non-obvious technological feature is further illustrated by our comparison of the Fig. 2 GUI to the Mercury display above (see Pet. 5) and by our discussion
of that claim being unpatentable under § 103 below.
Accordingly, we are persuaded that at least claim 1
does not recite a technological feature that is novel
and unobvious over the prior art.
With respect to the second prong, Petitioner contends that the claims of the ’768 patent do not fall
within § 18(d)(1)’s exclusion for “technological inventions” because the ’768 patent does not solve a technical problem using a technical solution. Pet. 8–9. Petitioner notes that “[a]ccording to the ’768 patent, the

App. 89
‘problem’ with prior art trading GUIs was that the
market price could change before a trader entered a
desired order, causing the trader to ‘miss his price.’”
Id. at 8 (citing Ex. 1001, 2:50–63). Petitioner contends
that “the ’768 patent’s solution is not technical” because Patent Owner “simply [] rearrange[d] how
known and available market data is displayed on a
GUI” and “did not design a more accurate mouse or a
computer that responded faster.” Id. at 9.
Patent Owner argues that the ’768 patent provides
a technical solution to a technical problem. PO Resp.
91–92. Specifically, Patent Owner argues that “the
’768 claims provide a new GUI construction that improves prior GUIs because it address the problem of a
user missing their intended price.” Id. at 92. Patent
Owner points to CQG for support. Id. at 91–92.
We are persuaded that the ’768 patent does not
solve a technical problem with a technical solution.
Pet. 8–9. The ’768 patent purports to solve the problem of a user missing an intended price because a
price level changed as the user tried to click to send
an order at an intended price level in a GUI tool. See
Ex. 1001, 2:3–62. As written, claim 1 requires the use
of only known technology. Given this, we determine
that at least claim 1 does not solve a technical problem using a technical solution and at least claim 1
does not satisfy the second prong of 37 C.F.R.
§ 42.301(b).
The ’768 patent describes the problem it solves as
follows:

App. 90
[A]pproximately 80% [of the total time it takes
to place an order] is attributable to the time required for the trader to read the prices displayed and to enter a trade order. The present
invention provides a significant advantage during the slowest portion of the trading cycle—
while the trader manually enters his order…
In existing systems, multiple elements of an order must be entered prior to an order being sent
to market, which is time consuming for the
trader. Such elements include the commodity
symbol, the desired price, the quantity and
whether a buy or sell order is desired. The more
time a trader takes entering an order, the more
likely the price on which he wanted to bid or offer will change or not be available in the market…In such liquid markets, the prices of the
commodities fluctuate rapidly. On a trading
screen, this results in rapid changes in the price
and quantity fields within the market grid. If a
trader intend to enter an order at a particular
price, but misses the price because the market
prices moved before he could enter the order, he
may lose hundreds, thousands, even millions of
dollars. The faster a trader can trade, the less
likely it will be that he will miss his price and
the more likely he will make money.
Ex. 1001, 2:35–62 (emphasis added). “The inventors
have developed the present invention which overcomes the drawbacks of the existing trading systems
and dramatically reduces the time it takes for a trader
to place a trade when electronically trading on an exchange.” Id. at 2:66–3:2.

App. 91
As can be seen from the above, a problem disclosed
in the ’768 patent is the time it takes for a trader to
manually enter trader orders on a market or exchange that is rapidly changing, so as to make a
profit. This is a financial issue or a business problem,
not a technical problem. See Pet. 5–7. If the market or
exchange did not rapidly change, then there would be
no need for a trader to enter orders rapidly.
The ’768 patent also describes that “the present invention ensure[s] fast and accurate execution of
trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuate.” Ex. 1001, 3:5–9. Claim 1, however,
does not require displaying the market depth. See id.
at 11:46–12:36. Claim 1 only requires displaying a
first indicator that represents a quantity associated
with the highest bid price and a second indicator that
represents a quantity associated with the lowest ask
price. Id. In other words, claim 1 only requires displaying indicators that correspond to the inside market. See also id. at 5:1–7 (disclosing displaying on the
inside market and not the market depth). The subject
matter of claim 1, thus, does not require the alleged
technical solution to the problem of ensuring fast and
accurate trades.
Patent Owner’s reliance on CQG is misplaced.
CQG addressed the claimed subject matter of the ’134
patent and U.S. Patent No. 6,766,304. The decision
relied upon a feature not required by claim 1 of the
’768 patent—a static price axis. See Tr. 44–60 (discussing the differences between the claims at issue in

App. 92
CQG and the claims of the ’768 patent); Pet. 30. Although claim 1 of the ’768 patent requires a price axis,
it does not require the price axis to be static. See Ex.
1001, 12:23–13:16. It does not preclude the price axis
from changing as the market information updates or
preclude a price value associated with the order entry
location changing as it is selected. See Tr. 44–60.
We are persuaded by Petitioner that at least claim
1 does not recite a technological feature that is novel
and unobvious over the prior art and does not solve a
technical problem using a technical solution. Accordingly, we determine that the ’768 patent is not for a
technological invention.
4. Conclusion
In view of the foregoing, we conclude that the ’768
patent is a covered business method patent under AIA
§ 18(d)(1) and is eligible for review using the transitional covered business method patent program.
C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–23 as directed to
patent-ineligible subject matter under 35 U.S.C.
§ 101. Pet. 15–31.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four statutorily provided categories of patent-eligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d
709, 713–14 (Fed. Cir. 2014).
Initially, we note that Petitioner asserts that claim
23 is “broad enough to encompass a transitory, propagating signal that is encoded, which is not eligible

App. 93
for patenting.” Pet. 31 (citing In re Nuijten, 550 F.3d
1346, 1357 (Fed. Cir. 2007); Ex parte Mewherter, 107
USPQ2d 1857m 1859–60 (B.P.A.I. 2013) (precedential)). Petitioner explains that the specification neither defines this term nor provides examples. Id. at
14. Petitioner argues that addition of the phrase “having program code recorded thereon” to “computer
readable medium” does not limit the medium to nontransitory media. Petitioner argues that “record” is
defined as “to set down in writing” or “to cause (as
sound, visual images, or data) to be registered on
something (as a disc or magnetic tape) in reproducible
form).” Id. at 15 (citing Ex. 1041, Merriam-Webster’s
Collegiate Dictionary definition of record). In our Institution Decision, we made an initial determination
that the broadest reasonable interpretation of the
“computer readable medium” recited in claim 23 is
“any medium that participates in providing instruction to a processor for execution and having program
code recorded thereon.” Inst. Dec. 8–9.
Patent Owner responds that there is insufficient
evidence to support Petitioner’s contention that one
skilled in the art would have understood “computer
readable medium having program code recorded
thereon” to encompass a signal at the time of the invention. PO Resp. 89–90. Patent Owner disputes that
the limitation encompasses signals. Id. (citing Ex.
2169 ¶ 33, testimony of Mr. Thomas). Patent Owner
also argues that Ex Parte Mewherter is inapplicable
because it addresses the meaning of the term “storage
medium” after to 2002 and the effective filing date of
the ’768 patent predates 2002. Id. at 90.

App. 94
Petitioner responds to Patent Owner’s contentions
by simply asserting that “the Board should follow the
precedential decision in Ex Parte Mewherter.” Pet. Reply 11.
Petitioner’s response is unhelpful. For example, in
its Reply, Petitioner cites no evidence to rebut Patent
Owner’s contentions regarding how one skilled in the
art would have understood “computer readable medium having program code recorded thereon,” at the
time of the invention and does not respond to Patent
Owner’s contentions regarding the applicability of Ex
Parte Mewherter. In fact, Petitioner does not even
acknowledge those contentions.
Accordingly, on this record, which is absent any
further evidence or meaningful argument from Petitioner, we are not persuaded that at the time of the
invention one skilled in the art would have understood “computer readable medium having program
code recorded thereon” as encompassing transitory,
propagating signals.
There is no dispute that the remaining claims fit
within one of the four statutorily provided categories
of patent-eligibility. Claim 1, for example, is directed
to a process.
1. Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor,

App. 95
subject to the conditions and requirements of
this title.
There are, however, three judicially created exceptions to the broad categories of patent-eligible subject
matter in § 101: laws of nature, natural phenomena,
and abstract ideas. Alice, 134 S. Ct. at 2354; Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S.
Ct. 1289, 1293 (2012). Although an abstract idea, itself, is patent-ineligible, an application of the abstract
idea may be patent-eligible. Alice, 134 S. Ct. at 2355.
Thus, we must consider “the elements of each claim
both individually and ‘as an ordered combination’ to
determine whether the additional elements ‘transform the nature of the claim’ into a patent-eligible application.” Id. (citing Mayo, 132 S. Ct. at 1297–98).
The claim must contain elements or a combination of
elements that are “sufficient to ensure that the patent
in practice amounts to significantly more than a patent upon the [abstract idea] itself.” Id. (citing Mayo,
132 S. Ct. at 1294).
Claims 1 and 23 are independent and recite similar limitations. We take claim 1 as representative.
2. Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over the
prior art’ to determine if the claim’s ‘character as a
whole’ is directed to excluded subject matter.’” Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d 1253,
1257 (Fed. Cir. 2016) (quoting Elec. Power Grp., LLC
v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016);
see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335 (Fed. Cir. 2016).

App. 96
According to Petitioner, the claims are directed to
the abstract idea of “placing an order based on observed (plotted) market information, as well as updating market information.” Pet. 17. Petitioner contends
that “claim 1 could be performed in the human mind
or with the aid of pen-and-paper with little difficulty
because the claim requires plotting only a few data
points” (id. at 18) and that the claims are directed to
commodity trading which is ‘a fundamental economic
practice long prevalent in our system of commerce.’”
Pet. Reply 5 (citing Alice, 134 S. Ct. at 2356). Patent
Owner disagrees. See PO Resp. 79–87.
Claim 1 of the ’768 patent recites “a method of
placing a trade order for a commodity on an electronic
exchange using a graphical user interface and a user
input device.” Ex. 1001, 11:46–48. Claim 1 recites
steps of displaying market information, bid and ask
quantities, in regions along a price axis. Id. at 11:53–
64. The market information is an indicator of an order
to buy at the highest bid price and an indicator of an
order to sell at the lowest ask price. Id. In other words,
the displayed market information is the inside market. Claim 1 does not require displaying the market
depth. Claim 1 also recites a step of updating the market information such that it moves relative to the
price axis as the market changes. Id. at 12:19–31.
Claim 1 further recites steps of displaying a first and
second fixed location in an order entry region, steps of
setting parameters for a trade order, and a step of
sending a trade order to an exchange in response to a
single action of a user input device Id. at 11:65–67,
12:32–36.

App. 97
As can be seen from its steps, the focus of claim 1
is placing trade orders based on displayed market information, as well as updating the displayed market
information. This focus is consistent with the ’768 patent’s statement that “[t]he present invention is directed to the electronic trading of commodities…. It
facilitates the display of and the rapid placement of
trade orders….” Id. at 1:15–20. The focus of claim 1 is
also consistent with the problem disclosed by the ’768
patent of a trader missing an intended price because
the market changed during the time required for a
trader to read the prices displayed and to manually
enter an order. Id. at 2:35–62.
Claim 1 does not recite any limitation that specifies how the computer implements the steps or functions for using a GUI. For example, claim 1 recites
displaying an arrangement of the market information
on the GUI. The bid quantity is displayed in the bid
region at a location that corresponds to a price along
a price axis and the ask quantity is displayed in an
ask region at a location that corresponds to a price
along the price axis. Id. at 11:53–64. Claim 1 does not
specify how the computer maps the bid quantities, ask
quantities, and price axis to the display. The ’768 patent does not disclose an unconventional or improved
method of mapping the bid quantities, ask quantities,
and price axis to the display. It states that “[t]he physical mapping of such information to a screen grid can
be done by any technique known to those skilled in
the art” and that “[t]he present invention is not limited by the method used to map the data to the
screen.” Id. at 4:64–67.

App. 98
The ’768 patent discloses that at least 60 exchanges throughout the world utilize electronic trading and discloses that it is known that electronic trading includes analyzing displayed market information
and updated market information to send trade orders
to an exchange. See id. at 1:26–2:22. Similarly, Mr.
Thomas indicates that traders in prior trading systems, including pre-electronic open outcry systems,
which have been used for over one hundred years,
send trade orders to an exchange based on price, such
as the inside market prices or other prices. Ex. 2169
¶¶ 36, 62, and 63. Mr. Thomas testifies that “[i]n the
trading pit, traders utilize shouting and hand signals
to transfer information about buy and sell orders to
other traders. To avoid confusion, the inside market
prices were the focus, and traders could only shout
and signal regarding their interest at the best bid/offer or at prices that improves the best bid/offer.” Id. ¶
36. The ’768 patent discloses that electronic exchanges are known to provide the market depth for
display that is the inside market and a few orders
away from the inside market. Ex. 1001, 5:3–5. Further, Exhibit 1020 discloses that long before the ’768
patent traders maintained books that plotted bids
and asks (e.g., the market depth) along a price axis.
See Ex. 1020, 44–46. Exhibit 1020 states “[s]pecialists
enter public orders, that are away from the market,
in their books by price and in the order they are received.” Id. at 44. Figure 4-2 of Exhibit 1020 is reproduced below.

App. 99

Figure 4-2 depicts a page of a book of a trader. Id. at
44–45. Orders to buy or sell a commodity are plotted
along a prices axis. For example, Figure 4–2 shows
the best bid at 22¼ and the best ask at 225/8. Id. at 44.
Ex. 1020 states: “The NYSE specialist’s book is maintained on a CRT and referred to as a display book.
This electronic book sorts all orders coming to the specialist in time and price sequence….” Id. at 46.
Given this, we determine that placing an order
based on displayed market information, such as the
inside market and few other orders, as well as updating the market information is a fundamental economic and conventional business practice. We are
persuaded by Petitioner that the method of claim 1

App. 100
could be performed in the human mind or with the aid
of pen-and-paper with little difficulty because the
claim requires plotting only a few data points (i.e., the
inside market). See Pet. 18 (citing Ex. 1020, 44–46;
Ex. 1007 ¶¶ 73–74).
Patent Owner argues that the claims of the ’768
patent are not directed to a fundamental economic
practice, longstanding commercial practice, or business method. PO Resp. 85–87. Patent Owner contends
the “claims did not have a pre-electronic equivalent as
electronic trading operates in fundamentally different
ways from open outcry…. In open outcry, trader could
not publish orders away from the inside market, and
could pick and choose with whom they wanted to
trade.” Id. at 85 (citations omitted). Patent Owner’s
arguments are unpersuasive because they are not
commensurate with the scope of the claims. For example, claim 1 recites a method of placing a trade order for a commodity on an exchange, which includes
steps of displaying the inside market and sending the
trade order to the electronic exchange. Ex. 1001,
11:46–12:36. Claim 1 does not recite any steps as to
how the electronic exchange matches or fills the order.
See id. Claim 1 requires publishing the inside market
and does not require publishing the market depth. See
id.; see also id. at 5:1–7. Claim 1 does not specify how
the order is filled at the electronic exchange or preclude a trader from picking and choosing with whom
they want to trade. See id. at 11:46–12:36.
The claims at issue here are like the claims at issue in Affinity Labs. In Affinity Labs, the claim at issue recited an application that enabled a cellular telephone to present a GUI displaying a list of media

App. 101
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the cellular telephone was enabled to transmit a request for
the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the claims
at issue in Apple, Inc. v. Ameranth, Inc., 842 F.3d
1229 (Fed. Cir. 2016). See Pet. Reply 8–9. In
Ameranth, the claim at issue recited a GUI that displayed menu items in a specific arrangement, a hierarchical tree format. Menu items were selected to generate a second menu from a first menu. Ameranth,
842 F.3d at 1234. In both Affinity Labs and Ameranth,
the court determined that the claims were not directed to a particular way of programming or designing the software, but instead merely claim the resulting systems. The court thus determined that the
claims were not directed to a specific improvement in
the way computers operate. Affinity Labs, 838 F.3d at
1260–61; Ameranth, 842 F.3d at 1241. Here, the
claims also recite the resulting GUI and are not directed to specific improvements in the way the computers operate. “Though lengthy and numerous, the
claims [that] do not go beyond requiring the collection,
analysis, and display of available information in a
particular field, stating those functions in general
terms, without limiting them to technical means for
performing the functions that are arguably an advance over conventional computer and network technology” are patent ineligible. Elec. Power Grp., 830
F.3d at 1351. “Generally, a claim that merely describes an ‘effect or result dissociated from any
method by which [it] is accomplished’ is not directed
to patent-eligible subject matter.” Ameranth, 842 F.3d

App. 102
at 1244 (quoting Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1348 (Fed. Cir. 2015)).
The claims of the ’768 patent are unlike the claims
at issue in DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014) and Enfish. See Pet.
29–30; Pet. Reply 6. In DDR Holdings, the court determined that the claims did not embody a fundamental economic principle or a longstanding commercial
practice. The claims at issue in DDR Holdings were
directed to retaining website visitors, which the court
determined was a problem “particular to the Internet.” DDR Holdings, 773 F.3d at 1257. The court also
determined that the invention was “necessarily
rooted in computer technology in order to overcome a
problem specifically arising in the realm of computer
networks” and that the claimed invention did not
simply use computers to serve a conventional business purpose. Id. In Enfish, the claim at issue was directed to a data storage and retrieval system for a
computer memory. Enfish, 822 F.3d at 1336–37. The
court determined that the claims were directed to an
improvement in the functioning of a computer and
were not simply adding conventional computer components to well-known business practices. Id. at 1338.
Here, in contrast, claim 1 is directed to a fundamental
economic principle or a longstanding commercial
practice and not directed to an improvement in the
computer, but simply to the use of the GUI in a
method of placing an order based on displayed market
information, as well as updating market information.
See Pet. 29–30.
Patent Owner argues that the GUI disclosed in the
’768 patent solves an alleged problem of the Fig. 2

App. 103
GUI, displaying the inside market at a fixed location,
while the displayed prices change as the market
changes. See PO Resp. 81–83. If a trader was focused
on trading at a particular price, the trader could miss
its intended price using the Fig. 2 GUI because the
price could change as the trader clicked it. Id. at 2.
Patent Owner contends that the ’768 patent solves
this problem “by combining a dynamic display of bid
and ask indicators that move relative to a price axis.”
Id. at 4. The problem of a price changing just as a
trader clicks on the price is not disclosed in the ’768
patent. Patent Owner’s argument is unpersuasive because it is not commensurate with the scope of the
claim. Claim 1 does not require the price axis to be
static. See Ex. 1001, 11:46–12:36. It does not preclude
the values of the price axis from changing as the market information updates. In other words, the claims
allow for a price value associated with the order entry
location to change as market information updates and
change at the time a trader is selecting a corresponding order entry location. See Tr. 44–60. The claimed
subject matter does not solve the problem alleged by
the Patent Owner.5

During oral hearing, Patent Owner noted the dissenting opinion in related CBM2015-00181. Tr. 53:14–54:1. Since that time,
however, it has become increasingly clear that movement of the
price axis is significant. See, e.g., Tr. 60:10–13 (Patent Owner
acknowledging that movement of the price axis does not solve
the alleged problem). The Federal Circuit’s decision addressing
eligibility of patents related to the ’768 patent focused on solving
the problem alleged by Patent Owner. See Trading Techs. Int’l,
Inc. v. CQG, Inc., 675 F. App’x 1001, 1004–05 (Fed. Cir. Jan. 18,
2017) (non-precedential).
5

App. 104
Further, claim 1 of the ’768 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco Games
America Inc., 837 F.3d. 1299 (Fed. Cir. 2016). In
McRO, the court held that claims that recited “a specific asserted improvement in computer animation”
were not directed to an unpatentable abstract idea because they go “beyond merely organizing existing information into a new form or carrying out a fundamental economic practice.” McRO, 837 F.3d at 135.
Here, the claims merely organize existing market information so that it is displayed or plotted along a
price axis. Plotting bids and asks along a price axis is
not a specific improvement to a functioning of a computer. See Ex. 1020, 44–46.
Patent Owner argues that the claims of the ’786
patent are patent eligible under CQG because the ’786
patent is a continuation of the patents at issue in
CQG. PO Resp. 78. The claims of the ’786 patent, however, are broader in some aspects than the claims of
the ’132 patent. For example, the claims of the ’786
patent do not recite the static price axis feature
claimed by the ’132 patent. In CQG, the Federal Circuit referred to even those narrower claims as on the
line between patent eligibility and ineligibility (CQG
at *4 (noting the “close question[] of eligibility”)).
Thus, comparing the claims of the patents involved in
Trading Technologies is not particularly helpful here.
3. Inventive Concept
Next we turn to “the elements of each claim both
individually and as an ordered combination” to determine whether the additional elements “transform the
nature of the claim” into a “patent-eligible applica-

App. 105
tion.” Mayo, 768 S. Ct. at 1297–98. The additional elements must be more than “well-understood, routine,
conventional activity.” Id. at 1298.
Petitioner contends that claim 1 does not recite an
inventive concept. Pet. 20–25; Pet. Reply 7–9. Patent
Owner disagrees. PO Resp. 87–89.
First, claim 1 of the ’768 patent recites “a method
of placing a trade order for a commodity on an electronic exchange using a graphical user interface and
a user input device.” Ex. 1001, 11:46–48. The ’768 patent discloses that its system can be implemented “on
any existing or future terminal or device” (id. at 4:4–
8), which are known to include displays, and discloses
that the input device can be a mouse (id. at 4:8–18),
which is a known input device. A mere recitation of a
GUI does not make the claim patent eligible. See Affinity Labs, 838 F.3d at 1257–58; Ameranth, 842 F.3d
at 1236–1242; Internet Patent Corp., 790 F.3d at
1348–1349. A recitation of a generic GUI merely limits the use of the abstract idea to a particular technological environment. “Limiting the field of use of the
abstract idea to a particular existing technological environment does not render any claims less abstract.”
Affinity Labs, 838 F.3d at 1258 (citing Alice, 134 St.
Ct. at 2358; Mayo, 132 S. Ct. at 1294).
Second, claim 1 recites steps of displaying indicators representing a quantity associated with a highest
order to buy the commodity or lowest order to sell the
commodity in a bid display region or ask display region, respectively and moving the indictors upon receipt of market information. Ex. 1001, 11:46–48. Locations in the bid or ask display region correspond to
a price level along a price axis. Id. Essentially, these

App. 106
limitations require plotting the inside market along a
price axis. Plotting information along an axis is a
well-understood, routine, conventional, activity. See
Ex. 1020, 44–46. The Fig. 2 GUI includes regions for
displaying indicators of bid and ask quantities and regions for displaying corresponding prices. For example, the Fig. 2 GUI displays the bid quantity in BidQty
column 202 at locations that correspond to the bid
prices in BidPrc column 203. Ex. 1001, 5:12–25. This
is akin to plotting information BidQty and AskQty
along a price axis. Further, Mr. Thomas testifies that
prior GUIs, which are similar to the Fig. 2 GUI, “displayed the locations for the best bid and ask prices
such that the prices were displayed vertically (e.g.,
with the location for the best ask price being displayed
above the location for the best bid price).” Ex. 2169
¶ 62; see also Ex. 1017, 107, Ex. 1011, Fig. 2a (depicting a trading screen having a central order price column and ask and bid orders in adjacent corresponding columns). Displaying the best ask price above a
best bid price would be displaying a common column
of price levels. The ’768 patent states:
the physical mapping of such information to a
screen grid can be done by any technique
known to those skilled in the art. The present
invention is not limited by the method used to
map the data to the screen display.
Id. at 4:64–67. These steps of claim 1 require merely
a rearrangement of market information that was
known to be displayed in corresponding columns on a
GUI. CyberSource Corp. v. Retail Decisions, Inc., 654
F.3d 1366, 1370 (Fed. Cir. 2011) (holding “[t]he mere
collection and organization of data” patent-ineligible).

App. 107
Third, claim 1 also recites steps of displaying an
order entry region for receiving commands to send
trade orders, setting trade order parameters, and
sending trade orders to the electronic exchange with
a single action. Id. at 11:65–67, 12:32–36. Methods
that permit single action entry of an order, which has
preset default parameters, by clicking on a cell in a
display of a GUI are known technology. Ex. 2169
¶¶ 51, 58–59; Ex. 1008 ¶ 20. The additional elements
must be more that “well-understood, routine, conventional, activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not transform the nature of the claim into a patent-eligible application. They do not add significantly more to the
abstract idea or fundamental economic practice. Contrary to Patent Owner’s argument, the claim simply
recites the use of a generic GUI with routine and conventional functions. Even considering all of the elements as an ordered combination, the combined elements also do not transform the nature of the claim
into a patent-eligible application. Indeed, as discussed above, the Fig. 2 GUI disclosed in the ’768 patent includes a similar combination of elements.
For the reasons discussed above, the claims 1 and
23 of the ‘768 patent are not directed to patent eligible
subject matter under 35 U.S.C. § 101.
4. Dependent Claims
Petitioner contends that the additional elements
recited by dependent claims 2–22 do not add significantly more to the abstract idea so as to render the
claims patent-eligible. Pet. 25–29. Patent Owner
makes no arguments directed to the eligibility of the

App. 108
dependent claims. See generally PO Resp. We are persuaded by Petitioner that dependent claims 2–22 patent ineligible under 35 U.S.C. § 101. See Pet. 25–29
(citing Ex. 1007).
5. Conclusion
Having considered the information provided in the
Petition, we are persuaded that Petitioner has
demonstrated claims 1–23 are unpatentable under 35
U.S.C. § 101.
D. Obviousness Challenges
Section 103 forbids issuance of a claim when “the
differences between the subject matter sought to be
patented and the prior art are such that the subject
matter as a whole would have been obvious at the
time the invention was made to a person having ordinary skill in the art.” 35 U.S.C. § 103. The ultimate
determination of obviousness under § 103 is a question of law based on underlying factual findings. In re
Baxter Int’l, Inc., 678 F.3d 1357, 1362 (Fed. Cir. 2012)
(citing Graham v. John Deere Co., 383 U.S. 1, 17–18
(1996)). These underlying factual considerations consist of: (1) the “level of ordinary skill in the pertinent
art,” (2) the “scope and content of the prior art,” (3)
the “differences between the prior art and the claims
at issue,” and (4) “secondary considerations” of nonobviousness such as “commercial success, long-felt
but unsolved needs, failure of others, etc.” KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007) (quoting
Graham, 338 U.S. at 17–18).
Petitioner challenges claims 1–13, 15, 16, 18, and
21–23 as having been obvious over TSE and Belden,

App. 109
claims 14, 17, 19, and 20 as having been obvious over
TSE, Belden, and Cooper.
1. TSE Printed Publication Status
Petitioner argues that TSE is prior art under 35
U.S.C. § 102(a). Pet. 11–12. In support of its showing
that TSE qualifies as prior art, Petitioner relies on the
November 21, 2005, deposition testimony of Atsushi
Kawashima taken during litigation between Patent
Owner and a third party, eSpeed, Inc. Id.; Ex. 1019.
Whether a document qualifies as a printed publication under 35 U.S.C. § 102(a) is a question of law
based on underlying findings of fact. In re Enhanced
Sec. Research, LLC, 739 F.3d 1347, 1354 (Fed. Cir.
2014) (citing In re Hall, 781 F.2d 897, 899 (Fed. Cir.
1986)). The Federal Circuit “has interpreted § 102
broadly, explaining that even relatively obscure documents qualify as prior art so long as the public has a
means of accessing them.” Id. (citing Hall, 781 F.2d at
899).
Our leading case on public accessibility is In re
Hall, 781 F.2d 897 (Fed. Cir. 1986). In Hall we
concluded that “a single cataloged thesis in one
university library” constitutes “sufficient accessibility to those interested in the art exercising
reasonable diligence.” Id. at 900. Thereafter, in
Constant v. Advanced Micro–Devices, Inc., we
explained that “[a]ccessibility goes to the issue
of whether interested members of the relevant
public could obtain the information if they
wanted to.” 848 F.2d 1560, 1569 (Fed. Cir.
1988). Therefore, “[i]f accessibility is proved,
there is no requirement to show that particular

App. 110
members of the public actually received the information.” Id.
Enhanced Sec. Research, LLC, 739 F.3d at 1354. The
determination of whether a document is a “printed
publication” under 35 U.S.C. § 102 involves a case-bycase inquiry into the facts and circumstances surrounding its disclosure to members of the public. In re
Klopfenstein, 380 F.3d 1345, 1350 (Fed. Cir. 2004).
TSE is entitled “Futures/Option Purchasing System Trading Terminal Operation Guide” of the “Tokyo
Stock Exchange Operation System Division.”
Ex. 1017, 1.6 In the middle of page 5 is the annotation
“August, 1998” above the words “Tokyo Stock Exchange Operation System Division.” Id. at 5. Petitioner argues that TSE is prior art under 35 U.S.C.
§ 102(a) because it was published in August of 1998
by giving two copies to each of the about 200 participants in the Tokyo Stock Exchange, who were free to
do whatever they wanted with their copies of the publication. Pet. 11 (citing Ex. 1019, 12–33).
In support of its arguments regarding TSE as prior
art, Petitioner directs us to portions of Mr. Kawashima’s testimony. At the time of his testimony,
Mr. Kawashima testified that he was employed by the
Tokyo Stock Exchange and was so at the time of the
TSE manual, August 1998. Ex. 1019, 5–11. He further
testified that TSE “is the current TSE futures options
trading system terminal document, manual” that was
prepared August of 1998 by the Tokyo Stock Exchange and that he was in charge of preparing the
References are to pages located at center bottom of the English
translation of TSE (Ex. 1017).

6

App. 111
document. Id. at 10–11. Mr. Kawashima also testified
that the purpose of the manual was that “in 1998 we
replaced the futures options trading system and so
this new manual was prepared because there were
changes to the way the trading terminals were operating.” Id. at 12. Kawashima further testified that the
manual was distributed to “participants” in August of
1998, who were “securities companies for banks who
are able to carry out futures options trading at the
TSE” and that the “manual was given to explain those
changes” made with respect to the operation of the
TSE trading system and terminals. Id. at 12, 14. Mr.
Kawashima testified that the manual was given to
around 200 “participant” companies—all companies
that conduct futures option trading on the Tokyo
Stock Exchange. Id. at 13.7 According to Mr. Kawashima, two copies were distributed to each company, by having a person from each company come to
the Tokyo Stock Exchange operating system section
to pick up their copies of the manual, and that there
was no restriction on what the participants could do
with the 1998 manual once they received it. Id. at 14–
15. Mr. Kawashima personally distributed the TSE
manual to some of the participants. Ex. 2163, 60:13–
24.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by Petitioner’s showing, which we adopt as our own, that
TSE qualifies as prior art under 35 U.S.C. § 102(a).
Petitioner asserts, with supporting evidence, that
7

We understand the then “participants” included such companies as Goldman Sachs Securities, Merrill Lynch, and Morgan
Stanley. Ex. 2163, 58:5–17; Ex. 2169 ¶ 32.

App. 112
TSE was distributed to participants in the Tokyo
Stock Exchange. Pet. 11; Ex. 1019, 12, 14. Based on
the evidence before us, the participants were securities companies for banks. The purpose of the distribution of the manual was to alert the securities companies of changes to the way the trading terminals of the
Tokyo Stock Exchange operated. Ex. 1019, 12, 14. Indeed, TSE is a user manual that includes, for example, in Chapter 2, instructions for terminal system
configuration to enable a participant, such as a security company to connect to the Tokyo Stock Exchange.
Ex. 1017, 10–25. Chapter 15, entitled “Response To A
Problem” provides detailed explanations should a
problem arise with terminal equipment, communication circuit difficulties, central system recovery difficulties, etc., along with in-house procured terminal
problem handling instructions. Id. at 5. Thus, TSE is
more than a user manual for how to trade on the Tokyo Stock Exchange, but also includes how to electronically connect to the Tokyo Stock Exchange.
The evidence that is before us, both circumstantial
and direct, supports a finding that TSE was made accessible to securities companies and all of the personnel in such a company, who would have employed
technical support personnel, such as computer scientists or engineers, who would have needed a copy of
the TSE manual to configure their own system to electronically communicate, and to continue to trade securities, with the Tokyo Stock Exchange. Thus, the
securities companies would have included computer
scientists or engineers, as well as traders. We find
that all such persons who worked at the securities
companies would have been interested members of
the relevant public.

App. 113
2. Patent Owner’s Contentions
Patent Owner argues that the evidence fails to
prove TSE is prior art. PO Resp. 14–24. We begin by
addressing Patent Owner’s assertions that Mr. Kawashima’s testimony should be given little or no
weight because his testimony is not corroborated and
he is an interested witness. Id. at 22–24. Patent
Owner argues that Kawashima’s employer—the Tokyo Stock Exchange—challenged Patent Owner’s
Japanese counterpart to U.S. Patent No. 6,766,304 by
providing TSE to the Japanese Patent Office. Id. at
24. Patent Owner further argues that the Tokyo Stock
Exchange wanted the Japanese Patent Office to rely
on “these documents” to prevent Patent Owner from
obtaining the Japanese patent. Id. (citing Ex. 2163,
39:23– 40:20, 42:14–43:10; Ex. 1019, 110:10–14). Patent Owner concludes that because Kawashima’s employer tried to use TSE to prevent Patent Owner from
obtaining the 6,766,304 patent, Kawashima is not disinterested. Id.
We are not persuaded that Kawashima is an interested witness and that his testimony should be given
little weight. First, the patent involved here is not the
same as the patent involved before the Japanese Patent Office and we do not understand what Patent
Owner means by “these documents.” In any event, Patent Owner has not shown that what occurred in a
proceeding before the Japanese Patent Office involving a different patent is relevant to the facts of this
proceeding. Patent Owner has not shown sufficiently
that Mr. Kawashima had an interest, himself, regarding the outcome of the Japanese Patent Office pro-

App. 114
ceeding. Even assuming that the Tokyo Stock Exchange had an interest in that earlier proceeding, it
does not follow necessarily that Mr. Kawashima himself had an interest in it as well. We have considered
the evidence to which we are directed, but do not find
that evidence (passages from Mr. Kawashima’s original and cross examination) to support Patent Owner’s
assertions that Mr. Kawashima is biased. Indeed,
when asked if the Tokyo Stock Exchange preferred
that vendors like Trading Technologies not have patents on trading screens, Mr. Kawashima testified,
that that was “not something I would know.”
Ex. 2163, 41:6–12. Lastly, Patent Owner has not
demonstrated sufficiently that Mr. Kawashima’s
meetings with Petitioner’s attorneys prior to his cross
examination is demonstrative of “bias.” PO Resp. 24.
Patent Owner has not shown why Mr. Kawashima’s
meeting with Petitioner’s counsel prior to his deposition would make him biased. For these reasons, we
are not persuaded that Mr. Kawashima is an interested witness.
We also are not persuaded by Patent Owner’s argument that because Mr. Kawashima’s testimony is
uncorroborated we should give it little weight. PO
Resp. 22–23. In support of the argument, Patent
Owner cites to cases regarding an interested witness.
See, e.g., id. at 22. As explained above, Patent Owner
has not shown sufficiently that Mr. Kawashima is an
interested witness. The other arguments made, e.g.,
that there is no evidence of when the manuals were
picked up or by whom or what a person did with the
document once they received it, are factors to consider
when determining whether a document was publically accessible, which we address below.

App. 115
For all of these reasons, we credit the testimony of
Mr. Kawashima. We find that the facts discussed
above regarding Mr. Kawashima’s testimony (Ex.
1019) are supported by a preponderance of the evidence and are undisputed.8 Although Mr. Kawashima
was cross-examined, Patent Owner does not direct attention to portions of his cross examination testimony, or any other evidence, that would outweigh Mr.
Kawashima’s original testimony (Ex. 1019) regarding
what the TSE manual was, why it was distributed,
how it was distributed, when it was distributed, and
to whom it was distributed.
Patent Owner argues that Petitioner has not established that TSE was publically available. PO Resp.
14–16. In particular, Patent Owner argues that there
is no evidence that anyone actually received a copy of
TSE or whether the receivers of such document were
persons of ordinary skill in the art. Id. (quoting Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348
(Fed. Cir. 2016) (a reference will be considered publicly accessible if it was “disseminated or otherwise
made available to the extent that persons interested
and ordinarily skilled in the subject matter or art exercising reasonable diligence, can locate it.’”)).
Patent Owner’s argument that there is no evidence that anyone actually received a copy of TSE is
misplaced. The proponent of a document need not
show that particular members of the interested public
The burden of showing something by a preponderance of the
evidence simply requires the trier of fact to believe that the existence of a fact is more probable than its nonexistence. Concrete
Pipe & Products of California, Inc. v. Construction Laborers Pension Trust for Southern California, 508 U.S. 602, 622 (1993).

8

App. 116
actually received the information. See, e.g., In re Enhanced Sec. Research, LLC, 739 F.3d 1347, 1354 (Fed.
Cir. 2014); Constant v. Advanced Micro-Devices, Inc.,
848 F.2d 1560, 1569 (Fed. Cir. 1988); Blue Calypso,
LLC v. Groupon, Inc., 815 F.3d 1331, 1348 (Fed. Cir.
2016). Rather, accessibility goes to the issue of
whether persons interested and ordinarily skilled in
the subject matter could obtain the information if
they wanted to. Id. Here, we have before us persuasive evidence that TSE was made publically accessible by providing two copies to each of the about 200
participants (securities companies for banks) in the
Tokyo Stock Exchange, who were free to do whatever
they wanted with their copies of the publication. Ex.
1019, 12, 14. For these same reasons, we are not persuaded by Patent Owner’s implicit argument that Petitioner need show that the two copies of the TSE
manual available for pick up by the 200 participant
companies actually were picked up. In any event, Mr.
Kawashima testified that he personally distributed
the TSE manual to some of the participants. Ex. 2163,
60:13–24.
Patent Owner argues that the participants (securities companies for banks) who allegedly received
copies of the TSE manual are not persons of ordinary
skill in the art, which Patent Owner submits would
be GUI designers, and not traders at a stock exchange. PO Resp. 16–17. We are not persuaded by Patent Owner’s argument.
The patent before us is a business method patent,
the subject matter of which is represented by both the
business and technical sides of the spectrum. Here,
where the patent is directed to trading commodities

App. 117
on an exchange using a computer, we must consider
all interested members of the public, which would include not only technical personnel, but traders as
well. Traders of commodities at securities companies
for banks would be interested members of the public.
In any event, there is sufficient evidence for us to
find that the securities companies for banks also
would have employed technical personnel as well, and
even a “GUI designer.” As explained above, the purpose of the TSE manual was to alert the securities
companies of changes to the way the trading terminals of the Tokyo Stock Exchange operated. Ex. 1019,
12, 14. The TSE manual includes information and instructions of how to electronically connect to the Tokyo Stock Exchange. TSE is not simply a “how to
trade commodities” user manual as Patent Owner
seems to suggest. The strong circumstantial evidence
supports finding that TSE was made accessible to securities companies who would have employed technical support personnel, such as computer scientists
or engineers, to configure their system to electronically communicate, and to continue to trade securities, with the Tokyo Stock Exchange, based on the
changes in operation of the terminals explained in the
TSE manual. Thus, the securities companies would
have included computer scientists or engineers, as
well as traders. Lastly, even assuming that a person
of ordinary skill in the art is narrowly limited to a
“GUI designer” as Patent Owner asserts, we find that
securities companies for banks (“participants”) provided their own front-end order entry software, and
that such participants would have employed GUI de-

App. 118
signers to formulate the front-end order entry software to facilitate trading on the Tokyo Stock Exchange. Ex. 2169 ¶ 32.
Patent Owner argues that because participants of
the Tokyo Stock Exchange were contractually prohibited from modifying the terminals or software, there
was no reason to provide the manual to GUI designers. PO Resp. 17. Patent Owner has not shown sufficiently that such a contractual provision would have
prevented persons interested or even ordinarily
skilled in the subject matter from receiving copies of
TSE. For all of the above reasons, we are persuaded
that TSE was publically accessible.
Patent Owner additionally argues that there is no
evidence that a person having ordinary skill in the art
could have located TSE using “reasonable diligence,”
because there is no evidence that such a person
searching for TSE would find it, such as being placed
in a library, indexed, or catalogued, or directions to
locate TSE. PO Resp. 20. We determine above, that
the record evidence supports a determination that
TSE was publically accessible to persons interested
and ordinarily skilled in the subject matter. Patent
Owner’s arguments are premised on the notion that
none of the personnel at the securities banks are interested and ordinarily skilled in the subject matter,
which we reject. Thus, Patent Owner’s argument is
moot.
For all of the above reasons, we determine that
TSE qualifies as prior art.

App. 119
3. Claims 1 and 23
With respect to claims 1 and 23, Petitioner cites
TSE as teaching the majority of limitations of the
claims. Pet. 31–53. Petitioner cites Belden for the
“single action” limitation in the claims, including the
“setting” and “sending” via the “single action.” See id.
at 41–46, 50–53. Petitioner proposes modifying TSE
based on the teachings of Belden. See id. at 36–37.
The testimony of Petitioner’s declarant Kendyl
Román supports Petitioner’s analysis. See Ex. 1007
¶¶ 77–123.
TSE describes a trading system that facilitates
trading with an electronic exchange by receiving bid
and offer information, displaying it to a user, and accepting and sending bid and offer orders. Ex. 1017, 6–
13, 35. A trading terminal displays a GUI for depicting market information on a Board Screen, which is
shown in the figure reproduced below (“TSE’s Board
Screen”).

App. 120

The figure reproduced above is illustrated on page 107
of TSE and depicts TSE’s Board Screen. The Board
Screen includes a central order price at column 11—a
price display. Id. at 111. The Board Screen can be
placed in a “Scrolling Screen” mode where “the price
display positions do not change automatically.” Id. at
115. TSE describes a number of ways to scroll the
Board Screen to vertically scroll, including using the
up/down scroll buttons, vertically moving the cursor,
and pressing the up or down key on the keyboard. Id.
at 116. To the left and right of order price column 11,
at a location corresponding to price, are bid and offer
indicators consisting of numbers representing the
quantity of orders in respective columns 12, 13, and
14. Id. at 112. The Board Screen is automatically up-

App. 121
dated with new bid and offer information from a central system every three seconds. Id. at 91. TSE explains that “[t]he board information on each Board
Screen is automatically updated even if it has been
scrolled vertically.” Id.
Román’s FIG. A, reproduced below, illustrates the
market information received and displayed in TSE.

Román’s FIG. A is an annotated version of the figure
illustrated on page 107 of TSE depicting a Board
Screen, and is found at page 45 of the Román Declaration. Mr. Román’s annotations indicate the portions
of the Board Screen considered to correspond to various claim elements. The ’768 patent explains that
“[f]or a commodity being traded, the ‘inside market’ is
the highest bid price and the lowest ask price.”

App. 122
Ex. 1001, 4:60–62. As illustrated above in Román’s
FIG. A, TSE receives and displays inside market information.
TSE describes a user entering an order by doubleclicking at a location along the price axis, which automatically displays a pop-up window displaying the selected price. Id. at 134, 137. A Figure appearing on
page 137 of TSE is reproduced below.

The Figure appearing on page 137 of TSE depicts the
displaying of the pop-up new order entry window.
TSE discloses that double-clicking on a specific area
of the Board/Quotation Screen displays a new order

App. 123
entry window, which is automatically set with the information from the double-clicked area. Ex. 1017, 133,
139. The new order entry window includes a send button for sending the order to a central system. Id. at
137, 143. Clicking the send button sends an order to
the exchange. Id. at 143.
As Petitioner points out, “TSE does not teach that
the claimed ‘sending’ is achieved ‘in response to a selection of a particular location of the order entry region by a single action of a user input device.’” Pet. 34.
Petitioner relies upon Belden to teach single-action
order entry. Id.
Belden is titled “Simulated Live Market Trading
System” and published on October 4, 1990. Ex. 1012,
(54), (43). Belden discloses an electronic trading system for trading commodities, which has a display with
icons representing active trades. Id. at 26–27.9 Belden
discloses that “[t]rading is done by using the mouse to
move a cursor onto the icon of a trader and pushing a
button, i.e., ‘clicking’ on the icon.” Id. at 12. Belden
discloses that a trader “benefits from the speed with
which he can take or liquidate positions.” Id. at 4.
Petitioner provides rationale for combining the
teachings of Belden with that of TSE. Pet. 36–37, 45–
46, 52–53. Petitioner reasons that a person skilled in
the art “would have been motivated to incorporate
Belden’s single-action order techniques in TSE’s electronic trading system to achieve the predictable and
desirable results of reducing the time needed to place
an order and reduce operator error.” Pet. 37 (citing
We refer to the pagination inserted into Exhibit 1012 and not
the original pagination.

9

App. 124
Ex. 1007 ¶ 90). Petitioner additionally notes that
“Belden provides motivation for the combination.”
Pet. 36 (citing Ex. 1012, 4 (noting the speed benefits)).
Upon review of Petitioner’s evidence and analysis
and taking into account Patent Owner’s arguments
and evidence, discussed below, we determine the Petitioner shows by a preponderance of the evidence
that claims 1 and 23 are unpatentable under 35
U.S.C. § 103 over TSE and Belden. In reaching our
determination, we considered Patent Owner’s argument and evidence of secondary considerations, also
discussed below.
Patent Owner disputes that TSE and Belden
teaches all the limitations of claims 1 and 23 and argues that Petitioner fails to provide any evidence of
motivation to combine Belden and TSE. PO Resp. 24.
First, Patent Owner disputes that TSE and Belden
teaches the “order entry region” and “single action”
limitations. PO Resp. 25–26. Patent Owner argues
that “TSE does not include the claimed ‘order entry
region’ because selecting an area along the alleged
price axis only opens a separate order entry window,
it cannot be used to send orders.” PO Resp. 35 (citing
Ex. 1017, 137). Patent Owner explains that “[b]ecause
of the separate order entry window, TSE does not disclose the claimed ‘order entry region’ and functions of
the claimed ‘graphical areas’ along a price axis.” PO
Resp. 26 (citing Ex. 2169 ¶ 166). With respect to
Belden, Patent Owner argues that Belden does not
suggest the order entry region because “it is completely lacking any showing of a price axis and therefore cannot possibly disclose the claimed order entry
region.” PO Resp. 26. Patent Owner further contends

App. 125
that “even if TSE and Belden were combined in the
manner suggested by Petitioners, one still would not
arrive at the claimed invention because the suggested
combination lacks an ‘order entry region’ as claimed.”
Id. Patent Owner further contends that “Belden does
not show a single action to both set parameters and
send an order from an area that correspond to a price
level along a price axis.” Id. at 26–27.
The problem with Patent Owner’s response is that
it does not address the combined teachings of TSE and
Belden asserted by Petitioner. See In re Merck & Co.,
Inc. 800 F.2d 1091, 1097 (Fed. Cir. 1986) (Non-obviousness cannot be shown by attacking references individually when the ground is predicated upon the
teachings of a combination of references.) Regardless
of whether Belden sends an order message, or executes a trade (as Patent Owner contends), there is no
dispute it does this with a single action command received by a graphical area (clicking on an icon). See,
e.g., Ex. 1012, 12, 33. As noted above, Petitioner’s
challenge proposes modifying TSE to send its orders
based on a “single action,” which is taught by Belden
as explained above. There is no dispute, and we agree,
that TSE teaches sending trade orders. See PO Resp.
25–26 (explaining that in TSE, “selecting an area
along the price axis only opens a separate order entry
window” and “clicking ‘send[]’ to send the order”).
There is also no dispute, and we agree, that TSE
teaches automatically setting a price for the trade order. See Ex. 1017, 137 (“Depending on the place that
is double clicked, the…‘Order Price’…[is] set automatically.”). Petitioner’s proposed modification simply
eliminates opening the separate window used to send
trade orders in TSE and, instead, sends those orders

App. 126
automatically with the single action that was used
previously to open the order entry window. The combined teachings of TSE and Belden provide an order
entry region having the single action features recited
in the claims.
Second, Patent Owner disputes that TSE and
Belden teaches the claimed first and second fixed locations and updating the display of the first and second indicators. PO Resp. 27–29. Patent Owner argues
that “TSE does not disclose that the bid/ask quantity
indicators are updated on the display in scroll mode.”
Id. at 27–28. Patent Owner also argues that “TSE
does not disclose that the user can bring up the new
order entry window while in scroll mode” because “the
scroll mode does not display updated market conditions…and as such a trader would not want to being
the order entry process from a screen that does not
accurately convey market conditions.” Id. at 28–29.
Contrary to Patent Owner’s argument TSE states
that “[t]he principal features relating to the display of
board and quotation information are…[t]he board information on each Board Screen is automatically update[d] even if it has been scrolled vertically.”
Ex. 1017, 91; see also Ex. 1007 ¶ 102 (testimony of
Mr. Román). Patent Owner points to the testimony of
Mr. Abilock, a Japanese translator, to assert that “the
Japanese version of TSE does not make clear whether
this updating occurs in memory only or on screen” and
concludes that a person of ordinary skill in the art
would have understood that the board information is
only updated in memory. PO Resp. 28 (Ex. 2178
¶¶ 20, 23–26). Mr. Abilock is a translator, and his testimony does not sufficiently support Patent Owner’s

App. 127
conclusion as to what would be understood by a person of ordinary skill in the art. See Pet. Reply 16, n. 1.
We, thus, are not persuaded by Patent Owner that
TSE does not permit the user to access the new order
entry window in scroll mode. See Pet. Reply 16–17.
Third, Patent Owner argues that “Petitioners’ purported motivation to combine—that Belden is ‘applicable to all markets’…is misplaced” and that “‘speed’
in Belden refers to instantaneous trade-making of
open outcry pits.” PO Resp. 29–30. Regardless of the
specific type of market to which Belden is related, we
are persuaded that one skilled in the art would have
appreciated that reducing the number of steps required to execute an order would result in a decrease
in the amount of time required to place that order,
and that users in various types of markets would have
appreciated that mitigating the delay between choosing to place an order and placing that order would be
beneficial. Patent Owner also argues that “TSE actually teaches away…by instructing the trader to click
on the board screen to open an entirely separate new
order input window….” PO Resp. 31–32. A reference
teaches away from a claimed invention if it “criticizes,
discredits, or otherwise discourages” modifying the
reference to arrive at the claimed invention. In re Fulton, 391 F.3d 1195, 1201 (Fed. Cir. 2004). A disclosure
of instructing the trader to click on the board screen
to open an entirely separate new order input window
does not discourage modifying TSE to alternatively
using single action order entry.
Patent Owner further alleges that Petitioner is using impermissible hindsight to arrive at the claimed
invention and not from teachings of Belden or TSE.

App. 128
PO Resp. 32. Patent Owner’s argument is not persuasive because it does not address Petitioner’s supporting evidence. As discussed above, we determine that
Petitioner has shown by a preponderance of the evidence that one of ordinary skill in the art would have
combined TSE and Belden. See Pet. 36–37 (citing Ex.
1007 ¶ 90; Ex. 1012, 4). Further, Patent Owner’s own
declarant, Mr. Thomas, indicates that single-action,
as taught by Belden, is a known alternative for order
tickets. See Ex. 1063, 72:7–74:10; Ex. 1008 ¶¶ 19–20.
For the reasons set forth above, we are persuaded
that Petitioner has established, by a preponderance of
the evidence that claims 1 and 23 are taught by the
combination of TSE and Belden, and that one skilled
in the art would have combined those teachings.
4. Claims 2–5, 10, 15, 16, 18, and 21–22
Petitioner additionally challenges claims 2–5, 10,
15, 16, 18, and 21– 22 as being unpatentable over TSE
and Belden. Pet. 73–75, 77–80. We have reviewed Petitioner’s challenges to those claims, which Patent
Owner does not dispute, as well as the evidence supporting those challenges.
We are persuaded by Petitioner’s arguments and
evidence, which we adopt, that the features recited in
those claims are taught by the combination of TSE
and Belden and that one skilled in the art would have
combined those teachings. We determine the Petitioner shows by a preponderance of the evidence that
claims 2–5, 10, 15, 16, 18, and 21–22 are unpatentable
under 35 U.S.C. § 103 over TSE and Belden.

App. 129
5. Claim 6
Claim 6 depends from claim 4 and further recites
“dynamically displaying an entered order indicator in
association with a price level along the price axis,
wherein the entered order indicator represents an order pending at the electronic exchange.” Ex. 1001,
12:56–60.
Petitioner points to the figure on page 107 of TSE,
reproduced above, as showing an entered order indicator. Pet. 55–56. Petitioner argues that the “ask order for a quantity of 5 at a price level of 13023” is an
entered order indictor. Id. at 5 (citing Ex. 1007 ¶ 132).
Upon review of Petitioner’s evidence and analysis
and taking into account Patent Owner’s arguments
and evidence, discussed below, we determine the Petitioner shows by a preponderance of the evidence
that claim 6 is unpatentable under 35 U.S.C. § 103
over TSE and Belden.
Patent Owner disputes that TSE discloses an entered order indicator. PO Resp. 32–33. Patent Owner
argues that there is no display in TSE to represent a
user’s trade order and that “in TSE the bids and asks
at each level of the display represent all of the orders
pending.” Id. Patent Owner’s argument is not persuasive because it is not commensurate with the scope of
the claim. As discussed above, claim 6 does not require the entered order indicators to represent a
user’s trade order.
6. Claims 7–9
Claim 7 depends from claim 6 and further recites
“sending a message to the electronic exchange to de-

App. 130
lete the order represented by the entered order indicator in response to a single action of the user input
device with a pointer of the user input device positioned over the entered order indicator.” Ex. 1001,
12:61–65. Claims 8 and 9 depend from claim 7.
Petitioner argues:
Each of TSE and Belden teaches that traders interact with a GUI on a client device to
“send[] a message to the electronic exchange to
delete” an order. (TSE at 0006-13 (overview of
system, including clients), 0077-80 (clients exchanging messages with central system), 0143
(sending input order to central system), 0155
(canceling orders); Belden 0014-19 (describing
interaction between user terminals and host),
0037 (canceling orders).)
Belden further teaches deleting an order
“represented by the entered order indicator in
response to a single action of the user input device with a pointer of the user input device positioned over the entered order indicator.” Belden
teaches that a trader can cancel an entered order using a mouse by clicking on the order in
the trading arena. (Belden at 0037.) For example, “[t]o cancel a bid in MAR89 bonds” using a
mouse, “point and click on your bid icon for
MAR89 bonds with the mouse.” (Id; see also id.
at 0038 (canceling all bids).)
Thus, both TSE and Belden teach canceling
trade orders. It would have been obvious to a
POSA to implement Belden’s single-action or-

App. 131
der canceling in TSE’s electronic trading system to achieve the predictable and desirable results of reducing the time needed to cancel an
order and of reducing operator error. (Román
Decl. ¶ 136; see also Shneiderman at 0101-02
(desirable to reduce number of operator actions
such as keystrokes).)
Pet. 56–57. Patent Owner disagrees and argues that
“the Petition fails to provide any motivation to combine the single-action deletion [of Belden] with TSE.”
PO Resp. 34.
We are not persuaded by Petitioner’s arguments
and evidence that the combination of TSE and Belden
teaches the limitation of claim 7.10 “In an inter partes
review, the burden of persuasion is on the petitioner
to prove ‘unpatentability by a preponderance of the
evidence,’ 35 U.S.C. § 316(e), and that burden never
shifts to the patentee.” In re Magnum Oil Tools Int’l,
Ltd., 892 F.3d at 1375 (quoting Dynamic Drinkware,
LLC v. Nat’l Graphics, Inc., 800 F.3d 1375, 1378 (Fed.
Cir. 2015). Claim 7 depends from claim 6 and, as discussed above, Petitioner relies upon the buy and ask
quantities on the TSE’s Board Screen depicted in the
As Petitioner notes, we rejected a similar argument by Patent
Owner in CBM2015-00181. Pet. Reply 17–18 (citing Ex. 1060,
52–55). U.S. Patent No. 7,676, 411 B2 (“the ’411 patent”) was the
subject of claim of CBM2015-00181. Ex. 1060, 1. Unlike the
claims here, the claim 9 of the ‘411 patent explicitly required
that the entered order indicator represented a user’s trade order.
Id. at 52. In CBM2015-00181, Petitioner did not cite to TSE’s bid
and ask quantities to teach the entered order indictor but cited
to Belden and argued that it would have been obvious to display
the entered order indicator aligned with the price axis in TSE.
See id. at 52–54. Petitioner does not make this argument here.
10

App. 132
figure on page 107 of TSE to teach the claimed entered order indicator. Pet. 55–5. Petitioner’s argument with respect to claim 7 does not sufficiently explain why one of ordinary skill in art would have modified TSE such that an order can be canceled by a single action of the user input device with a pointer of
the user input device positioned over the buy and ask
quantities on the TSE’s Board Screen depicted in the
figure on page 107. Mr. Román also does not provide
a sufficient explanation. See Ex. 1007 ¶ 136. “To satisfy it burden of proving obviousness, a petitioner cannot employ mere conclusory statements. The petitioner must instead articulate specific reasoning,
based on evidence of record, to support the legal conclusion of obviousness.” In re Magnum Oil Tools Int’l,
Ltd., 892 F.3d at 1380 (citing KSR, 550 U.S. at 418).
We determine the Petitioner fails to show by a preponderance of the evidence that claims 7–9 are unpatentable under 35 U.S.C. § 103 over TSE and
Belden.
7. Claim 11
Claim 11 depends from claim 1 and further recites
“wherein the bid and ask display regions are displayed in a window, the method further comprising
centering the display of the first and second indicators
in the window upon receipt of a centering instruction.” Ex. 1001, 13:12–15.
Petitioner contends that selection of the “home
button [H]” while in the Scroll Screen in TSE teaches
this feature. Pet. 58–60 (citing Ex. 1017, 115–116;
Ex. 1007 ¶ 142). Upon review of Petitioner’s evidence
and analysis and taking into account Patent Owner’s

App. 133
arguments and evidence, discussed below, we determine the Petitioner shows by a preponderance of the
evidence that claims 11 is unpatentable under 35
U.S.C. § 103 over TSE and Belden.
Patent Owner argues that “[t]his is not a manual
re-centering command because it switches between
modes (scroll mode to basic-board mode), also referred
to as a modal shift, [and] returns the user to the basic
Board screen.” PO Resp. 35. Patent Owner contends
that “a [person of ordinary skill in the art] would not
understand this mode switching to be a re-centering
command.” Id. (citing Ex. 2169 ¶ 170).
Patent Owner’s contentions are not persuasive.
There is no dispute, and we agree, that TSE teaches
manual re-centering by switching between modes. See
Ex. 1017, 116 (discussing switching from the “Scrolling Screen” to the “Basic Board Screen” by “[u]se the
mouse to click the ‘H’ (Home) button on the Board
Screen); see also id. at 110 (further explaining operation of the “home button,” noting that “[c]licking [the
home] button with the mouse after the board information has been scrolled causes the screen to return
to the Basic Board Screen, with the board display center price at the center”). The fact that re-centering is
achieved by switching between modes does not
change the fact that this is a re-centering command.
The testimony from Patent Owner’s declarant, Mr.
Thomas, is also unpersuasive because it, too, is not
tied to any requirement in the claims, and instead requires re-centering without changing modes. The
claims simply require “re-centering,” and are silent as
to whether a mode must remain the same. See Ex.
2169 ¶ 170.

App. 134
8. Claims 14, 17, 19, and 20
With respect to dependent claims 14, 17, 19, and
20, Petitioner contends that the combination of TSE
and Belden teaches each limitation of the claims except that the first and second locations of the order
entry region are within a cell and that the areas in the
bid and ask display regions are a cell of a grid. Pet.
67–71. Petitioner contends that TSE suggests that its
Board Screen uses a grid of cells because the figures
on pages 137 and 138 of TSE depicts a cursor in a rectangular region of price columns 11 and 12 but does
not explicitly disclose cells. Id. at 67. Petitioner relies
upon Cooper to teach that it is well known to use a
grid of cells because it allows for objects to neatly line
up. Id. at 68. Petitioner states:
it would have been obvious to a POSA to combine a grid of cells (as disclosed by Cooper) with
TSE’s Board Screen. . . . The combination would
have been nothing more than combining prior
art GUI elements according to known methods
to yield the predictable and desirable result of
aligning or arranging the various number in
the rows and columns of TSE’s Board Screen.
Id. at 68. The testimony of Mr. Román supports Petitioner’s analysis. See Ex. 1007 ¶¶ 161–166.
We are persuaded by Petitioner’s arguments and
evidence, which we adopt, that the features recited in
these claims are taught by the combination of TSE,
Belden, and Cooper and that one skilled in the art
would have combined those teachings. We determine

App. 135
the Petitioner shows by a preponderance of the evidence that claims 14, 17, 19, and 20 are unpatentable
under 35 U.S.C. § 103 over TSE, Belden, and Cooper.
9. Secondary Considerations
As part of our obviousness analysis, we consider
the arguments and corresponding evidence submitted
by Patent Owner regarding secondary considerations
of non-obviousness. See Graham v. John Deere Co.,
383 U.S. 1, 17–18 (1966). To be relevant, evidence of
non-obviousness must be commensurate in scope with
the claimed invention. In re Kao, 639 F.3d 1057, 1068
(Fed. Cir. 2011). There must be a nexus between the
merits of the claimed invention and the evidence of
secondary considerations. In re GPAC Inc., 57 F.3d
1573, 1580 (Fed. Cir. 1995). “Nexus” is a legally and
factually sufficient connection between the objective
evidence and the claimed invention, such that the objective evidence should be considered in determining
non-obviousness. Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988).
Patent Owner contends that “there is a mountain
of objective indicia of non-obviousness that proves the
claimed invention is not obvious.” PO Resp. 43.
a. MD Trader
Patent Owner contends that “MD Trader [is] the
commercial embodiment of the invention” (PO Resp.
45, 56), and refers to MD Trader throughout its discussion of secondary considerations of non-obviousness (id. at 35–78).
“There is a presumption of nexus for objective considerations when the patentee shows that the asserted objective evidence is tied to a specific product

App. 136
and that product ‘is the invention disclosed and
claimed in the patent.” WBIP, LLC v. Kohler Co., 829
F.3d 1317, 1329 (Fed. Cir. 2016). A patent challenger
may rebut the presumption of nexus with evidence
that shows the proffered objective evidence was due
to extraneous factors other than the patented invention. Id.
As Petitioner notes, however, “the [Patent Owner
Response] fails to explain how MD Trader embodies
the claims.” Pet. Reply 20. The only discussion provided in Patent Owner’s Response as to how MD
Trader includes the features recited in the challenged
claims is a general allegation noted above that “MD
Trader [is] the commercial embodiment of the invention…Ex. 2173, ¶¶ 20–23; Ex. 2169, ¶¶ 97, Ex. 2170,
¶¶ 24–31Ex.2169; Ex.2233 (explaining how each
claim element is present in MD Trader).” PO Resp. 56.
Such an incorporation by reference is inappropriate,
as Patent Owner’s Response fails to explain how MD
Trader includes the features of the claims. See 37
C.F.R. § 42.6(a)(3) (“Arguments must not be incorporated by reference from one document into another
document.”); Paper 38, 3–4 (explaining that we will
not consider any arguments that are not adequately
explained in the Patent Owner’s Response).
Nevertheless, and as explained below, Patent
Owner’s contentions regarding secondary considerations fail even if we assume that MD Trader includes
the claim elements.
b. Unrecognized Problems
Patent Owner contends that “[t]he inventive GUI
tool solved problems presented by conventional

App. 137
GUIs,” which “exhibited problems with speed and accuracy.” PO Resp. 46. Patent Owner, however, offers
no persuasive authority for the proposition that “unrecognized problems” is a secondary consideration of
non-obviousness. See id. at 47 (citing Leo Pharm.
Prods., Ltd. v. Rea, 726 F.3d 1346, 1353–54, 1357
(Fed. Cir. 2013)). An inventor’s discovery of a previously unrecognized problem is generally accounted for
in the analysis of the scope of the prior art and a motivation to combine prior art elements, rather than it
being a secondary consideration of non-obviousness.
See Leo Pharm. Prods., 726 F.3d at 1353–54; see also
S. Alabama Med. Sci. Found. v. Gnosis S.P.A., 808
F.3d 823, 827 (Fed. Cir. 2015). We note that Patent
Owner’s contentions regarding “unrecognized problems” are not tied to any of the asserted references or
rationale discussed above with respect to the challenges to claims 1–23 under § 103.
Accordingly, these contentions are not persuasive
of non-obviousness.
c. Unexpected Results
Patent Owner contends that “[u]nexpected superior properties from an invention support the conclusion that the invention was not obvious to a [person of
ordinary skill in the art].” PO Resp. 48 (citing Procter
& Gamble Co. v. Teva Pharm. USA, Inc. 566 F.3d 989,
997 (Fed. Cir. 2009); In re Soni, 54 F.3d 746, 750 (Fed.
Cir. 1995)). As the authority cited by Patent Owner
explains,
[t]he basic principle behind [unexpected results
supporting non-obviousness] is straightforward—that which would have been surprising

App. 138
to a person of ordinary skill in a particular art
would not have been obvious. The principle applies most often to the less predictable fields,
such as chemistry, where minor changes in a
product or process may yield substantially different results.
In re Soni, 54 F.3d at 750.
Patent Owner contends that “[a]lthough the invention achieved Brumfield’s intended benefit of increasing the likelihood that the user would get his/her
desired price, this was not a problem widely appreciated by others.” PO Resp. 48. Patent Owner further
contends that “the invention provided several other
unexpected benefits as well.” Id. This is not persuasive
of “unexpected results.”
Patent Owner does not allege that the GUI operated in some unexpected manner. Indeed, it is hard to
imagine computer code (i.e., a set of instructions) operating in an unexpected manner, particularly when
the ‘786 patent describes the programming associated
with the GUI as insignificant. See, e.g., Ex. 1001,
4:60–67 (explaining that “present invention processes
[price, order, and fill] information and maps it
through simple algorithms and mapping tables to positions in a theoretical grid program” and “[t]he physical mapping of such information to a screen grid can
be done by any technique known to those skilled in
the art”).
Accordingly, we are not persuaded by Patent
Owner’s contentions regarding unexpected results.

App. 139
d. Initial Skepticism
Patent Owner contends that “MD Trader was received with skepticism by TT’s own sales personnel.”
PO Resp. 52 (citing Ex. 2169 ¶¶ 99–100, 103; Ex.
2211, 715:19–716:18; Ex. 2173 ¶¶ 16–19; Ex. 2170
¶¶ 22–28; Ex. 2171 ¶¶ 39–40; Ex. 2173 ¶¶ 16–19). Initially, we reiterate that “[a]rguments must not be incorporated by reference from one document into another document” (37 C.F.R. § 42.6(a)(3)) and arguments not made in the Patent Owner’s Response will
not be considered (Paper 38).
Patent Owner’s arguments related to “initial skepticism” are based primarily on the premise that “a
[person of ordinary skill in the art] would have rejected outright a price axis with relative movement.”
PO Resp. 54. Those contentions are unpersuasive. As
noted above, TSE expressly teaches this feature. To
the extent the other contentions related to “initial
skepticism” are directed to traders simply being resistant to change, generally, those contentions are
also unpersuasive. See, e.g., id. at 54 (discussing profitable traders being hesitant towards any type of
change because change can alter their confidence).
Those contentions are not tied in any meaningful way
to the features of the claims.
That traders would have been resistant to accept
anything different is not persuasive of non-obviousness.
e. Commercial Success
Patent Owner contends that MD Trader “became
a huge commercial success.” PO Resp. 56. As noted
above, Patent Owner does not explain, in its Patent

App. 140
Owner Response, how MD Trader embodies the
claimed invention. Even if MD Trader includes each
feature recited in the claims, “[e]vidence of commercial success…is only significant if there is a nexus between the claimed invention and the commercial success.” Ormco Corp. v. Align Tech., Inc., 463 F.3d 1299,
1311–12 (Fed. Cir. 2006). As explained above, the Patent Owner Response is silent as to any nexus between the alleged commercial success and the claimed
invention. Petitioner argues there is no presumption
of nexus, and that Patent Owner has not established
the requisite nexus. Pet. Reply 19–20. We agree with
Petitioner.
Patent Owner admits that MD Trader is part of a
suite of software and not sold separately. Ex. 1064,
92:11–15. A limited exception to the presumption of
nexus exists where the patented invention is only a
component of the product to which the asserted objective considerations are tied. Demaco, 851 F.2d at
1392. Here, because MD Trader is a component of a
suite of software, Patent Owner enjoys no presumption of nexus. Patent Owner fails to offer any meaningful discussion of nexus in its Patent Owner Response, other than a general assertion at the end of
its discussion that “MD Trader was successful due to
the patented features.” PO Resp. 46. Patent Owner’s
contentions regarding commercial success fail for this
reason alone.
Even if we were to assume nexus, Petitioner persuasively rebuts that presumption. Petitioner responds, for example, that Patent Owner’s increase in
sales could easily have been the result of increases in
the market itself during the relevant time period. Pet.

App. 141
Reply 24. Petitioner explains that “in the U.S., both
the trading volume and the number of actively traded
commodities contracts exploded in the early-to-mid
2000s” and “[t]rading volume increased six-fold; the
number of actively traded contacts increased fivefold.” Id. (citing Ex. 1072, 35–37). Exhibit 1072 is a
document from the Commodity Futures Trading Commission (CFTC), and pages 35–37 support the trading
volume increase alleged by Petitioner.
Petitioner also points to several unclaimed features being responsible for the alleged commercial
success. Pet. Reply 20–21. In support of this contention, Petitioner cites Patent Owner’s own testimony
from traders in the industry (Ex. 2223), noting, for example, that “Ryan…testified that MD Trader’s ability
to display multiple trade windows…was a reason he
used MD Trader,” “Grisafi identified one-click re-centering as a key feature” and “McElveen identified
speed, precision, and one-click re-centering as [] key
features.” Id. (citing Ex. 2223, 3–4, 22, 40). Patent
Owner acknowledges that, “in this industry…anything that is even remotely appreciated as providing
an edge is tried and spreads quickly if successful.” PO
Resp. 56 (emphasis added).
Furthermore, Patent Owner does not provide information regarding sales volume or market share as
compared to providers of competing products. Rather,
Patent Owner only alleges an increase in its own
sales, without reference to the market. See PO Resp.
56–61. This information, without market share information, is only weak evidence, if any, of commercial
success. See In re Applied Materials 692 F.3d at 1299.

App. 142
f. Copying
Patent Owner additionally contends that the invention was widely copied by others. PO Resp. 62–69.
“[C]opying requires the replication of a specific product.” Iron Grip Barbell Co. v. USA Sports, Inc., 392
F.3d 1317, 1325 (Fed. Cir. 2004).
Patent Owner refers to products allegedly including the claimed features, as well as consent judgements where others acknowledged infringement. PO
Resp. 62–69. This is not persuasive evidence of copying. See Iron Grip, 392 F.3d at 1325 (“Not every competing product that arguably falls within the scope of
a patent is evidence of copying. Otherwise every infringement suit would automatically confirm the nonobviousness of the patent.”).
Although Patent Owner repeatedly alleges that
others copied the invention, there is no explanation,
in the Patent Owner Response, to support those alleged copiers attempting to replicate specific products. For example, Patent Owner contends that “Mr.
Deux, founder of licensee NinjaTrader, also acknowledged copying of the invention.” PO Resp. 64 (citing
Ex. 2169 ¶¶ 128–130; Ex. 2247, 210:8–212:25). The
evidence cited by Patent Owner, however, does not
support that contention. For example, the cited portion of Exhibit 2247 is just another example of Patent
Owner alleging copying based on the existence of similar products.
Patent Owner has failed to establish widespread
copying.

App. 143
g. Industry Praise
Patent Owner contends that widespread praise in
the industry also supports non-obviousness. PO Resp.
69–71. In support of its “widespread praise” contentions, Patent Owner notes, for example, that the invention was characterized as a “unique vision,” “ingenious,” “paradigm change,” “revolutionary... not
just an incremental improvement,” “outside of the
box,” “huge innovation,” “significant advance,” “determining factor in our success,” “radically different,”
“far superior,” “very significant departure [from the
prior art],” “invaluable tool,” “stroke of genius,” “so
significant that I cannot put a price on its value.” Id.
at 69–70. Patent Owner proceeds to conclude that
“[e]ach one of these was directed to the claimed features.” Id. at 54.
As with commercial success, however, evidence of
industry praise is only relevant when it is directed to
the merits of the invention claimed. See Ormco, 463
F.3d at 1311. Patent Owner offers no sufficient explanation, in its Patent Owner Response, as to how any
of the alleged praise is due to specific features that
are present in the claims.
h. Industry Acquiescence
Patent Owner contends that non-obviousness is
further shown by “widespread acquiescence and acceptance in the industry, with many licenses and consent judgments acknowledging infringement and validity.” PO Resp. 71–72. Although licenses taken under the patent in suit may constitute evidence of nonobviousness, only little weight can be attributed to
such evidence if the patentee does not demonstrate “a

App. 144
nexus between the merits of the invention and the licenses of record.” In re GPAC Inc., 57 F.3d at 1580
(internal quotation and citations omitted). Furthermore, as Petitioner notes, litigation-induced licensing, alone, does not establish non-obviousness. See
Pet. Reply 26 (citing EWP Corp. v. Reliance Universal
Inc., 755 F.2d 898, 907–8 (Fed. Cir. 1985)).
We note that Patent Owner’s contention regarding
licensing to traders is more related to commercial success than licensing in the context of secondary considerations of non-obviousness. See PO Resp. 71 (discussing traders purchasing software licenses, the MD
Trader product).
i. Failure of Others
Patent Owner additionally contends that the alleged failure of others to make the invention supports
non-obviousness. PO Resp. 72–75. Patent Owner’s
contentions on this issue are not directed to any particular attempt and failure of others to make the
claimed invention. See id. Indeed, it is difficult to image that would be the case with the claimed invention,
as the ‘768 patent explains that there is nothing special about the programming required. Ex. 1001, 4:60–
67.
Rather, Patent Owner’s contentions are directed
to the allegation that the claimed invention did not
exist before arrived at by Patent Owner. PO Resp. 72–
75. This does not establish non-obviousness. Iron
Grip, 392 F.3d at 1325 (“Absent a showing of long-felt
need or the failure of others, the mere passage of time
without the claimed invention is not evidence of nonobviousness.”). Patent Owner does not allege any

App. 145
long-felt need existed. In fact, Patent Owner advances
the opposite position, that the problem was not even
recognized by others. See PO Resp. 74 (“Prior to the
invention, [persons of ordinary skill in the art] failed
to even appreciate the problems.”).
j. Other Evidence
Patent Owner additionally cites another party’s
attempt to invalidate the ’768 patent as evidence of
non-obviousness. PO Resp. 75–76. Patent Owner concludes that party’s “actions show that experts in the
field recognized that prior art, including the TSE, was
insufficient to render the invention obvious.” Id. at 76.
We are apprised of no persuasive reason as to why
those contentions establish non-obviousness in this
proceeding.
k. Weighing Secondary Considerations
As explained above, Patent Owner has not established the majority of its alleged secondary considerations of non-obviousness. Weighing the evidence before us, Patent Owner’s contentions regarding secondary considerations of non-obviousness do not outweigh the strong case of obviousness discussed above.
For example, as noted above, TSE teaches each feature of claim 1 other than the “single action” setting
and sending, which is taught by Belden. As noted
above, Belden itself, for example, provides motivation
for the proposed modifications to TSE (e.g., increased
speed).
Accordingly, we are persuaded that Petitioner has
established, by a preponderance of the evidence, that
claims 1–6 and 10–23 are unpatentable under 35
U.S.C. § 103.

App. 146
E. Motions to Exclude
1. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1016
(TSE) and Exhibit 1017 (TSE Translation). Paper 48
(“PO MTE”). Patent Owner seeks to exclude Exhibits
1016 and 1017 because they have not been authenticated per rule 901 of the Federal Rules of Evidence
(FRE). PO MTE 1. Patent Owner further argues that
Exhibit 1017 should be excluded under FRE 106 and
403 because it is incomplete and misleading. Id.
First, Patent Owner argues that Petitioner fails to
sufficiently authenticate Exhibits 1016 and 1017 as
required by FRE 901. PO MTE 2–5; PO MTE Reply
1–4. Petitioner relies upon the testimony of Mr. Kawashima11 to authenticate Exhibits 1016 and 1017.
PO MTE Opp. 1–10 (citing Exs. 1019, 2163). Patent
Owner argues that the November 2005 deposition of
Mr. Kawashima (Ex. 1019) does not sufficiently authenticate Exhibits 1016 and 1017 for many of the
same reasons discussed above with respect to the public accessibility of TSE.
Patent Owner’s argument is not persuasive. Patent Owner has not met its burden to show that either
Exhibit 1016 or Exhibit 1017 should be excluded from
the record. For the same reasons as discussed above,
Patent Owner’s arguments are unpersuasive. As Petitioner argues, Mr. Kawashima’s testimony sufficiently establishes the authenticity. See PO MTE
Opp. 3–10.
Patent Owner argues that the November 2005 deposition testimony of Mr. Kawashima’s (Exhibit 1019) is hearsay. MTE 2.
Patent Owner, however, does not move to exclude Exhibit 1019.
11

App. 147
Accordingly, we deny Patent Owner’s Motion to
Exclude with respect to Exhibits 1016 and 1017.
Second, Patent Owner argues Exhibit 1017 is inadmissible under FRE 106 and 403 because it is incomplete and misleading. PO MTE 5–6; PO MTE Reply 4–5. Patent Owner argues that Exhibit 1017
“omit[s] two translator’s notes from Patent Owner’s
original translation.” Id. (citing Ex. 2178, 39–40).
Patent Owner’s argument is not persuasive. FRE
106 provides that:
If a party introduces all or part of a writing or
recorded statement, an adverse party may require the introduction, at that time, of any
other part —or any other writing or recorded
statement — that in fairness ought to be considered at the same time.
As Petitioner points out, “rather than providing a basis for excluding evidence, Fed. R. Evid. 106 is a vehicle for entry of additional evidence.” Here, the two
translator’s notes from Patent Owner’s original translation already appear in the record. Ex. 2178, 39–40.
FRE 403 provides:
The court may exclude relevant evidence if its
probative value is substantially outweighed by
a danger of one or more of the following: unfair
prejudice, confusing the issues, misleading the
jury, undue delay, wasting time, or needlessly
presenting cumulative evidence.
Patent Owner has not met its burden to show Exhibit 1017 should be excluded from the record under
FRE 304. Patent Owner asserts that Exhibit 1017

App. 148
should be excluded but does not provide a sufficient
explanation why the probative value is substantially
outweighed by being misleading. See PO MTE 5–6.
Here, the two translator’s notes from Patent Owner’s
original translation already appear in the record (Ex.
2178, 39–40) and we are capable of assigning the appropriate weight to Exhibit 1017.
Accordingly, we deny Patent Owner’s Motion to Exclude with respect to Exhibits 1017 for these additional reasons.
2. Petitioner’s Motion to Exclude
Petitioner moves to exclude various ones of Patent
Owner’s Exhibits. Paper 44. Because the outcome of
this trial does not change based on whether or not we
exclude those exhibits, we dismiss Petitioner’s Motion
to Exclude as moot.
III. CONCLUSION
For the foregoing reasons, we determine that Petitioner has shown, by a preponderance of the evidence,
that claims 1–23 of the ‘768 patent are unpatentable.
IV. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that claims 1–23 of the ’768 are unpatentable;
FURTHER ORDERED that Patent Owner’s Motion to Exclude Evidence is denied;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence is dismissed; and

App. 149
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

App. 150
UNITED STATES PATENT AND
TRADEMARK OFFICE
___________

BEFORE THE PATENT TRIAL
AND APPEAL BOARD
___________

IBG LLC,
INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
___________

Case CBM2016-00090
Patent 7,725,382 B2
___________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and JEREMY M. PLENZLER, Administrative
Patent Judges.
PETRAVICK, Administrative Patent Judge.
FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 382(a) and 37 C.F.R. § 42.73

App. 151
I. INTRODUCTION
A. Background
IBG LLC, Interactive Brokers, LLC, TradeStation
Group, Inc., and TradeStation Securities, Inc. (collectively, “Petitioner”), filed a Petition requesting covered business method patent review of claims 1–32 of
U.S. Patent No. 7,725,382 B2 (Ex. 1001, “the ’382 patent”). Paper 5 (“Pet.”). Trading Technologies International, Inc. (“Patent Owner”) did not file a Preliminary Response.
On December 9, 2016, pursuant to 35 U.S.C. § 324,
we instituted a covered business method patent review on the following grounds:
Ground Prior Art
§ 101
n/a
§ 103
TSE1 and
Belden2

Challenged Claims
1–32
1–32

Paper 11 (“Institution Decision” or “Inst. Dec.”).
Thereafter, Trading Technologies International,
Inc. (“Patent Owner”) filed a Patent Owner’s Response on February 27, 2017 (Paper 19, “PO. Resp.”)
and Petitioner filed a Reply (Paper 38, “Pet. Reply”)
to Patent Owner’s Response.

TOKYO STOCK EXCHANGE OPERATION SYSTEM DIVISION, FUTURES/OPTION PURCHASING SYSTEM TRADING TERMINAL OPERATION GUIDE (1998) (Ex. 1004). Citations to this reference refer to

1

its English translation (Ex. 1005).
PCT Pub. No. WO 90/11571, pub. Oct. 4, 1990 (Ex. 1008).

2

App. 152
Petitioner filed a Motion to Exclude (Paper 43) and
Patent Owner filed an Opposition (Paper 49) to Patent Owner’s Motion. Petitioner filed a Reply (Paper
51) in support of its Motion.
Patent Owner filed a Motion to Exclude (Paper 46)
and Petitioner filed an Opposition (Paper 48) to Patent Owner’s Motion. Patent Owner filed a Reply (Paper 52) in support of its Motion.
We held a hearing of this case on August 10, 2017.
Paper 55 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written Decision is issued pursuant to 35 U.S.C.
§ 328(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–32 are
patent ineligible under 35 U.S.C. § 101 and Petitioner
has not shown by a preponderance of the evidence
that claims 1–32 are unpatentable under 35 U.S.C.
§ 103 over TSE and Belden.
B. Related Proceedings
The ’382 patent is the subject of numerous related
U.S. district court proceedings. Pet. 2; Paper 8, 1–5.
The application that issued as the ’382 patent ultimately claims, under 35 U.S.C. § 320, the benefit of
application 09/590,692, that issued as U.S. Patent No.
6,772,132 (“the ’132 patent”). Ex. 1001, (63). The ’132
patent was the subject of Trading Technologies International, Inc., v. CQG, Inc., 675 Fed. Appx. 1001 (Fed.
Cir. 2017) (“CQG”). The Federal Circuit determined
that the claims of the ’132 patent are patent eligible
under 35 U.S.C. § 101. The ’132 patent was also the

App. 153
subject of petitions for covered business method patent review in TD Ameritrade Holding Corp. v. Trading Technologies International, Inc., CBM2014-00135
(PTAB), CQG, Inc. v. Trading Technologies International, Inc., CBM2015-00058 (PTAB), and IBG LLC v.
Trading Technologies International, Inc., CBM201500182 (PTAB). Trial was instituted, but later terminated due to settlement, for CBM2014-00135. Institution was denied for CBM2015-00058. Institution was
granted for CBM2015-00182.
Numerous other patents are related to the ’382 patent and the related patents are or were the subject of
numerous petitions for covered business method patent review and reexamination proceedings. See Pet.
2; Paper 8, 1–7.
C. The ’382 Patent
The ’382 patent is titled “Click Based Trading with
Intuitive Grid Display of Market Depth.” Ex. 1001,
(54). The ’382 patent describes a display, named the
“Mercury” display, and method of using the display to
trade a commodity. Id. at Abstract, 3:12–16.
Before turning to a discussion of the Mercury display, a discussion of a conventional method of trading
using a GUI is helpful. Figure 2 of the ’382 patent is
reproduced below.

App. 154

Figure 2 of the ’382 patent depicts a common GUI
(“the Fig. 2 GUI”) that displays market information
and is used to place trade orders for a commodity on
an electronic exchange. Id. at 5:15–20, Fig. 2; see also
PO Resp. 2–3 (describing the Fig. 2 GUI as “widely
used”); Ex. 1025 ¶ 21 (describing the Fig. 3 GUI as a
common dynamic screen); Ex. 2169 ¶¶ 61– 62, 67, 69
(describing the Fig. 2 GUI as “ubiquitous by the time
of the invention” and “prevalent”). As can be seen
from the above, the Fig. 2 GUI’s screen has a grid having columns and rows. Row 1 shows the inside market. Ex. 1001, 5:19–21. The inside market is the highest bid price and the lowest ask price. Id. at 4:21–23.
Rows 2–5 show the market depth, which are other
bids or asks in the market. Id. at 4:23–24. The market
information updates dynamically as the market updates. Id. at 5:31–32. The inside market, however, is
always displayed in row 1, a fixed location. Ex. 2169
¶¶ 54, 56.
In the Fig. 2 GUI, “the user could place an order
by clicking on a location (e.g., a cell) in one of the price
or quantity columns.” Ex. 2169 ¶¶ 58–59. Patent
Owner’s declarant Christopher Thomas testifies that

App. 155
“[s]ome of such dynamic screens permitted single action order entry that consisted of a trader pre-setting
a default quantity and then click (e.g., using a singleclick or a double-click) on a dynamic screen to cause a
trade order to be sent to the exchange at the pre-set
quantity.” Ex. 1024 ¶ 7; Ex. 1025 ¶ 20.
Other types of conventional trading GUIs used order entry tickets to send trade orders to an electronic
exchange. Ex. 2169 ¶ 50. An order entry ticket is “in
the form of a window, with areas in which the trader
could fill out parameters for an order, such as the
price, quantity, an identification of the item being
traded, buy or sell, etc.” Id.; see also Ex. 1001, 2:23–
27, 2:39–43 (describing a trader manually entering
trade order parameters).
The Mercury display is depicted in Figure 3 of the
’382 patent, which is reproduced below.

App. 156

Figure 3 of the ’382 patent illustrates an example
of the Mercury display with example values for trading a commodity including prices, bid and ask quantities relative to price, and trade quantities. The Mercury display includes a plurality of columns. Column
1005 is a static price axis, which includes a plurality
of price values for the commodity. See id. At 7:59–61.
Columns 1003 and 1004 are aligned with the static

App. 157
price axis and dynamically display bid and ask quantities, respectively, for the corresponding price values
of the static price axis. See id. at 7:58–59. The ’382
patent explains that “[t]he exchange sends the price,
order and fill information to each trader on the exchange” and that “[t]he physical mapping of such information to a screen grid can be done by any technique known to those skilled in the art.” Id. at 4:66–
5:6. Column 1002 contains various parameters and
information used to execute trades, such as the default quantity displayed in cell 1016. See id. at 8:41–
66. A trader executes trades using the Mercury display by first setting the desired commodity and default parameters, such as default quantity. See id. at
9:41– 44; Fig. 6, step 1302. Then, a trader can send a
buy order or sell order to the market with a single action, such as clicking on the appropriate cell in column
1003 or 1004. See id. at 9:44–10:20; Fig. 6, steps 1306–
1315.
Column 1001 displays the trader’s orders and the
order status. Id. at 8:26–28. For example,
in cells 1008, the number next to the B indicates the number of the trader’s ordered lots
that have been bought at the price in the specific row. The number next to the W indicates
the number of the trader’s ordered lots that are
in the market, but have not been filled—i.e., the
system is working on filling the order.
Id. at 8:35–40. A trader can cancel an order by clicking on cell 1008. See id. at 11:19–32.

App. 158
D. Illustrative Claim
Claims 1 and 17 are independent. Claim 1 is illustrative of the claimed subject matter and is reproduced below:
1. A method of canceling an order entered for a
commodity at an electronic exchange, the
method comprising:
receiving data relating to the commodity from
the electronic exchange, the data comprising an
inside market with a current highest bid price
and a current lowest ask price currently available for the commodity;
setting a trade order parameter;
dynamically displaying by a computing device a
first indicator at a first area corresponding to a
first price level along a static price axis, the
first indicator being associated with the current
highest bid price for the commodity;
dynamically displaying by the computing device a second indicator at a second area corresponding to a second price level along the static
price axis, the second indicator being associated
with the current lowest ask price for the commodity;
updating the dynamic display of the first and
second indicators such that at least one of the
first and second indicators is moved relative to
the static price axis to a different area corresponding to a different price level along the
static price axis in response to the receipt of
new data representing a new inside market;

App. 159
displaying by the computing device an order entry region comprising a plurality of areas, each
area corresponding to a price level along the
static price axis and each area being selectable
by a user input device so as to receive a command to send an order message based on the
trade order parameter and the price level that
corresponds with the selected area to the electronic exchange;
displaying by the computing device an entered
order indicator at a location corresponding to a
particular price level along the static price axis,
the entered order indicator being associated
with an order entered at the electronic exchange at the particular price level; and
receiving a single action command that selects
the location associated with the entered order
indicator so as to cancel the order at the electronic exchange.
Ex. 1001, 12:20–58.
II. ANALYSIS
A. Claim Construction
In a covered business method patent review, claim
terms are given their broadest reasonable interpretation in light of the specification in which they appear
and the understanding of others skilled in the relevant art. See 37 C.F.R. § 42.300(b); Cuozzo Speed
Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–46 (2016)
(upholding the use of the broadest reasonable interpretation standard). Applying that standard, we interpret the claim terms of the ’382 patent according to
their ordinary and customary meaning in the context

App. 160
of the patent’s written description. See In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Any special definitions for claim terms must be set
forth with reasonable clarity, deliberateness, and precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir.
1994).
“single action”
Claims 1 and 17 both recite “receiving a single action command that selects the location associated
with the entered order indicator.” Ex. 1001, 12:56–58,
14:55–57.
Petitioner contends that “single action” should be
construed to be “any action by a user within a short
period of time, whether comprising one or more clicks
of a mouse button or other input device” as defined in
the specification of the ’382 patent. Pet. 17–18 (quoting Ex. 1001, 4:21–25).
Patent Owner states that Petitioner’s proposed
construction “is sufficient for these proceedings so
long as the construction is limited to ‘an action by a
user…’ or ‘one action by a user…’ because the claim
itself specifically identifies that the action be a ‘single’
action.” PO Resp. 8 (emphasis omitted). Patent Owner
argues that any other construction would not be reasonable because it would be contrary to the specification and the plain and ordinary meaning. Id.
A patentee may rebut the presumption that claim
terms have ordinary and customary meaning by
providing a definition of the term in the specification
with reasonable clarity, deliberateness, and precision.
In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). As
Petitioner points out, the ’382 patent provides such a

App. 161
definition. Pet. 17–18. The specification of the ’382 patent states:
the specification refers to a single click of a
mouse as a means for user input and interaction with the terminal display as an example of
a single action of the user. While thus describes
a preferred mode of interaction, the scope of the
present invention is not limited to the use of a
mouse as the input device or to the click of a
mouse button as the user’s single action. Rather, any action by a user within a short period
of time, whether comprising one or more clicks
of a mouse button or other input device, is considered a single action of the user for the purposes of the present invention.
Ex. 1001, 4:15–25 (emphasis added). As can be seen
from the above, the ’382 patent defines “single action,”
with reasonable clarity, deliberateness, and precision,
as “any action by a user within a short period of time,
whether comprising one or more click of a mouse button or other input device.” Id. We, thus, construe “single action” according to its definition in the ’382 patent. In re Paulsen, 30 F.3d at 1480.
Patent Owner’s proposed construction is inconsistent with the definition in the ’382 patent. The definition explicitly states that more than one click of a
mouse button by a user is considered a “single action”
for the purposes of the present invention. Ex. 1001,
4:15–21.
For the reasons given above, we construe “single
action” to mean “any action by a user within a short
period of time, whether comprising one or more clicks

App. 162
of a mouse button or other input device” (Ex. 1001,
4:21–25).
Other Terms
We do not need to construe explicitly any other
claim terms in order to resolve the issue before us.
Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d
795, 803 (Fed.Cir.1999) (Only terms which are in controversy need to be construed, and then only to the
extent necessary to resolve the controversy.)
B. Covered Business Method Patent
Section 18 of the AIA3 provides for the creation of
a transitional program for reviewing covered business
method patents. Section 18 limits review to persons
or their privies who have been sued or charged with
infringement of a “covered business method patent,”
which does not include patents for “technological inventions.” AIA §§ 18(a)(1)(B), 18(d)(1); see 37 C.F.R.
§ 42.302.
In compliance with 37 C.F.R. § 42.302(a), Petitioner certifies that it has been sued for infringement
of the ’382 patent. Pet. 3. Patent Owner does not dispute this. See generally PO Resp.
Whether the ’382 Patent is a CBM Patent
Under § 18(a)(1)(E) of the AIA, we may institute a
transitional review proceeding only for a CBM patent.
A CBM patent is a patent that “claims a method or
corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or
Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 329 (2011) (“AIA”).

3

App. 163
service, except that the term does not include patents
for technological inventions.” AIA § 18(d)(1); see also
37 C.F.R. § 42.301 (defining “[c]overed business
method patent” and “[t]echnological invention”). To
determine whether a patent is eligible for a covered
business method patent review, the focus is on the
claims. Secure Axcess, LLC v. PNC Bank N.A., 848
F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims, in
the traditional patent law sense, properly understood
in light of the written description, that identifies a
CBM patent.”). One claim directed to a CBM is sufficient to render the patent eligible for CBM patent review. See id. at 1381 (“[T]he statutory definition of a
CBM patent requires that the patent have a claim
that contains, however phrased, a financial activity
element.”).
In our Institution Decision, we determined that
the Petitioner had shown that the ’382 patent is a
CBM patent. Inst. Dec. 9–12. Patent Owner urges us
to reconsider our determination and find that the ’382
patent is not eligible for CBM review. See PO Resp.
88–89. We, however, are not apprised of any sufficient
reason to change our original determination.
Method or Corresponding Apparatus for Performing
Data Processing or Other Operations Used in the
Practice, Administration or Management of a
Financial Product or Service”
The statute defines a “covered business method
patent” as “[a] patent that claims a method or corresponding apparatus for performing data processing or
other operations used in the practice, administration,
or management of a financial product or service.” AIA

App. 164
§ 18(d)(1); see 37 C.F.R. § 42.301(a). A covered business method patent can be broadly interpreted to encompass patents claiming activities that are financial
in nature. Transitional Program for Covered Business
Method Patents—Definitions of Covered Business
Method Patent and Technological Invention, 77 Fed.
Reg. 48734, 48735 (Aug. 14, 2012); Blue Calypso, LLC
v. Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir.
2016) (determining that a patent was a covered business method patent because it claimed activities that
are financial in nature); Unwired Planet, LLC v.
Google, Inc., 841 F.3d 1376, n. 5 (Fed. Cir. 2016) (stating that “we endorsed the ‘financial in nature’ portion
of the standard as consistent with the statutory definition of ‘covered business method patent’ in Blue Calypso”), Versata Development Group, Inc. v. SAP
America, Inc., 793 F.3d 1306, 1324–25 (Fed. Cir.
2015) (“[The statute] on its face covers a wide range
of finance-related activities.”).
A patent need have only one claim directed to a
covered business method to be eligible for review.
77 Fed. Reg. at 48,736 (Response to Comment 8). We
take claim 1 as representative.
Petitioner asserts that claim 1 is directed to a covered business method because it recites “a method of
canceling an order entered for a commodity at an electronic exchange,” which is financial in nature. Pet. 4–
5. As Petitioner points out, claim 1 recites steps displaying market information, including indicators of
bids and asks in the market and sending a cancellation order to an electronic trading exchange. Pet. 4–5;
Ex. 1001, 12:20–58.

App. 165
Displaying market information and cancelling a
trade order to an electronic exchange are activities
that are financial in nature. A method for cancelling
an order for a commodity on an electronic exchange is
a method for performing data processing or other operations used in the practice, administration, or management of a financial product or service.
Patent Owner does not dispute that the ’382 patent claims a method used for a financial product or
service, but does dispute that the ’382 patent claims
data processing. See PO Resp. 88–89. Patent Owner’s
argument is based upon the assumption that “data
processing” in the statute is interpreted according to
the definition of “data processing” found in the glossary for class 705 of the United States Patent Classification System. See id. at 88. Patent Owner, however,
does not sufficiently explain why this definition is
controlling, as opposed to the plain meaning of “data
processing.” See Pet. 10–11 (quoting definitions of
“data processing”). We, thus, are not persuaded that
“data processing” as recited by the statute precludes
data processing for the purpose of displaying the data.
The ’382 patent discloses processing market information for display on a client terminal and for sending an order to an exchange. See e.g., Ex. 1001, 4:66–
5:5 (“The present invention processes this information and maps it through simple algorithms and
mapping tables to positions in a theoretical grid program…). We, thus, are not persuaded that the ’382
patent does not claim “performing data processing…
used in the practice, administration, or management
of a financial product or service” (AIA § 18(d)(1)).

App. 166
In any event, the statute does not limit CBM patents to only those that claim methods for performing
data processing used in the practice, administration,
or management of a financial product or service. It includes methods for performing “other operations”
used in the practice, administration, or management
of a financial product or service. The statute states
that the “other operations” are those that are “used in
the practice, administration, or management of a financial product or financial service.” AIA § 18(d)(1).
There appears to be no disagreement that the claimed
method steps are operations used in the practice, administration, or management of a commodity or trading a commodity on an electronic exchange, e.g., a financial service. See generally PO Resp. 88–89. The
’382 patent, therefore, at least claims “other operations used in the practice, administration, or management of a financial product or financial service” (AIA
§ 18(d)(1)).
Patent Owner contends that the Legislative History confirms that the claimed invention is not a covered business method because “it [] states that GUI
tools for trading are not the types of inventions that
fall within CBM jurisdiction.” PO Resp. 90 (citing Ex.
2126, S5428, S5433).
Although the legislative history includes statements that certain novel software tools and graphical
user interfaces that are used by the electronic trading
industry worker are not the target of § 18 of the AIA
(see Ex. 2126, S5428, S5433), the language of the AIA,
as passed, does not include an exemption for user interfaces for commodities trading from covered business method patent review. Indeed, “the legislative

App. 167
debate concerning the scope of a CBM review includes
statements from more than a single senator. It includes inconsistent views….” Unwired Planet, 841
F.3d at 1381. For example, in contrast to the statements cited by Patent Owner, the legislative history
also indicates that “selling and trading financial instruments and other securities” is intended to be
within the scope of covered business method patent
review. See Ex. 2126, S5432 (statements of Sen.
Schumer); see also id. at S54636–37 (statements of
Sen. Schumer expressing concern about patents
claiming “double click”), 157 Cong. Rec. S1360 at
S1364 (Mar. 8, 2011) (statements of Sen. Schumer explain that “method or corresponding apparatus” encompasses “graphical user interface claims” and “sets
of instructions on storage media claims.”) “[T]he legislative history cannot supplant the statutory definition actually adopted…. The authoritative statement
of the Board’s authority to conduct a CBM review is
the text of the statute.” Unwired Planet, 841 F.3d at
1381. Each claimed invention has to be evaluated individually to determine if it is eligible for a CBM patent review. A determination of whether a patent is
eligible for a CBM patent review under the statute is
made on a case-by-case basis. 37 C.F.R. § 42.301(b).
For the reasons stated above, we are persuaded by
Petitioner that the ’382 patent “claims a method or
corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or
service” and meets that requirement of § 18(d)(1) of
the AIA.

App. 168
Exclusion for Technological Inventions
Even if a patent includes claims that would otherwise be eligible for treatment as a covered business
method, review of the patent is precluded if the claims
cover only “technological invention[s],” as defined by
37 C.F.R. § 42.301(b). The definition of “covered business method patent” in § 18(d)(1) of the AIA does not
include patents for “technological inventions.” To determine whether a patent is for a technological invention, we consider the following: “whether the claimed
subject matter as a whole [(1)] recites a technological
feature that is novel and unobvious over the prior art;
and [(2)] solves a technical problem using a technical
solution.” 37 C.F.R. § 42.301(b). Both prongs must be
satisfied in order for the patent to be excluded as a
technological invention. See Versata, 793 F.3d at
1326–27; Apple Inc. v. Ameranth, Inc., 842 F.3d 1229,
1240 (Fed. Cir. 2016). The following claim drafting
techniques, for example, typically do not render a patent a “technological invention”:
(a)
Mere recitation of known technologies,
such as computer hardware, communication or
computer networks, software, memory, computer-readable storage medium, scanners, display devices or databases, or specialized machines, such as an ATM or point of sale device.
(b)
Reciting the use of known prior art technology to accomplish a process or method, even
if that process or method is novel and non-obvious.

App. 169
(c)
Combining prior art structures to
achieve the normal, expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012). The Federal Circuit has held that a claim does not include a “technological feature” if its “elements are nothing more than
general computer system components used to carry
out the claimed process.” Blue Calypso, 815 F.3d at
1341; see also Versata, 793 F.3d at 1327 (“the presence
of a general purpose computer to facilitate operations
through uninventive steps does not change the fundamental character of an invention”).
With respect to the first prong, Petitioner contends
that rather than reciting a technical feature that is
novel or unobvious over the prior art, the claims of the
’382 patent generally recite trading software that is
implemented on a conventional computer. Pet. 6–8.
When addressing “whether the claimed subject matter as a whole recites a technological feature that is
novel and unobvious over the prior art,” Patent
Owner alleges that Petitioners fail to address
whether the claims recite a technical feature that is
novel and unobvious. PO Resp. 89. That is incorrect.
See Pet.6–8; Inst. Dec. 11 (discussing Petitioner’s contention).
We are persuaded by Petitioner’s contentions that
at least claim 1 of the ’382 patent does not recite a
novel and non-obvious technological feature. Pet. 6–8.
The specification of the ’382 patent treats as wellknown all potentially technological aspects of the
claims. For example, the ’382 patent discloses that its
system can be implemented “on any existing or future

App. 170
terminal or device” (Ex. 1001, 4:11–14), each of which
is known to include a display, and discloses that the
input device can be a mouse (id. at 4:18–21), which is
a known input device. The ’382 patent further discloses that “[t]he scope of the present invention is not
limited by the type of terminal or device used.” Id. at
4:14–15. The ’382 patent also describes the programming associated with the GUI as insignificant. See,
e.g., id. at 4:67– 5:7 (explaining that the “present invention processes [price, order, and fill] information
and maps it through simple algorithms and mapping
tables to positions in a theoretical grid program” and
“[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art”). That at least claim 1 of the
’382 patent does not recite a novel and non-obvious
technological feature is further illustrated by our discussion of the prior art and Fig. 2 GUI above. Accordingly, we are persuaded that at least claim 1 does not
recite a technological feature that is novel and unobvious over the prior art.
With respect to the second prong, Petitioner asserts that the claims of the ’382 patent do not fall
within § 18(d)(1)’s exclusion for “technological inventions” because the ’382 patent does not solve a technical problem using a technical solution. Pet. 8–9. Petitioner notes that “[a]ccording to the ’382 patent, the
‘problem’ with prior art trading GUIs was that the
market price could change before a trader entered a
desired order, causing the trader to ‘miss his price.’”
Id. at 8 (citing Ex. 1001, 2:61–3:2). Petitioner contends that the ’382 patent’s solution is not technical
because Patent Owner “merely [] rearrange[d] the
way that the market date is displayed” and “did not

App. 171
design a more accurate mouse or a computer that responded faster.” Id. at 8–9. Patent Owner disagrees
and asserts that the ’382 patent solves the technical
problems of “a user missing their intended price,
along with the problems of visualizing information in
multiple windows, and managing entered orders.” PO
Resp. 89–90. Patent Owner points to CQG for support. Id.
We are persuaded that the ’382 patent does not
solve a technical problem with a technical solution.
Pet. 8–9. The ’382 patent purports to solve the problem of a user missing an intended price because a
price changed as the user tried to enter a desired order. See Ex. 1001, 2:2–62. As written, claim 1 requires
the use of only known technology. Given this, we determine that at least claim 1 does not solve a technical
problem using a technical solution and at least claim
1 does not satisfy the second prong of 37 C.F.R.
§ 42.301(b).
The ’382 patent describes the problem it solves as
follows:
[A]pproximately 80% [of the total time it
takes to place an order] is attributable to the
time required for the trader to read the prices
displayed and to enter a trade order. The present invention provides a significant advantage
during the slowest portion of the trading cycle—while the trader manually enters his order….
In existing systems, multiple elements of an
order must be entered prior to an order being
sent to market, which is time consuming for the

App. 172
trader. Such elements include the commodity
symbol, the desired price, the quantity and
whether a buy or sell order is desired. The more
time a trader takes entering an order, the more
likely the price on which he wanted to bid or
offer will change or not be available in the market…. In such liquid markets, the prices of the
commodities fluctuate rapidly. On a trading
screen, this results in rapid changes in the
price and quantity fields within the market
grid. If a trader intend to enter an order at a
particular price, but misses the price because
the market prices moved before he could enter
the order, he may lose hundreds, thousands,
even millions of dollars. The faster a trader can
trade, the less likely it will be that he will miss
his price and the more likely he will make
money.
Ex. 1001, 2:40–3:2 (emphasis added). “The inventors
have developed the present invention which overcomes the drawbacks of the existing trading systems
and dramatically reduces the time it takes for a trader
to place a trade when electronically trading on an exchange.” Id. at 3:6–9.
As can be seen from the above, a problem disclosed
in the ’382 patent is the time it takes for a trader to
manually enter trader orders on a market or exchange that is rapidly changing, so as to make a
profit. This is a financial issue or a business problem,
not a technical problem. See Pet. 5–7. If the market or
exchange did not rapidly change, then there would be
no need for a trader to enter orders rapidly.

App. 173
The ’382 patent also describes that “the present invention ensure[s] fast and accurate execution of
trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuate.” Ex. 1001, 7:21–24. Claim 1, however, does not require displaying the market depth.
See id. at 12:26–12:36. Claim 1 only requires displaying a first indicator that represents a quantity associated with the highest bid price and a second indicator
that represents a quantity associated with the lowest
ask price. Id. In other words, claim 1 only requires
displaying indicators that correspond to the inside
market. See also id. at 5:8–14 (disclosing displaying
on the inside market and not the market depth). The
subject matter of claim 1, thus, does not require the
alleged technical solution to the problem of ensuring
fast and accurate trades.
The ’382 patent also describes that the Mercury
display “provides an order entry system, market grid,
and fill window and summary of market orders in one
simple window” and that “such a condensed display
materially simplifies the trading system by entering
and tracking trades in an extremely efficiently manner.” Id. at 7:42–46. Claim 1 only requires displaying
the inside market and an entered order indicator, and
does not require displaying the inside market or entered order indicator in “one simple window.” See id.
at 12:26–12:36. Displaying market information is not
a technical problem and, for the same reasons as discussed above, claim 1 does not recite a technical solution.

App. 174
We are persuaded by Petitioner that at least
claim 1 does not recite a technological feature that is
novel and unobvious over the prior art and does not
solve a technical problem using a technical solution.
Accordingly, we determine that the ’382 patent is not
for a technological invention.
Conclusion
In view of the foregoing, we conclude that the ’382
patent is a covered business method patent under AIA
§ 18(d)(1) and is eligible for review using the transitional covered business method patent program.
C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–32 as directed to
patent-ineligible subject matter under 35 U.S.C.
§ 101. Pet. 19–36.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four statutorily provided categories of patent-eligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d
709, 713–14 (Fed. Cir. 2014).
Initially, we note that Petitioner asserts that
claims 17–32 are “broad enough to encompass a transitory, propagating signal that is encoded, which is
not eligible for patenting.” Pet. 36 (citing In re
Nuijten, 550 F.3d 1346, 1357 (Fed. Cir. 2007)). For example, claim 17 recites “[a] computer readable medium having program code recorded thereon.” Ex.
1001, 13:45– 46. Petitioner contends that “[u]nder the
broadest reasonable interpretation (‘BRI’), the scope
of this term is broad enough to encompass a transitory, propagating signal that is encoded.” Pet. 18–19

App. 175
(citing Ex Parte Mewherter, 107 USPQ2d 1857, 1859–
60 (PTAB 2013) (Precedential)). Petitioner explains
that the specification neither defines this term nor
provides examples. Id. In our Institution Decision, we
made an initial determination that the broadest reasonable interpretation of “computer readable medium
having program code recorded thereon” is “any medium that participates in providing instruction to a
processor for execution and having program code recorded thereon.” Inst. Dec. 9. Patent Owner responds
that there is no evidence to support Petitioner’s contention that one skilled in the art would have understood “computer readable medium having program
code recorded thereon” to encompass a signal at the
time of the invention. PO Resp. 87. Petitioner responds to Patent Owner’s contentions by asserting
that claims 17–32, “which recite a term of art in patent law, encompass transitory signals and are thus
non-statutory.” Pet. Reply 11.
Petitioner’s response is unhelpful. For example, in
its Reply, Petitioner cites no evidence to sufficiently
rebut Patent Owner’s contentions regarding how one
skilled in the art would have understood “computer
readable medium having program code recorded
thereon,” at the time of the invention.
Accordingly, on this record, which is absent any
further evidence or meaningful argument from Petitioner, we are not persuaded that at the time of the
invention one skilled in the art would have understood “computer readable medium having program
code recorded thereon” as encompassing transitory,
propagating signals.

App. 176
There is no dispute that the remaining claims fit
within one of the four statutorily provided categories
of patent-eligibility. Even if claims 17–32 were to fit
within one of the categories of patent-eligibility, we
are persuaded that they do not recite patent-eligible
subject matter for the reasons that follow.
D. Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of
this title.
There are, however, three judicially created exceptions to the broad categories of patent-eligible subject
matter in § 101: laws of nature, natural phenomena,
and abstract ideas. Alice Corp. Pty. Ltd. v. CLS Bank
Int’l., 134 S. Ct. 2354 (2014); Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract idea, itself, is patent-ineligible, an application of the abstract idea may be patent-eligible. Alice, 134 S. Ct. at 2355. Thus, we must
consider “the elements of each claim both individually
and ‘as an ordered combination’ to determine whether
the additional elements ‘transform the nature of the
claim’ into a patent-eligible application.” Id. (citing
Mayo, 132 S. Ct. at 1297–98). The claim must contain
elements or a combination of elements that are “sufficient to ensure that the patent in practice amounts to

App. 177
significantly more than a patent upon the [abstract
idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
Claims 1 and 17 are independent and recite similar limitations. We take claim 1 as representative.
Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over the
prior art’ to determine if the claim’s ‘character as a
whole’ is directed to excluded subject matter.’” Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d 1253,
1257 (Fed. Cir. 2016) (quoting Elec. Power Grp., LLC
v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016);
see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335 (Fed. Cir. 2016).
According to Petitioner, the claims are directed to
the abstract idea of “placing an order based on observed (plotted) market information, as well as updating market information.” Pet. 21. Petitioner argues,
“[a] POSA would understand canceling an order is a
type of order (or command) sent to the electronic exchange.” Id. at 19 (citing Ex. 1003 ¶ 92). Petitioner
contends, “claim 1 could be performed in the human
mind or with the aid of pen-and-paper with little difficulty because the claim requires plotting only a few
data points” (id. at 22–24 (citing Ex. 1010)) and that
the claims are directed to commodity trading which is
‘a fundamental economic practice long prevalent in
our system of commerce.’” Pet. Reply 4 (citing Alice,
134 S. Ct. at 2356). Patent Owner disagrees. See PO
Resp. 77–85.

App. 178
Claim 1 of the ‘382 patent recites “a method of canceling an order entered for a commodity at an electronic exchange.” Ex. 1001, 12:21–22. Claim 1 recites
steps of displaying market information, bid and ask
quantities, and an entered order indicator in regions
along a static price axis. Id. at 12:23–43, 12:51–55.
The market information is an indicator of an order to
buy at the highest bid price and an indicator of an order to sell at the lowest ask price. Id. In other words,
the displayed market information is the inside market. Id. at 4:63–65, 12:24–26. Claim 1 does not require
displaying the market depth. See id. at 5:8–14 (disclosing that only the inside market may be displayed).
Claim 1 also recites a step of updating the market information such that it moves relative to the price axis
as the market changes. Id. At 12:37–43. Claim 1 further recites a step of displaying an order entry region
with areas selectable so as to receive a command to
send a message to the electronic exchange, a step of
setting a parameter for a trade order, and a step of
receiving a single action command so as to cancel the
order. Id. at 12:26, 12:43–57.
As can be seen from its steps, the focus of claim 1
is placing trade orders (i.e., cancelation orders) based
on displayed market information, as well as updating
the displayed market information. This focus is consistent with the ’382 patent’s statement that “[t]he
present invention is directed to the electronic trading
of commodities…. It facilitates the display of and the
rapid placement of trade orders….” Id. at 1:18–24.
The focus of claim 1 is also consistent with the problem disclosed by the ’382 patent of a trader missing
an intended price because the market changed during

App. 179
the time required for a trader to read the prices displayed and to manually enter an order. Id. at 2:17–
3:2.
Claim 1 does not recite any limitation that specifies how the computer implements the steps or functions. For example, claim 1 recites displaying an arrangement of the market information. A first indicator, associated with the current highest bid price, is
displayed at a first area corresponding to a first price
level. Id. at 12:28–32. Claim 1 does not specify how
the computer maps the indicators or price levels to the
display. The ’382 patent does not disclose an unconventional or improved method of mapping the first indicators, second indicators, and price axis to the display. It states that “[t]he physical mapping of such information to a screen grid can be done by any technique known to those skilled in the art” and that
“[t]he present invention is not limited by the method
used to map the data to the screen.” Id. at 5:4–7.
The ’382 patent discloses that at least 60 exchanges throughout the world utilize electronic trading and discloses that it is known that electronic trading includes analyzing displayed market information
and updated market information to send trade orders
to an exchange. See id. at 1:28–2:28. Similarly,
Mr. Thomas indicates that traders in prior trading
systems, including pre-electronic open outcry systems, which have been used for over one hundred
years, send trade orders to an exchange based on
price, such as the inside market prices or other prices.
Ex. 2169 ¶¶ 36, 62, and 63. Mr. Thomas testifies that:
[i]n the trading pit, traders utilize shouting
and hand signals to transfer information about

App. 180
buy and sell orders to other traders. To avoid
confusion, the inside market prices were the focus, and traders could only shout and signal regarding their interest at the best bid/offer or at
prices that improves the best bid/offer.
Id. ¶ 36. The ’382 patent discloses that electronic exchanges are known to provide the market depth for
display that is the inside market and a few orders
away from the inside market. Ex. 1001, 5:11–12. Further, Exhibit 1010 discloses that long before the ’382
patent traders maintained books that plotted bids
and asks (e.g., the market depth) along a price axis.
See Ex. 1010, 44–46. Exhibit 1010 states “[s]pecialists
enter public orders, that are away from the market,
in their books by price and in the order they are received.” Id. at 44. Figure 4-2 of Exhibit 1010 is reproduced below.

App. 181

Figure 4-2 depicts a page of a book of a trader. Id. at
44–45. Orders to buy or sell a commodity are plotted
along a prices axis. For example, Figure 4–2 shows
the best bid at 22¼ and the best ask at 22 5/8. Id. at
44. Exhibit 1010 states: “The NYSE specialist’s book
is maintained on a CRT and referred to as a display
book. This electronic book sorts all orders coming to
the specialist in time and price sequence….” Id. at 46.
Given this, we determine that placing an order
based on displayed market information, such as the

App. 182
inside market and a few other orders, as well as updating the market information, is a fundamental economic and conventional business practice. We are
persuaded by Petitioner that the method of claim 1
could be performed in the human mind or with the aid
of pen-and-paper with little difficulty because the
claim requires plotting only a few data points (i.e., the
inside market). See Pet. 22–24 (citing Ex. 1010, 44–
46; Ex. 1003 ¶¶ 73–75).
Patent Owner argues that the claims of the ’382
patent are not directed to a fundamental economic
practice, longstanding commercial practice, or business method. See PO Resp. 76–85. Patent Owner contends the “claims did not have a pre-electronic equivalent as electronic trading operates in fundamentally
different ways from open outcry…. In open outcry,
trader could not publish orders away from the inside
market, and could pick and choose with whom they
wanted to trade.” Id. at 83 (citations omitted). Patent
Owner’s arguments are unpersuasive because they
are not commensurate with the scope of the claims.
Claim 1 does not recite any steps as to how the electronic exchange matches or fills the order. Claim 1 requires publishing the inside market and does not require publishing the market depth. See Ex. 1001,
12:22–25; see also id. at 5:8–14. Claim 1 does not specify how the order is filled at the electronic exchange
or preclude a trader from picking and choosing with
whom they want to trade.
The claims at issue here are like the claims at issue in Affinity Labs. In Affinity Labs, the claim at issue recited an application that enabled a cellular telephone to present a GUI displaying a list of media

App. 183
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the cellular telephone was enabled to transmit a request for
the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the claims
at issue in Apple, Inc. v. Ameranth, Inc., 842 F.3d
1229 (Fed. Cir. 2016). See Pet. Reply 7–8. In
Ameranth, the claim at issue recited a GUI that displayed menu items in a specific arrangement, a hierarchical tree format. Menu items were selected to generate a second menu from a first menu. Ameranth,
842 F.3d at 1234. In both Affinity Labs and
Ameranth, the court determined that the claims were
not directed to a particular way of programming or
designing the software, but instead merely claim the
resulting systems. The court thus determined that
the claims were not directed to a specific improvement
in the way computers operate. Affinity Labs, 838 F.3d
at 1260–61; Ameranth, 842 F.3d at 1241. Here, the
claims also recite the resulting GUI and are not directed to specific improvements in the way the computers operate. “Though lengthy and numerous, the
claims [that] do not go beyond requiring the collection,
analysis, and display of available information in a
particular field, stating those functions in general
terms, without limiting them to technical means for
performing the functions that are arguably an advance over conventional computer and network technology” are patent ineligible. Elec. Power Grp., 830
F.3d at 1351. “Generally, a claim that merely describes an ‘effect or result dissociated from any
method by which [it] is accomplished’ is not directed
to patent-eligible subject matter.” Ameranth, 842 F.3d

App. 184
at 1244 (quoting Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1348 (Fed. Cir. 2015)).
The claims of the ’382 patent are unlike the claims
at issue in DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014) and Enfish. See Pet.
31–35; Pet. Reply 5–6. In DDR Holdings, the court determined that the claims did not embody a fundamental economic principle or a longstanding commercial
practice. The claims at issue in DDR Holdings were
directed to retaining website visitors, which the court
determined was a problem “particular to the Internet.” DDR Holdings, 773 F.3d at 1257. The court also
determined that the invention was “necessarily
rooted in computer technology in order to overcome a
problem specifically arising in the realm of computer
networks” and that the claimed invention did not
simply use computers to serve a conventional business purpose. Id. In Enfish, the claim at issue was directed to a data storage and retrieval system for a
computer memory. Enfish, 822 F.3d at 1336–37. The
court determined that the claims were directed to an
improvement in the functioning of a computer and
were not simply adding conventional computer components to well-known business practices. Id. at 1338.
Here, in contrast, claim 1 is directed to a fundamental
economic principle or a longstanding commercial
practice and not directed to an improvement in the
computer, but simply to the use of the GUI in a
method of placing an order based on displayed market
information, as well as updating market information.
Patent Owner argues that the claims of the ’382
patent solve the problems of “(1) unpredictable
changes in the market could cause the user to miss

App. 185
their intended price and (2) trading information was
presented in separate windows, creating challenges
with visualization and order management.” See PO
Resp. 80–81. Patent Owner contends that the ’382 patent solves this problem “with a specific way via the
claimed new GUI construction…that condenses three
windows into one.” Id. at 80. In the Patent Owner Response, Patent Owner does not specify which elements of claim 1 solve these problems. See id. at 80–
81. Claim 1 does not recite any limitation that specifies how the computer implements the steps or functions. “Generally, a claim that merely describes an ‘effect or result dissociated from any method by which
[it] is accomplished’ is not directed to patent-eligible
subject matter.” Ameranth, 842 F.3d at 1244 (quoting
Internet Patents Corp. v. Active Network, Inc., 790
F.3d 1343, 1348 (Fed. Cir. 2015)). Rearranging the
display of data is not enough to confer patent eligibility. CyberSource Corp. v. Retail Decisions, Inc., 654
F.3d 1366, 1370 (Fed. Cir. 2011) (holding “[t]he mere
collection and organization of data” patent-ineligible).
Further, claim 1 of the ’382 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco Games
America Inc., 837 F.3d. 1299 (Fed. Cir. 2016). In
McRO, the court held that claims that recited “a specific asserted improvement in computer animation”
were not directed to an unpatentable abstract idea because they go “beyond merely organizing existing information into a new form or carrying out a fundamental economic practice.” McRO, 837 F.3d at 1314–
15. Here, the claims merely organize existing market
information so that it is displayed or plotted along a
price axis. Plotting bids and asks along a price axis is

App. 186
not a specific improvement to the functioning of a
computer. See Ex. 1010, 44–46.
Patent Owner argues that the claims of the ’382
patent are patent eligible under CQG because the ’382
patent is a continuation of the patents at issue in
CQG. PO Resp. 76–77. The claims of the ’382 patent,
however, are broader in some aspects than the claims
of the ’132 patent. For example, claim 1 of the ’382
patent does not recite the single action order entry
feature in combination with a single price axis of the
’132 patent. See Tr. 74:3–78:54 (indicating that
“[o]rder entry is different than cancellation” from the
standpoint of having the same concerns with quantities changing and prices changing when entering a
new order”). In CQG, the Federal Circuit referred to
even those narrower claims as presenting a “close
question[] of eligibility.” CQG at 1006. Thus, comparing the claims of the patents involved in Trading
Technologies is not particularly helpful here. See also
Pet. Reply 8–10.
Inventive Concept
Next we turn to “the elements of each claim both
individually and as an ordered combination” to determine whether the additional elements “transform the
nature of the claim” into a “patent-eligible application.” Mayo, 768 S. Ct. at 1297–98. The additional elements must be more than “well-understood, routine,
conventional activity.” Id. at 1298.
Petitioner contends that claim 1 does not recite an
inventive concept. Pet. 20–25; Pet. Reply 7–8. Patent
Owner disagrees. PO Resp. 85–87.

App. 187
As noted above, the specification of the ’382 patent
treats as well-known all potentially technical aspects
of the claims. For example, the ’382 patent discloses
that its system can be implemented “on any existing
or future terminal or device” (Ex. 1001, 4:11–14), each
of which is known to include a display, and discloses
that the input device can be a mouse (id. at 4:18–21),
which is a known input device. The ’382 patent further discloses that “[t]he scope of the present invention is not limited by the type of terminal or device
used.” Id. at 4:14–15. The ’382 patent also describes
the programming associated with the GUI as insignificant. See, e.g., id. at 4:67– 5:7. A mere requirement
of a GUI does not make the claim patent eligible. See
Affinity Labs, 838 F.3d at 1257–58; Ameranth, 842
F.3d at 1236–1242; Internet Patent Corp., 790 F.3d at
1348–1349. A recitation of a generic GUI merely limits the use of the abstract idea to a particular technological environment. “Limiting the field of use of the
abstract idea to a particular existing technological environment does not render any claims less abstract.”
Affinity Labs, 838 F.3d at 1258 (citing Alice, 134 St.
Ct. at 2358; Mayo, 132 S. Ct. at 1294).
Claim 1 recites steps of displaying indicators representing a quantity associated with a highest order
to buy the commodity or lowest order to sell the commodity in a bid display region or ask display region,
respectively, and moving the indicators upon receipt
of market information. Ex. 1001, 12:23–43. Locations
in the bid or ask display region correspond to a price
level along a static price axis. Id. Essentially, these
limitations require plotting the inside market along a
price axis. Plotting information along an axis is a
well-understood, routine, conventional, activity. See

App. 188
Ex. 1010, 44– 46. The Fig. 2 GUI includes regions for
displaying indicators of bid and ask quantities and regions for displaying corresponding prices. For example, the Fig. 2 GUI displays the bid quantity in BidQty
column 202 at locations that correspond to the bid
prices in BidPrc column 203. Ex. 1001, 5:15–32. This
is akin to plotting information BidQty and AskQty
along a price axis. Further, Mr. Thomas testifies that
prior GUIs, which are similar to the Fig. 2 GUI, “displayed the locations for the best bid and ask prices
such that the prices were displayed vertically (e.g.,
with the location for the best ask price being displayed
above the location for the best bid price).” Ex. 2169
¶ 62; see also Ex. 1010, 42–44. Displaying the best ask
price above a best bid price would be displaying a common column of price levels. The ’382 patent, states
“[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art” and that “[t]he present invention is not limited by the method used to map the data
to the screen.” Id. at 5:4–7. These steps of claim 1 require merely a rearrangement of market information
that was known to be displayed in corresponding columns on a GUI. CyberSource Corp., 654 F.3d at 1370
(holding “[t]he mere collection and organization of
data” patent-ineligible).
Claim 1 further recites a step of displaying an order entry region with areas selectable so as to receive
a command to send a message to the electronic exchange, a step of setting a parameter for a trade order,
and a step of receiving a single action command so as
to cancel the order. Id. at 12:26, 12:46–56. Methods
that permit single action entry of an order, which has
preset default parameters, by clicking on a cell in a

App. 189
display of a GUI are known technology. Ex. 1024 ¶ 7;
Ex. 1025 ¶ 20; Ex. 2169 ¶¶ 58–59. The additional elements must be more that “well-understood, routine,
conventional, activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not transform the nature of the claim into a patent-eligible application. They do not add significantly more to the
abstract idea or fundamental economic practice. Contrary to Patent Owner’s argument, the claim simply
requires the use of a generic GUI with routine and
conventional functions. Even considering all of the elements as an ordered combination, the combined elements also do not transform the nature of the claim
into a patent-eligible application. Indeed, as discussed above, the Fig. 2 GUI disclosed in the ’382 patent includes a similar combination of elements.
For the reasons discussed above, the claims 1 and
17 of the ’382 patent are not directed to patent eligible
subject matter under 35 U.S.C. § 101.
Dependent Claims
Petitioner contends that the additional elements
recited by dependent claims 2–16 and 18–32 do not
add significantly more to the abstract idea so as to
render the claims patent-eligible. Pet. 29–31. Patent
Owner makes no arguments directed to the eligibility
of the dependent claims. See generally PO Resp. We
are persuaded by Petitioner that dependent claims 2–
16 and 18–32 are patent ineligible under 35 U.S.C.
§ 101. See Pet. 19–31.
Patent Eligibility Conclusion
Having considered the information provided in the
Petition, we are persuaded that Petitioner has

App. 190
demonstrated that claims 1–32 of the ’382 patent are
unpatentable under 35 U.S.C. § 101.
E. Obviousness
Section 103 forbids issuance of a claim when “the
differences between the subject matter sought to be
patented and the prior art are such that the subject
matter as a whole would have been obvious at the
time the invention was made to a person having ordinary skill in the art.” 35 U.S.C. § 103. The ultimate
determination of obviousness under § 103 is a question of law based on underlying factual findings. In re
Baxter Int’l, Inc., 678 F.3d 1357, 1362 (Fed. Cir. 2012)
(citing Graham v. John Deere Co., 383 U.S. 1, 17–18
(1996)). These underlying factual considerations consist of: (1) the “level of ordinary skill in the pertinent
art,” (2) the “scope and content of the prior art,” (3)
the “differences between the prior art and the claims
at issue,” and (4) “secondary considerations” of nonobviousness such as “commercial success, long-felt
but unsolved needs, failure of others, etc.” KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007) (quoting
Graham, 338 U.S. at 17–18).
Petitioner challenges claims 1–32 as obvious over
TSE and Belden. Pet. 36–70; Pet. Reply 14–19.
Overview of TSE
TSE is a guide for operating a trading terminal of
the Tokyo Stock Exchange. Ex. 1005, 14. The trading

We refer to the pagination inserted into Exhibit 1005 and not
the original pagination.

4

App. 191
terminal displays a GUI for depicting market information on a Board/Quotation Screen (see id. at 107).
The Figure on page 107 of TSE is reproduced below.

The Figure depicts the Board/Quotation Screen including a central order price at column 11. Id. at 111.
To the left and right of order price column 11, are ask
and bid orders in respective columns 12 and 13. Id.

App. 192
TSE discloses that a Notice Display Area is displayed at the bottom of the screen. Id. at 121. The Notice Display Area displays displayed different types of
notices, such as Order Received Notices and Contract
Concluded Notices. Id. at 122, 126. A Figure appearing on page 132 of TSE is reproduced below.

The Figure depicts an example of a Contract Conclude
Notice, which indicates an order entered by a trader
and the status of the order. Id. at 126.
A Figure appearing on page 126 of TSE is reproduced below.

App. 193
The Figure depicts a Corrected Order Input Window.
A trader can modify or cancel an order by doubleclicking on a notice in the Notice Display Area, which
opens the Corrected Order Input Window. See id. at
132, 137–138, 155–159, 162. Information, such as the
name of the security and order number is automatically set and cancellation is indicated by setting the
revision type to “1.” Id. at 132, 158, 163. The cancellation is sent to the exchange by clicking on the “send”
button. Id. at 164.
Overview of Belden
Belden is titled “Simulated Live Market Trading
System” and published on October 4, 1990. Ex. 1008,
(54), (43). Belden discloses an electronic trading system for trading commodities, which has a display with
icons representing active trades. Id. at 26–27.5 Belden
discloses that “[t]rading is done by using the mouse to
move a cursor onto the icon of a trader and pushing a
button, i.e., ‘clicking’ on the icon.” Id. at 12. Belden
discloses that a trader “benefits from the speed with
which he can take or liquidate positions.” Id. at 4.
Belden also teaches canceling a trade by “point[ing]
and click[ing] your bid icon…with a mouse.” Id. at 37–
38.
Analysis
Petitioner proposes two alternative combinations
of TSE and Belden to teach the limitations of claims

We refer to the pagination inserted into Exhibit 1012 and not
the original pagination.
5

App. 194
1 and 17. Pet. 36–61; Tr. 16:1–8. In both combinations, Petitioner argues that TSE teaches most of the
limitation of claim 1 and 17. Id.
With respect to Petitioner’s first combination, Petitioner relies upon the bids and asks displayed in columns 12 and 13 of TSE’s Board Screen as teaching
the step of displaying an entered order indicator at a
location corresponding to a particular price level
along the static price axis. Id. at 54–55. Petitioner
acknowledges that TSE does teach the step of receiving a single action command that selects the location
associated with the entered order indicator to cancel
the order. See id. at 57–58. Petitioner relies upon
Belden to teach a single-action order technique and
argues, “a POSA would have been motivated to incorporated Belden’s single-action order techniques in
TSE’s electronic trading system to achieve the predictable and desirable results of reducing the time
needed to cancel an order and reduce operator error.”
Id. at 60–61 (citing Ex. 1003 ¶ 133); see also Pet. 42–
43, Pet. Reply 15–16,
Patent Owner disagrees. See PO Resp. 23–32. Patent Owner argues “TSE does not teach cancelling of
entered orders at areas corresponding to price levels
along the static price axis” because in TSE cancels orders by double clicking in the Notice Display Area to
pull up a Corrected Order Input Window. Id. at 27.
In a covered business method patent review, Petitioner has the burden of proving by a proposition of
unpatentability by a preponderance of the evidence.
See 35 U.S.C. § 326(e); see also In re Magnum Oil
Tools Int’l, Ltd., 892 F.3d 1364, 1375 (Fed. Cir. 2016)
(holding that because “petitioner…bears the burden

App. 195
of proof,” the Board is not “free to adopt arguments on
behalf of petitioners that…were not[ ] raised” and
“must base its decision on arguments that were advanced by [petitioner], and to which [patent owner]
was given a chance to respond”). “To satisfy it burden
of proving obviousness, a petitioner cannot employ
mere conclusory statements. The petitioner must instead articulate specific reasoning, based on evidence
of record, to support the legal conclusion of obviousness.” Magnum Oil Tools, 892 F.3d at1380 (citing
KSR, 550 U.S. at 418).
Upon review of Petitioner’s evidence and analysis,
we determine that Petitioner has not shown by a preponderance of the evidence that it would have been
obvious to one of ordinary skill in the art to modify
TSE, given the teachings of Belden, to cancel a user’s
entered order at an exchange by selecting one of the
bids or asks in columns 12 or 13 of TSE’s Board Screen
with a single action. The bids and asks displayed on
TSE’s Board Screen represent the aggregate bids and
asks in the market. Ex. 1005, 137 (showing order
count in column 13 of the figure depicting the Board
Screen). TSE does not disclose canceling an order by
selecting the bids or asks displayed on the Board
Screen. TSE discloses canceling an order by selecting
a notice in the Notice Display Area. See id. at 132,
137–138, 155–159, 162. Petitioner does not sufficiently explain why one of ordinary skill in the art
would modify TSE to cancel an order by selecting a
bid or ask on the Board Screen instead of selecting a
notice in the Notice Display Area.
Petitioner argues that Belden discloses canceling
a user’s order by clicking an icon representing a user’s

App. 196
order, which is allegedly at a location corresponding
to a particular price level. Pet. 58–59. Petitioner argues that one of ordinary skill in the art “would have
found it obvious to add Belden’s single-action order
technique to TSE’s electronic trading system” in order
to reduce the time needed to cancel an order and reduce operator error. Id. at 59–61 (citing Ex. 1003
¶¶ 131–133); see also Pet. 42–43 (citing Ex. 1003
¶¶ 96–98); Pet. Reply 15–16. Reducing the time
needed to cancel an order and reducing operator error
may explain why it would have been obvious to replace TSE’s Corrected Order Input Window with single-action order entry. It, however, does not explain
sufficiently why one of ordinary skill in the art would
cancel an order by selecting a bid or ask on the Board
Screen instead of selecting a notice in the Notice Display Area. The cited paragraphs of Mr. Román’s testimony substantially repeat the arguments in the Petition and do not provide a sufficient explanation. See
Ex. 1003 ¶¶ 96–98, 131–133.
For this reason, we determine that Petitioner has
not shown by a preponderance of the evidence that it
would have been obvious to one of ordinary skill in the
art to modify TSE, given the teachings of Belden, to
cancel a user’s entered order at an exchange by selecting one of the bids or asks in columns 12 or 13 of TSE’s
Board Screen with a single action.
With respect to Petitioner’s second combination,
Petitioner relies upon the Contract Conclusion Notices in TSE’s Notice Display Area as teaching entered order indicators. Pet. 55–57. Petitioner contends:

App. 197
However, TSE does not teach displaying the
Notice Display Area’s entered order indicator
“at a location corresponding to a particular
price level along the static price axis.” But locating the entered order indicator along the static
price axis is a mere design choice well within
the skills of a POSA. ([Ex. 1003] ¶ 121.) It would
have been obvious to a POSA to display the Notice Display Area’s entered order indicators
“along the static price axis” (TSE’s price column
11) so that the trader using the workstation
could easily recognize and track his/her orders
at various price levels. (Id.; see also id. at ¶ 123
(discussing other evidence demonstrating that
it was known to display a trader’s orders along
a price axis); see also Weiss, pp. 44–46.) And,
merely displaying well-known data at different
locations on a graphical user interface is not
enough to confer patentability. See e.g., CyberSource, 654 F.3d at 137 (“the mere manipulation or reorganization of data” is not a transformation).
Id. at 56–57.
Patent Owner disagrees.6 See PO Resp. 23–32.
Patent Owner argues that

A Petitioner notes, we rejected similar arguments made by Patent Owner in CBM2015-00181. See Pet Reply 15 (citing Ex.
1058, 48–54). In CBM2015-00181, Petitioner proposed to modify
TSE to include Belden’s icons representing a trader’s working
orders. Here, Petitioner proposes to modify TSE’s Board Screen
to include the Contract Conclusion Notices in TSE’s Notice Dis-

6

App. 198
a POSA would not have been motivated to display entered order indicators along a static
price axis because in certain situations the entered order indicators could actually move off
the screen and thus not be viewable to the user
when, for example a re-centering event causes
the static price axis to shift.
PO Resp. 26 (citing Ex. 2169 ¶¶ 162, 171). Patent
Owner’s declarant Mr. Thomas testifies, “for example,
if a price level with an associated entered order indicator was near the bottom of the screen and a shift
occurred, that price level and associated entered order
would no longer be viewable on the screen, which
would have been deemed a downside to traders.” Ex.
2169 ¶ 171; see also Ex. 2540, 83:16–84:2 (testimony
of Mr. Román). Petitioner does not respond to Patent
Owner’s argument in its Reply. See Pet. Reply 14–18.
Petitioner has the burden of proving a proposition
of unpatentability by a preponderance of the evidence.
35 U.S.C. § 326(e); see Magnum Oil Tools, 892 F.3d at
1375. Upon review of the evidence and analysis in the
Petition, we determine that Petitioner has not shown
by a preponderance of the evidence that it would have
been obvious to one of ordinary skill in the art to modify TSE to display the Contract Conclusion Notices in
TSE’s Notice Display Area along TSE’s price column
11. Neither Petitioner nor Mr. Román, however, sufficiently address Patent Owner’s evidence to the contrary (Ex. 2169 ¶ 171). See Pet. Reply 14–18; Ex. 1003
¶¶ 121–123; Ex. 2540, 83:16–84:2. Petitioner has not
play Area. Further, the record in CBM2015-00181 does not include Patent Owner’s evidence contrary to Petitioner’s proposed
modification (Ex. 2169 ¶ 171; Ex. 2540, 83:16–84:2).

App. 199
shown sufficiently that such a modification is “a mere
design choice” or that one of ordinary skill in the art
would be motivated to make the proposed modification because a “trader using the workstation could
easily recognize and track his/her orders at various
price levels.” See Pet. 57; see also Magnum Oil Tools,
892 F.3d at 1380 (“The petitioner must…articulate
specific reasoning, based on evidence of record, to support the legal conclusion of obviousness.”).
For this reason, we determine that Petitioner has
not shown by a preponderance of the evidence that it
would have been obvious to one of ordinary skill in the
art to modify TSE to display the Contract Conclusion
Notices in TSE’s Notice Display Area along TSE’s
price column 11.
Petitioner has not met its burden to show by a preponderance of the evidence that claims 1 and 17 are
unpatentable under 35 U.S.C. § 103(a) over TSE and
Belden.
Dependent Claims
Claims 2–16 and 18–32 depend from claim 1 and
17. For the reasons as discussed above, Petitioner has
not met its burden to show by a preponderance of the
evidence that claims 2–16 and 18–32 are unpatentable under 35 U.S.C. § 103(a) over TSE and Belden. See
In re Fritch, 972 F.2d 1260, 1266 (Fed. Cir. 1992)
(“[D]ependent claims are nonobvious if the independent claims from which they depend are nonobvious.”).
III. MOTIONS TO EXCLUDE
Petitioner moves to exclude various ones of Patent
Owner’s Exhibits. Paper 43. Patent Owner moves to
exclude Petitioner’s Exhibits 1004, 1005, and 1007.

App. 200
Paper 46. Because the outcome of this trial does not
change based on whether or not we exclude those exhibits, we dismiss the Motions to Exclude as moot.
IV. CONCLUSION
For the foregoing reasons, we determine that Petitioner shows that claims 1–32 of the ’382 patent are
patent-ineligible under 35 U.S.C. § 101. Petitioner
fails to show, by a preponderance of the evidence, that
claims 1– 32 of the ’382 patent are unpatentable under 35 U.S.C. § 103.
V. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that claims 1–32 of the ’382 patent are
unpatentable;
FURTHER ORDERED that Patent Owner’s Motion to Exclude Evidence is dismissed;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence is dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

App. 201
RELEVANT STATUTORY PROVISIONS
35 U.S.C. § 100. Definitions
…
(b) The term “process” means process, art or
method, and includes a new use of a known process,
machine, manufacture, composition of matter, or material.
…

35 U.S.C. § 101. Inventions patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.

App. 202
35 U.S.C. § 102. Conditions for patentability;
novelty
(a) Novelty; Prior Art.—A person shall be entitled to a patent unless—
(1) the claimed invention was patented, described
in a printed publication, or in public use, on sale, or
otherwise available to the public before the effective
filing date of the claimed invention; or
(2) the claimed invention was described in a patent issued under section 151, or in an application for
patent published or deemed published under section
122(b), in which the patent or application, as the case
may be, names another inventor and was effectively
filed before the effective filing date of the claimed invention.
(b) Exceptions.—
(1) Disclosures made 1 year or less before the
effective filing date of the claimed invention.—
A disclosure made 1 year or less before the effective
filing date of a claimed invention shall not be prior art
to the claimed invention under subsection (a)(1) if—
(A) the disclosure was made by the inventor or
joint inventor or by another who obtained the subject
matter disclosed directly or indirectly from the inventor or a joint inventor; or
(B) the subject matter disclosed had, before such
disclosure, been publicly disclosed by the inventor or
a joint inventor or another who obtained the subject
matter disclosed directly or indirectly from the inventor or a joint inventor.

App. 203
(2) Disclosures appearing in applications
and patents.—A disclosure shall not be prior art to
a claimed invention under subsection (a)(2) if—
(A) the subject matter disclosed was obtained directly or indirectly from the inventor or a joint inventor;
(B) the subject matter disclosed had, before such
subject matter was effectively filed under subsection
(a)(2), been publicly disclosed by the inventor or a
joint inventor or another who obtained the subject
matter disclosed directly or indirectly from the inventor or a joint inventor; or
(C) the subject matter disclosed and the claimed
invention, not later than the effective filing date of the
claimed invention, were owned by the same person or
subject to an obligation of assignment to the same person.
(c) Common Ownership Under Joint Research Agreements.—Subject matter disclosed and
a claimed invention shall be deemed to have been
owned by the same person or subject to an obligation
of assignment to the same person in applying the provisions of subsection (b)(2)(C) if—
(1) the subject matter disclosed was developed and
the claimed invention was made by, or on behalf of, 1
or more parties to a joint research agreement that was
in effect on or before the effective filing date of the
claimed invention;
(2) the claimed invention was made as a result of
activities undertaken within the scope of the joint research agreement; and

App. 204
(3) the application for patent for the claimed invention discloses or is amended to disclose the names
of the parties to the joint research agreement.
(d) Patents and Published Applications Effective as Prior Art.—For purposes of determining
whether a patent or application for patent is prior art
to a claimed invention under subsection (a)(2), such
patent or application shall be considered to have been
effectively filed, with respect to any subject matter described in the patent or application—
(1) if paragraph (2) does not apply, as of the actual
filing date of the patent or the application for patent;
or
(2) if the patent or application for patent is entitled to claim a right of priority under section 119,
365(a), 365(b), 386(a), or 386(b), or to claim the benefit
of an earlier filing date under section 120, 121, 365(c),
or 386(c), based upon 1 or more prior filed applications
for patent, as of the filing date of the earliest such application that describes the subject matter.

App. 205
35 U.S.C. § 103. Conditions for patentability;
non-obvious subject matter
A patent for a claimed invention may not be obtained, notwithstanding that the claimed invention is
not identically disclosed as set forth in section 102, if
the differences between the claimed invention and the
prior art are such that the claimed invention as a
whole would have been obvious before the effective filing date of the claimed invention to a person having
ordinary skill in the art to which the claimed invention pertains. Patentability shall not be negated by
the manner in which the invention was made.

35 U.S.C. § 112. Specification
(a) In General.—
The specification shall contain a written description of the invention, and of the manner and process
of making and using it, in such full, clear, concise, and
exact terms as to enable any person skilled in the art
to which it pertains, or with which it is most nearly
connected, to make and use the same, and shall set
forth the best mode contemplated by the inventor or
joint inventor of carrying out the invention.
(b) Conclusion.—
The specification shall conclude with one or more
claims particularly pointing out and distinctly claiming the subject matter which the inventor or a joint
inventor regards as the invention.

App. 206
(c) Form.—
A claim may be written in independent or, if the
nature of the case admits, in dependent or multiple
dependent form.
(d) Reference in Dependent Forms.—
Subject to subsection (e), a claim in dependent
form shall contain a reference to a claim previously
set forth and then specify a further limitation of the
subject matter claimed. A claim in dependent form
shall be construed to incorporate by reference all the
limitations of the claim to which it refers.
(e) Reference in Multiple Dependent Form.—
A claim in multiple dependent form shall contain
a reference, in the alternative only, to more than one
claim previously set forth and then specify a further
limitation of the subject matter claimed. A multiple
dependent claim shall not serve as a basis for any
other multiple dependent claim. A multiple dependent claim shall be construed to incorporate by reference all the limitations of the particular claim in relation to which it is being considered.
(f) Element in Claim for a Combination.—
An element in a claim for a combination may be expressed as a means or step for performing a specified
function without the recital of structure, material, or
acts in support thereof, and such claim shall be construed to cover the corresponding structure, material,
or acts described in the specification and equivalents
thereof.

App. 207
(10)

Patent No.:

US 7,685,055 B2

(12)

United States Patent Brumfield et al.

(45)

Date of Patent:

(54)

SYSTEM AND METHOD FOR AUTOMATIC REPOSITIONING OF MARKET INFORMATION IN A GRAPHICAL USER INTERFACE

(75)

Inventors:

(73)

Assignee:

(*)

Notice:

(21)

Appl. No.:

11/417,547

(22)

Filed:

May 3, 2006

(65)

Prior Publication Data

Mar. 23, 2010

Harris Brumfield, Chicago, IL (US); Jens-Uwe
Schluetter, Evanston, IL
(US)
Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by 0
days.

US 2006/0265305 A1

Nov. 23, 2006

Related U.S. Application Data
(63)

Continuation
of
application
No.
10/403,881, filed on Mar. 31, 2003, which

App. 208
is a continuation of application No.
10/125.894, filed on Apr. 19, 2002, now
Pat. No. 7,389,268, which is a continuation-in-part of application No. 09/971,087,
filed on Oct. 5, 2001, now Pat. No.
7,127,424, said application No. 10/125,894
is a continuation-in-part of application
No. 09/590,692, filed on Jun. 9, 2000, now
Pat. No. 6,772,132, and a continuation-inpart of application No. 09/589,751, filed on
Jun. 9, 2000, now Pat. No. 6,938,011.
(60)

Provisional application No. 60/238,001,
filed on Oct. 6, 2000, provisional application No. 60/186,332, filed on Mar. 2, 2000,
provisional application No. 60/325,553,
filed on Oct. 1. 2001.

(51)
(52)
(58)

Int. Cl. G06Q 40/00
(2006.01)
U.S. Cl. .......................... 705/37; 705/35
Field of Classification
Search .................................. 705/35–45
See application file for complete search history.

(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044 A

6/1987

Kalmus

4,750,135 A

6/1988

Boilen

4,903,201 A

2/1990

Wagner

5,038,284 A

8/1991

Kramer

App. 209
(Continued)
FOREIGN PATENT DOCUMENTS
EP

1067471

A1

1/2001

(Continued)
OTHER PUBLICATIONS
Tokyo Stock Exchange (“TSE”), Publication 1, Sep.
1997.
(Continued)
Primary Examiner—Richard C Weisberger
(74) Attorney, Agent, or Firm—McDonnell Boehmen Hulbert & Berghoff LLP
(57)

ABSTRACT

A method for automatically positioning information
related to a commodity on a graphical user interface.
Market information is displayed on the graphical user
interface. The market information may be presented
as a number of indicators, corresponding to particular
items of interest, that are associated with a static
scale. The scale may, for example, represent price.
Upon detecting a predetermined condition, the location of the market information is automatically repositioned.
19 Claims, 27 Drawing Sheets

App. 210

U.S. PATENT DOCUMENTS
5,077,665
5,101,353
5,136,501
5,270,922
5,297,031
5,297,032
5,675,746
5,689,651
5,689,652
5,768,158
5,774,877
5,774,878

A
A
A
A
A
A
A
A
A
A
A
A

12/1991
3/1992
8/1992
12/1993
3/1994
3/1994
10/1997
11/1997
11/1997
6/1998
6/1998
6/1998

Silverman
Lupien
Silverman
Higgins
Gutterman
Trojan
Marshall
Lozman
Lupien et al.
Adler
Patterson
Marshall

App. 211
5,793,301
5,797,002
5,845,266
5,873,071
5,915,245
5,924,082
5,924,083
5,926,801
5,946,667
5,950,177
5,963,923
6,012,046
6,014,643
6,035,287
6,073,115
6,098,051
6,131,087
6,134,535
6,161,098
6,195,647
6,272,474
6,278,982
6,282,521
6,408,282
6,516,303
6,697,099
6,766,304
6,772,132
6,826,553
6,839,686
6,876,981
6,938,011
6,993,504
7,127,424

A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
B1
B1
B1
B1
B1
B1
B2
B2
B1
B1
B1
B1
B1
B1
B2

8/1998
8/1998
12/1998
2/1999
6/1999
7/1999
7/1999
7/1999
8/1999
9/1999
10/1999
1/2000
1/2000
3/2000
6/2000
8/2000
10/2000
10/2000
12/2000
2/2001
8/2001
8/2001
8/2001
6/2002
2/2003
2/2004
7/2004
8/2004
11/2004
1/2005
4/2005
8/2005
1/2006
10/2006

Patterson
Patterson
Lupien
Ferstenberg
Patterson
Silverman
Silverman
Matsubara
Tull
Lupien et al.
Garber
Lupien
Minton
Stallaert
Marshall
Lupien
Luke
Belzberg
Wallman
Martyn
Garcia
Korhammer
Howorka
Buist
Waltman
Smith
Kemp et al.
Kemp et al.
DaCosta et al.
Galant
Berckmans
Kemp et al.
Friesen et al.
Kemp, II et al.

App. 212
7,155,410
7,181,424
7,181,425
7,209,896
7,243,083
2002/0023038
2002/0035534
2002/0046146
2002/0046149
2002/0046151
2002/0049661
2002/0055899
2002/0059129
2002/0073017
2002/0091611
2002/0099644
2002/0120551
2002/0138401
2002/0178096
2003/0004852
2003/0004853
2003/0009411
2003/0023536
2003/0023542
2003/0065608
2003/0069834
2003/0097325
2003/0126065
2003/0200167
2003/0236737
2004/0093300
2004/0103054
2004/0117292
2005/0262003

B1
B1
B1
B1
B2
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1
Al
A1
A1
A1
A1
A1
A1
A1
A1
A1

12/2006
2/2007
2/2007
4/2007
7/2007
2/2002
3/2002
4/2002
4/2002
4/2002
4/2002
5/2002
5/2002
6/2002
7/2002
7/2002
8/2002
9/2002
11/2002
1/2003
1/2003
1/2003
1/2003
1/2003
4/2003
4/2003
5/2003
7/2003
10/2003
12/2003
5/2004
5/2004
6/2004
11/2005

Woodmansey
Ketchum et al.
Cha
Serkin et al.
Burns et al.
Fritsch
Buist
Otero et al.
Otero et al.
Otero et al.
Otero et al.
Williams
Kemp
Robertson
Minton
Kemp
Jones
Allen
Marshall
Burns
Ram
Ram
Hollerman et al.
Kemp et al.
Cutler
Cutler
Friesen
Eng
Kemp
Kemp
Burns
Singer
Brumfield
Brumfield et al.

App. 213
2006/0259382
2006/0259383
2006/0259384
2006/0259404
2006/0259411
2006/0265303
2006/0265304
2006/0271475

A1
A1
A1
A1
A1
A1
A1
A1

11/2006
11/2006
11/2006
11/2006
11/2006
11/2006
11/2006
11/2006

Kemp et al.
Kemp et al.
Schluetter et al.
Brumfield
Burns
Kemp et al.
Brumfield et al.
Brumfield et al.

FOREIGN PATENT DOCUMENTS
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO9114231
WO95/26005
WO9849639
WO9919821
WO99/30259
WO9953424
WO00/52619
WO00/62187
WO00/62187
WO 00/64176
WO00/65510
WO01/01077
WO01/16830
WO01/16852
WO01/16852
WO01/22315
WO0122315
WO 01/27843
WO 01/71557
WO0165403
WO01/88808
WO02/15461
WO 02/33621

A1
A1
A1
A1
A1
A1
A1
A2
A3
A1
A1
A2
C1
A2
A3
A2
A1
A2

9/1991
9/1995
11/1998
4/1999
6/1999
10/1999
9/2000
10/2000
10/2000
10/2000
11/2000
1/2001
3/2001
3/2001
3/2001
3/2001
3/2001
4/2001
9/2001
9/2001
11/2001
2/2002
4/2002

App. 214
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO 02/33623
WO 02/33636
WO 02/33637
WO0229686
WO02/48945
WO02/59815
WO02/69226
WO02/79940
WO02/93325
WO02103601
WO 03/017062
WO03090032
WO03090032

A1
A1
A1
A2
A2
A2
A1
A2
A3

4/2002
4/2002
4/2002
4/2002
6/2002
8/2002
9/2002
10/2002
11/2002
12/2002
2/2003
10/2003
10/2003

OTHER PUBLICATIONS
Tokyo Stock Exchange, “Publication 2”, Aug. 1998.
Tokyo Stock Exchange, Publication 3, Jul. 31, 2000.
Tokyo Stock Exchange, Document 1, Jan. 2000.
English Translation of TSE “Publication 1”.
English Translation of TSE “Publication 2”.
English Translation of TSE “Publication 3”.
English Translation of TSE Document 1.
REFCO English Translation of TSE “Publication 1”.
REFCO English Translation of TSE “Publication 2”.
REFCO English Translation of TSE “Publication 3”.
USPTO Presentation, NASDAQ, Nov. 8, 2001.
Kharouf; A Trading Room with a View, Futures. 27,
11—Nov. 1998.
www.tradingtechnologies.com/products/xtrade
_full.html (viewed May 22, 2001) Jun. 9, 2000.
APT Brochure, LIFFE Exchange, circa 1990.
Trading Screen, INTEX of Bermuda, circa 1984.

App. 215
Weber, Information Technology in the Major International Financial Markets, Apr. 7, 1993.
Trading Screen, TIFFE ‘Exchange; circa 1989-1990.
Trading Screen, MEFF Exchange, circa 1990.
Cavaletti, Order Routing Article, Futures Magazine,
Feb. 1997.
Aurora Article, CBOT, circa 1989.
One Click Trading Options, Trading Technologies,
circa 1998.
Trading Screen,SWX Exchange, circa 1990.
Expanding futures and options trading around the
world, around the clock, Globex, circa 1989.
Hansell, The computer that ate Chicago, Institutional
Investor, Feb. 1989.
Globex Report: An update on the CME Global electronic exchange, Feb. 10, 1989.
NYMEX Access Documents, New York Mercantile Exchange, Feb. 28, 1992.
CATS Traders’ Manual, Toronto Stock Exchange,
Sep. 30, 1977.
Market Watch, Trading Screen, date not available.
Grimmer, Peake, Sellers, Preliminary Feasibility
Study, Bermudex Ltd., Nov. 1980.
Peake, Mendellson, The ABCs of trading on a national
market system, Appendix C of Preliminary Feasibility Study, Bermudex Ltd., Sep. 1997.
Peake. The last 15 meters. Appendix E of Preliminary
Feasibility Study, Bermudex Ltd., Jun. 15, 1997.
Declaration of Brendan Bradley in Case No. 04 C
5312, Nov. 18, 2004.
Memorandum Opinion Published Feb. 9, 2005, of
Judge James B. Moran in Case No. 04 C 5312.
Search Report issued by the Australian Patent Office
for SG 200406082-8.

App. 216
NASDAQ Workstation II User Guide, Guide to Enhancements for NASDAQ Workstation II Software
Release (Apr. 1998) as viewed on the Internet
Achieves
http://web.archive.org/web/
20031208041112/nasdaqtrader.com/trader/tradingservices/productservices/userguides/nwliguide.pdf.
International Search Report for PCT/US03/12201.
Office Action issued by the USPTO on Jun. 26, 2007
for U.S. Appl. No. 11/417,871.
Pending U.S. Appl. No. 10/403,757, filed Mar. 3, 2003.
Pending U.S. Appl. No. 10/125,894, filed Apr. 19,
2002.
Pending U.S. Appl. No. 10/403,881, filed Mar. 31,
2003.
MLT Trade Vizion, http//www.trade-vizion.com/modules.php?name+Products—Jul. 29, 2004.
Office Action issued by the UPSTO on Mar. 23, 2007
for U.S. Appl. No. 10/125,894.

App. 217

App. 218

App. 219

App. 220

App. 221

App. 222

App. 223

App. 224

App. 225

App. 226

App. 227

App. 228

App. 229

App. 230

App. 231

App. 232

App. 233

App. 234

App. 235

App. 236

App. 237

App. 238

App. 239

App. 240

App. 241

App. 242

App. 243
SYSTEM AND METHOD FOR AUTOMATIC
REPOSITIONING OF MARKET
INFORMATION IN A GRAPHICAL USER
INTERFACE
This application is a continuation of U.S. patent
application Ser. No. 10/403,881, filed Mar. 31, 2003,
which is a continuation of U.S. patent application Ser.
No. 10/125,894, “Trading Tools for Electronic Trading,” filed Apr. 19, 2002 now U.S. Pat No. 7,389,268,
which is a continuation-in-part of U.S. patent application No. Ser. 09/971,087, filed Oct. 5, 2001 now U.S.
Pat No. 7,127,424, which claims the benefit of U.S.
Provisional Application No. 60/238,001, filed Oct. 6,
2000. U.S. patent application Ser. No. 10/125,894 is
also a continuation-in-part of U.S. patent application
Ser. No. 09/590,692, filed Jun. 9, 2000 now U.S. Pat
No. 6,772,132 and U.S. patent application Ser. No.
09/589,751, filed Jun. 9, 2000 now U.S. Pat No.
6,938,011, both of which claim the benefit of U.S. Provisional Application No. 60/186,322, filed Mar. 2,
2000. U.S. patent application Ser. No. 10/125,894 also
claims the benefit pf U.S. patent application Ser. No.
60/325,553, filed Oct. 1, 2001. The entire content of
each of the above-referenced applications is incorporated herein by reference.
FIELD OF INVENTION
The present invention is directed to electronic
trading. Specifically, the present invention is directed
to tools for trading products that can be traded with
quantities and/or prices.

App. 244
BACKGROUND
Many exchanges throughout the world utilize electronic trading in varying degrees to trade stocks,
bonds, futures, options and other products. These
electronic exchange are based on three components:
mainframe computers (host), communications servers, and the exchange participants’ computers (client). The host forms the electronic heart of the fully
computerized electronic trading system. The system’s
operations cover order-matching, maintaining order
books and positions, price information, and managing
and updating the database for the online trading day
as well as nightly batch runs. The host is also
equipped with external interfaces that maintain uninterrupted online contact to quote vendors and other
price information systems.
Traders can link to the host through at least three
types of structures: high speed data lines, high speed
communications servers or the Internet. High speed
data lines establish direct connections between the
client and the host. Another connection can be established by configuring high speed networks or communications servers at strategic access points worldwide
in locations where traders physically are located.
Data is transmitted in both directions between traders and exchanges via dedicated high speed communication lines. Most exchange participants install two
lines between the exchange and the client site or between the communication server and the client site as
a safety measure against potential failures. An exchange’s internal computer system is also often installed with backups as a redundant measure to secure system availability. The third connection utilizes

App. 245
the Internet. Here, the exchange and the traders communicate back and forth through high speed data
lines, which are connected to the Internet. This allows
traders to be located anywhere they can establish a
connection to the Internet.
Irrespective of the way in which a connection is established, the exchange participants’ computers allow
traders to participate in the market. They use software that creates specialized interactive trading
screens on the traders’ desktops. The trading screens
enable traders to enter and execute orders, obtain
market quotes, and monitor positions. The range and
quality of features available to traders on their
screens varies according to the specific software application being run. The installation of open interfaces in the development of an exchange’s electronic
strategy means users can choose, depending on their
trading style and internal requirements, the means
by which they will access the exchange.
The world’s stock, bond, futures, options and other
exchanges have volatile products with prices that
move rapidly. To profit in these markets, traders
must be able to react quickly. A skilled trader with
the quickest software, the fastest communications,
and the most sophisticated analysis can significantly
improve the trader’s own or the trader’s firm’s bottom
line. The slightest speed advantage can generate significant returns in a fast moving market. In today’s
securities markets, a trader lacking a technologically
advanced interface is at a severe competitive disadvantage.
Irrespective of what interface a trader uses to enter orders in the market, each market supplies to and

App. 246
requires from every trader the same information. The
bids and asks in the market make up the market data
and everyone logged on to trade can receive this information if the exchange provides it. Similarly, every
exchange requires that certain information be included in each order. For example, traders must supply information like the name of the commodity,
quantity, restrictions, price and multiple other variables. Without all of the order information, the market
will not accept the order.
In existing systems, multiple elements of an order
must be entered prior to an order being sent to market, which is time consuming for the trader. Such elements include the commodity symbol, the desired
price, the quantity and whether a buy or a sell order
is desired. The more time a trader takes entering an
order, the more likely the price on which the trader
wanted to bid or offer will change or not be available
in the market. The market is fluid as many traders
are sending orders to the market simultaneously. In
fact, successful markets strive to have such a high volume of trading that any trader who wishes to enter an
order will find a match and have the order filled
quickly, if not immediately. In such liquid markets,
the prices of the commodities fluctuate rapidly. On a
trading screen, this results in rapid changes in the
price and quantity fields within the market grid. If a
trader intends to enter an order at a particular price,
but misses the price because the market prices moved
before the trader could enter the order, the trader
may lose hundreds, thousands, even millions of dollars. The faster a trader can trade, the less likely it
will be that the trader will miss the trader’s price and
the more likely the trader will make money.

App. 247
With the advent of electronic trading, it has become easier for a larger number of people to have access to participate in the market at any given time.
Such an increase in the number of potential traders
has lead to other changes, including a more competitive market, greater liquidity, rapidly changing
prices, and other changes. Due to the complexities
that these changes bring, it is increasingly important
to have a system of making the most accurate and calculated trades possible in the most efficient manner.
It is therefore desirable for electronic trading systems
to offer tools that can assist a trader in adapting to an
electronic marketplace, and help the trader to make
trades at desirable prices.
SUMMARY
The preferred embodiments relate to a system and
method for automatic repositioning of market information in a graphical user interface.
In accordance with a first aspect, a method for automatically positioning information related to a commodity on a graphical user interface is provided. The
method includes receiving market information relating to the commodity from an electronic exchange.
The market information may include a number of
items of interest that are associated with a price. The
method displays an information display region, which
has a number of locations arranged such that each location corresponds to a price level along at least a portion of a static price axis. The method also displays a
number of indicators, at a first time. Each indictor is
associated with an item of interest and each indicator
is displayed in one of the locations in the information

App. 248
display region. The method further includes automatically repositioning the static price axis upon detecting a predetermined condition so that the number of
locations of the information display region corresponds to a different portion of the static price axis at
a second time. In this manner, the indicators are
moved to a new location in the information display region that corresponds to the price level on the static
price axis that is associated with that indictor.
In accordance with a second aspect, a method for
automatically re-positioning market information relating to a commodity on a graphical user interface is
provided, where the method includes displaying a plurality of items of interest comprising market information in relation to a static scale in a trading interface. At least one item of interest from the plurality of
items of interest is identified as a basis for automatically positioning the plurality of items of interest. The
display on the trading interface is updated as the
market information changes, causing one or more of
the plurality of items of interest to move in relation to
the state scale. The method then automatically re-positions the plurality of items of interest in respond to
the identified item of interest.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 illustrates the network connections between multiple exchanges and client sites;
FIG. 2 illustrates screen display showing the inside market and the market depth of a given commodity being trade;
FIG. 3 illustrates an alternative display, having
bid and ask quantities displayed in association with a

App. 249
static price scale, that may be used in accordance with
preferred embodiments;
FIG. 4 illustrates the display at a later time showing the movement of values when compared to FIG. 3;
FIG. 5 illustrates a display with parameters set in
order to exemplify the trading method;
FIG. 6 is a flowchart illustrating one process for
display and trading using the displays of FIGS. 3
through 5;
FIG. 7 illustrates a Last Traded Quantity marker
in accordance with a preferred embodiment, and further illustrates color coding of the Last Traded Quantity;
FIG. 8 is a diagram showing the transfer of multiple data fees between an exchange and a client;
FIG. 9 is a diagram showing a disruption in one of
the data feeds shown in FIG. 8;
FIG. 10 illustrates a display showing the aggregated working quantities in a market for a user’s buy
and sell orders;
FIGS. 11A and 11B are displays showing a dynamic indicator;
FIGS. 12A and 12B are displays showing “arrow”
cells that may be used to view items of interest outside the current display;
FIGS. 13A and 13B are displays showing examples of thermometer indicators to illustrate the quantity of buy and sell interest in a market;
FIGS. 14A and 14B are displays illustrating auto
scalper indicators;

App. 250
FIGS. 15A and 15B are a display showing an embodiment to in which a user may select the price level
reasonability check feature through a dialog box, and
a display showing a measure of reasonability in relation to the Last Traded Price, respectively;
FIG. 16A is a display showing the display of the
last traded price and inside market for use with the
automatic grid centering feature of a preferred embodiment; and FIG. 16B is a display showing how a
user may select and manipulate the automatic grid
positioning feature;
FIG. 17 is a display showing a user’s current working sell quantities and working buy quantities and additional criteria used for implementing the “drag and
drop” feature of a preferred embodiment;
FIG. 18 is a display showing the working quantities of a user in addition to the user’s average working
buy price and average working sell price;
FIGS. 19A and 19B are displays showing the function of the highlight midpoint re-centering feature of
a preferred embodiment; FIG. 19C is a sample GUI
options dialog box in which the highlight midpoint recentering feature can be activated according to one
embodiment of the present invention;
FIG. 20A is a display showing how blank spots are
color-coded according to one embodiment; FIG. 20B is
a display of a sample GUI options dialog box in which
a user can activate the color coding feature of FIG.
20A;
FIG. 21 is a display showing how the average price
of a trader’s open position is indicated according to
one embodiment of the invention; and

App. 251
FIG. 22 is a display showing one embodiment of a
consolidation control icon in accordance with a preferred embodiment
DETAILED DESCRIPTION OF THE PREFERRED
EMBODIMENTS
As described with reference to the accompanying
figures, trading tools in accordance with various preferred embodiments are provided to, among other
things, facilitate fast and accurate order entry. Certain of the trading tools work particularly well with a
trading display that shows working orders and/or bid
and ask quantities, or other market information, displayed in association with a static price scale or axis.
An example of such a trading display is illustrated in
FIGS. 3 through 5. It is to be understood that, in this
context, static does not mean immovable, but rather
means fixed in relation. For example, with a static
price scale, the scale itself may be movable, but the
prices represented remain fixed in relation to each
other, subject to consolidation or expansion as described below. Trading applications that generate different trading displays may alternatively be used.
In a preferred embodiment, one or more of the
trading tools described herein is implemented on a
computer or electronic terminal. The computer is able
to communicate either directly or indirectly (using intermediate devices) with one or more exchanges to receive and transmit market, commodity, and trading
order information. The computer or terminal is able
to interact with the trader and to generate contents
and characteristics of a trade order to be sent to the
exchange. A trading application allows for a trader to
view market data, enter and cancel trade orders

App. 252
and/or view orders. The scope of the present invention
is not limited by the type of terminal or device used,
and is not limited to any particular type of trading application. Rather, the trading tools may be implemented on any existing or future terminal or device
with the processing capability to perform the functions described herein.
As used herein, the word “commodity” refers
simply to a thing that is an object of trade. It includes
anything that can be traded with a quantity and/or
price. Examples of such objects include, but at not limited to, all types of traded financial products, such as,
for example, stocks, options, bonds, futures, currency,
and warrants, as well as funds, derivatives and collections or combinations of the foregoing. The commodity may be “real,” such as objects that are listed
by an exchange for trading, or “synthetic,” such as a
combination of real commodities that is created by the
user.
Further, the specification may refer to a single
click of a mouse as an example of a single action of the
user for input and interaction with the terminal display. In order to allow actions to be taken in the shortest amount of time, a preferred embodiment of the
trading application responds upon depressing the
mouse button, rather than waiting for the up slick.
While this may describe a preferred mode of interaction, the scope of the present invention is not limited
to the use of a mouse as the input device, such as a
keyboard, joystick or touch screen, may be considered
the single action of the user.
An electronic trading system may be configured to
allow for trading in a single or in multiple exchanges

App. 253
simultaneously. Connections for an example of such a
system are illustrated in FIG. 1. This illustration
shows multiple host exchanges 101-103 connected
through routers 104-106 to gateways 107-109. Multiple client terminals 110-116 for use as trading stations can then trade in the multiple exchanges
through their connection to the gateways 107-109. It
should be noted that the trading tools of the preferred
embodiment are not limited to any particular network
architecture, but rather may be applied with utility
on workstations or other client devices in any network
that can be used for electronic trading.
When an electronic trading system is configured to
receive data from multiple exchanges, it is preferable
to translate the data from each exchange into a format that may be displayed in FIG. 1, an application
program interface (“TT API” as depicted in the FIG.
1) translates the incoming data formats from the different exchanges to a common data format. This
translation function of a preferred embodiment may
be disposed anywhere in the network, for example, at
the gateway server, at the individual workstations or
at both. In addition, storage elements at the gateway
servers, the client workstations, and/or other external
storage may cache, buffer, or store historical data,
such as order books that list the user’s active orders
in the market; that is, those orders that have neither
been filled nor cancelled. Information from different
exchanges can be displayed in one or in multiple windows at the client workstation. Accordingly, while reference is made through the remainder of the specification to a single exchange to which a trading terminal is connected, the scope of the invention includes
the ability to trade, in accordance with the trading

App. 254
methods described herein, in multiple exchanges using a single trading terminal.
A commercially available trading application that
allows a user to trade in a system like that shown in
FIG. 1 is X_TRADER® from Trading Technologies International, Inc. of Chicago, Ill. X_TRADER® also
provides an electronic trading interface, referred to as
MD_TRADERTM, in which working orders and/or bid
and ask quantities are displayed in association with a
static price scale. The preferred embodiments, however, are not limited to any particular product that
performs the translation, storage and/or display functions.
Several preferred embodiments include the display of “market depth” and/or allow a user to view the
market depth of a commodity and to enter orders with
a single input, such as the click of a computer mouse
button. As used herein, market depth is represented
by the available order book, including the current bid
and ask quantities and their associated prices. In
other words, subject to the limits noted below, market
depth is each available pending bid and ask quantity,
entered at a particular price, in addition to the “inside
market.” For a commodity being traded, the inside
market is the highest bid price and the lowest ask
price. For embodiments relating to a display that includes market depth, interfaces as shown in FIGS. 2
and 3 are exemplary. Other trading applications that
are capable of displaying market depth are suitable
alternatives, unless otherwise noted. Furthermore,
the preferred embodiments are not limited to an electronic trading application that displays market depth,

App. 255
but can be utilized with any electronic trading application.
Generally, the exchanges send price, order and fill
information to the gateways 107-109. The trading application, for example X_TRADER®, processes this
information and maps it to positions in a theoretical
grid program or any other comparable mapping technique for mapping data to a screen. The physical mapping of such information to a screen grid, or display
on a client device like the client devices 110-116, may
be done by any technique known to those skilled in
the art. The present invention is not limited by the
method used to map the data to the screen display.
The system’s ability to fully display the market
depth typically depends on how much of the market
depth the exchange provides. Some exchanges, for example, supply an infinite market depth, while others
provide no market depth or only a few orders away
from the inside market. The user can preferably also
choose how far into the market depth to display on the
trader’s screen. For example, the user may only want
to have displayed the market depth within a predetermined number of ticks away from the inside market.
FIG. 2 illustrates an electronic trading interface
described in a co-pending U.S. patent application Ser.
No. 09/589,751, incorporated above. This display and
system is just one example of a type of trading system
that may incorporate one or more aspects of the present invention. The display shows the inside market
and the market depth of a given commodity being
traded. Row 1 represents the “inside market” for the
commodity being traded which is the best (highest)

App. 256
bid price and quantity and the best (lowest) ask price
and quantity. Rows 2-5 represent the “market depth”
for the commodity being traded. In one-preferred embodiment, the display of market depth (rows 2-5) lists
the available next-best bids, in column 203, and asks,
in column 204. The working bid and ask quantity for
each price level is also displayed in columns 202 and
205 respectively (inside market—row 1). Prices and
quantities for the inside market and market depth update dynamically on a real time basis as such information is relayed from the market.
In the screen display shown in FIG. 2, the commodity (contract) being traded is represented in row
1 by the character string “CDH0”. The Depth column
201 will inform the trader of a status by displaying
different colors. Yellow indicates that the program application is waiting for data. Red indicates that the
Market Depth has failed to receive the data from the
server and has “timed out.” Green indicates that the
data has just been updated. The other column headings in this and all of the other figures, are defined as
follows. BidQty (Bid Quantity) at column 202: the
quantity for each working bid; BidPrc (Bid Price) at
column 203: the price for each working bid; AskPrc
(Ask Price) at column 204: the price for each working
ask; AskQty (Ask Quantity) at column 205: the quantity for each working ask; LastPrc (Last Price) at column 206: the price for the last bid and ask that were
matched in the market; and LastQty (Last Quantity)
at column 207: the quantity traded at the last price.
Total at column 208 represents the total quantity
traded of the given commodity.

App. 257
The configuration of the screen display itself informs the user in a more convenient and efficient
manner than many existing systems. Traders gain an
advantage by seeing the market depth because they
can see trends in the orders in the market. The market depth display shows the trader the interest the
market has in a given commodity at different price
levels.
Another type of display system and related trading
method which may be used in conjunction with the
preferred embodiments is described in detail in U.S.
application Ser. No. 09/590,692, filed on Jun. 9, 2000.
This method ensures fast and accurate execution of
trades by displaying information, such as market
depth or working orders, in association with an axis
or scale of static prices. One embodiment using this
type of display system displays the market depth on a
vertical plane, which fluctuates logically up or down
the plane as the market prices fluctuates. The invention is not limited to any particular display—the information could be displayed on a horizontal plane, ndimensionally or in any other fashion. This allows the
trader to trade quickly and efficiently. An example of
such a display is illustrated in the screen display of
FIG. 3.
In a fast moving market, where varying price levels are trading (i.e. bids and offers entering the market are being matched at different prices), it is beneficial that the trader be able to quickly enter orders
and quickly see and analyze market information. Displays of the type illustrated in FIG. 3 allow the trader
to quickly enter orders at specific price levels by clicking next to a static price level, displayed as a static

App. 258
column in a preferred embodiment and to quickly and
easily see information such as working orders. The
static prices can be displayed in any matter, including
in a row, on any angle, or n-dimensionally, without
departing from the invention. It also is possible for the
static price values to not be displayed, instead displaying just the market depth levels, working orders,
or other information relative to one another along a
scale or axis representing particular prices using particular colors or using other methods.
The display shown in FIG. 3 provides an order entry system, market grid, fill window and summary of
market orders in one simple window. Such a condensed display simplifies the trading system by entering and tracking trades in an efficient manner. This
system displays market depth in a logical, vertical
fashion or horizontally or at some other convenient
angle or configuration. A. vertical field is shown in the
figures and described for convenience, but the field
could be horizontal or at an angle or n-dimensionally.
The system further increases the speed of trading and
the likelihood of entering orders at desired prices with
desired quantities. In the preferred embodiment of
the invention, the display is a static vertical column
of prices with the bid and ask quantities displayed in
vertical columns to the side of the price column and
aligned with the corresponding bid and ask prices.
Bid quantities are in column 300 labeled BidQ and
ask quantities are in column 302 labeled AskQ. The
representative prices for the given commodity are
shown in column 304, where the prices are static and
increment in “ticks,” where a tick is the minimum
change in a price value that is set by the exchange for

App. 259
each commodity. The prices can be displayed as ticks,
as multiples of ticks or in any other fashion. In the
embodiment shown in FIG. 3, the column does not list
the whole prices (e.g. 95.89), but rather, just the last
two digits (e.g. 89). Other price display conventions
may alternatively be used, as long as the requisite
price information is conveyed to the user. In the example shown, the inside market, cells 306, is 18 (best
bid quantity) at 89 (best price) and 20 (best ask quantity) at 90 (best ask price). In the preferred embodiment of the invention, these three columns 300, 302,
and 304 are shown in different colors so that the
trader can quickly distinguish among them.
The values in the price column are static; that is,
they do not normally change positions unless a re-centering command is received (discussed in detail later).
The values in the Bid and Ask columns 300 and 302,
however, arc dynamic; that is, they move up and down
(in the vertical example) to reflect the market depth
for the given commodity. The LTQ column 308 shows
the last traded quantity of the commodity. The relative position of the quantity value with respect to the
Price values reflects the price at which that quantity
was traded. Column 310 labeled E/W (Executed/Working) displays the current status of the
trader’s orders. The status of each order is displayed
in the price row where it was entered. For example, in
cells 312, the number next to S indicates the number
of the trader’s ordered lots that have been sold at the
price in the specific row. The number next to W indicates the number of the trader’s ordered lots that are
in the market, but have not been filled—i.e. the system is working on filling the order. Blanks in this column indicate that no orders are entered or working at

App. 260
that price. In cells 314, the number next to B indicates
the number of the trader’s ordered lots that have been
bought at the price in the specific row. The number
next to W indicates the number of the trader’s ordered
lots that are in the market, but have not been filled—
i.e. the system is working on filling the order.
Various parameters are set and information is provided in column 316. For example, “10:48:44” in cell
318 shows the actual time of day. The L and R fields
in cell 320 indicate a quantity value, which may be
added to the order quantity entered. This process is
explained below with respect to trading under this
system. Below the L and R fields, in cell 322, a number appears which represents the current market volume. This is the number of lots that have been traded
for the chosen commodity. Cell 324, “X 10”, displays
the Net Quantity, the current position of the trader
on the chosen commodity. The so number “10” represents the trader’s buys minus sells. Cell 326 is the
“Current Quantity”; this field represents the quantity
for the next order that the trader will send to market.
This can be adjusted with right and left clicks (up and
down) or by clicking the buttons which appear below
the Current Quantity in cells 328. These buttons increase the current quantity by the indicated amount;
for example, “10” will increase it by 10; “1H” will increase it by 100; “1K” will increase it by 1000. Cell 330
is the Clear button; clicking this button will clear the
Current Quantity field. Cell 332 is the Quantity Description; this is a pull-down menu allowing the
trader to chose from three Quantity Descriptions. In
one embodiment, the pull down menu is displayed
when the arrow button in the window is clicked. The
window includes NetPos, Offset and a field allowing

App. 261
the trader to enter numbers. Placing a number in this
field will set a default buy or sell quantity. Choosing
“Offset” in this field will enable the UR buttons of cell
320. Choosing “NetPos” in this field will set the current Net Quantity (trader’s net position) as the
trader’s quantity for his next trade. Cell 334 are +/—
buttons; these buttons will alter the size of the
screen—either larger (+) or smaller (—). Cell 336 is
used to invoke Net 0; clicking this button will reset
the Net Quantity(cell 332) to zero. Cell 338 is used to
invoke Net Real; clicking this button will reset the
Net Quantity (cell 322) to its actual position. It is to
be understood that the preferred embodiments are
not limited to a trading application that displays
these particular buttons. Preferably, the buttons displayed and any parameter, such as quantity, that is
set by those buttons are customizable or selectable by
the user.
The inside market and market depth ascend and
descend as prices in the market increase and decrease. For example, FIG. 4 shows a screen displaying
the same market as that of FIG. 3, but at a later interval where the inside market, cells 400, has risen
three ticks. Here, the inside market for the commodity is 43 (best big quantity) at 92 (best bid price) and
63 (best ask quantity) and 93 (best ask price.) In comparing FIGS. 3 and 4, it can be seen that the price
column remained static, but the corresponding bids
and asks rose up the price column.
As the market ascends or descends the price column, the inside market, working orders, last traded
price and/or quantity, or any other item that may be
of interest might go above or below the price column

App. 262
displayed on a trader’s screen. Usually a trader will
want to be able to see the inside market to assess future trades. The system addresses this problem with
a positioning feature. With a single click at any point
within the gray area, 342 in FIG. 3, below the “Net
Real” button, the system will re-position the inside
market on the trader’s screen. As an alternative, this
positioning feature may be programmed to be triggered by clicking in any area of the display. Also,
when using a three-button mouse, click on the middle
mouse button, irrespective of the location of the
mouse pointer, will re-position the inside market on
the trader’s screen. As noted above, the display alternative may be re-positioned based on other items of
interest beside the inside market.
The same information and features can be displayed and enabled in a horizontal or other fashion.
Just as the market ascends and descends the vertical
scale in this preferred embodiment, shown in FIGS. 3
and 4, the market will move left and right in the horizontal display. The same data and the same information gleaned from the dynamic display of the data
is provided. It is envisioned that other orientations
can be used to dynamically display the data and such
orientations are intended to come within the scope of
the present invention.
The specific features of the embodiment of a display as shown in FIGS. 3 and 4 are exemplary of one
embodiment of a screen display that can be used with
the present invention.
Placing Trade Orders

App. 263
Next, trading commodities, and specifically, the
placement of trade orders using a representative display of the type shown in FIG. 3 is described. Using
the display and trading method, a trader would first
designate the desired commodity and, if applicable,
the default quantities. The trader can then trade by
positioning an icon and indicating an action, for example with a click of the right or left mouse button.
The term “click” may refer to a “half-click” or button
down event for any action depending upon the user’s
and/or system designer’s requirements or preferences.
The following equations are used by this exemplary system to generate trade orders and to determine the quantity and price to be associated with the
trade order. The following abbreviations are used in
these formulas: P=Price value of row clicked (in ticks),
R=Value in R field, L=Value in L field, Q=Current
Quantity, Qa,=Total of all quantities in AskQ column
at an equal or better price than P, Qb=Total of all
quantities in BidQ column at an equal or better price
than P, N=Current Net Position, Bo=Buy order
sent to market and So=Sell order sent to market.
Any order entered using right mouse button
Bo=(Qa+R)P

(Eq. 1) If BidQ field clicked.

So=(Qb+R)P

(Eq. 2) If AskQ field clicked.

Orders entered using the left mouse button
If “Offset” mode chosen in Quantity Description
field then:
Bo=(Qa+L)P

(Eq. 3) If BidQ field clicked.

So=(Qb+L)P

(Eq. 4) If AskQ field clicked.

App. 264
If “number” mode chosen in Quantity Description
field then:
Bo=QP

(Eq. 5)

So=QP

(Eq. 6)

If “NetPos” mode chosen in Quantity Description
field
Bo=NP

(Eq. 7)

So=NP

(Eq. 8)

Orders also can be sent to market for quantities
that vary according to the quantities available in the
market; quantities preset by the trader; and which
mouse button the trader clicks. Using this feature, a
trader can buy or sell all of the bids or asks in the
market at or better than a chosen price with one click.
The trader also could add or subtract a preset quantity from the quantities outstanding in the market. If
the trader clicks in a trading cell—i.e. in the BidQ or
AskQ column, the trader will enter an order in the
market. The parameters of the order depend on which
mouse button the trader clicks and what preset values
the trader set.
Using the screen display and values from FIG. 5,
the place went of trade orders using the display and
trading method is now described using examples. A
left click on the 18 in the BidQ column 500 will send
an order to market to buy 17 lots (quantity # chosen
on the Quantity Description pull-down menu cell 502)
of the commodity at a price of 89 (the corresponding
price in the Pre column 504). Similarly, a left click on
the 20 in the AskQ column 506 will send an order to
market to sell 17 lots at a price of 90.

App. 265
Using the right mouse button, for example, an order would be sent to market at the price that corresponds to the row so clicked for the total quantity of
orders in the market that equal or better the price in
that row plus the quantity in the R field 508. Thus, a
right click in the AskQ column 506 in the 87 price row
will send a sell order to market at a price of 87 and a
quantity of 150, where 150 is the sum of all the quantities 30, 97, 18 and 5. The quantities 30, 97 and 18
are all of the quantities in the market that would
meet or better the trader’s sell order price of 87. These
quantities are displayed in the BidQ column 500 because this column represents the orders outstanding
in the market to purchase the commodity at each corresponding price. The quantity 5 is the quantity preset in the R field 508.
Similarly, a right click in the BidQ column 500 at
the same price level of 87 would send a buy limit order
to market for a quantity of 5 at a price of 87. The
quantity is determined in the same manner as above.
In this example, though, there are no orders in the
market that equal or better the chosen price—there
are no quantities in the AskQ column 506 that equal
or better this price. Therefore, the sum of the equal or
better quantities is zero (“0”). The total order entered
by the trader will be the value in the R field 508,
which is 5.
An order entered with the left mouse button, for
example, and the “Offset” option chosen in the quantity description field 502 will be calculated in the
same way as above, but the quantity in the L field 510
will be added instead of the quantity in the R field
508. Thus, a left click in the BidQ column 500 in the

App. 266
92 price row will send a buy order to market at a price
of 92 and a quantity of 96. The quantity 96 is the sum
of all the quantities 45, 28, 20 and 3, 45, 28 and 20 are
all quantities in the market that would meet or better
the trader’s buy order price of 92. These quantities are
displayed in the AskQ column 506 because this column represents the orders outstanding in the market
to sell the commodity at each corresponding price. The
quantity 3 is the quantity pre-set in the L field 510.
The values in the L or R fields 510, 508 may be
negative numbers. This would effectively decrease the
total quantity sent to market. In other words, in the
example of a right click in the AskQ column 506 in the
87 price row, if the R field 508 was -5, the total quantity sent to market would be 140 (30+ 97+18+(-5)).
If a trader chose the “NetPos” option in the quantity description field 502, a right click, for example,
would still work as explained above. A left click
would, for example, enter an order with a price corresponding to the price row clicked and a quantity equal
to the current Net position of the trader. The Net position of the trader is the trader’s current position on
the chosen commodity. In other words, if the trader
has bought 10 more commodities than the trader has
sold, this value would be 10. NetPos would not affect
the quantity of an order sent with a right click.
If the trader chose a number value in the quantity
description, a left click would send an order to market
for the current quantity chosen by the trader. The default value of the current quantity will be the number
entered in the quantity description field, but it could
be changed by adjusting the figure in the current
quantity field 502.

App. 267
An embodiment of the system also allows a trader
to delete all of his working orders with a single click
of either the right or left mouse button anywhere in
the last traded quantity (LTQ) column 512 (this functionality can be provided in any general area of the
screen as well or as an alternative). This allows a
trader to exit the market immediately. An embodiment of the invention also allows a trader to delete all
of his orders from the market at a particular price
level. A click with either mouse button in the Executed/Working (E/W) column 514 will delete all working orders in the cell that was clicked. Thus, if a
trader believes that previously sent orders at a particular price that have not been filled would be poor
trades, the trader can delete these orders with a single click.
A process for placing trade orders using the display and trading method as described above is shown
in the flowchart of FIG. 6. Prior to placing a trade order, the system provides preliminary fields for the input of data, such as the selection of a customer profile,
the order quantity. and the maximum trade quantity.
Once these preliminary fields are entered and the
trader indicates the desire to place a trade order, the
system will determine whether the trader performed
the necessary actions to conduct a trade. For example,
the invention will determine if the mouse pointer was
positioned over a tradable cell when the attempt to
click trade was performed. If it is determined that a
viable trade was requested, the system will create and
send a limit order to the exchange at a quantity and
price based on the preliminary settings and market
prices. The system affords a trader the opportunity to
change the order quantity preset buttons. The default

App. 268
quantities for these power buttons are 1, 5, 10, 20, 50,
and 100. However, in this preferred embodiment the
trader can alter any or all of these default quantities
by performing a right click on each specific button and
manually entering a different number quantity.
In step 600, the trader has the display on the trading terminal screen showing the market for a given
commodity. In step 602, the parameters are set in the
appropriate fields, such as the L and R fields and the
Current Quantity, NetPos or Offset fields from the
pull-down menu. In step 604, the mouse pointer is positioned and clicked over a cell in the display by the
trader. In step 606, the system determines whether
the cell clicked is a tradeable cell (i.e. in the AskQ column or BidQ column). If not, then in step 608, no
trade order is created or sent and, rather, other quantities are adjusted or functions are performed based
upon the cell selected. Otherwise, in step 610, the system determines whether it was the left or the right
button of the mouse that was clicked. If it was the
right, then in step 612, the system will use the quantity in the R field when it determines the total quantity of the order in step 614. If the left button was
clicked, then in step 616, the system determines
which quantity description was chosen: Offset, NetPos or an actual number.
If Offset was chosen, then the system, in step 618,
will use the quantity in the L field when it determines
the total quantity of the order in step 614. If NetPos
was chosen, then the system, in step 620, will determine that the total quantity for the trade order will
be the current NetPos value—the net position of the
trader in the given commodity. If an actual number

App. 269
was used as the quantity description, then, in
step 622, the system will determine that the total
quantity for the trade order will be the current quantity entered. In step 614, the system will determine
that the total quantity for the trade order will be the
value of the R field (if step 612 was taken) or the value
of the L field (if step 618 was taken), plus all quantities in the market for prices better than or equal to
the price in the row clicked. This will add up the quantities for each order in the market that will fill the order being entered by the trader (plus the L or
R value).
After either steps 614, 622 or 620, the system, in
step 624, determines which column was clicked, BidQ
or AskQ. If AskQ was clicked, then, in step 626, the
system sends a sell limit order to the market at the
price corresponding to the row for the total quantity
as already determined. If BidQ was clicked, then, in
step 628, the system sends a buy limit order to the
market at the price corresponding to the row for the
total quantity as already determined. The process described above is merely one embodiment and the present invention is not limited to this particular process
or to any process.
One commercially available product that incorporates display screens of the type illustrated in FIGS. 2
and 3 is sold under the brand name X_TRADER® by
Trading Technologies International, Inc., of Chicago, Ill. Display screens of the type illustrated in
FIG. 3 are sometimes referred to herein as
MD_TRADERTM-style displays. As discussed above,

App. 270
however, the trading tools of the preferred embodiments can be used with virtually any electronic trading application, unless otherwise noted.
Given the foregoing information regarding graphical user interfaces for electronic trading and their
use, a number of trading tools will now be described.
One or more of these trading tools may be incorporated into a trading application, for example, to assist
the trader and improve the efficiency and timeliness
of trading.
Last Traded Quantity Marker
The “Last Traded Quantity Marker,” in accordance with a preferred embodiment, provides an indication of the Last Traded Quantity (LTQ). In a display
that includes dynamic market information that is associated with a static price scale, such as the
MD_TRADERTM-style display, the LTQ marker may
move up and down the LTQ column as an associated
LTQ price changes. One form of a LTQ marker 700 is
shown in FIG. 7, where both a numerical value and a
color or shading are used. For consecutive trades at
the same price, the LTQ marker 700 may show, for
example, either i) a cumulative quantity for all consecutive trades at the Last Traded Price, or ii) the
quantity of only the most recent trade at the Last
Traded Price. The accumulation of the total quantity
for multiple LTQ occurrences is typically gateway
(i.e. exchange) dependent. Most gateways, however,
will accumulate the quantity. For gateways that do
not accumulate the LTQ, a trading application, such
as the application program interface illustrated in
FIG. 1, may convert the LTQ into a cumulative indicator, if desired.

App. 271
Generally, as long as a contract continues to trade
at the same specific price, the LTQ will accumulate.
When a contract trades at a new price. the marker
may move beside that price and the quantity displayed inside the indicator box and will reflect the
quantity of the last trade only. Should a contract
trade at a price where a previous contract traded, the
indicator will return to that price level, and the indicator box will again display the quantity of that last
trade only (it will not add the newly traded quantity
to the quantity that was displayed the last time the
marker resided at this price). The indicator, located in
the LTQ column 702, does not simply display the
number of the last traded quantity. Rather, the
marker also, by residing next to the price (in the price
column 704) at which the last contract traded, indicates to the user the price at which that trade occurred. The LTQ marker 700 is preferably, but not
necessarily, associated with the corresponding last
traded price 706. It is not necessary that numerical
values for a price or quantity be associated with the
marker.
In accordance with a preferred embodiment, therefore, the LTQ marker 700 is a visual indicator of the
last traded quantity. Any type of marker may be used
as long as it may be recognized by the user as an indicator of quantity. Other indicators, such as color or
a graphical indicator, like a sliding scale, thermometer-type scale or speedometer-type scale, may alternatively be used as a marker. The graphical indicators
may, but are not required to, include associated numerical values. In further alternatives, however, combinations of indicators may be used to illustrate char-

App. 272
acteristics of an item of interest, like the LTQ. For example, the quantity itself may be presented numerically or graphically, and color may be used with the
quantity indicator to illustrate a trend, such as increasing or decreasing volume or rate of change in volume, or increasing or decreasing price associated with
the LTQ. In addition, although described in the preceding few paragraphs as a marker for the LTQ, these
types of markers may alternatively be used for any
item in the user interface that may be of interest to
the user.
In addition, when the user interface is configured
to display a consolidated static price scale, for example as described below under the heading Consolidation Control Icon, the LTQ cell 708 may be subdivided
into price consolidation increments and a LTQ
marker may be shown, for example, as a horizontal
line, within the corresponding subdivision of the LTQ
cell 708. The position of the graphical indicator, which
in this example is a horizontal line, within the LTQ
cell 708 provides a visual indication of the price
within the consolidated range at which the last traded
quantity changed hands.
Color Coding of Markers
As noted above, items of interest in the user interface may be color coded or highlighted using color or
gray scale shades. Ina preferred embodiment, the
user interface is of the type shown in FIG. 3 having
market data associated with a static price scale, such
as the MD_TRADERTM interface, and color is used
with the LTQ marker to provide a visual distinction
between, for example, an increase or decrease in the
price value associated with the Last Traded Quantity

App. 273
(LTQ) from the price value associated with the previous LTQ. In MD_TRADERTM, the LTQ may be presented as a highlighted cell in the LTQ column 702,
as shown in FIG. 7, which is displayed at a level that
corresponds to the Last Traded Price (LTP) 706. In a
preferred embodiment, the highlighted cell changes
colors based on the market’s price movements. For example, a LTQ cell 710 may be displayed with a background that is one color, such as blue, when the
change in price associated with the LTQ is an increase
from the price associated with the previous LTQ 708.
Whereas a LTQ cell 712 may be displayed with a different colored background, such as red, when the
change in price from the previous LTQ 708 decreases.
In addition, color may provide additional information about items of interest, like the LTQ. For example, when the commodity at issue has yet to have
been traded during that current trading session, the
LTQ column 702 may be shown in a particular color,
such as gray, and may remain that color until a quantity has been filled. When a quantity has been filled,
the cell displaying the first LTQ for that session may
be highlighted in a particular color, such as green, signifying neither an up nor down tick from the previous
LTQ. Subsequent fills will result in the LTQ cell being
highlighted, for the preceding examples, in either a
blue or a red color, unless the price level does not
change from one trade to another, in which case the
cell will remain green until there is a change in the
price of the LTQ.
This benefits a trader in that the display of, and
the color designation(s) for, the LTQ provides a visual
reference of the market’s price movements, status or

App. 274
trends, thereby permitting a trader to quickly absorb
additional information, such as the direction of the
market’s activity. As a result of seeing the changes in
the price of the last traded quantities, a trader can
more easily determine market status and trends,
thereby enhancing the likelihood of the trader entering orders and having those orders filled at desirable
prices.
The color-coding of the LTQ appears as a colored
cell (e.g., 700, 708 and 710) in the LTQ column 702
and corresponds to the price row of that traded quantity. By default in one preferred embodiment, the colored cell will appear in blue when the LTQ ticks upward in price from the previous LTQ, will appear in
red for instances when the LTQ ticks downward in
price from the previous LTQ, and will appear in green
for instances when the price level remains the same
from one trade to the next. While these preferred colors are the default settings in one embodiment, the
trading application preferably allows a trader to
change color designations in accordance with the
trader’s own preferences. In addition, while certain
embodiments have been described with reference to
color being applied to a cell, the invention is not limited to embodiments in which color is applied to a cell.
For example, color may be applied to any graphical
indicator, such as the horizontal line used as a LTQ
marker in the preceding section, to illustrate a property of the item of interest.
Overlay of Different Price Feeds
In one embodiment, the trading application provides an “Overlay of Different Price Feeds.” The trading application may be X_TRADER®, referenced

App. 275
above, or any other commercially available product
adapted as described herein. In many instances a particular commodity is only traded at a particular exchange. In other instances, however, a commodity
may be traded at multiple exchanges. This is one instance when a user may be interested in simultaneous
information from different price feeds, i.e. feeds from
different exchanges in regard to a particular commodity. As another example, Eurex offers both an inside
market stream and a market depth stream. Generally, the inside market stream is faster than the market depth stream. In accordance with a preferred embodiment. the different streams, whether from a single exchange or multiple exchanges, are used by the
trading application to populate and display information about the commodity in a trading window.
A number of exchanges offer multiple price
streams, but these exchanges often supply only those
feeds that are requested by the trader. Each trader
may request, for example, a stream of all of the quantities currently available in the market for a specific
commodity, known as market depth, or the trader
may request to receive only the inside market prices,
where the inside market is the highest buy price and
the lowest sell price at which there is quantity available for that commodity. This is also known as the
best buy and best sell prices. Many traders are focused on these best prices, and therefore do not desire
a stream of a market’s depth. Thus, several exchanges
cater to user preferences by offering different price
feeds, while also benefiting by saving on band-width
for traders who wish to receive only an inside market
stream.

App. 276
When using the ‘overlay’ feature, the system preferably displays all of the information that it receives,
and the display continuously updates the cells. By accepting, or having the ability to accept, multiple feeds
or streams, the trader is provided with greater security in knowing that if one feed should become slower
or unavailable, the other feed will continue to update
market information.
FIGS. 8 and 9 show a network 800 for the transfer
of data from an exchange 802 to the client terminal 804 via parallel feeds carrying a first and a second
price packet 806 and 808, respectively, through a
router 810 and a Gateway 812. The client terminal 804 is running a trading application, such as
X_TRADER®, which presents data carried by the
feeds to a user. When a disruption in one of the feeds,
referred to as a “hiccup” or lost data, occurs in the network, as shown at 814 in FIG. 9, packets from the top
feed are prevented from feeding into the trader’s display. A disruption, as the term is used herein, is not
limited to a situation in which data is permanently
lost, but rather is used generically to also cover instances when data is corrupted, slow or otherwise delayed. Without an auxiliary feed in instances of lost
data, the display would be void of prices, and opportunities for trading could be lost. Without an auxiliary
feed in instances of slow or delayed data, trading decisions would be made based on out of date information.
Although illustrated as a disruption 814 occurring
between the gateway 812 and the client terminal 804,
the feed may be disrupted at any point from the exchange 802 to the client terminal 804. Because of the

App. 277
parallel feed, the display of current information is not
interrupted, regardless of the cause of the disruption.
Moreover, the parallel feed allows the user to take advantage of speed differences between two feeds and
displays the best available information to the user. It
should be noted that, although the streams are illustrated as originating from one exchange 802, the
streams may alternatively originate at different exchanges. In addition, while two feeds are typically sufficient, the preferred embodiments are not so limited,
and information from more than two feeds may be
simultaneously displayed.
In one embodiment of the invention, the ‘Overlay
Different Price Feeds’ can be enabled or disabled by
adding or removing a check in a ‘Use Inside Market
Prices’ box in the a Properties dialog box. Other techniques for enabling this feature may alternatively be
used. Where multiple feeds are being monitored and
displayed, the trading application may provide the
user with options for deciding which feed’s data will
be displayed in instances where the data from the
feeds is not the same. For example, in instances where
the feeds originate at different exchanges, the user
may choose to display the best prices from the different feeds. As a further example, where the feeds originate at the same exchange, information from the
most recent packet may be displayed, regardless of
which feed carried the last displayed packet. Other alternatives will be apparent upon reviewing the foregoing.
Display of Aggregated Working Quantities
Another preferred embodiment provides a trader
with a display of the aggregated quantities being

App. 278
worked in the market for a trader’s buy and sell orders. A trader’s total working quantities represent the
total unfilled quantities of all the orders that the
trader currently has entered but have yet to be filled
in the market. For example, the trading application
may display the total working buy quantities and the
total working sell quantities for the specific commodity being traded and for the specific trader who entered those quantities in the market. FIG. 10 shows,
as an example, a display for a trader who has separate
working sell quantities of 14, 13, and 1 (at 1000), and
separate working buy quantities of 5, 1, 15, 3, and 1
(at 1002). While this example utilizes an
MD_TRADERTM-style trading interface, any type of
trading interface may alternatively be used. The trading application calculates the sum of the trader’s
working sell quantities (14+13+1=28) and the sum of
the trader’s working buy quantities (5+1+15+3+1=25)
and, in this example, displays the aggregated quantities in cells 1004. The aggregated working quantities
may be displayed in any manner or location that is
helpful to the user. In another variation of this embodiment, the user may click directly on either the aggregated buy or sell quantity display cells to delete
the working quantities displayed in those cells.
The display of a trader’s aggregated working
quantities in cells 1004 benefits a trader in that it
provides the total exposure from the trader’s working
quantities. Although the display is dynamic, in that
order quantities are continuously updated as new orders are entered and others are filled, the display of
quantities at different market prices is limited by the
size of the display screen. Thus, it is possible for a
trader to have working quantities of which the trader

App. 279
is not aware at prices that are not visible in the display window. The aggregated working quantities display helps to alleviate this draw-back by showing a
trader the cumulative total of the trader’s buy and sell
working quantity. If the display shows anything but
a zero, the trader will know that the trader currently
has an unfilled working quantity in the market.
In the preferred embodiment, the display of aggregated working quantities, as shown in cells 1004 in
FIG. 10, is presented to the user in conjunction with
buttons that may be actuated by the user. As noted
above, the user may use an input device, such as a
mouse, to click the buttons 1006, 1008, thereby deleting the working orders associated with the displayed
aggregated working quantities. One button 1006 displays the aggregated buy working quantity. The other
button 1008 displays the aggregated sell working
quantity. The aggregated totals that appear on each
button 1006, 1008 are calculated from the non-aggregated working quantities as displayed in a working
quantities column 1010, as shown in FIG. 10. In both
the working quantities column 1010 and the aggregated quantity buttons 1006, 1008, the buy quantity
is highlighted, in a preferred embodiment in a color,
such as blue, and the sell quantity is highlighted, in a
preferred embodiment in a different color, such as
red. The user preferably has the option of whether to
display the aggregated quantity buttons via, for example in MD_TRADERTM, the properties settings
window. The quantity buttons appear by default for
new sessions. Of course, aggregated working quantities may be displayed by any trading application, as
an alternative to the type of display illustrated in
FIG. 10.

App. 280
Dynamic Indicator
Another preferred embodiment provides the user
with the ability to paste a dynamic indicator for display in relation to, for example, a static price scale. In
one embodiment, a first dynamic indicator column is
displayed adjacent to the bid quantity column, and a
second dynamic indicator column is displayed adjacent to the ask quantity column. The dynamic indicator may be applied to a dynamic indicator column
from a spreadsheet, such as Microsoft EXCEL, or
other third party charting or analytical software, to
furnish the user with a visual indicator of, for example, a specific price. The display screen may, for example, be an MD_TRADERTM-style display generated
by the X_TRADER® trading application, although
other trading applications and trading interfaces may
alternatively be used.
The dynamic indicator is preferably associated
with market information. In a preferred embodiment,
the dynamic indicator is associated with a price, although it may alternatively be associated with any
other item of interest to the user. Color coding may be
applied to the dynamic indicator.
When used, for example, with an MD_TRADERTMstyle display, a dynamic indicator may be associated
with a specific price, as set by a trader using the third
party software, and displayed in relation to a static
price scale. If the dynamic indicator is associated with
a price that is outside of the viewable area of the
trader’s display, it preferably becomes viewable on
the screen when the associated price comes into view.
Although a preferred embodiment of the invention involves copying and pasting to and from a spreadsheet,

App. 281
other methods of transferring information may also
be used.
Use of this particular embodiment is initiated
when a trader enters or pastes a value into a spreadsheet 1100. For example, the value may be a specific
price that the trader wants to monitor, or it may be a
dynamic price that includes an attached calculation.
The indicator is not limited to use with prices, but alternatively may be used for any item of interest on the
trader’s display. In the price example, once the value
is entered in the spreadsheet, the trader copies the
desired price cell(s) from the spreadsheet and pastes
the cell(s) in one of the dynamic indicator columns 1102 of the screen, as shown in FIG. 11A. Upon
pasting the cell(s) in the dynamic indicator column, a
display marker, also referred to as a dynamic indicator 1104, highlights a cell in the indicator column 1102 that corresponds to the price calculated in
the spreadsheet or other software.
The marker may be anything that is suitable to
serve as an indicator for the trader, including, for example, graphical symbols and colors. Thus, although
FIG. 11A shows an entire highlighted cell 1104, the
marker may alternatively be color-based, such as a
highlighted or colored foreground, background, border or portion of the cell. It is not necessary that the
dynamic indicator occupy an entire cell. For example,
in instances where the trading interface includes a
static price scale, and the price scale is consolidated,
it may be desirable to locate the dynamic indicator at
a position within a cell that corresponds to a specific
price. In addition, the marker may mark a range of

App. 282
prices. Preferably, the type of marker is selectable by
the user.
Preferably, a link is established from the pasted
cell to the spreadsheet 1100 from which the cell(s)
was copied. The link gives the trader the ability to
change the copied value in the spreadsheet 1100, resulting in a related change in the pasted value in the
dynamic indicator column 1102. In one embodiment,
this may be a two-way link between the trading interface and the third party software, or may link market
data from the trading window, such as LTP or any
other item of interest, into the spreadsheet or other
third party software. Any suitable type of data exchange protocol may be used to embed information
from the third party software or to link the dynamic
indicator to the third party software. For example,
Microsoft OLE 2.0 may be used to perform these functions when using Microsoft Windows applications as
the third party software. In a preferred embodiment,
Microsoft OLE is utilized to provide a link between a
dynamic indicator and a cell from a Microsoft EXCEL
spreadsheet. Data exchange protocols in general, and
linking and embedding techniques in particular, are
well known to those skilled in the art.
The meaning of the pasted dynamic indicator, and
whether there is a dynamic calculation attached, is
preferably at the decision of the individual trader. For
example, the trader may want the dynamic indicator
to represent a ‘Fair Value Analysis’ (average price).
This would calculate the average price at which the
specific commodity traded throughout the day. The
trader would copy and paste the cell, with the attached calculation, into the dynamic display column.

App. 283
As the average price changed with each newly filled
quantity, the dynamic indicator would move up or
down the indicator column in conjunction with the appropriate price. When that indicator would move to a
price viewable on the screen, the trader then could see
a visual indicator of the ‘Fair Value’ price, and the
trader could choose to enter quantity if the trader so
desired. Although illustrated with reference to the
‘Fair Value’ price, it is to be appreciated that any calculation may alternatively be used.
As noted above, the dynamic indicator may also
appear in only a portion of the cell. The dynamic indicator may be highlighted, for example, in a different
color than the remainder of the cell or the surrounding cells, or may be displayed in time-alternating colors to create a flashing effect. The dynamic indicator
may be presented as a highlighted or colored line
within a cell. The portion of the cell in which the dynamic indicator appears may be selected to convey additional information, such as a price that falls between prices in a static price scale, for example when
price consolidation is utilized. FIG. 11B illustrates a
dynamic indicator column 1102 in which a dynamic
indicator is shown by highlighting only a portion of a
cell 1110.
The dynamic indicator benefits a trader in that the
trader is provided, for example, with the ability to
monitor price movements of the trader’s own designation, whether those movements are of the last traded
price, the ‘Fair Value’, or any other designated item of
interest. By seeing the visible dynamic indicator associated with the trader’s designated item of interest,
the trader has a better opportunity to enter quantities

App. 284
at prices that are desirable. In addition, the trader
can paste a dynamic indicator while continuing to enter other quantities throughout the trading session,
and the indicator will continue to update as long as
the session is open. Thus, the trader may find that a
desirable price, as shown by the indicator, is available
in the market long after the trader originally copied
and pasted the indictor. Furthermore, the dynamic indicator may decrease the time it takes for the user to
analyze market data by providing the user with a visual cue.
The display of the highlighted dynamic indicator,
the color of which, in instances where color is used,
maybe selected by the trader through, for example, a
properties window, appears in the buy and/or sell dynamic indicator columns on the display. The indicators can be moved to various locations on the display.
Of course, more than one dynamic indicator may appear in any dynamic indicator column. In one embodiment that utilizes the MD_TRADERTM-style display,
the dynamic indicator columns appear by default to
the immediate left and right of the buy and sell quantity columns, respectively, as shown in FIG. 11A. It is
not necessary, however, that an entire column, row or
other display element be devoted to display of a dynamic indicator. The dynamic indicator may alternatively be applied in the display on a cell-by-cell basis
or may overlay other displayed information.
Out of Range Indicator
In accordance with a preferred embodiment, the
graphical user interface for a trading application provides an indication that an item of interest is outside

App. 285
the viewable range of the display. The trading application may be X_TRADER®, referenced above, or any
other commercially available product adapted as described in this section. Preferably, the out of range indicator also provides a user the ability to cause the
display to shift up or down so that the user may view
the item(s) of interest that lie outside of the viewable
area. Examples of items of interest include, but are
not limited to, the user’s working orders and market
depth information, such as quantities and prices.
In one embodiment, the out of range indicator is
an arrow or similar pointing icon, which will indicate
to the user that an item of interest lies outside the
viewable area and further indicates the direction in
which the viewable area needs to move to display the
item of interest. Preferably, the viewable area will
scroll or jump to the item of interest when the user
clicks on or otherwise actuates the pointing icon. Each
time the out of range indicator is used, the display
may shift to the closest item of interest outside of the
viewable area. As an alternative to jumping to the
next item of interest, the display may shift row-byrow, column-by-column, price-by-price, or may jump
to a new level based upon a selected item of interest.
For example, as shown in FIG. 12A, quantities are
entered (and are viewable on the display) at sell prices
of 109225, 109250, 109400, etc. If 109525 is the next
highest price for which quantity is entered, but that
quantity is beyond the viewable area, the trader can
use an out of range quantity indicator, illustrated in
this example as an ‘up arrow’ 1200 function, to shift
the display up so that the quantity is viewable. Each
ensuing use of the ‘up arrow’ 1200 function will result

App. 286
in the display of the next highest sell price for which
quantity is entered in the market.
Continuing with this example, the same general
principles apply when employing the ‘down arrow’
1202 function. Specifically, in FIG. 12A, quantities
are viewable on the trading screen at the buy prices
of 108975, 108875, 108825, etc. If 108650 is the next
lowest buy price for which quantity is entered in the
market, then the trader could use the ‘down arrow’
1202 function to display that quantity. Each ensuing
use of the ‘down arrow’ 1202 function results in the
display of the next lowest buy price for which quantity
was entered in the market.
By using the out of range indicator (e.g., 1200,
1202), which in this example indicates out of range
market quantities, the trader can essentially view the
entire market depth provided by an exchange. The
display of the entire market depth may be limited, for
example, by the size of the user’s display screen, or
the user’s preferences about the amount of market information that is displayed at any one time. Due to
these constraints, it is possible that there may be
items of interest, such as market depth or working orders, that the user cannot see. The out of range indicator not only alerts the user to the existence of an out
of range item of interest, but also ensures that all
such information is viewable via, for example, the ‘up
arrow’ 1200 and ‘down arrow’ 1202 function.
When items of interest fall outside the viewable
range, the trading application preferably generates
cells, for example each with an arrow pointing up or
down, as appropriate, at the top and/or bottom of the
column related to the item of interest. The arrow cells

App. 287
are preferably enabled only when an item of interest,
like a quantity entered in the market, falls outside of
the viewable area. If no items of interest fall outside
the viewable area, in one embodiment of the invention, the cells are inactive and may be presented on
the display in a solid color without an arrow. As an
alternative to the use of buttons with pointing icons,
a preferred embodiment allows a user to scroll the
market data in a desired direction using a mouse
wheel or other user input device.
As noted above, the out of range indicator may alternatively, or in addition, be used to alert the user to
out of range working orders. In this example, each
time the indicator is used, the display preferably
shifts to the user’s next working order in the market
that is outside of the viewable area. For example, as
shown in FIG. 12B and evidenced by the working
quantities present in the working quantities column,
a trader has quantities entered (and viewable on the
display) at sell or offer prices of 109200, 109250, and
109300. If 109550 is that trader’s next highest price
for which quantity is entered, but that quantity is beyond the viewable area, the trader can use the indicator, in this example an ‘up offer arrow’ 1204 function,
to shift the display up so that the quantity is viewable. Each ensuing use of the ‘up offer arrow’
1204 function results in the display of the trader’s
next highest offer price for which quantity is entered
in the market. As stated above, the display alternatively may shift row-by-row, column-by-column, priceby-price, or may jump to a new level based upon a selected item of interest.

App. 288
The same general principles may apply in regard
to working buy orders, by employing a ‘down bid arrow’ 1206 function. For example, in FIG. 11B the
trader has quantities entered and viewable on the
trading screen at the buy or bid prices of 109025,
109000, 108975, 108875, and 108825. If 108650 is
that trader’s next lowest bid price for which quantity
is entered in the market, then the trader could use the
‘down bid arrow’ 1206 function to display that quantity. Each ensuing use of the ‘down bid arrow’
1206 function results in the display of that trader’s
next lowest bid price for which the trader has quantity entered in the market. Regardless of which arrow
is being used, the screen will shift to quantities that
the trader has entered in the market.
By using the out of range indicator (e.g., 1200,
1202, 1204 and 1206), the trader preferably may view
information related to all of his or her working orders.
This indicator reduces the potential for missed and
forgotten opportunities or exposure by ensuring that
all of the user’s working orders are viewable via the
‘up offer arrow’, the ‘up bid arrow’, the ‘down offer arrow’ and ‘down bid arrow’ functions. The pointing
icons, or arrow buttons, discussed above may be located at the top and/or bottom of any column of interest, or to the left and/or right side of any row of interest, that includes data that falls outside of the viewable range, including for example working orders that
fall outside the viewable range. Other uses for the out
of range indicator will be apparent to those skilled in
the art upon reviewing this detailed description. Although described above with reference to pointing
icons and/or arrow buttons, any type of indicator may

App. 289
alternatively be used as long as it is capable of indicating to the user that there is information outside of
the viewable range.
‘Thermometer’ Indicator
In accordance with a preferred embodiment, the
trading application provides a display to the user illustrating the volume of buy and sell quantities, in
proportion to each other, in a logical, dynamic manner. The trading application may be X_TRADER®,
referenced above, or any other commercially available
product adapted as described in this section. In one
embodiment, which is advantageously used in a trading application that displays price along a vertical
axis, like X_TRADER®, the ‘thermometer’ indicator
generates one or more narrow, vertical display columns 1300, 1302 (“thermometers”), located in proximity to the quantity columns as shown in FIGS. 13A
& 13B. The thermometers 1300, 1302 may or may not
be associated with a numeric display of the total number of buy and sell orders in the market for a particular commodity. When there is quantity available in
the market, the thermometers 1300, 1302 are preferably shaded in a manner that coincides with the percentage of buy verses sell quantities in the market.
For example, if the buy and sell quantities in the market are equal, meaning that 50% of the quantity is buy
quantity and 50% is sell quantity, then both thermometers 1300, 1302 are shaded 50%, as shown in
FIG. 13A. In alternative embodiments, thermometer
indicators may represent a relationship between any
two items of interest to the user. Although vertical
bars are shown in the illustrations, it should be understood that any visual indicator may, alternatively

App. 290
be used, as long as the indicator is capable of conveying the appropriate information to a user.
These thermometer columns are preferably adjustable in that the user may move the thermometer
columns to various locations on the display as logic or
user preference dictate. One preferred location, when
the thermometer indicator is to represent the volume
of buy quantities in relation to the volume of sell
quantities, is immediately to the left of the buy quantity column and to the right of the sell quantity column. In this embodiment, the display of the thermometers may begin at the mid-point of the prices displayed on the screen. For example, in FIGS. 13A and
13B, the mid-point is between the prices of 90 and 85.
The buy quantity thermometer descends from the
mid-point to the lowest price displayed on the screen
(45), and the sell quantity thermometer extends to the
highest price displayed (130).
As noted above, the two thermometers show the
quantity available in the market, with one thermometer each for the buy quantities and the sell quantities. In the illustrated embodiment, both thermometers extend from the mid-point price that is currently
on the user’s display. The buy thermometer preferably reaches to the lowest price displayed, while the
sell thermometer preferably extends to the highest
price displayed. The thermometer for the buy quantity descends from the top of the thermometer as the
percentage of buy quantity increases. The thermometer for the sell quantity rises from the bottom of the
thermometer as the percentage of sell quantity increases. If either the buy or sell quantity is larger

App. 291
than the other, the thermometers will reflect this difference based on the amount of the disparity.
FIG. 13B, for example, reflects a scenario where 95%
of the quantity in the market is buy quantity and 5%
of the quantity in the market is sell quantity. Therefore, the buy thermometer 1304 is shaded a great deal
more than the sell thermometer 1306 to represent the
disparity. Although described with reference to a
thermometer indicator, any type of graphical indicator may alternatively be used to present the user with
information about an item of interest. An alternative
to displaying graphical indicators, like thermometers,
is to display the market depth numerically, such as
an aggregated sell quantity and an aggregated buy
quantity, or as a percentage or ratio between buys and
sells.
The thermometer indicator benefits a trader by
showing the disparity of buy verses sell quantity in
the market, thereby providing the trader with a tool
to help decide whether to enter orders to buy or sell.
For example, if there is a higher percentage of buy
quantity in the market, then a greater number of the
traders may want to buy, whereas if there is a greater
percentage of sell quantity in the market, then a
greater number of traders may want to sell. A trader
can therefore deduce that with a greater percentage
of buy quantity in the market, the trader may have a
higher chance of having the trader’s sell order filled
at a desirable price if the trader were to enter such a
sell order. If the percentage of sell quantity was
higher in the market, the trader may have a greater
chance of having the trader’s buy order filled at a desirable price.

App. 292
Auto Scalper
In accordance with another preferred embodiment, the trading application provides a way to automatically enter offsetting orders. The trading application preferably is X_TRADER® using an
MD_TRADERTM-style display. Scalping is a term that
is well known in the trading of commodities and it refers to a trading technique in which the trader trades
for relatively smaller gains over a short period of time.
In this embodiment, the trading application facilitates scalping by providing the user with an automatic order entry mechanism, embodiments of which
are further described below. Preferably, automatic
scalping is activated based on a user input, such as
simultaneously pressing the control key and the scroll
wheel on the user’s mouse to manipulate a pair of indicator bars in the form of horizontal lines. Other actuating mechanisms may alternatively be used, including for example using a dialog box generated by
the trading application or by actuating a scalping icon
displayed on the user interface.
For this embodiment in which a mouse input is
used to position parallel horizontal lines, the indicator
bars define a price range where buy and sell quantities may be automatically entered when a similar
such quantity is manually entered and filled. More
specifically, this feature automatically enters sell
quantities when a trader’s manually entered buy
quantity is filled. Likewise, this feature will automatically enter buy quantities when a trader’s manually
entered sell quantity is filled. The indicator bars move
in relation to a static scale or axis representing prices.
In a preferred embodiment. the indicator bars span

App. 293
the buy column, the sell column, and the price column, and they begin together at the mid-point of the
prices displayed on the trader’s display screen. In
FIG. 14A, that mid-point 1400 is between the prices
of 90 and 85. When the trader enables this embodiment and scrolls the wheel on the trader’s mouse up,
the indicators move further apart, leaving a greater
number of prices within the range of the indicator
bars 1402. When the trader scrolls the wheel down,
the indicator bars move closer together (nearer to the
mid-point), reducing the number of prices within the
indicator columns, as shown in FIG. 14B.
The order that is automatically entered is preferably for the same quantity as the trader’s last buy or
sell fill. Additionally, the order that is automatically
entered is entered at a particular price or prices, depending on the preferences and/or practices of the
trader, within the range of the indicator bars. In one
embodiment, the order that is automatically entered
is, in the case of a sell order, at the lowest price above
the inside market within the range of the indicator
bars, and in the case of a buy order, at the lowest price
within the range of the indicator bars. Alternatively,
the order that is automatically entered, may be at a
price or prices calculated pursuant to any algorithm.
For example, the quantity ordered may be evenly
spread among the prices above (in the case of a sell
order) or below (in the case of a buy order) the inside
market and within the range of the indicator bars.
The preferred embodiments are not limited to any
particular technique for determining the price or
prices at which the automatic order is entered. In a
preferred embodiment, the user may set the rules for

App. 294
exactly how a duplicate order or orders are sent
(whether at the best price or some other price).
For example and as shown in FIG. 14A, the indicator bars 1402 are set with the highest price at 110
and the lowest price at 65. The inside market, as indicated by the black line, is a buy price of 100 and a
sell price of 105. If a trader using the automatic
scalper enters quantity in the buy column and that
quantity is filled, in one embodiment the system will
automatically enter a duplicate quantity in the sell
column at the lowest price above the inside market
and within the range of the indicator bars, which in
this example would be a sell price of 105.
A trader’s position may be defined as the difference between the total quantity of the commodities
bought and quantity of the commodities sold, and the
trader is considered to have a long position when the
quantity bought is greater than the quantity sold and
a short position when the quantity sold is greater
than the quantity bought. The more quantity the
trader owns, the longer the trader’s position will be.
Conversely, the more quantity the trader sells, the
shorter the trader’s position will be. It may be desirable to have neither a long nor short position, referred
to as a closed position, at the end of each day’s trading
session. If the buy quantity that the trader has entered in the market is filled, thus giving the trader a
long position, the system, if actuated by the user, may
automatically enter a duplicate sell quantity, which
when filled will close the trader’s position. Likewise,
if the sell quantity that the trader has entered in the
market is filled, the system may automatically enter
a duplicate buy quantity, which when filled will close

App. 295
the trader’s position. The automatic scalper automatically and, preferably, immediately enters a duplicate
buy or sell quantity, which when filled will close the
trader’s position, preventing the trader from carrying
a long or short position for an extended period of time.
In an alternative embodiment, the automatic
scalper embodiment may be used to set one range, using, for example, indicator bars, for buying quantity
and another range for selling quantity, at the same
time. For this embodiment, the automatic scalper automatically quotes both sides (buy and sell) within the
ranges determined by the user. In another alternative
embodiment, multiple automatic scalping ranges, using different pairs of indicator bars, may be active in
a single trading window. For this embodiment, the
different ranges may be distinguished by using, for
example, different colors for the different pairs of indicator bars.
Price Level Reasonability Check
In accordance with another preferred embodiment, the trading application provides a user with the
ability, referred to as the Price Level Reasonability
Check (“PLRC”), to prevent the entry of any order in
the market at a price that is a specified number of
ticks away from the Last Traded Price (LTP), or at a
price that is a specified percentage different from the
LTP. A tick can be anything, but is generally used in
this detailed description as the minimum change in a
price value that is set by the exchange for each commodity (e.g., $0.01, $0.05, $0.10, or any other value).
The trading application may be X_TRADER®, referenced above, or any other commercially available
product adapted as described in this section. The

App. 296
PLRC may be enabled and configured by either a
user, such as a trader or an administrator. For systems in which an administrator enables the PLRC,
the PLRC may be applied uniformly to all client terminals on a network, or it may be adjusted on a caseby-case basis, thereby accounting, for example, for the
experience level of the trader.
The PLRC may preferably be enabled on a commodity-by-commodity basis. For example, in
FIG. 15A, a trader has entered a value of five to designate the maximum number of ticks from the LTP at
which the trader is willing to enter an order in the
market. As shown in FIG. 15B, the market for the
commodity being traded has a tick value of five.
Therefore, as dictated by the LTP of 90, the tick increment of five, and the PLRC value of five, should the
trader choose to sell the commodity, the trader can
enter an order at a price of 90, 85, 80, 75, 70, and/or
65. As shown in FIG. 15B, 90 is the last traded price,
and the prices of 85, 80, 75, 70, and 65 are the sell
prices that are less than or equal to five ticks away
from that LTP. If the trader attempts to sell quantity
at a price of 60 or below, the trader would be restricted
from doing so because the price is beyond what the
trader’s PLRC value will allow. The same trader could
buy the commodity at a price of 90, 95, 100, 105, 110,
and/or 115. Each of these prices is within five ticks
(the PLRC value) of the LTP. If a trader attempts to
buy quantity at a price of 120 or higher, the trader
would be restricted from doing so because the price is
beyond what the trader’s PLRC value will allow. The
PLRC function may alternatively allow a trader or administrator to enter a percentage instead of a number
of ticks to designate the maximum deviation from the

App. 297
LTP at which the user is allowed to enter orders in
the market.
In an alternative embodiment, the trading application may provide a volatility adjusted PLRC function. In this embodiment, the PLRC dynamically increases or decreases the number of ticks (or percentage) away from the LTP within which a user may enter orders. The increase/decrease, which may be set
by the user or a system administrator, is preferably
based on volatility. For example, a trader may set the
trading application to dynamically increase the PLRC
by a specified amount if the volatility is greater than
a specified amount.
The inclusion of the PLRC function limits the possibility of the trader having the working quantity
filled at less desirable prices. The inside market is
those prices, for which there is quantity available in
the market, that are considered the best buy and sell
prices available. The best buy price is the highest buy
price that has quantity in the market, while the best
sell price is lowest sell price that has quantity in the
market. Generally, the LTP will be at or near to that
inside market. The LTP is used as the center price
from which the PLRC begins and allows quantity to
be entered at a limited number of price levels either
above or below that LTP level.
In one preferred embodiment, where the trading
application is X_TRADER®, the PLRC is preferably
enabled through the ‘Options’ display, an example of
which is shown in FIG. 155B, by checking the “Price
Level Reasonability Check” option box 1500 and then
entering a value in the adjacent box 1502, designating

App. 298
the number of ticks that quantities can be filled beyond the last traded price value. Although the PLRC
is described with reference to setting a boundary on
acceptable prices for working quantities, the same
technique may be used to constrain many other trading activities, such as the quantity associated with
any order or to limit the total quantity being quoted
by any individual user. Implementation of these variations is analogous to the implementation of PLRC
described above and those skilled in the art can implement the variations based on this detailed description.
Group Positioning and Automatic Grid Positioning
In accordance with another preferred embodiment, the trading application may re-position any
item of interest within the trading interface. In one
embodiment, the trading application tracks the market’s activity by automatically centering, for example,
the inside market or the Last Traded Price (“LTP”) on
the display with respect to a static axis or scale of
prices. Preferably, any other item of interest in the
trading interface may serve as the basis for positioning information within the display.
The
trading
application
preferably
is
X_TRADER®, using an MD_TRADERTM-style display. In a preferred embodiment, the LTP is displayed
in the LTP column and is indicated by a highlighted
cell directly next to the price cell corresponding to the
most recently filled quantity. The LTP cell preferably
also contains an indication of the quantity of the most
recent fill. The inside market is indicated by a line
spanning both the buy and sell columns and is positioned between the highest buy price at which there

App. 299
is quantity currently in the market (the best buy
price) and the lowest sell price at which there is quantity currently in the market (the best sell price).
Preferably, a user may designate any item of interest as the basis for the positioning function, such
that, upon positioning, the item of interest will be
moved to a predetermined location on the user’s display. Automatic positioning may be triggered either
by a timer, or by monitoring movement of the item(s)
of interest about the display. Two items of interest to
many traders are the inside market and the LTP.
Thus, in one embodiment, the user may select one of
these items for automatic re-positioning. When either
the highlighted LTP cell or the inside market line is
outside of the viewable area of a trader’s display, or is
more than a predetermined distance away from a location on the display, the LTP cell or the inside market line will automatically be placed at a predetermined location on the display. In a preferred embodiment, automatic positioning parameters may be selected by the user from the ‘Options’ display. The user
may choose, for example, whether to re-position the
display after a designated number of seconds, when
the LTP is a designated number of cells from the top
or bottom of the trader’s display screen, or when the
inside market is a designated number of cells from the
top or bottom of the trader’s display screen.
In addition, a trading application may present
multiple trading windows to the user simultaneously.
In accordance with a preferred embodiment, the automatic positioning tool may be applied globally to any
number of open trading windows. Preferably, a dialog
box or menu item may be used to enable the user to

App. 300
group or link, for purposes of re-positioning, any number of trading windows. In accordance with one embodiment, at least one of the linked trading windows
becomes the master, and the other linked trading window(s) will be re-positioned whenever the master
trading window is re-positioned. For example, one of
the trading windows may be designated by the user
as the master trading window by selecting “re-position all,” or any similar designation, from a menu or
dialog box. This may have the effect of re-positioning
all open trading windows when the master trading
window is re-positioned. The user may choose to have
one or more trading windows ignore the re-positioning command by selecting “ignore,” or any similar designation, from the menu or dialog box. This group repositioning feature may be used in conjunction with
the automatic re-positioning tool or with manual repositioning (such as through the click of a center
mouse button or the use of any input device). Other
techniques for grouping trading windows will be apparent to those skilled in the art upon review of this
detailed description.
In a preferred embodiment, the positioning tool
serves to center the item of interest (such as the LTP
or the inside market) on the display. As shown in
FIG. 16A, the LTP is displayed in the LTP column 1602 and is indicated by a highlighted cell 1600
(the color of which maybe designated by the trader).
This cell 1600 appears next to the price cell 1604 corresponding to the most recently filled quantity. The
inside market is indicated by a solid line spanning
both the buy 1608 and sell 1610 columns, and is between the highest buy price at which there is quantity
currently in the market and the lowest sell price at

App. 301
which there is quantity currently in the market.
FIG. 16B is a display showing how a trader may select
and manipulate the automatic grid centering feature.
Although presented in FIGS. 16A and 16B as being
applied to a scrolling vertical scale, it should be understood that the preferred embodiments are not so
limited. Rather, automatic positioning may be applied
regardless of the direction of movement or the number
of dimensions in which information is displayed.
As quantities are entered and filled in the market,
the LTP and inside market change to indicate the
price of the last filled quantity and the most recent
best buy and sell prices. In a volatile market, a large
number of quantities can be filled in a relatively short
period of time, resulting in a continuous fluctuation of
the LTP and inside market. The LTP and the inside
market are two indicators that a trader may use to
understand at what prices other traders find a commodity to be most desirable. A trader may use automatic positioning to always have a visual reference of
where the market is trading, increasing the likelihood
of entering quantities and having those quantities
filled at desirable prices. In addition, automatic positioning may be used in conjunction with manual positioning. In other words, it is preferable that by enabling automatic positioning, the user is not thereby
precluded from manually re-positioning the display.
Highlight Mid-Point of Last Re-Position
In accordance with a preferred embodiment, a
trader may emphasize the mid-point of prices and/or
quantities entered in the market at the time of the
last re-position event. Preferably, a re-position event
centers the display around the inside market, where

App. 302
the inside market is the highest buy price and the lowest sell price for the commodity being traded for which
there is quantity in the market, or alternatively, a reposition event may center the display at any price
and/or quantity, if so desired. Furthermore, a re-position event does not need to center on any particular
price, but may ensure that a particular price, or other
item of interest, is positioned at a predetermined location, or within a range of locations, on the display.
In the preferred embodiment, the mid-point is designated by a bold line that spans the columns of the
display screen, or in another embodiment, the midpoint may be designated by a color, arrow, text, and
so forth. Preferably, the exact location of the midpoint line is dependent on the number of the price
rows that are displayed between the best buy and best
offer price rows (at which quantity is available) at the
time of the last re-center event. Alternatively, the location of the midpoint line may be dependent on the
quantities of a portion, or all, of the buy and sell orders, or may be dependent on the combination of price
and quantities of the portion or all of the buy and sell
orders. In yet another alternative, a bold line representing a particular price level may be displayed in
association with any item of interest to the user, to
thereby adjust the content of the trading interface to
the user’s preferred range.
Of course, markers other than a line may alternatively be used. For example, like many of the foregoing embodiments, the marker may be highlighting, a
color or a graphical indicator disposed upon the display at the desired location. According to this embod-

App. 303
iment, a trader may benefit from the visual representation of the discrepancy between the best bid and offer prices currently in the market.
According to the preferred embodiment, when the
number of price rows between the best bid and best
offer price rows (where quantity is entered) is an even
number (or zero), the mid-point line is displayed between the middle values, with these being the highest
buy (bid) price and the lowest sell (offer) price that are
displayed in the window. For example, in FIG. 19A,
the best bid price is 75 and the best offer price is 100.
In this example, the display for the product is traded
in ticks in increments of 5. As a result, the prices that
are displayed between the best bid and best offer
prices are 80, 85, 90 and 95. Because the total number
of prices between the best bid and best offer is an even
number, the mid-point line 1800 is displayed between
the highest bid price of 85 and the lowest offer price
of 90. Other methods may alternatively be used to determine the mid-point of an even number of rows,
cells or columns.
In addition, according to the preferred embodiment, when the number of price rows between the
best bid and the best offer prices (where quantity is
entered) is an odd number, the mid-point line is displayed in the top of the cell that signifies the middle
price value of the prices displayed between the best
bid and best offer prices. For example, in FIG. 19B,
the best bid price is 85, and the best offer price is 105.
The display for the product being traded ticks in increments of 5. As a result, the prices that are displayed between the best bid and the best offer are 90,

App. 304
95 and 100. Because the total number of prices between the best bid and best offer is an odd number,
the mid-point line 1902 is displayed above the price
row of 95 because 95 signifies the middle price value
of the prices displayed between the best bid and best
offer prices. It should be understood that the midpoint line 1902 may be displayed below or in the middle of the price row of 95 to indicate the middle price
value. Other methods may alternatively be used to determine the mid-point of an odd number of rows, cells
or columns.
While the preferred embodiment utilizes an
MD_TRADERTM-style display with a vertical static
price axis or scale, this trading tool may be utilized
with any display in which market information, such
as bids, asks and/or working orders, are displayed relative to a static scale or axis of prices. It is not necessary that the scale or axis be vertical or even two-dimensional. Rather, the market information may be
displayed horizontally, at an angle, n-dimensionally,
or in any other fashion.
The display of the mid-point line may be enabled
through an ‘Options’ display, an example of which is
shown in FIG. 19C, by clicking the box 1906 directly
to the left of the ‘Highlight Midpoint of Last Re-center’
option. Other techniques known to those skilled in the
art, such as selecting this tool from a menu, may alternatively be used. Also, highlighting the mid-point
may be applied to a variety of applications where the
trader would like to highlight a midpoint that corresponds to prices and/or quantities, or any other item
of interest.
Drag and Drop of Working Quantities

App. 305
In accordance with another preferred embodiment, the trading application permits the trader to
change the trader’s working orders by dragging and
dropping working quantities from one price level to
another price level vis-à-vis a static price scale or axis.
The trading application preferably is X_TRADER®,
using an MD_TRADETM-style display. When using an
MD_TRADERTM-style display to drag and drop a
working order, in one embodiment, the trader clicks
on an active cell within the working quantity column.
This activates the drag and drop feature and allows
the trader to manipulate the cell by moving the cell
on the trader’s trading screen. Such a manipulation is
commonly referred to as “dragging” the chosen data.
Prior to releasing the mouse button, a trader drags
the working order by moving the cursor to a new cell
in the working quantity column. The trader then releases or “drops” the data in a new cell. In a preferred
embodiment, the ability to drag and drop working orders as described herein is an option that may be
turned on or off by the user for each individual trading
window.
At the point the data is dropped, the previous
quantity may be deleted from the original price and a
new quantity entered at the price associated with the
cell in which the new working quantity was dropped.
The quantity displayed in either the buy or sell column that corresponds to the traders working quantity
also moves to the newly selected price level when the
drag and drop function is performed. Any approach
may be used to change the user’s working orders. For
example, rather than resulting in the deletion of an
existing working order and the entry of a new working
order, a single cancel and replace, as known to those

App. 306
skilled in the art, may be used to change the user’s
working orders.
The ability to drag and drop working quantities,
as displayed in the working quantities column, can be
used by a trader who is not satisfied with the current
price at which such quantity is entered in the market.
The trader is given the capability of changing the
price level at which the trader’s quantity is entered
without having to both delete and re-enter the quantity, resulting in a valuable time savings by simply
dragging and dropping that quantity.
Preferably, the drag and drop feature makes it
possible for a trader to move the entire working quantity of a single cell from one cell to another cell in the
working quantity column when that quantity actually
consists of multiple orders. For example, if a trader’s
working quantity is 30 at the price of 102.54 (1700),
as shown in FIG. 17, that quantity may actually consist of three separate 10-lot orders, where a lot consists of multiple quantities that are traded together.
Should the trader drag and drop that working quantity to the price of 102.57, the entire quantity of 30 (all
three lots) will move cohesively to the new price level.
Although the quantities were entered separately,
once entered, they are treated as a cohesive whole.
The ability to drag and drop an entire quantity,
regardless of the number of orders associated with
that quantity, benefits a trader in that the trader does
not need to constantly change the trader’s quantity
setting. The trader also does not have to repeat the
drag and drop action for each order. For example, a
trader may be trading at a quantity of 10, and therefore every time the trader enters a quantity in the

App. 307
market, the trader is entering a 10-lot order. If the
trader wants to enter a quantity of 30, the trader can
either change the quantity setting or click in the appropriate cell three times, thus entering three separate 10-lot orders in the market. Should the trader
choose to drag and drop the working quantity from
one price level to another, all of the working quantity
associated with the cell and price level at which the
drag and drop is performed will be moved to the new
price level. As a result, the trader does not have to
perform three separate drag and drop actions and valuable time can be saved, which could help to ensure
that the quantities are entered and filled at their intended prices.
The display of a trader’s working quantity appears
in the working quantity column in a cell that corresponds to the price at which the quantity was entered.
The display of the trader’s working quantity remains
visible on the trading screen until the quantity entered is completely filled, at which time the display of
that specific working quantity will be removed from
the working quantity column, or the order is canceled
or deleted. In one embodiment of the invention, the
cell in which the working quantity is displayed includes a ‘W’ followed by a value that indicates the
quantity that is currently working in the market. The
cell also contains a ‘B’ or an ‘S’ followed by a value
that indicates how much of the original working Buy
or Sell quantity has been bought or sold. Although described with reference to a working quantity column,
the embodiments are not limited to trading interfaces
that display working quantities in a column, but rather the teachings of this section may be applied to
any type of display of working quantities.

App. 308
In one preferred embodiment of drag and drop,
nothing changes with respect to a user’s pending
working orders until the user releases the mouse button, keypad or other input device over the desired location on the trading interface. This feature allows
the user to maintain his/her place in the trading
queue for the earlier entered order. In an alternative
embodiment, the new order is entered as soon as the
mouse icon comes to rest in an appropriate area of the
trading interface.
Another alternative embodiment allows drag and
drop of working quantities when price consolidation
is enabled. Any appropriate algorithm may be used to
allocate the new order(s) over the consolidated price
range. For this embodiment, the user preferably may
select, such as through the use of a dialog box, the desired allocation algorithm. For example, all the
“dropped” orders may be entered at one price, such as
the price shown on the consolidated scale, or the
working quantity may be equally distributed over the
consolidation range associated with the location
where the orders are dropped, or each working order
may be moved by the increment on the consolidated
price scale between their original location and the location at which the orders are dropped.
Yet another alternative provides a user with the
ability to enable automatic modification of the quantity of the order entered at the location where the
working order is dropped. For example, as noted
above, working orders may remain working until the
input device (e.g. mouse button) is released. In this
case, a working order may be filled or partially filled
during the drag and drop process. Preferably. the user

App. 309
may select, such as through a dialog box, what will
happen to the “dropped” order in this situation. For
example, if the working order is filled during drag and
drop, the user may prefer that no new order be entered at the new price. Or, if the working quantity is
partially filled, the user may prefer that only the remaining quantity be entered at the new price. In this
manner, the “dropped” order may be automatically
modified in accordance with user preference.
Average Price of Working Quantities
In accordance with a preferred embodiment, a display shows the average price for a trader’s working
buy and sell quantities that are entered in the market. A trader’s working quantities represent the unfilled quantities of all the orders that the trader currently has entered, but not filled in the market. Preferably, the display shows the average price of the total working buy quantities and the average price of
the total working sell quantities for the specific commodity being traded and for the specific trader who
entered those quantities. For this embodiment, the
average working prices may be displayed using, for
example, highlighting, color, or a graphical indicator
associated with a static price scale or axis, if such a
scale or axis is displayed. The display may or may not
include the actual numerical value of the average
price.
In an alternate embodiment, a distribution of the
prices for the trader’s working buy and/or sell quantities that are entered in the market is displayed. In
this alternative embodiment, the average price might
also be displayed in or around the displayed distribution of the prices. It should also be understood that

App. 310
the average price and/or the distribution of prices may
be displayed in a text format, displayed in a color format (e.g., a color indicator), displayed in a graphical
format (e.g., using text and color), and so on.
For example, FIG. 18 shows a screen for a trader
who has two working buy quantities at the market
price of 96, eight working buy quantifies at a price of
95, and two working buy quantities at a price of 94
(1800). Preferably, the average price of those working
buy quantities is calculated by dividing the total price
of the working quantities from the sum of the quantities and that average will be displayed as described
below. In the preferred embodiment, the average
price of the working buy quantities is calculated as
follows (although, the average price may be calculated
using other known types of statistical and/or numerical analysis):
Total Price of Working Buy Quantities/Total Buy
Quantity=Average Price of Working Buy Quantities:
((2x96)+(8x95)+(2x94))/(2+8+2)=95
(192+760+188)/12=95
1140/12=95
Preferably, the same calculation is utilized to determine the average price of the working sell quantities. Using the illustration from the example above,
FIG. 18 also shows a screen for a trader who has four
separate working sell quantities at the market price
of 101, two working sell quantities at a price of 100,
and four working sell quantities at a price of 99

App. 311
(1802). The average price of the working sell quantities are displayed as described herein and that price
is calculated as follows:
Total Price of Working Sell Quantities/Total Sell
Quantity=Average Price of Working Sell Quantities:
((4x101)+(2x100)+(4x99))/(4+2+4)=100
(404+200+396)/10=100
3005/10=100
Preferably, the calculation of the average price of
the working quantities is on a contract-to-contract basis, meaning that separate average prices are calculated and displayed for each separate commodity in
which the trader has working quantity entered.
Preferably, the display of the average price and/or
distribution of prices of a trader’s working buy and
sell quantities can be used to compare the trader’s average price against all other current buy and sell
quantities entered in the market for the commodity.
This function can benefit a trader by helping to ensure
that the trader is trading at the most desirable prices.
In the preferred embodiment, the display of the average price for a trader’s working quantities appears
as two separate cells within the display—one displaying the average buy price 1804 of the trader’s working
sell quantities and the other the average sell
price 1806 of the trader’s working buy quantities. In
the preferred embodiment, the average buy price is
displayed at the bottom of the working quantities column and the average sell price 1806 is displayed at
the top of that column, as shown in FIG. 18. Moreover,

App. 312
in the preferred embodiment, the price in the average
sell price cell is highlighted in red and the price in the
average buy price cell is highlighted in blue. Although, it should be understood that the average sell
price and the average buy price can be displayed anywhere on the screen, and the average sell price and
average buy price may be displayed textually, in any
color, both textually and in a color, and so forth.
Coding of Blank Spots
In accordance with a preferred embodiment, cells
in the buy and sell columns of the display that correspond to prices at which there is no quantity entered
in the market are visually distinguished from those
cells at which such quantity is entered. The buy and
sell price levels for which there is not corresponding
quantities are designated as “blank spots” 2000, and
in the preferred embodiment appear in a different
shade than populated cells as a means of providing a
better visual representation of where the market is
trading, as shown in FIG. 20A. The blank spots 2000
may appear in a lighter shade or darker shade than
populated cells, a different color, or a different texture
such as hatching from those cells where there is quantity entered. Preferably, as new quantities are entered into the market, and existing quantities are
filled and removed from the market, the blank
spots 2000 change accordingly. In addition, it is preferable that the user be able to select the manner in
which blank spots are displayed.
According to an embodiment, a trader may benefit
in that the visual difference between buy and sell cells
that contain quantity, verses those that do not contain

App. 313
quantity, makes it easier for the trader to quickly recognize whether quantities are available in the market
at a particular price. Thus, a trader interested in buying quantity has an enhanced display of where such
quantity is available, and a trader interested in selling quantity can more easily gauge where other traders are selling the commodity.
In the preferred embodiment, color coding may appear in the buy and sell columns of the display at price
levels at which there is no quantity currently in the
market. The buy and sell cells that correspond to
these price levels appear in a visually different manner than those cells at which such quantity is entered.
Color coding may be enabled through a ‘ColorCode
Blank Spots’ field of an ‘Options” display, shown in
FIG. 20B, by checking the box 2002 immediately to
the left of the blank spots option.
In another preferred embodiment, color coding
and/or shading may be applied not only to cells without quantity, but also to cells in which the quantity
falls below a threshold. Preferably, the threshold may
be set by a user or an administrator. In addition, the
user may set different thresholds either within one
trading window or across multiple trading windows.
When different threshold levels are utilized, it is preferable that each threshold value be assigned a distinct color so that the user may quickly recognize the
meaning of the color coding.
Display of Net Price of Open Position
In accordance with a preferred embodiment, a
trader is provided with a display of the net price of the
working buy and sell orders. A visual indicator such

App. 314
as text, color, a combination of text and color, or a
graphical indicator is used to highlight to the trader
the net price of working buy and sell orders. The
graphical indicator may take any form, including a
line or even a colored pixel.
In one embodiment, it may be useful to display the
net price open position, where a position is the difference between the number of orders bought (a long position) and the number of orders sold (a short position). A trader’s position is open when the number of
orders bought or sold is not equal. If these orders are
equal, the trader’s position is considered closed. When
orders are traded on an exchange, it is possible for a
trader to receive multiple fills, for multiple quantities,
and at different price levels for the quantities that
make up the trader’s orders. This feature incorporates
the price levels of these multiple fills to determine the
net price at which the fills occurred. The trader can
then use this net price to gauge whether trading out
of a position would result in a realized gain, loss, or
scratch (neither a gain nor a loss).
To determine the net price of a trader’s open position, this embodiment divides the total price of the
quantity that has been filled by the total number of
orders either bought or sold (a.k.a. the trader’s current position). For example, a trader who purchased
10 contracts of a commodity (4@ 99, 2@ 100, and 4@
101) would have a long 10 position, meaning that the
trader would need to sell 10 contracts in order to close
the trader’s position. The net price of the trader’s
filled quantity would be 100, and would calculated as
follows:

App. 315
Total price of Filled Quantity/Current Position=Net Price of the Open Position
(4@ 99+2@ 100+4@ 101/110=100
(396=200=404)/10=100
(1000)/10=100
Based on the calculation above, the value of 100 is
displayed as the trader’s net price of the trader’s open
position. The net price can be displayed in one of several manners, which include, without limitation, a
box 2100 around the net price’s price level cell as
shown in FIG. 21, a separate column for the display
of the net price, a box across the net price’s price level,
or a distinguishing color for the net price. If a particular trader has a long position as the result of buying
quantity, any additional quantity that is bought will
cause the net price of the trader’s open position to be
re-calculated. Preferably, should that trader sell
quantity, the trader’s position will change but the net
price that is displayed will remain constant. Any additional buy quantity will subsequently change both
the trader’s position and the net price of that position,
while all subsequent sell quantity will adjust the
trader’s position only, and will do so only until the position is closed. Should a trader begin a trading session with a short position as a result having the sell
quantity(s) filled, all of the trader’s subsequent sell
quantity will change both the position and the net
price of the trader’s open position when such sell
quantity is filled. Any buy quantity that has been
filled will not change the net price, but will instead
affect only the position and only until that position
has been closed. As a result, it will be easier for a

App. 316
trader to gauge where (at what price) the trader needs
to buy or sell when the net price of the trader’s long
position is only allowed to increase as the position increases and the net price of the short position is only
allowed increase as the position becomes shorter.
A trader may benefit in that the visual representation of the net price of the trader’s open position reduces or eliminates the need to mentally calculate
such a price when, depending on the market’s volatility, the price may change repeatedly. A trader who
has had consecutive buy quantities filled will have a
long position and will see a display signifying the net
price of that long position. Any sell quantities that are
filled will not be calculated into that net price. Likewise, a trader who has consecutive sell quantities
filled will have a short position and will see a display
signifying the net price of that short position. Any buy
quantities that are filled will not be calculated into
that net price. The trader benefits from such a feature
in that the trader will always have a display of the net
price of the trader’s primary position (either of all of
the trader’s buy quantities or all of the trader’s sell
quantities), which will therefore provide the trader
with a better indication of the price level at which the
trader needs to buy or sell additional quantities to
make a profit and close the position. Alternatively,
the average price of the trader’s open position may be
calculated based upon both buy and sell orders filled.
The marker indicating the net price may be anything that is suitable to serve as an indicator for the
trader, including, for example, graphical symbols,
numbers and/or colors. Thus, although FIG. 21 shows

App. 317
a cell 2100 surrounded by a colored, shaded or highlighted box, the marker may alternatively be graphical, or numerically displayed elsewhere on the user
interface. It is not necessary that the marker occupy
an entire cell. For example, in instances where the
trading interface includes a static price scale, and the
price scale is consolidated, it may be desirable to locate the marker at a position within a cell that corresponds to a specific price. Preferably, the type of
marker is selectable by the user.
Consolidation Control Icon
In accordance with a preferred embodiment, a
trader may consolidate price information, or other
useful information, by a control icon that is displayed
to the user on the same interface that is used for trading. Consolidation of price information is described in
U.S. patent application Ser. No. 09/971,087, incorporated above. In the embodiment described herein, the
control icon is preferably presented to the user on the
same screen that is used for trading, thereby allowing
the user to maintain his or her view of the market information as the control icon is adjusted.
In a preferred embodiment, the control icon is a
slide control 2200, shown in FIG. 22, which can be
dragged from left-to-right or right-to-left, but in alternate embodiments may include a dial that can be
turned in the clockwise or counter-clockwise direction
or any other control icon that may be actuated
through the graphical user interface of the trading application. According to the preferred embodiment
where price information may be consolidated through
the slide control 2200, when the slide control 2200 is
dragged to the far left, the display presents numbers

App. 318
in a one-tick, or uncompressed, progression. Price information may also be displayed in another manner
besides ticks (such as currency), depending on the
manner in which each exchange provides the price information and user’s preferences. As the slide control 2200 is moved to the right, the control consolidates the prices and any other associated values
(e.g., bid/ask quantities, working orders, etc.), thereby
displaying values that become progressively more
consolidated the further the slide control 2200 is
moved to the right, and resulting in the display of
prices in multiples of ticks. Preferably, each increment of the control icon may be selected by the user,
such as through a dialog box or any other means
known to those skilled in the art.
Although described with reference to a vertical
price scale that is subject to consolidation, the preferred embodiments are not limited to consolidating a
price scale, nor are they limited to consolidating a vertical display element. Rather, any numerical sequence is subject to consolidation, regardless of its orientation or number of dimensions. The preferred embodiments allow user selectable consolidation
through an icon presented on the user interface.
The consolidation of price information by adjusting a control icon benefits a trader in that it quickly
allows for a greater number of prices and/or associated values such as bid/ask quantities and working
orders to be displayed at any given time. Thus, a
trader has a greater chance of not only seeing a majority, if not all, of the quantity entered at those
prices, but the trader also has a greater spectrum of
prices in which to enter the trader’s own quantities.

App. 319
Conclusion
It should be understood that the above description
of the preferred embodiments, alternative embodiments, and specific examples are given by way of illustration and not limitation. For example, the features described herein could be incorporated into a variety of displays. Many changes and modifications
within the scope of the present embodiments may be
made without departing from the spirit thereof, and
the present invention includes all such changes and
modifications.
We claim:
1. A method for repositioning a static price axis on
a graphical user interface for displaying market information of a commodity being traded at an electronic
exchange, the method comprising:
receiving market information relating to a commodity from an electronic exchange via a computing device, the market information comprising an inside market with a current highest bid
price and a current lowest ask price for the
commodity;
displaying a first plurality of price levels along a
static price axis on a graphical user interface of
a display device associated with the computing
device, where the first plurality of price levels
range from a lowest value to a highest value
along the static price axis;
in response to an input command received via an
input device associated with the computing device, adjusting the first plurality price levels
among a range of price levels to an adjusted

App. 320
plurality of price levels including the first plurality of price levels;
displaying a bid and ask display region on the
graphical user interface, the bid and ask display region comprising a plurality of locations
corresponding to the first plurality of price levels displayed along the static price axis,
wherein each location corresponds to one of the
first plurality of price levels, and wherein a
number of the plurality of locations changes according to adjusting the first plurality of price
levels;
displaying a first indicator representing a quantity associated with the current highest bid
price at a first location in the plurality of locations of the bid and ask display region, wherein
the first indicator ascends or descends the
static price axis as changes in the current highest bid price occur as a result of each of the plurality of price levels along the static price axis
not changing positions on the graphical user interface unless a reposition command is received;
displaying a second indicator representing a quantity associated with the current lowest ask
price at a second location in the plurality of locations of the bid and ask display region,
wherein the second indicator ascends or descends the static price axis as changes in the
current lowest ask price occur as a result of
each of the plurality of price levels along the
static price axis not changing positions on the

App. 321
graphical user interface unless the reposition
command is received;
receiving the reposition command to reposition the
static price axis when a designated price is
within a designated number of price levels from
the lowest value or the highest value along the
static price axis; and
responsive to receiving the reposition command,
automatically repositioning the static price
axis on the graphical user interface such that a
current inside market price is displayed at a
new desired location.
2. The method of claim 1, further comprising the
step of establishing that the designated price is based
on a last trade price for the commodity.
3. The method of claim 1, further comprising the
step of establishing that the designated price is based
on an inside market price for the commodity.
4. The method of claim 1, further comprising the
step of establishing a second designated price and automatically repositioning the static price axis on the
graphical user interface to position the second designated price at a predetermined location in relation to
the static price axis, wherein the current inside market price is displayed at the new location responsive
to the step of automatically repositioning the static
price axis.
5. The method of claim 4, wherein the second designated price is based on a last trade price for the commodity.

App. 322
6. The method of claim 4, wherein the second designated price is based on an inside market price for
the commodity.
7. The method of claim 1, further comprising receiving the reposition command to reposition the
static price axis when the designated price is within
the designated number of price levels above the lowest value.
8. The method of claim 1, further comprising receiving the reposition command to reposition the
static price axis when the designated price falls below
the lowest value displayed along the static price axis.
9. The method of claim 1, further comprising receiving the reposition command to reposition the
static price axis when the designated price is within
the designated number of price levels below the highest value.
10. The method of claim 1, further comprising receiving the reposition command to reposition the
static price axis when the designated price falls above
the highest value displayed along the static price axis.
11. The method of claim 1, further comprising receiving the reposition command to reposition the
static price axis when the designated price is at the
lowest value.
12. The method of claim 1, further comprising receiving the reposition command to reposition the
static price axis when the designated price is at the
highest value.

App. 323
13. The method of claim 1, further comprising receiving a second reposition command to reposition the
static price axis when a timer expires.
14. The method of claim 1, further comprising receiving a manual command from a user input device
to reposition the static price.
15. The method of claim 1, wherein the new desired location is a location that displays the first and
second indicators substantially centered between the
lowest value and the highest value along the static
price axis.
16. The method of claim 1, further comprising:
displaying an order entry region comprising a plurality of locations for receiving commands to
send trade orders, each location corresponding
to a price level along the static price axis; and
in response to a selection of a particular location of
the order entry region by a single action of a
user input device, setting a plurality of parameters for a trade order relating to the commodity and sending the trade order to the electronic
exchange.
17. A computer readable medium having computer-readable instructions thereon, which when executed by a computer, cause the computer to perform a
method comprising:
receiving market information relating to a commodity from an electronic exchange via a computing device, the market information comprising an inside market with a current highest bid

App. 324
price and a current lowest ask price for the
commodity;
displaying a first plurality of price levels along a
static price axis on a graphical user interface of
an output device associated with the computing
device, where the first plurality of price levels
range from a lowest value to a highest value
along the static price axis;
in response to an input command received via an
input device associated with the computing device, adjusting the first plurality price levels
among a range of price levels to an adjusted
plurality of price levels;
displaying a bid and ask display region on the
graphical user interface, the bid and ask display region comprising a plurality of locations
corresponding to the first plurality of price levels displayed along the static price axis,
wherein each location corresponds to one of the
first plurality of price levels, and wherein a
number of the plurality of locations changes according to adjusting the first plurality of price
levels;
displaying a first indicator representing quantity
associated with the current highest bid price at
a first location in the plurality of locations of
the bid and ask display region, wherein the
first indicator ascends or descends the static
price axis as changes in the current highest bid
price occur as a result of each of the plurality of
price levels along the static price axis not

App. 325
changing positions on the graphical user interface unless a reposition command is received;
displaying a second indicator representing quantity associated with the current lowest ask
price at a second location in the plurality of locations of the bid and ask display region,
wherein the second indicator ascends or descends the static price axis as changes in the
current lowest ask price occur as a result of
each of the plurality of price levels along the
static price axis not changing positions on the
graphical user interface unless the reposition
command is received;
receiving the reposition command to reposition the
static price axis when a designated price is
within a designated number of price levels from
the lowest value or the highest value along the
static price axis; and
responsive to receiving the reposition command,
automatically repositioning the static price
axis on the graphical user interface such that a
current inside market price is displayed at a
new desired location.
18. The computer readable medium of claim 17,
further comprising receiving a second reposition command to reposition the static price axis when a timer
expires.
19. The computer readable medium of claim 17,
further comprising receiving a manual command to
reposition the static price.
*****

App. 326
(10)

Patent No.:

US 7,693,768 B2

(12)

United States Patent Kemp, II et al.

(45)

Date of Patent:

(54)

CLICK BASED TRADING WITH INTUITIVE GRID DISPLAY OF MARKET DEPTH

(75)

Inventors:

(73)

Assignee:

(*)

Notice:

*Apr. 6, 2010

Gary Allan Kemp, II,
Winnetka, IL (US); JensUwe Schluetter, Evanston, IL (US); Harris
Brumfield, Chicago, IL
(US)
Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by
499 days.
This patent is subject to a
terminal disclaimer.

(21)

Appl. No.:

11/585,906

(22)

Filed:

Oct. 25, 2006

(65)

Prior Publication Data
US 2007/0038555 A1

Feb. 15, 2007

App. 327
Related U.S. Application Data
(63)

Continuation of application
No. 11/415,163, filed on May 2, 2006,
which is a continuation of application
No. 10/237,131, filed on Sep. 9, 2002, now
abandoned, which is a continuation of application No. 09/590,692, filed on Jun. 9,
2000, now Pat. No. 6,772,132.

(60)

Provisional application No. 60/186,322,
filed on Mar. 2, 2000.

(51)

Int. Cl.
G06Q 40/00
(2006.01)
(52)
U.S. Cl. ...................................... 705/35
(58)
Field of Classification
Search .................................. 705/35–45
See application file for complete search history.
(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044 A

6/1987

Kalmus et al.

4,750,135 A

6/1988

Boilen

4,903,201 A

2/1990

Wagner

5,038,284 A

8/1991

Kramer

5,077,665 A

12/1991 Silverman
(Continued)

App. 328
FOREIGN PATENT DOCUMENTS
EP

1 319 211

B1

4/1998

(Continued)
OTHER PUBLICATIONS
Non-final Office Action mailed Oct. 17, 2008 for U.S.
Appl. No. 11/415,163.
(Continued)
Primary Examiner—Richard C Weisberger
(74) Attorney, Agent, or Firm—McDonnell
Boehnen Hulbert & Berghoff LLP
(57)

ABSTRACT

A method and system for reducing the time it takes
for a trader to place a trade when electronically trading on an exchange, thus increasing the likelihood
that the trader will have orders filled at desirable
prices and quantities. The “Mercury” display and
trading method of the present invention ensure fast
and accurate execution of trades by displaying market
depth on a vertical or horizontal plane, which fluctuates logically up or down, left or right across the plane
as the market prices fluctuates. This allows the trader
to trade quickly and efficiently.
23 Claims, 6 Drawing Sheets

App. 329

U.S. PATENT DOCUMENTS
5,101,353
5,136,501
5,243,331
5,270,922
5,297,031
5,297,032
5,689,651
5,774,877
5,793,301
5,797,002
5,845,266
5,915,245
5,924,082
5,924,083
5,946,667
5,960,411
5,963,923

A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A

3/1992
8/1992
9/1993
12/1993
3/1994
3/1994
11/1997
6/1998
8/1998
8/1998
12/1998
6/1999
7/1999
7/1999
8/1999
9/1999
10/1999

Lupien et al.
Silverman et al.
McCausland et al.
Higgins
Gutterman et al.
Trojan et al.
Lozman
Patterson, Jr. et al.
Patterson, Jr. et al.
Patterson, Jr. et al.
Lupien et al.
Patterson, Jr. et al.
Silverman et al.
Silverman et al.
Tull, Jr. et al.
Hartman et al.
Garber

App. 330
6,012,046
6,014,643
6,035,287
6,098,051
6,115,698
6,131,087
6,134,535
6,195,647
6,272,474
6,278,982
6,282,521
6,343,278
6,408,282
6,421,653
6,766,304
6,772,132
6,938,011
2002/0023038
2002/0055899
2002/0138401
2003/0097325
2005/0149429
2006/0195389
2007/0038554
2007/0038555
2007/0038556
2007/0038557

A
A
A
A
A
A
A
B1
B1
B1
B1
B1
B1
B1
B2
B1
B1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1

1/2000
1/2000
3/2000
8/2000
9/2000
10/2000
10/2000
2/2001
8/2001
8/2001
8/2001
1/2002
6/2002
7/2002
7/2004
8/2004
8/2005
2/2002
5/2002
9/2002
5/2003
7/2005
8/2006
2/2007
2/2007
2/2007
2/2007

Lupien et al.
Minton
Stallaert et al.
Lupien et al.
Tuck et al.
Luke et al.
Belzberg
Martyn et al.
Garcia
Korhammer et al.
Howorka
Jain et al.
Buist
May et al.
Kemp, II et al.
Kemp, II et al.
Kemp, II et al.
Kritsch et al.
Williams
Allen et al.
Friesen et al.
Kemp, II et al.
Kemp, II et al.
Kemp, II et al.
Kemp, II et al.
Kemp, II et al.
Kemp, II et al.

FOREIGN PATENT DOCUMENTS
WO
WO
WO
WO

WO 91/14231
WO 95/26005
WO 98/49639
WO 99/19821

9/1991
9/1995
11/1998
4/1999

App. 331
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO 99/30259
WO 99/53424
WO 00/52619
WO 00/62187
WO 00/65510
WO 01/16830
WO 01/16852
WO 01/22315
WO 01/88808

6/1999
10/1999
9/2000
10/2000
11/2000
3/2001
3/2001
3/2001
11/2001

OTHER PUBLICATIONS
Non-final Office Action mailed Mar. 17, 2009 for U.S.
Appl. No. 11/585,905.
Non-final Office Action mailed Oct. 6, 2008 for U.S.
Appl. No. 11/585,907.
Final Office Action mailed Jan. 23, 2009 for U.S. Appl.
No. 11/585,966.
Re-exam Certificate for U.S. Patent No. 6,766,304, issued Mar. 31, 2009.
Re-exam Certificate for U.S. Patent No. 6,772,132, issued Mar. 31, 2009.
eSpeed’s Supplemental Invalidity Contentions,
May 25, 2007.
eSpeed’s Disclosure of Invalidity Contentions Pursuant to 35 USC 282, May 25, 2007.
Invalidity Contentions Re: TradePad Module (Letter
Dated May 25, 2007).
Supplemental Invalidity Contentions Pursuant to
35 U.S.C. 282, Aug. 10, 2007.
eSpeed’s and Ecco’s Answers to Plaintiff’s Eighth Set
of Interrogatories, Aug. 4, 2006.

App. 332
eSpeed and Ecco’s Supplemental Answers to Plaintiff’s First, Third, Seventh, Eighth, and Ninth Set of
Interrogatories, May 25, 2007.
Defendant GL Trade Americas, Inc’s Supplemental
Responses and Objections to Interrogatory Nos. 5, 17,
and 18, Jul. 24, 2006.
eSpeed’s Objections and Answers to Plaintiff’s Third
Set of Interrogatories to Defendant eSpeed, May 12,
2005.
GL WIN Version 4.50, Mar. 3, 1999, DX 538, G
107459-G 107480, DTX 538.
Trading Pad User Manual, Aug. 10, 1999, DX 539, G
112123-G 112131, DTX 539.
Email from Wattier to M. Cartier attaching MatifVF:
V4.50 manual, Mar. 30, 1998, DX 592, MC000046MC000116, DTX 592.
User Guide V4.60 LIFFE Connect for Futures by GL
Trade, 06/00/99, DX 605, G 123548-G 123603,
DTX 605.
“A System and Method for Conducting Security
Transactions Over a Computer Network”, Mauro &
Buist, Mar. 1, 1999, DX 196, eS 066150-eS 066229,
DTX 196.
RCG’s Presentation re WitCapital, Apr. 22, 2004,
DX 208, RCG 000635-RCG 000663, DTX 208.
Mauro, Certified Patent U.S. Appl. No. 09/292,552,
Apr. 15, 1999, DX 209, eS 065994-eS 066149.
Various declarations Re: U.S. Appl. No. 09/292,552,
Nov. 3, 2003, DX 284, TT 099877-TT 099907,
DTX 284.
Evenstreet Presentation prepared for National Discount Brokers, 00/00/1999, DX 301, CM 006787CM 006817, DTX 301.

App. 333
WIT DSM user interface instructions, Aug. 6, 1998,
DX 427, CM 006591-CM 006632, DTX 427.
Presentation re WIT DSM user interface Trade4.ppt,
Oct. 12, 1998, DX 430, CM 008265-CM 008330,
DTX 430.
WIT DSM Presentation re Information display and
decision variables, Dec. 20, 1998, DX 431, CM 004334CM 004347, DTX 431.
Evenstreet Presentation prepared for Flatiron Partners, 00/00/1999, DX 437, CM 007139-CM 007172,
DTX 437.
WIT Capital after hours trading system, Mauro,
Mar. 19, 1999, DX 440, CM 009028-CM 009059,
DTX 440.
WIT Capital Corporation digital trading facility
presentation, 03/00/99, DX 441, DTX 441.
WIT Capital pdf operator manual for Digital trading
facility, 00/00/1999, DX 442, CM 006510-CM 006513,
DTX 442.
Utility Patent Application Transmittal Re: Computer
Trading System, Method and Interface, Apr. 15, 1999,
Mauro, Kleia, and Buist, PX368.
SISS Functional specifications version 2.1, Feb. 16,
1988, DX 445, DTX 445.
Status review specialist support system study NYSE,
Apr. 10, 1986, DX 447, DTX 447.
Declaration of W. Buist re: WIT DSM System, Apr.
26, 2006, PX 365, DTX 1777.
APT User Guide, 01/00/94, DX 152, LIFFE 000262LIFFE 000363, DTX 152.
Release Notes—Market Trader V5.2a, Mar. 18, 1999,
DX 617, G 118137-G 118152, DTX 617.

App. 334
Market Trader—Nikkel 225 & Nikkel 300 Index options and Index futures trading users guide, Mar. 20,
1998, DX 618, G100444-G100462, DTX 618.
Midas Kapiti Delivery Note and Release Note-Market
Trader V5.2b, Mar. 31, 1999, DX 619, G 096511G 096527, DTX 619.
Midas Kapiti Release Notes—Market Trader V5.2e,
Apr. 12, 1999, DX 620, G 096694-G 096711, DTX 620.
Midas Kapiti Release Notes—Market Trader V5.2,
DX 621, G 096712-G 096727, DTX 621, May 26, 1999.
Midas Kapiti Release Notes—Market Trader V5.2e,
DX 622, G 096728-G 096754, DTX 622, Jun. 1, 1999.
Midas Kapiti Delivery Note and Release Note- Market Trader V5.2e, DX 623, G 105641-G 105667,
DTX 623, May 26, 1999.
Drawing of 1997 TSE terminal by H. Kida, DX 624,
DTX 624.
Directory of Software Solutions for LIFFE Connect,
02/0099, DX 156, DTX 156.
PTS trading application Version 1.1 Beta H.1,
Mar. 31, 1998, DX 118, PATS 00560-PATS 00560,
DTX 118.
Directory of Software Solutions for LIFFE Connect,
Issue 1, 10/00/1998, DX 155, DTX 155.
Directory of Software Solutions for LIFFE Connect,
Issue 3, Jun. 10, 1999, DX 157, DTX 157.
Trading Technologies Trader System User Documentation, Apr. 1, 1998, Release 3.10, DX 3, TT 015867TT015955, DTX 3.
Aurora Chicago Board of Trade Brochure, 1990,
ES0021230-ES0021241.
Ecco Consulting Study Report MEFF Software Systems, Mar. 17, 1999, ES0060578-ES0060591.

App. 335
Osaka Stock Exchange Manual (Japanese Document), Apr. 1996 REFCO0009773-REFCO0009826.
TSE Manual (Japanese Document),Nov. 15,
2005,DX179,TSE647-995,w/certified
translation
eS62258-62366 [TSE609-647,694-711,714-721,735736,749-756,759-760,779-782,784-810,982-995].
TIFFE Manual (Japanese Document), Jan. 1996,
REFCO0010861-REFCO0011210, (translation included as cite No. 175).
Final Detailed Design Document NYMEX Access,
May 5, 1992, eS0003127-eS0003541.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.0, Sep. 1998,
DDX 159, DTX 159, eS00060055-eS00060145.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.2, Dec. 1998,
DDX 161, DTX 161, eS00060239-eS00060331.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.3, Jan. 1999,
DDX 162, DTX 162, eS00059959-eS00060054.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 2.7, Sep, 1998,
DDX 163, DTX 163, eS00059868-eS00059958.
OM Click Trade User’s Guide for Windows NT,
10/00/1998, eS00064671-eS00064773.
GLOBEX Members Handbook, 06/00/1992, DX632,
DTX632, eS006974-eS0069818.
The Complete GLOBEX2 Handbook, 05/00/1998,
DX635, DTX635, CME-E0010679-0010891.
The Complete GLOBEX2 Handbook, 07/00/1998,
DX637, DTX637, CME-E 014048-CME-E 014286.
MINEX Service Outline User Test/Orientation,
Sep. 1992, eS0064647-eS0064670.

App. 336
ORC Instructions for Use Version 2.2.8., 0/0/1999,
eS0064775-eS0032572.
Interactive Brokers, “Trade Futures Online with Interactive Brokers”, May 9, 2005, eS0032571eS0032572.
Nicholas Economides, “Electronic Call Market Trading”, Journal of Portfolio Management, 2/00/1995,
eS0069585-eS0069610.
TradePad.vsd Document, Feb. 9, 1999, G011169G0111670.
Trading pad.doc Document, Jan. 26, 1999, G0111671G0111672.
GL WIN et Logiciels complementaires (French),
10//00/99, G009121-G009486.
GL WIN et Logiciels complementaires (French),
7/00/99, G009875-G010238.
Memo re: Dual Access Version 4.5 release, Mar. 21,
1999, G0022956-G0022959.
Tradepad.txt (French), Mar. 8, 2000, G0025616G0025618.
GL Enhancements Software Version 4.11f, Oct. 29,
1998, G0060853-G0060854,
GL Enhancements Update, Jan. 27, 1999, G0101682G0101688.
LIFFE Connect Futures Release Note 050399.doc,
Mar. 3, 1998, G0111402-G0111407.
TradingPad.doc, Apr. 30, 1999, G0112117-G0112122.
TradingPadUserManual.doc,
Aug.
10,
1999,
G0112123-G0112131.
LIFFE Connect Futures Functional Technical Issues
to Resolve, Apr. 12, 2007, G0119049-60119050.
LIFFE Connect for Equity Options User Guide v4.30,
Nov. 1998, G0119052-G0119086.

App. 337
Member Participation in the Futures Market, Apr. 12,
1999, G0119196-G0119197.
Email from Patricia Gauthier to Sam Page, Jan. 25,
1999, G0119377-G0119380.
LIFFE Connect ISV Circular No. 001.99, Jan. 8, 1999,
G0119566-G0119568.
LIFFE Connect ISV Circular No. 14.99, Mar. 2, 1999,
G0119583-G0119590.
LIFFE Connect ISV Circular No. 004.99, Jan. 15,
1999, G119615-G0119616.
LIFFE Connect ISV Circular No. 001.99, Jan. 15,
1999, G0119617-G0119618,
LIFFE Connect ISV Circular No. 008.98, Dec. 28,
1998, G0119631-G0119632.
LIFFE Connect for Futures Schedule for Project Deliverables, Feb. 4, 1999, G0119681-G0119682.
LIFFE Connect for Futures-Project Update #1, Meeting of Jan. 11, 1999, G0119691-G0119697.
LIFFE Connect for Futures: Project Update 2, Meeting of Feb. 10, 1999, G0119698-G0119704.
LIFFE Connect for Futures: Project Summary:
Apr. 19, 1999, G0119705-G0119717.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, G0119718-G0119724.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, G0119725-G0119745.
Functional Enhancements for LIFEE Connect for Futures Project, Mar. 3, 1999.
Installation, Market Entry Test, and Technical Dress
Rehearsal Summary, Feb. 23, 1999.
GL Trade Checklist-Installation Requirements for
Futures, Jan. 1999,G0119795-G0119798.
Cahier de charges. doc, Feb. 9, 1999, G0111752G0111758.

App. 338
Keyboard example, Feb. 3, 2006, G007308-G007310.
GL Cost and Services, 00/00/1998, 60108876.
GL Win Summary (French), 6/00/1998, G0091004G0091046.
Swiss Exchange SWX—TS User Manual, Dec. 31,
1998, DTX 2215, eS0032293-eS0032547.
GLOBEX User Guide, 01/00/97, DDX 633, DTX 633,
eS069819-eS070081.
QuickTrade Document and Brochure, G02102721031.
GL Version 4.70 (French Version), Jan, 5, 2000,
GO026505-26533.
GL Version 4.70 (English Version), Jan. 5, 2000,
G0020593-20621.
GL WIN and Related Software Manual, Sep. 11,
2000,1)G0025251-25615.
“Introducing the Company: GL Trade” product offerings and slide presentation (to Reuters), G002653426559.
Thomson Financial leaflet, 09/00/2003, G002244522450.
Megumi Miyoshi, Japanese Patent Application
No. 2001-564025, 04/18/200.
“Amazon.com Catapults Electronic Commerce to Next
Level with Powerful New Features,” Amazon.com
Press
Release,
Sep.
23,
1997,
DTX1034,
Dezmelyk000012-13.
Memo Re: Downloading the Terminal Program,
Aug. 18, 2005.
“Specialist vs Saitori: Market-Making in New York
and Tokyo”, Richard Lindsay and Ulrike Schaede,
DTX
1170,
7-8/00/1992,
Silverman000494Silveman000506.

App. 339
O’Hara and Oldfield, “The Microeconomics of Market
Making”, Journal of Financial and Quanitative Analysis, 12/00/86, DTX 1169 Silverman000478-Silverman000493.
B. Weber, “Information Technology in the Major International Financial Markets”, Apr. 7, 1993, DX 79.
Terminal Use Manual—Windows NT Version, Tokyo
International Financial Futures Exchange (TIFFE),
0/0/1994,
Silverman002552-Silverman002616,
DTX 1226,
USPTO Press Release, “Electronic Patent Application
Records Replace Paper Files at USPTO”, DTX 2285,
Sep. 19, 2007.
Memorandum Opinion and Order Re: ‘132 and ‘304
Claim Construction [425], Oct. 31, 2006.
Memorandum Opinion and Order Re: TT’s Motion for
Clarification [475], Feb. 21, 2007.
Memorandum Opinion and Order Re: Motions for Reconsideration [875], Aug. 27, 2007.
Memorandum Opinion and Order Re: Preliminary Injunction [83], Feb. 9, 2005.
Memorandum Opinion and Order Re: eSpeed’s Motion for Summary Judgment of Invalidity Denied
[845], Aug. 21, 2007.
Memorandum Opinion and Order Re: TT’s Motion to
Preclude Prior Sale Defense Denied [873], Aug. 27,
2007.
Memorandum Opinion and Order Re: GL’s Motion for
Reconsideration Denied [994], Sep. 19. 2007.
Memorandum Opinion and Order Re: Priority Date
[769], Jul. 12, 2007.
Memorandum Opinion and Order Re: Priority Date
[1013], Sep. 25, 2007.

App. 340
Memorandum Opinion and Order Re: Prior Public
Use [835], Aug. 16, 2007.
Memorandum Opinion and Order Re: Defendant’s
Motion for Judgment as a Matter of Law on Indefiniteness [1141], Jan. 2, 2008.
Notification of Docket Entry Re: Defendants eSpeed’s
Motion for Judgment as a Matter of Law on Invalidity
is denied [1140], Jan. 3, 2008.
Notification of Docket Entry Re: Defendant eSpeed’s
Motion for a New Trial is denied [1142], Jan. 3, 2008.
Memorandum Opinion and Order Re: Defendant’s
Motion for Judgment as a Matter of Law on Willfulness [1144], Jan. 3, 2008.
Deposition testimony of Hiroyuki Kida dated May 17,
2007 and May 18, 2007 with DDX 617-624, PDX 519524 and PDX 531.
Trial testimony of Hiroyuki Kida dated Sep. 28, 2007
and Oct. 1, 2007 with DTX 617.
Deposition testimony of Atsushi Kawashima dated
Nov. 21, 2005 with DDX 178-185.
Trial testimony of Atsushi Kawashima dated Sep. 26,
2007 with DTX 183.
Deposition testimony of Philip Carre dated Jun. 22,
2007, Sep. 6, 2007 & Sep. 13, 2007 with DDX 384-385;
473;494; 527;537-541; 592; 593A; 595-598; 605; 626;
629; 719-723; 728-732; 897-898; 896.
Deposition testimony of Michael Cartier dated May 9,
2007 with DDX 587-588; DDX 592-593A and PDX
498-500.
Deposition testimony of Cristina Dobson dated May
18, 2007 with DDX 625-635; DDX 637; PDX 533 and
PDX 535.
Deposition testimony of Nicholas Garrow dated Jun.
14, 2007 with DDX 116 and DDX 592.

App. 341
Trial testimony of Nicholas Garrow (via expert witness) dated Oct. 2, 2007.
Deposition testimony of Michael Glista dated February 20, 2007 with DDX 382-386.
Trial testimony of Michael Glista dated Sep. 24, 2007
and Sep. 25, 2007 with DTX 382-386; DTX 524; DTX
570; DTX 579; DTX 592; DTX 3020; DTX 3050; DTX
3057; DTX 3110; PTX 1993; PTX 2065; DTX 2092;
PTX 2094.
Deposition testimony of Laurent Havard dated Apr.
24-26, 2007, May 12, 2007, Jun. 21, 2007 and Sep. 5.
2007 with DDX 506; DDX 508; DDX 517; DDX 539;
DDX 551-568; DDX 570-573; DDX 575; DDX 603;
PDX 462; PDX 464-483; PDX 767-769; PDX 771-774;
PDX 875-877; PDX 882-888 and PDX 893.
Trial Testimony of Laurent Havard dated Sep. 21,
2007 with DTX 384; DTX 520; DTX 561-62; DTX 570;
DTX 573; DTX 575: DTX 593; DTX 750-52; DTX 3011;
DTX 3017-18; DTX 3050; PTX 575; PTX 2064; PTX
2074; PTX 2077; PTX 2079.
Deposition testimony of Jean Cedric Jollant dated
Apr. 26, 2007 and Jun. 13, 2007 with DDX 384; DDX
517; DDX 520; DDX 551-568; DDX 575-577; PDX 465483.
Trial testimony of Jean Cedric Jollant dated Sep. 20,
2007 with DTX 157; DTX 473; DTX 719; DTX 551-64;
DTX 598; DTX 722; DTX 1903; DTX 3009-10; DTX
3014; DTX 3016-18 DTX 3020; DTX 3023; DTX 3025;
PTX 166; PTX 520; PTX 526; PTX 539; PTX 573; PTX
575; PTX 579; PTX 2065.
Deposition testimony of Marc Lorin dated Sep. 5, 2007
with DDX 385; DDX 721-722; DDX 730.
Deposition testimony of Christopher Malo dated May
23, 2007 with DDX 524.

App. 342
Deposition testimony of Fred Mastro dated May 21,
2007 with DDX 638; PDX 538; PDX 540-543.
Trial testimony of Fred Mastro dated Sep. 25, 2007
with DTX 592.
Deposition testimony of William McHorris dated Apr.
10, 2007 with PDX 416-417.
Deposition testimony of Josephine Sheng dated Jun.
26, 2007 with DDX 520; DDX 522; DDX 536; DDX
575; PDX 493; PDX 683-683a; PDX 775.
Deposition testimony of Bruno Spada dated Apr. 30,
2007 and May 2, 2007 with DDX 384-385; DDX 51921; DDX 537-38; DDX 579-580; DDX 522; DDX 538;
PDX 493-495; PDX 519-522.
Trial testimony of Bruno Spada dated Sep. 24, 2007
with DTX 306; DTX 384; DTX 518-522; DTX 524; DTX
575; DTX 579-580; DTX 593; DTX 626; DTX 628; DTX
646; DTX 1899 DTX 2086; DTX 3020-3021; DTX 30583059; DTX 3061; DTX 3085; PTX 737; PTX 840; PTX
2083; PTX 2087; PTX 2099; PTX 2101.
Deposition testimony of Marcel Tchitchiama dated
May 10-11, 2007 with DDX 156-157; DDX 168; DDX
384-85; DDX 538; DDX 592-93A; DDX 595-98; DDX
602-06; DDX 608-11 DTX 494; PDX 503; PDX 506;
PDX 612.
Deposition testimony of Neil Treloar dated Jun. 19,
2007 with DDX 384; DDX 539-39A; DDX 724; DDX
726; PDX 492; PDX 750-752.
Trial testimony of Neil Treloar dated Sep. 21, 2007
and Sep. 24, 2007 with DTX 2040-2042.
Trial testimony of Gerard Varjacques dated Sep. 28,
2007 with PTX 509-510 and PTX 513.
Deposition testimony of Amy Watson dated Jun. 12,
2007 with DDX 626A; DDX 700 and PDX 636.

App. 343
Deposition testimony of Barbara Wattiez dated Jun.
16, 2007 with DDX 719-723.
Trial testimony of Barbara Wattiez dated Sep. 28,
2007 with DTX 592-593A; DTX 597-598; DTX 718719; DTX 722.
Deposition testimony of Christopher Buist dated Jun.
22, 2006 with PDX 358-364 and DDX 283-284.
Deposition testimony of Walter Buist dated Jun. 23,
2006 with DDX 315; PDX 310-315; PDX 365 and PDX
368-370.
Digital trading facility weekly operations meeting
outline, DX 444, DTX 444, CM 006661-CM 006661,
May 10, 1999.
Chart re DSM QA Test Plain—project plan in progress, DX 432, DTX 432, Nov. 4, 1998.
User interface design specification for WIT capital
digital stock market, DX 433, DTX 433 CM 008441CM 008478, Jan. 18, 1999.
Updated negotiations design to E. Lang from C.
Mauro for review and approval prior to patent application, DX 434, CM 008410-CM 008414, DTX 434,
Jan, 18, 1999.
Notes re final additions/revisions, DX 435, CM
007949-CM 007955, DTX 435, Apr. 2. 1999.
Position paper: On-line training and customer acquisition; WIT Capital DSM product launch and related
schedule to E. Lang, DX 436, DTX 436, CM 006580CM 006590, Feb. 22, 1999.
Meeting outline, DX 428, CM 00750-CM 007501, DTX
428, Sep. 11, 1998.
Presentation re WIT Capital Digital stock martket
Phase 1 usability and customer response testing: Preliminary report of findings, DX 429, CM 007446-CM
007466, May 1, 2006.

App. 344
WIT Capital limit order book to L. Forrest from C.
Mauro, DX 425, CM 007382-CM 007411, DTX 425,
Apr. 20, 1998.
User Interface Design for display options design, DX
426, CM 000249-CM 000287, DTX 426, Jul. 8, 1998.
Letter from EPO to TT Re: Five Recently Filed European Patent Oppositions, Feb. 21, 2006.
Notice of Opposition to a European Patent EP
1319211 B1, Anitra Medienprojekte GmbH, Jan. 13,
2006.
Notice of Opposition to a European Patent by
Deutsche Borse AG, Jan. 12, 2006.
Notice of Opposition to a European Patent by EccoWare Ltd., Jan. 13, 2006.
Notice of Opposition to a European Patent by Rosenthal Collins Group LLC, Jan. 12, 2006.
Notice of Opposition to a European Patent by Tick-It
GmBh, Jan. 13, 2006.
Declaration of Walter Buist, Exhibit 17, Apr. 26,
2007; with Faxed Signature Page.
Letter from J. Walaski to the EPO Re: Change of Address, Dec. 19, 2006.
A, Klein, WallStreet.com- Fat Cat Investing at the
Click of a Mouse, Chapt. 14 “Finding Gold in Tribeca”,
1998; Exhibit 16.
A. Klein, WallStreet.com- Fat Cat Investing at the
Click of a Mouse, Chapt. 14-16, 18, 23, 1998; Exhibit
16 (Cont’d).
WIT Digital Stock Market, User Interface Rev. 9, Exhibit 15.
Opposition Trading Technologies, Inc. Application
No. 01920183.9 EP 1319211B1, Exhibit 4 (Japanese
and English Versions), 9/00/1997.

App. 345
System for Buying and Selling Futures and Options
Transaction Terminal Operational Guidlines, TSE
Business Systems Dept., TSE647-995, eS062297eS062380.
Letter from EPO to TT Re: Further European Patent
Opposition, Feb. 23, 2006.
Letter from EPO to TT Enclosing European Patent
Oppositions, Jan. 25, 2006.
Opposition TT, EP 1 319 211 B1, Copy set 1, Annex
One-Grounds of Opposition, Jan. 19, 2006.
Deposition Transcript of Atsushi Kawashima, Nov.
21, 2005, Opposition EP 1 319 211 B1 Exhibit 3.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, 9/00/1998, release 3.1, EP
1 319 211 B1 Exhibit 7A, eS0060146-eS0060237.
Deposition Transcript of Paul MacGregor, Nov. 1,
2005, Opposition EP 1 319 211 B1 Exhibit 9A.
APT Trading Procedures (ATOM Version) of LIFFE,
Apr. 3, 2001, Opposition EP 1 319 211 B1 Exhibit 9B.
APTplus Trading Procedures, Dec. 28, 1995, Opposition EP 1 319 211 B1 Exhibit 9D.
Securities Industries News, “TT Upgrades Software
Platform”, Aug. 28, 2000 (D6).
Letter to EPO from Karl Barnfather Enclosing Notice
of Opposition (form 2300.1) and Grounds of Opposition (Annex 1), Jan. 12, 2006.
Dow Jones & Reuters Factiva, “Firms Rush to Make
LIFFE Connect Decision”, Dec. 4. 1998, E6.
Dow Jones & Reuters Factiva, “Date Broadcasting
Partners with Alltech Investment to Provide Customers with Online Trading”, Feb, 25, 1999, E8.
Japanese Document, TSE00609-627, Dec. 1, 2006
(E5), with Translation.
TT X-Trader Brochure, Dec, 1, 2006 (E7).

App. 346
Letter to J. Walanski from EPO Re: Payment, Apr, 20,
2005.
Letter to J. Walanski from EPO Re: Decision to Grant
TT Patent, Mar. 3, 2005.
German Document from Tick-IT GmbH Filing New
European Opposition, Jan. 14, 2006.
Faxed German Document from Tick-IT GmbH Filing
New European Opposition, Jan. 13, 2006.
Memo Re: Futures/Options Trading System and Japanese Patent Application No. 2001-564025 (Japanese), Aug. 18, 2005.
Patsystems News Rel. Nov. 6, 2001.
GL Trade, CAC and Stoxx Futures on MATIF NSC
VF, User Information Notes, pp. 1-14, published by
GL Trade, London, England, Mar. 15, 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4.50 Beta, pp. 1-24, published by GL Trade, London,
England, Jan. 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4.50, pp. 1-39, published by GL Trade, London, England, Feb. 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4,50, pp, 1-39, published by GL Trade, London, England, Mar. 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4.51, pp. 1-57, published by GL Trade, London, England, Jun. 1999.
www.tradingtechnologies.com/products/xtrade_full.html (viewed May 22, 2001).
Kharouf, “A trading room with a view,” Fututes, 27,
11, Nov. 1998.
USPTO Presentation, NASDAQ, Nov. 8, 2001, enclosed pp. 1-13.

App. 347
Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading System” (participants
seminar materials), Sep. 1997.
English Translation of Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading
System” (participants seminar materials), Sep. 1997.
REFCO English Translation of Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading System” (participants seminar materials), Sep, 1997.
Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the
Trading Terminals”, Aug. 1998.
English Translation of Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the Trading Terminals”, Aug.
1998.
REFCO English Translation of Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the Trading Terminals”, Aug. 1998.
Tokyo Stock Exchange, Document 1, “Downloading
the Terminal Program and Sending the Replacement
for the Guidelines for Operating the Trading Terminals”, Jan. 2000.
English Translation of Tokyo Stock Exchange, Document 1, “Downloading the Terminal Program and
Sending the Replacement for the Guidelines for Operating the Trading Terminals”, Jan. 2000.
Tokyo Stock Exchange, Publication 3, “Tokyo Stock
Exchange 50th Anniversary Book of Materials”,
Jul. 31, 2000.

App. 348
English Translation of Tokyo Stock Exchange, Publication 3, “Tokyo Stock Exchange 50th Anniversary
Book of Materials”, Jul. 31, 2000.
REFCO English Translation Tokyo Stock Exchange,
Publication 3, “Tokyo Stock Exchange 50th Anniversary Book of Materials”, Jul. 31, 2000.
English Translation of Tokyo Stock Exchange Offer
Form, Apr. 18, 2005.
Information Offer Form, Apr. 18, 2005.
Notification of Information Offer Form, Jun. 3, 2005.
“APT: A trading system for the future,” The London
International Financial Futures Exchange (LIFFE),
1990, 11 pages.
Trading Screen, INTEX of Bermuda, 1984, one page.
B.W. Weber, “Information Technology in the Major
International Financial Markets,” Stern School of
Business, New York University, Apr. 7, 1993, pp. 143.
Trading Screen, TIFFE Exchange, circa 1989-1990,
one page.
Trading Screen, MEFF Exchange, 1990, one page.
C, Cavaletti, “Order Routing,”, Futures Magazine,
Feb. 1997, pp. 68-70.
“AURORA: The most technologically advanced trading system available today,” Chicago Board of Trade,
1989, 11 pages.
“One Click Trading Options,” Trading Technologies,
Inc., 1998, one page.
Trading Screen, SWX Exchange, 1990, two pages,
“Expanding futures and options trading around the
world, around the clock,” GLOBEX, 1989, 48 pages.
S. Hansell, “The computer that ate Chicago,” Institutional Investor, Feb. 1989, 5 pages.

App. 349
“Sydney Futures Exchange Announces Plans to Join
GLOBEX,” GLOBEX Report: An Update on the CME
global electronic exchange, vol. II, No. 2, Feb. 10,
1989, 4 pages.
New York Mercantile Exchange (NYMEX) Access
Documents, Feb, 28. 1992, 413 pages.
The Computer Assisted Trading System (CATS)
Traders’ Manual, Toronto Stock Exchange, Sep. 30,
1977, 142 pages.
Market Watch trading screen, date not available, 1
page.
Grummer et al., “Preliminary Feasibility Study,” Bermudex Ltd., Nov. 1980, 100 pages.
Peake et al., Appendix C of Preliminary Feasibility
Study, “The ABCs of trading on a national market
system,” Bermudex Ltd., Sep. 1997, 16 pages.
J.W. Peake, Appendix E of Preliminary Feasibility
Study, “The last fifteen meters,”Bermudex Ltd., Jun.
15. 1997, 18 pages.
Declaration of Brendan Bradley in Case No. 04 C
5312, Nov. 18, 2004, 27 pages.
Memorandum Opinion and Order of Judge James B.
Moran in Case No. 04 C 5312, Feb. 9, 2005, 22 pages.
Court’s ruling on no prior sale.
Memorandum Opinion and Order Re: No prior use.
Memorandum Opinion and Order Re: Inequitable
Conduct.
Memorandum Opinion and Order Re: Court Reaffirming Priority.
Evenstreet Presentation prepared for Flatiron Partners, 00/00/1999, DX 437, CM 007139-CM 007172,
DTX 437.

App. 350
WIT Capital digital trading facility presentation to
Goldman Sachs, DX 438, CM 004523-CM 004547,
DTX 438.
WIT Capital Digital trading facility presentation to
PaineWebber, Inc., DX 439, DTX 439.
WIT Capital after hours trading system, Mauro, Mar.
19, 1999, DX 440, CM 009028-CM 009059, DTX 440.
WIT Capital Corporation digital trading facility
presentation, 03/00/99, DX 441, DTX 441.
WIT Capital pdf operator manual for Digital trading
facility, 00/00/1999, DX 442, CM 006510-CM 006513,
DTX 442.
Overview re Digital trading facility, DX 443, CM
006315-CM 006344, DTX 443.
Utility Patent Application Transmittal Re: Computer
Trading System, Method and Interface, Apr. 15, 1999,
Mauro, Kleia, and Buist, PX368.
Photocopy of Disks containing exhibits A and B to declaration of W. Buist, PX366.
SISS Functional specifications version 2.1, Feb. 16,
1988, DX 445, DTX 445.
Overview re SPATS; the Electronic Broker, DX 446,
DTX 446.
Status review specialist support system study NYSE,
Apr. 10, 1986, DX 447, DTX 447.
Declaration of W. Buist re: WIT DSM System, Apr.
26, 2006, PX 365, DTX 1777.
Sample screens of APT system, DX 150, DTX 150.
Photo of trader w/ APT screen, DX 151, LIFFE 00167LIFFE 00168, DTX 151.
APT User Guide, 01/00/94, DX 152, LIFFE 000262LIFFE 000363, DTX 152.
LIFFE guide/pamphlet, DX 148, DTX 148.

App. 351
Release Notes - Market Trader V5.2a, Mar. 18, 1999,
DX 617, G 118137-G 118152, DTX 617.
Market Trader - Nikkel 225 & Nikkel 300 Index options and Index futures trading users guide, Mar.
20,1998, DX 618, 0100444¬0100462, DTX 618.
Midas Kapiti Delivery Note and Release Note- Market Trader V5.2b, Mar. 31, 1999, DX 619, 0 096511-G
096527, DTX 619.
Midas Kapiti Release Notes - Market Trader V5.2e,
Apr. 12, 1999, DX 620, G 096694- G 096711, DTX 620.
Midas Kapiti Release Notes - Market TraderV5.2, DX
621, G 096712 -G 096727, DTX 621, May 26, 1999.
Midas Kapiti Release Notes - Market Trader V5.2e,
DX 622, G 096728- G 096754, DTX 622, Jun. 1, 1999.
Midas Kapiti Delivery Note and Release Note- Market Trader V5.2e, DX 623, G 105641-G 105667, DTX
623, May 26, 1999.
Drawing of 1997 TSE terminal by H. Kida, DX 624,
DTX 624.
Directory of Software Solutions for LIFFE Connect,
02/0099, DX 156, DTX 156.
ScreenShots: Patsystem “Canned” Demo, 02/00/97,
DX 120, PATS 00545-PATS 00559, DTX 120.
PTS Client Version 2.1 F, DX 119, PATS 00067PatATS 00082, DTX 119.
PTS trading application Version 1.1 Beta H.1. Mar.
31, 1998, DX 118, PATS 00560 -PATS 00560, DTX
118.
Nicholas Economides, “Electronic Call Market Trading”, Journal of Portfolio Management, 2/00/1995,
eS0069585-eS0069610.
GL Trading Pad Manual, G0020819-00020826.
TradePad Instuctions (French), G0025748-G0025749.

App. 352
TradePad.vsd Document, Feb. 9, 1999, G011169G0111670.
Trading pad.doc Document, Jan. 26, 1999, G0111671G0111672.
GL Win et Logiciels complementaires (French),
10//00/99, G009121-0009486.
GL Win et Logiciels complementaires (French),
7/00/99, 0009875-G010238.
Memo re: Dual Access Version 4.5 release, Mar. 21,
1999, 00022956-00022959:.
tradepad.txt (French), Mar. 8, 2000, G002561600025618.
GL Enhancements Software Version 4.11 f, Oct. 29,
1998, G0060853-G0060854.
GL Enhancements Update, Jan, 27, 1999, G010168200101688.
LIFFE Connect Futures Release Note 050399.doc,
Mar. 3, 1998, G0111402-G0111407.
TradingPad.doc, Apr. 30, 1999, G0112117-G0112122.
TradingPadUserManual.doc.
Aug.
10,
1999,
G0112123-G0112131.
GL Win Version 4.51, G0118856-00118865.
GL Trade Presentation (French), Apr. 25, 1999,
G0118989-G0119044.
LIFFE Connect Futures Functional Technical Issues
to Resolve, Apr. 12, 2007, G0119049-00119050.
LIFFE Connect for Equity Options User Guide v4.30,
Nov. 1998, 00119052-00119086.
Member Participation in the Futures Market, Apr. 12,
1999, 00119196-G0119197.
Email from Patricia Gauthier to Sam p., Jan. 25,
1999, G0119377-G0119380.
LIFFE Connect ISV Circular No: 001.99, Jan. 8, 1999,
00119566-00119568.

App. 353
LIFFE Connect ISV Circular No: 14.99, Mar, 2, 1999,
G0119583-00119590.
LIFFE Connect ISV Circular No: 004.99, Jan. 15,
1999, 0119615-G0119616.
LIFFE Connect ISV Circular No: 001.99, Jan. 15,
1999, 00119617-00119618.
LIFFE Connect ISV Circular No: 008.98, Dec. 28,
1998, G0119631-00119632.
Screenshot of GL TradePad, G0119660.
LIFFE Connect for Futures Schedule for Project Deliverables, Feb. 4, 1999, G0119681-G0119682.
LIFFE Connect for Futures-Project Update #1, Meeting of Jan. 11, 999, 00119691-00119697.
LIFFE Connect for Futures: Project Update 2, Meeting of Feb.10, 1999, G0119698-G0119704.
LIFFE Connect for Futures: Project Summary: Apr.
19, 1999, G0119705-G0119717.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, 00119718-00119724.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, G0119725-G0119745.
Functional Enhancements for LIFEE Connect for Futures Project, Mar. 3, 1999.
Installation, Market Entry Test, and Technical Dress
Rehearsal Summary, Feb. 23, 1999.
GL Trade Checklist-Installation Requirements for
Futures, Jan. 1999, G0119795-G0119798.
Cahier de charges.doc, Feb. 9, 1999, G0111752G0111758.
Keyboard example, Feb. 3, 2006, G007308-0007310.
GL Brochure, G0021652-21658.
GL Cost and Services, 00/00/1998, G0108876.
GL Win Summary (French), 6/00/1998, G009100400091046.

App. 354
Swiss Exchange SWX—TS User Manual, Dec. 31,
1998, DTX 2215, e50032293-e50032547.
Screen No. 100-Order Book & Order Entry 1 (Single
View), 6060637-6060639.
Globex User Guide, 01/00/97, DDX 633, DTX 633,
eS069819-6070081.
QuickTrade Document and Brochure, M21027-21031.
LIFFE Connect for Futures User Guide v4.5,
6/00/1999, 00025751-25806.
GL Version 4.70 (French Version), Jan. 5, 2000,
00026505-26533.
GL Version 4.70 (English Version), Jan. 5, 2000,
00020593-20621.
GL Win and Related Software Manual, Sep. 11, 2000,
1) G0025251-25615.
GL Win and Related Software Manual. 2) 0002594226267.
GL Win and Related Software Manual. 3) G01023910610.
GL Win et Logiciels complementaires (French),
G0009495-9874.
Internal Product News doc on QuickTrade,
G0020468-20471.
“Introducing the Company: G1 Trade” product offerings and slide presentation (to Reuters), G002653426559.
GL Product Leaflet Re: Mosaic, 00022529-22530.
Thomson Financial leaflet, 09/00/2003, G002244522450.
LIFFE Connect for Futures leaflet, G0023885-23888.
TSE Japanese Document, pp. 4-15.
TSE Japanese Document, pp. 6-15.
Megumi Miyoshi, Japanese Patent Application No.
2001-564025, 4/18/200.

App. 355
“Amazon.com Catapults Electronic Commerce to Next
Level with Powerful New Features,” Amazon.com
Press Release, Sep. 23, 1997, DTX 1034,
Dezmelyk000012-13.
Apple Advertisement, Scientific American, Sep. 1984,
Scientific American Inc. NY, NY Dezmelyk000014-33.
Memo Re: Downloading the Terminal Program, Aug.
18, 2005.
“Specialist vs Saitori: Market-Making in New York
and Tokyo”, Richard Lindsay and Ulrike Schaede,
DTX 1170, 7-8/00/1992, Silverman000494-Silverman000506.
“Building for Excellence”, MINEX Brochure, DTX
1153, Silverman000330-Silverman000334.
Chicago Mercantile Exchange (CME) Brochure,
DTX1163, Silverman000406-Silverman000407.
Meff Renta Fija Manual, DTX 1165, 10/00/1997, Silverman000410-Silverman000473.
O’Hara and Oldfield, “The Microeconomics of Market
Making”, Journal of Financial and Quanitative Analysis, 12/00/86, DTX 1169 Silverman000478-Silverman000493.
B. Weber, “Information Technology in the Major International Financial Markets”, Apr. 7, 1993, DX 79.
Terminal Use Manual - Windows NT Version, Tokyo
International Financial Futures Exchange (TIFFE),
0/0/1994, Silverman002552-Silverman002616, DTX
1226.
USPTO Press Release, “Electronic Patent Application
Records Replace Paper Files at USPTO”, DTX 2285,
Sep. 19, 2007.
Memorandum Opinion and Order Re: ‘132 and ‘304
Claim Construction [425], Oct. 31, 2006.

App. 356
Memorandum Opinion and Order Re: TT’s Motion for
Clarification [475], Feb. 21, 2007.
Memorandum Opinion and Order Re: Non-Infringement [708], Jun. 20, 2007.
Memorandum Opinion and Order Re: Motions for Reconsideration [875], Aug. 27, 2007.
Memorandum Opinion and Order Re: “Single Action”
Ruling [963], Sep. 12, 2007.
Memorandum Opinion and Order Re: Preliminary Injunction [83], Feb. 9, 2005.
APT Trading Procedures (ATOM Version) of LIFFE,
Apr. 3, 2001, Opposition EP 1 319 211 B1 Exhibit 9B.
APTplus Trading Procedures, Dec. 28, 1995, Opposition EP 1 319 211 B1 Exhibit 9D.
IRIS Investment Support Systems Window Ad, Opposition EP 1 319 211 BI Exhibit 10.
Fig. 2 Substitute Sheet (Rule 26), Opposition EP 1 319
211 B1 Exhibit 13A.
U.S. Appl. No. 60/186,322, Opposition EP 1 319 211
131 Exhibit 13B.
LIFFE’s New Electronic Trading Platform for Futures, LIFFE 202-261, Opposition EP 1 319 211 B1
Exhibit 8D.
TIFFE Internet Article, “New On-Screen Trading
Terminals”, E2.
System for Buying and Selling Futures and Options
Transaction Terminal Operational Guidlines, Tse
Business Systems Dept, TSE00647-810, e50622977e5062366, D1(2)9.
ORC Instructions for Use, Version 2.2.8., 1999.
Futures/Options Trading System Guidlines for Operating the Trading Terminals, TSE Business Systems
Dept, TSE00628-643, eS062278-eS062293, D1(3).

App. 357
Securities Industries News, “TT Upgrades Software
Platform”, Aug. 28, 2000 (D6).
Letter to EPO from Karl Barnfather Enclosing Notice
of Opposition (form 2300.1) and Grounds of Opposition (Annex 1), Jan. 12, 2006.
Dow Jones & Reuters Factiva, “Firms Rush to Make
LIFFE Connect Decision”, Dec, 4, 1998, E6.
Dow Jones & Reuters Factiva, “Date Broadcasting
Partners with Alltech Investment to Provide Customers with Online Trading”, Feb. 25, 1999, E8.
Trading Pad Document (E3).
Japanese Document. TSE00609-627, Dec. 1, 2006
(E5), with Translation.
TT X-Trader Brochure, Dec. 1, 2006 (E7).
Letter to J. Walanski from EPO Re: Payment, Apr. 20,
2005.
Letter to J. Walanski from EPO Re: Decision to Grant
TT Patent, Mar. 3, 2005.
German Document from Tick-IT GmbH Filing New
European Opposition, Jan. 14, 2006.
Annex A to TT’s Reply Brief.
Annex B to TT’s Reply Brief,
Memo Re: Futures/Options Trading System and Japanese Patent Application No. 2001-564025 (Japanese), Aug. 18, 2005.

App. 358

App. 359

App. 360

App. 361

App. 362

App. 363

1

App. 364
CLICK BASED TRADING WITH INTUITIVE
GRID DISPLAY OF MARKET DEPTH
PRIORITY
The present application is a continuation of Ser.
No. 11/415,163, filed May 2, 2006, which is a continuation of Ser. No. 10/237,131, filed Sep, 9, 2002, which
is a continuation of Ser. No. 09/590,692, filed Jun. 9,
2000, which is now U.S. Pat. No, 6,772,132, issued
Aug, 3, 2004, which claims priority to a U.S. provisional application 60/186,322, filed Mar. 2, 2000, the
contents of which are incorporated herein by reference.
FIELD OF INVENTION
The present invention is directed to the electronic
trading of commodities. Specifically, the invention
provides a trader with a versatile and efficient tool for
executing trades. It facilitates the display of and the
rapid placement of trade orders within the market
trading depth of a commodity, where a commodity includes anything that can be traded with quantities
and/or prices.
BACKGROUND OF THE INVENTION
At least 60 exchanges throughout the world utilize
electronic trading in varying degrees to trade stocks,
bonds, futures, options and other products. These
electronic exchanges are based on three components:
mainframe computers (host), communications servers, and the exchange participants’ computers (client). The host forms the electronic heart of the fully
computerized electronic trading system, The system’s
operations cover order-matching, maintaining order

App. 365
books and positions, price information, and managing
and updating the database for the online trading day
as well as nightly batch runs. The host is also
equipped with external interfaces that maintain uninterrupted online contact to quote vendors and other
price information systems.
Traders can link to the host through three types of
structures: high speed data lines, high speed communications servers and the Internet. High speed data
lines establish direct connections between the client
and the host Another connection can be established
by configuring high speed networks or communications servers at strategic access points worldwide in
locations where traders physically are located. Data
is transmitted in both directions between traders and
exchanges via dedicated high speed communication
lines. Most exchange participants install two lines between the exchange and the client site or between the
communication server and the client site as a safety
measure against potential failures. An exchange’s internal computer system is also often installed with
backups as a redundant measure to secure system
availability. The third connection utilizes the Internet. Here, the exchange and the traders communicate
back and forth through high speed data lines, which
are connected to the Internet. This allows traders to
be located anywhere they can establish a connection
to the Internet.
Irrespective of the way in which a connection is established, the exchange participants’ computers allow
traders to participate in the market. They use software that creates specialized interactive trading
screens on the traders’ desktops. The trading screens

App. 366
enable traders to enter and execute orders, obtain
market quotes, and monitor positions. The range and
quality of features available to traders on their
screens varies according to the specific software application being run. The installation of open interfaces in the development of an exchange’s electronic
strategy means users can choose, depending on their
trading style and internal requirements, the means
by which they will access the exchange.
The world’s stock, bond, futures and options exchanges have volatile products with prices that move
rapidly. To profit in these markets, traders must be
able to react quickly. A skilled trader with the quickest software, the fastest communications, and the
most sophisticated analytics can significantly improve his own or his firm’s bottom line. The slightest
speed advantage can generate significant returns in a
fast moving market. In today’s securities markets, a
trader lacking a technologically advanced interface is
at a severe competitive disadvantage.
Irrespective of what interface a trader uses to enter orders in the market, each market supplies and
requires the same information to and from every
trader. The bids and asks in the market make up the
market data and everyone logged on to trade can receive this information if the exchange provides it.
Similarly, every exchange requires that certain information be included in each order. For example, traders must supply information like the name of the commodity, quantity, restrictions, price and multiple
other variables. Without all of this information, the
market will not accept the order. This input and output of information is the same for every trader.

App. 367
With these variables being constant, a competitive
speed advantage must come from other aspects of the
trading cycle. When analyzing the time it takes to
place a trade order for a given commodity, various
steps contribute in different amounts to the total time
required. Approximately 8% of the total time it takes
to enter an order elapses between the moment the
host generates the price for the commodity and the
moment the client receives the price. The time it takes
for the client application to display the price to the
trader amounts to approximately 4%. The time it
takes for a trade order to be transmitted to the host
amounts to approximately 8%. The remainder of the
total time it takes to place an order, approximately
80%, is attributable to the time required for the trader
to read the prices displayed and to enter a trade order.
The present invention provides a significant advantage during the slowest portion of the trading cycle—while the trader manually enters his order.
Traders recognize that the value of time savings in
this portion may amount to millions of dollars annually.
In existing systems, multiple elements of an order
must be entered prior to an order being sent to market, which is time consuming for the trader. Such elements include the commodity symbol, the desired
price, the quantity and whether a buy or a sell order
is desired. The more time a trader takes entering an
order, the more likely the price on which he wanted to
bid or offer will change or not be available in the market. The market is fluid as many traders are sending
orders to the market simultaneously. It fact, successful markets strive to have such a high volume of trading that any trader who wishes to enter an order will

App. 368
find a match and have the order filled quickly, if not
immediately. In such liquid markets, the prices of the
commodities fluctuate rapidly. On a trading screen,
this results in rapid changes in the price and quantity
fields within the market grid. If a trader intends to
enter an order at a particular price, but misses the
price because the market prices moved before he could
enter the order, he may lose hundreds, thousands,
even millions of dollars. The faster a trader can trade,
the less likely it will be that he will miss his price and
the more likely he will make money.
SUMMARY OF THE INVENTION
The inventors have developed the present invention which overcomes the drawbacks of the existing
trading systems and dramatically reduces the time it
takes for a trader to place a trade when electronically
trading on an exchange. This, in turn, increases the
likelihood that the trader will have orders filled at desirable prices and quantities.
The “Mercury” display and trading method of the
present invention ensure fast and accurate execution
of trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuates. This allows the trader to trade
quickly and efficiently.
Specifically, the present invention is directed to a
graphical user interface for displaying the market
depth of a commodity traded in a market, including a
dynamic display for a plurality of bids and for a plurality of asks in the market for the commodity and a
static display of prices corresponding to the plurality

App. 369
of bids and asks. In this embodiment the pluralities of
bids and asks are dynamically displayed in alignment
with the prices corresponding thereto. Also described
herein is a method and system for placing trade orders using such displays.
These embodiments, and others described in
greater detail herein, provide the trader with improved efficiency and versatility in placing, and thus
executing, trade orders for commodities in an electronic exchange. Other features and advantages of
the present invention will become apparent to those
skilled in the art from the following detailed description. It should be understood, however, that the detailed description and specific examples, while indicating preferred embodiments of the present invention, are given by way of illustration and not limitation. Many changes and modifications within the
scope of the present invention may be made without
departing from the spirit thereof, and the invention
includes all such modifications.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 illustrates the network connections between multiple exchanges and client sites;
FIG. 2 illustrates screen display showing the inside market and the market depth of a given commodity being traded;
FIG. 3 illustrates the Mercury display of the present invention;
FIG. 4 illustrates the Mercury display at a later
time showing the movement of values when compared
to FIG. 3;

App. 370
FIG. 5 illustrates a Mercury display with parameters set in order to exemplify the Mercury trading
method; and
FIG. 6 is a flowchart illustrating the process for
Mercury display and trading,
DETAILED DESCRIPTION OF THE PREFERRED
EMBODIMENTS
As described with reference to the accompanying
figures, the present invention provides a display and
trading method to ensure fast and accurate execution
of trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuates. This allows the trader to place trade
orders quickly and efficiently. A commodity’s market
depth is the current bid and ask prices and quantities
in the market. The display and trading method of the
invention increase the likelihood that the trader will
be able to execute orders at desirable prices and quantities.
In the preferred embodiment, the present invention is implemented on a computer or electronic terminal. The computer is able to communicate either directly or indirectly (using intermediate devices) with
the exchange to receive and transmit market, commodity, and trading order information. It is able to interact with the trader and to generate contents and
characteristics of a trade order to be sent to the exchange. It is envisioned that the system of the present
invention can be implemented on any existing or future terminal or device with the processing capability
to perform the functions described herein. The scope

App. 371
of the present invention is not limited by the type of
terminal or device used. Further, the specification refers to a single click of a mouse as a means for user
input and interaction with the terminal display as an
example of a single action of the user. While thus describes a preferred mode of interaction, the scope of
the present invention is not limited to the use of a
mouse as the input device or to the click of a mouse
button as the user’s single action. Rather, any action
by a user within a short period of time, whether comprising one or more clicks of a mouse button or other
input device, is considered a single action of the user
for the purposes of the present invention.
The system can be configured to allow for trading
in a single or in multiple exchanges simultaneously.
Connection of the system of the present invention
with multiple exchanges is illustrated in FIG. 1. This
figure shows multiple host exchanges 101-103 connected through routers 104-106 to gateways 107-109.
Multiple client terminals 110-116 for use as trading
stations can then trade in the multiple exchanges
through their connection to the gateways 107-109.
When the system is configured to receive data from
multiple exchanges, then the preferred implementation is to translate the data from various exchanges
into a simple format. This “translation” function is described below with reference to FIG. 1. An applications program interface (“TT API” as depicted in the
figure) translates the incoming data formats from the
different exchanges to a simple preferred data format. This translation function may be disposed anywhere in the network, for example, at the gateway
server, at the individual workstations or at both. In
addition, the storage at gateway servers and at the

App. 372
client workstations, and/or other external storage
cache historical data such as order books which list
the client’s active orders in the market; that is, those
orders that have neither been filled nor cancelled. Information from different exchanges can be displayed
at one or in multiple windows at the client workstation. Accordingly, while reference is made through
the remainder of the specification to a single exchange
to which a trading terminal is connected, the scope of
the invention includes the ability to trade, in accordance with the trading methods described herein, in
multiple exchanges using a single trading terminal.
The preferred embodiments of the present invention include the display of “Market Depth” and allow
traders to view the market depth of a commodity and
to execute trades within the market depth with a single click of a computer mouse button. Market Depth
represents the order book with the current bid and
ask prices and quantities in the market. In other
words, Market Depth is each bid and ask that was entered into the market, subject to the limits noted below, in addition to the inside market. For a commodity
being traded, the “inside market” is the highest bid
price and the lowest ask price.
The exchange sends the price, order and fill information to each trader on the exchange. The present
invention processes this information and maps it
through simple algorithms and mapping tables to positions in a theoretical grid program or any other comparable mapping technique for mapping data to a
screen. The physical mapping of such information to
a screen grid can be done by any technique known to
those skilled in the art. The present invention is not

App. 373
limited by the method used to map the data to the
screen display.
How far into the market depth the present invention can display depends on how much of the market
depth the exchange provides. Some exchanges supply
an infinite market depth, while others provide no
market depth or only a few orders away from the inside market. The user of the present invention can
also chose how far into the market depth to display on
his screen.
FIG. 2 illustrates a screen display of an invention
described in a commonly owned co-pending application entitled “Click Based Trading with Market Depth
Display” Ser. No. 11/061, 554, filed on Feb. 18, 2005,
the contents of which are incorporated herein by reference. This display shows the inside market and the
market depth of a given commodity being traded. Row
1 represents the “inside market” for the commodity
being traded which is the best (highest) bid price and
quantity and the best (lowest) ask price and quantity.
Rows 2-5 represent the “market depth” for the commodity being traded. In the preferred embodiment of
the present invention, the display of market depth
(rows 2-5) lists the available next-best bids, in column
203, and asks, in column 204. The working bid and
ask quantity for each price level is also displayed in
columns 202 and 205 respectively (inside market—
row 1). Prices and quantities for the inside market
and market depth update dynamically on a real time
basis as such information is relayed from the market.
In the screen display shown in FIG, 2, the commodity (contract) being traded is represented in row
1 by the character string “CDH0”. The Depth column

App. 374
208 will inform the trader of a status by displaying
different colors. Yellow indicates that the program application is waiting for data. Red indicates that the
Market Depth has failed to receive the data from the
server and has “timed out.” Green indicates that the
data has just been updated. The other column headings in this and all of the other figures, are defined as
follows. BidQty (Bid Quantity): the quantity for each
working bid. BidPrc (Bid Price): the price for each
working bid, AskPrc (Ask Price): the price for each
working ask, AskQty (Ask Quantity): the quantity for
each working ask, LastPrc (Last Price): the price for
the last bid and ask that were matched in the market
and LastQty (Last Quantity): the quantity traded at
the last price. Total represents the total quantity
traded of the given commodity.
The configuration of the screen display itself informs the user in a more convenient and efficient
manner than existing systems. Traders gain a significant advantage by seeing the market depth because
they can see trends in the orders in the market. The
market depth display shows the trader the interest
the market has in a given commodity at different
price levels. If a large amount of bids or asks are in
the market near the trader’s position, he may feel he
should sell or buy before the inside market reaches
the morass of orders. A lack of orders above or below
the inside market might prompt a trader to enter orders near the inside market. Without seeing the market depth, no such strategies could be utilized. Having
the dynamic market depth, including the bid and ask
quantities and prices of a traded commodity aligned
with and displayed below the current inside market
of the commodity conveys the information to the user

App. 375
in a more intuitive and easily understandable manner. Trends in the trading of the commodity and other
relevant characteristics are more easily identifiable
by the user through the use of the present invention.
Various abbreviations are used in the screen displays, and specifically, in the column headings of the
screen displays reproduced herein. Some abbreviations have been discussed above. A list of common abbreviations and their meanings is provided in Table
1.
TABLE I
Abbreviations
COLUMN
Month
Bid Mbr(1)
WrkBuys(2)
BidQty
ThrshBid(6)
BidPrc
Bid Qty Accum
BidPrc Avg
AskPrc Avg
AskQty Accum
AskPrc
ThrshAsk(6)
AskQty
WrkSells(2)
Ask Mbr(1)
NetPos

DESCRIPTION
Expiration Month/Year
Bid Member ID
Working Buys for entire
Group ID
Bid Quantity
Threshold Bid Price
Bid Price
Accumulated Bid Quantity
Bid Price Average
Ask Price Average
Accumulated Ask Quantity
Ask Price
Threshold Ask Price
Ask Quantity
Working Sells for entire
Group ID
Ask Member ID
Net Position

App. 376
FFNetPos
LastPrc
LastQty
Total
High
Low
Open
Close
Cling
TheoPrc
TheoBid
TheoAsk
QAct
BQQ
BQP
Mkt BQQ
Mkt BQP
Quote
Mkt AQQ
Mkt AQP
AQP
AQQ
Imp BidQty(5)
Imp BidPrc(5)
Imp AskQty(5)
Imp AskPrc(5)
Gamma(3)
Delta(3)
Vola(3)

Fast Fill Net Position
Last Price
Last Quantity
Total Traded Quantity
High Price
Low Price
Opening Price
Closing Price
Last Price-Last Close
Theoretical Price
Theoretical Bid Price
Theoretical Ask Price
Quote Action (Sends individual quotes)
Test Bid Quote Quantity
Test Bid Quote Price
Market Bid Quote Quantity
Market Bid Quote Price
Checkbox activates/deactivates contract for quoting
Market Ask Quote Quantity
Market Ask Quote Price
Ask Quote Price
Ask Quote Quantity
Implied Bid Quantity
Implied Bid Price
Implied Ask Quantity
Implied Ask Price
Change in Delta given 1 pt
change in underlying
Change in price given 1 pt
change in underlying
Percent volatility

App. 377
Vega(3)
Rho(3)
Theta(3)
Click Trd
S (Status)
Expiry

Price change given 1% change
in Vola
Price change given 1% change
in interest rate
Price change for every day
that elapses
Activate/deactivate click trading by contract
Auction, Closed, FastMkt,
Not Tradable, Pre-trading,
Tradable, S = post-trading
Expiration Month/Year

As described herein, the display and trading
method of the present invention provide the user with
certain advantages over systems in which a display of
market depth, as shown in FIG. 2, is used. The Mercury display and trading method of the present invention ensure fast and accurate execution of trades by
displaying market depth on a vertical or horizontal
plane, which fluctuates logically up or down, left or
right across the plane as the market prices fluctuates.
This allows the trader to trade quickly and efficiently.
An example of such a Mercury display is illustrated
in the screen display of FIG. 3.
The display of market depth and the manner in
which traders trade within the market depth can be
effected in different manners, which many traders
will find materially better, faster and more accurate.
In addition, some traders may find the display of market depth to be difficult to follow. In the display shown
in FIG. 2, the market depth is displayed vertically so
that both Bid and Ask prices descend the grid. The

App. 378
Bid prices descend the market grid as the prices decrease. Ask prices also descend the market grid as
these prices actually increase. This combination may
be considered counterintuitive and difficult to follow
by some traders.
The Mercury display overcomes this problem in an
innovative and logical manner. Mercury also provides
an order entry system, market grid, fill window and
summary of market orders in one simple window.
Such a condensed display materially simplifies the
trading system by entering and tracking trades in an
extremely efficient manner. Mercury displays market
depth in a logical, vertical fashion or horizontally or
at some other convenient angle or configuration. A
vertical field is shown in the figures and described for
convenience, but the field could be horizontal or at an
angle. In turn, Mercury further increases the speed of
trading and the likelihood of entering orders at desired prices with desired quantities. In the preferred
embodiment of the invention, the Mercury display is
a static vertical column of prices with the bid and ask
quantities displayed in vertical columns to the side of
the price column and aligned with the corresponding
bid and ask prices. An example of this display is
shown in FIG, 3.
Bid quantities are in the column 1003 labeled
BidQ and ask quantities are in column 1004 labeled
AskQ. The representative ticks from prices for the
given commodity are shown in column 1005. The column does not list the whole prices (e.g. 95.89), but rather, just the last two digits (e.g. 89). In the example
shown, the inside market, cells 1020, is 18 (best bid

App. 379
quantity) at 89 (best bid price) and 20 (best ask quantity) at 90 (best ask price). In the preferred embodiment of the invention, these three columns are shown
in different colors so that the trader can quickly distinguish between them.
The values in the price column are static; that is,
they do not normally change positions unless a re-centering command is received (discussed in detail later).
The values in the Bid and Ask columns however, are
dynamic; that is, they move up and down (in the vertical example) to reflect the market depth for the
given commodity, The LTQ column 1006 shows the
last traded quantity of the commodity. The relative
position of the quantity value with respect to the Price
values reflects the price at which that quantity was
traded. Column 1001 labeled E/W (entered/working)
displays the current status of the trader’s orders. The
status of each order is displayed in the price row
where it was entered. For example, in cells 1007, the
number next to S indicates the number of the trader’s
ordered lots that have been sold at the price in the
specific row. The number next to W indicates the
number of the trader’s ordered lots that are in the
market, but have not been filled—i.e, the system is
working on filling the order. Blanks in this column indicate that orders are entered or working at that
price. In cells 1008, the number next to B indicates
the number of the trader’s ordered lots that have been
bought at the price in the specific row. The number
next to W indicates the number of the trader’s ordered
lots that are in the market, but have not been filled—
i.e. the system is working on filling the order.

App. 380
Various parameters are set and information is provided in column 1002. For example, “10:48:44” in cell
1009 shows the actual time of day. The L and R fields
in cell 1010 indicate a quantity value, which may be
added to the order quantity entered. This process is
explained below with respect to trading under Mercury. Below the L and R fields, in cell 1011, a number
appears which represents the current market volume.
This is the number of lots that have been traded for
the chosen contract. Cell 1012, “X 10”, displays the
Net Quantity, the current position of the trader on the
chosen contract. The number “10” represents the
trader’s buys minus sells. Cell 1013 is the “Current
Quantity”; this field represents the quantity for the
next order that the trader will send to market. This
can be adjusted with right and left clicks (up and
down) or by clicking the buttons which appear below
the Current Quantity in cells 1014. These buttons increase the current quantity by the indicated amount;
for example, “10” will increase it by 10; “1H” will increase it by 100; “1K” will increase it by 1000. Cell
1015 is the Clear button; clicking this button will
clear the Current Quantity field. Cell 1016 is the
Quantity Description; this is a pull down menu allowing the trader to chose from three Quantity Descriptions. The pull down menu is displayed when the arrow button in the window is clicked. The window includes NetPos, Offset and a field allowing the trader
to enter numbers. Placing a number in this field will
set a default buy or sell quantity. Choosing “Offset” in
this field will enable the L/R buttons of cell 1010.
Choosing “NetPos” in this field will set the current
Net Quantity (trader’s net position) as the trader’s
quantity for his next trade. Cell 1017 are +/- buttons;

App. 381
these buttons will alter the size of the screen—either
larger (+) or smaller (-). Cell 1018 is used to invoke
Net 0; clicking this button will reset the Net Quantity
(cell 1011) to zero, Cell 1019 is used to invoke Net
Real; clicking this button will reset the Net Quantity
(cell 1011) to its actual position.
The inside market and market depth ascend and
descend as prices in the market increase and decrease. For example, FIG. 4 shows a screen displaying
the same market as that of FIG. 3 but at a later interval where the inside market, cells 1101, has risen
three ticks. Here, the inside market for the commodity is 43 (best bid quantity) at 92 (best bid price) and
63 (best ask quantity) at 93 (best ask price). In comparing FIGS. 3 and 4, it can be seen that the price
column remained static, but the corresponding bids
and asks rose up the price column. Market Depth similarly ascends and descends the price column, leaving
a vertical history of the market.
As the market ascends or descends the price column, the inside market might go above or below the
price column displayed on a trader’s screen. Usually
a trader will want to be able to see the inside market
to assess future trades. The system of the present invention addresses this problem with a one click centering feature. With a single click at any point within
the gray area, 1021, below the “Net Real” button, the
system will re-center the inside market on the
trader’s screen. Also, when using a three-button
mouse, a click of the middle mouse button, irrespective of the location of the mouse pointer, will re-center
the inside market on the trader’s screen.

App. 382
The same information and features can be displayed and enabled in a horizontal fashion. Just as
the market ascends and descends the vertical Mercury display shown in FIGS. 3 and 4, the market will
move left and right in the horizontal Mercury display.
The same data and the same information gleaned
from the dynamical display of the data is provided. It
is envisioned that other orientations can be used to
dynamically display the data and such orientations
are intended to come within the scope of the present
invention.
Next, trading commodities, and specifically, the
placement of trade orders using the Mercury display
is described. Using the Mercury display and trading
method, a trader would first designate the desired
commodity and, if applicable, the default quantities.
Then he can trade with single clicks of the right or left
mouse button. The following equations are used by
the system to generate trade orders and to determine
the quantity and price to be associated with the trade
order. The following abbreviations are used in these
formulas: P=Price value of row clicked, R=Value in R
field, L=Value in L field, Q=Current Quantity, Qa=Total of all quantities in AskQ column at an equal or
better price than P, Qb=Total of all quantities in BidQ
column at an equal or better price than P, N=Current
Net Position, Bo=Buy order sent to market and
So=Sell order sent to market.
Any Order Entered Using Right Mouse Button
Bo=(Qa+R)P If BidQ field clicked,

(Eq. 1)

So=(Qb+R)P If AskQ field clicked.

(Eq. 2)

Orders Entered Using the Left Mouse Button

App. 383
If “Offset” mode chosen in Quantity Description
field then:
Bo=(Qa+L)P If BidQ field clicked.

(Eq. 3)

So=(Qb+L)P If AskQ field clicked.

(Eq. 4)

If “number” mode chosen in Quantity Description
field then:
Bo=QP

(Eq. 5)

So=QP

(Eq. 6)

If “NetPos” mode chosen in Quantity Description
field then:
Bo=NP

(Eq. 7)

So=NP

(Eq. 8)

Orders can also be sent to market for quantities
that vary according to the quantities available in the
market; quantities preset by the trader; and which
mouse button the trader clicks. Using this feature, a
trader can buy or sell all of the bids or asks in the
market at or better than a chosen price with one click.
The trader could also add or subtract a preset quantity from the quantities outstanding in the market. If
the trader clicks in a trading cell—i,e, in the BidQ or
AskQ column, he will enter an order in the market.
The parameters of the order depend on which mouse
button he clicks and what preset values he set.
Using the screen display and values from FIG. 5,
the placement of trade orders using the Mercury display and trading method is now described using examples. A left click on the 18 in the BidQ column 1201
will send an order to market to sell 17 lots (quantity
# chosen on the Quantity Description pull down menu

App. 384
cell 1204) of the commodity at a price of 89 (the corresponding price in the Prc column 1203). Similarly, a
left click on the 20 in the AskQ column 1202 will send
an order to market to buy 17 lots at a price of 90,
Using the right mouse button, an order would be
sent to market at the price that corresponds to the
row clicked for the total quantity of orders in the market that equal or better the price in that row plus the
quantity in the R field 1205. Thus, a right click in the
AskQ column 1202 in the 87 price row will send a sell
order to market at a price of 87 and a quantity of 150.
150 is the sum of all the quantities 30, 97, 18 and 5.
30, 97 and 18 are all of the quantities in the market
that would meet or better the trader’s sell order price
of 87. These quantities are displayed in the BidQ column 1201 because this column represents the orders
outstanding in the market to purchase the commodity
at each corresponding price. The quantity 5 is the
quantity pre-set in the R field 1205.
Similarly, aright click in the BidQ column 1201 at
the same price level of 87 would send a buy limit order
to market for a quantity of 5 at a price of 87. The
quantity is determined in the same manner as above.
In this example, though, there are no orders in the
market that equal or better the chosen price—there
are no quantities in the AskQ column 1202 that equal
or better this price. Therefore, the sum of the equal or
better quantities is zero (“0”). The total order entered
by the trader will be the value in the R field, which is
5,
An order entered with the left mouse button and
the “Off-set” option chosen in the quantity description
field 1204 will be calculated in the same way as above,

App. 385
but the quantity in the L field 1206 will be added instead of the quantity in the R field 1205. Thus, a left
click in the BidQ column 1201 in the 92 price row will
send a buy order to market at a price of 92 and a quantity of 96. 96 is the sum of all the quantities 45, 28, 20
and 3. 45, 28 and 20 are all quantities in the market
that would meet or better the trader’s buy order price
of 92. These quantities are displayed in the AskQ column 1202 because this column represents the orders
outstanding in the market to sell the commodity at
each corresponding price. The quantity 3 is the quantity pre-set in the L field 1206.
The values in the L or R fields may be negative
numbers. This would effectively decrease the total
quantity sent to market. In other words, in the example of a right click in the AskQ column 1202 in the 87
price row, if the R field was -5, the total quantity sent
to market would be 140 (30+97+18+(-5)).
If a trader chose the “NetPos” option in the quantity description field 1204, a right click would still
work as explained above. A left click would enter an
order with a price corresponding to the price row
clicked and a quantity equal to the current Net position of the trader. The Net position of the trader is the
the trader’s current position on the chosen contract.
In other words, if the trader has bought 10 more contracts than he has sold, this value would be 10. NetPos would not affect the quantity of an order sent with
a right click.
If the trader chose a number value in the quantity
description, a left click would send an order to market
for the current quantity chosen by the trader. The default value of the current quantity will be the number

App. 386
entered in the quantity description field, but it could
be changed by adjusting the figure in the current
quantity field 1204.
This embodiment of the invention also allows a
trader to delete all of his working trades with a single
click of either the right or left mouse button anywhere
in the last traded quantity (LTQ) column 1207. This
allows a trader to exit the market immediately. Traders will use this feature when they are losing money
and want to stop the losses from pilling up. Traders
may also use this feature to quickly exit the market
upon making a desired profit. The invention also allows a trader to delete all of his orders from the market at a particular price level. A click with either
mouse button in the Entered/Working (E/W) column
1208 will delete all working orders in the cell that was
clicked. Thus, if a trader believes that previously sent
orders at a particular price that have not been filled
would be poor trades, he can delete these orders with
a single click.
The process for placing trade orders using the
Mercury display and trading method of the present
invention as described above is shown in the
flowchart of FIG. 6. First, in step 1301, the trader has
the Mercury display on the trading terminal screen
showing the market for a given commodity. In step
1302, the parameters are set in the appropriate fields,
such as the L and R fields and the Current Quantity,
NetPos or Offset fields from the pull down menu. In
step 1303, the mouse pointer is positioned and clicked
over a cell in the Mercury display by the trader. In
step 1304, the system determines whether the cell
clicked is a tradeable cell (i.e, in the AskQ column or

App. 387
BidQ column). If not, then in step 1305, no trade order
is created or sent and, rather, other quantities are adjusted or functions are performed based upon the cell
selected. Otherwise, in step 1306, the system determines whether it was the left or the right button of
the mouse that was clicked. If it was the right, then
in step 1307, the system will use the quantity in the
R field when it determines the total quantity of the
order in step 1310. If the left button was clicked, then
in step 1308, the system determines which quantity
description was chosen: Offset, NetPos or an actual
number.
If Offset was chosen, then the system, in step
1309, will use the quantity in the L field when it determines the total quantity of the order in step 1310.
If NetPos was chosen, then the system, in step 1312,
will determine that the total quantity for the trade order will be current NetPos value, i.e. the net position
of the trader in the given commodity. If an actual
number was used as the quantity description, then, in
step 1311, the system will determine that the total
quantity for the trade order will be the current quantity entered. In step 1310, the system will determine
that the total quantity for the trade order will be the
value of the R field (if step 1307 was taken) or the
value of the L field (if step 1309 was taken) plus all
quantities in the market for prices better than or
equal to the price in the row clicked. This will add up
the quantities for each order in the market that will
fill the order being entered by the trader (plus the L
or R value).
After either steps 1310, 1311 or 1312, the system,
in step 1313, determines which column was clicked,

App. 388
BidQ or AskQ. If AskQ was clicked, then, in step
1314, the system sends a sell limit order to the market at the price corresponding to the row for the total
quantity as already determined. If BidQ was clicked,
then, in step 1315, the system sends a buy limit order
to the market at the price corresponding to the row
for the total quantity as already determined.
It should be understood that the above description
of the invention and specific examples, while indicating preferred embodiments of the present invention,
are given by way of illustration and not limitation.
Many changes and modifications within the scope of
the present invention may be made without departing
from the spirit thereof, and the present invention includes all such changes and modifications.
We claim:
1. A method of placing a trade order for a commodity on an electronic exchange using a graphical user
interface and a user input device, the method comprising:
receiving data relating to the commodity from the
electronic exchange, the data comprising an inside market with a highest bid price and a lowest ask price currently available for the commodity;
dynamically displaying via a computing device a
first indicator in one of a plurality of areas in a
bid display region, each area in the bid display
region corresponding to a price level along a
price axis, the first indicator representing a
quantity associated with at least one order to
buy the commodity at the highest bid price;

App. 389
dynamically displaying via the computing device a
second indicator in one of a plurality of areas in
an ask display region, each area in the ask display region corresponding to a price level along
the price axis, the second indicator representing a quantity associated with at least one order to sell the commodity at the lowest ask
price;
displaying an order entry region comprising a plurality of locations for receiving single action
commands to send trade orders, the plurality of
locations including:
(a) at least one first fixed location corresponding to
a first price level along the price axis associated
with the highest bid price currently available
in the market, wherein upon receipt of new
data representing an updated highest bid price
currently available for the commodity, the at
least one first fixed location continues to correspond to the first price level even if the first
price level is no longer associated with the
highest bid price currently available in the
market; and
(b) at least one second fixed location corresponding
to a second price level along the price axis associated with the lowest ask price currently
available in the market, wherein upon receipt
of new data representing an updated lowest
ask price currently available for the commodity, the at least one second fixed location continues to correspond to the second price level

App. 390
even if the second price level is no longer associated with the lowest ask price currently available in the market;
updating the display of the first indicator such
that the first indicator is moved relative to the
price axis to a different area in the bid display
region corresponding with a different price
level along the price axis in response to receipt
of new data representing an updated highest
bid price currently available for the commodity;
updating the display of the second indicator such
that the second indicator is moved relative to
the price axis to a different area in the ask display region corresponding with a different price
level along the price axis in response to receipt
of new data representing an updated lowest
ask price currently available for the commodity; and
setting a plurality of parameters for a trade order
relating to the commodity and sending the
trade order to the electronic exchange in response to a selection of a particular location of
the order entry region by a single action of a
user input device.
2. The method of claim 1, wherein the bid display
region, the ask display region, and the order entry region are oriented vertically.
3. The method of claim 1, wherein the bid display
region, the ask display region, and the order entry region are oriented horizontally.
4. The method of claim 1, wherein the order entry
region comprises:

App. 391
a bid order entry region comprising a plurality of
locations for receiving commands to send buy
orders, each location corresponding to a price
level along the price axis; and
an ask order entry region comprising a plurality of
locations for receiving commands to send sell
orders, each location corresponding to a price
level along the price axis.
5. The method of claim 4, wherein the bid order entry region overlaps with the bid display region, and
wherein the ask order entry region overlaps with the
ask display region.
6. The method of claim 4, further comprising dynamically displaying an entered order indicator in association with a price level along the price axis,
wherein the entered order indicator represents an order pending at the electronic exchange.
7. The method of claim 6, further comprising sending a message to the electronic exchange to delete the
order represented by the entered order indicator in response to a single action of the user input device with
a pointer of the user input device positioned over the
entered order indicator.
8. The method of claim 7, wherein the single action
of the user input device that results in sending the
message to the electronic exchange to delete the order
consists of a single click of the user input device with
the pointer of the user input device positioned over
the entered order indicator.
9. The method of claim 8, wherein the single action
of the user input device that results in sending the
message to the electronic exchange to delete the order

App. 392
consists of a double click of the user input device with
the pointer of the user input device positioned over
the entered order indicator.
10.
The method of claim 1, further comprising
dynamically displaying a last trade indicator in association with the price axis.
11.
The method of claim 1, wherein the bid and
ask display regions are displayed in a window, the
method further comprising centering the display of
the first and second indicators in the window upon receipt of a centering instruction.
12.
The method of claim 1, wherein the plurality of parameters comprises a price and type of order.
13.
The method of claim 1, wherein the order
entry region comprises a plurality of first locations
corresponding to the first price level along the price
axis.
14.
The method of claim 13, wherein the plurality of first locations are within a cell.
15.
The method of claim 13, wherein after receipt of new data representing an updated highest bid
price currently available for the commodity, the plurality of first locations continues to correspond to the
first price level even if the first price level is no longer
associated with the highest bid price currently available in the market.
16.
The method of claim 1, wherein the order
entry region comprises a plurality of second locations
corresponding to the second price level along the price
axis.

App. 393
17.
The method of claim 16, wherein the plurality of second locations are within a cell.
18.
The method of claim 16, wherein after receipt of new data representing an updated highest bid
price currently available for the commodity, the plurality of second locations continues to correspond to
the second price level even if the second price level is
no longer associated with the lowest ask price currently available in the market.
19.
The method of claim 1, wherein an area of
the plurality of areas in the bid display region is a cell
of a grid.
20.
The method of claim 1, wherein an area of
the plurality of areas in the ask display region is a cell
of a grid.
21.
The method of claim 1, wherein the single
action of the user input device for setting the plurality
of parameters for the trade order relating to the commodity and sending the trade order to the electronic
exchange consists of a single click of the user input
device.
22.
The method of claim 1, wherein the single
action of the user input device for setting the plurality
of parameters for the trade order relating to the commodity and sending the trade order to the electronic
exchange consists of a double click of the user input
device.
23.
A computer readable medium having program code recorded thereon for execution on a computer for displaying market information relating to
and facilitating trading of a commodity being traded

App. 394
in an electronic exchange on a graphical user interface, the program code causing a machine to perform
the following method steps:
receiving data relating to the commodity from the
electronic exchange, the data comprising an inside market with a highest bid price and a lowest ask price currently available for the commodity;
dynamically displaying a first indicator in one of a
plurality of areas in a bid display region, each
area in the bid display region corresponding to
a price level along a price axis, the first indicator representing a quantity associated with at
least one order to buy the commodity at the
highest bid price;
dynamically displaying a second indicator in one
of a plurality of areas in an ask display region,
each area in the ask display region corresponding to a price level along the price axis, the second indicator representing a quantity associated with at least one order to sell the commodity at the lowest ask price;
displaying an order entry region comprising a plurality of locations for receiving single action
commands to send trade orders, the plurality of
locations including:
(a) at least one first fixed location corresponding to
a first price level along the price axis associated
with the highest bid price currently available
in the market, wherein upon receipt of new
data representing an updated highest bid price
currently available for the commodity, the at

App. 395
least one first fixed location continues to correspond to the first price level even if the first
price level is no longer associated with the
highest bid price currently available in the
market; and
(b) at least one second fixed location corresponding
to a second price level along the price axis associated with the lowest ask price currently
available in the market, wherein upon receipt
of new data representing an updated lowest
ask price currently available for the commodity, the at least one second fixed location continues to correspond to the second price level
even if the second price level is no longer associated with the lowest ask price currently available in the market;
updating the display of the first indicator such
that the first indicator is moved relative to the
price axis to a different area in the bid display
region corresponding with a different price
level along the price axis in response to receipt
of new data representing an updated highest
bid price currently available for the commodity;
updating the display of the second indicator such
that the second indicator is moved relative to
the price axis to a different area in the ask display region corresponding with a different price
level along the price axis in response to receipt
of new data representing an updated lowest
ask price currently available for the commodity; and

App. 396
setting a plurality of parameters for a trade order
relating to the commodity and sending the
trade order to the electronic exchange in response to a selection of a particular location of
the order entry region by a single action of a
user input device.
*****

App. 397
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

:
:
:
:

7,693,768 B2
11/585906
April 6, 2010
Gary Allan Kemp, II
et al.

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:
Claim 18, column 13, line 36: please delete
“highest bid” and insert --lowest ask--.
Signed and Sealed this
Sixth Day of December, 2011
David J. Kappos

Director of the United States Patent and Trademark
Office

App. 398
(10)

Patent No.:

US 7,725,382 B2

(12)

United States Patent Kemp, II et al.

(45)

Date of Patent:

(54)

CLICK BASED TRADING WITH INTUITIVE GRID DISPLAY OF MARKET DEPTH

(75)

Inventors:

(73)

Assignee:

(*)

Notice:

*May 25, 2010

Gary Allan Kemp, II,
Winnetka, IL (US); JensUwe Schluetter, Evanston, IL (US); Harris
Brumfield, Chicago, IL
(US)
Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by 0
days.
This patent is subject to a
terminal disclaimer.

(21)

Appl. No.:

11/585,966

(22)

Filed:

Oct. 25, 2006

(65)

Prior Publication Data
US 2007/0038557 A1

Feb. 15, 2007

App. 399
Related U.S. Application Data
(63)

Continuation
of
application
No. 11/415,163, filed on May 2, 2006,
which is a continuation of application
No. 10/237,131, filed on Sep. 9, 2002, now
abandoned, which is a continuation of application No. 09/590,692, filed on Jun. 9,
2000, now Pat. No. 6,772,132.

(60)

Provisional application No. 60/186,322,
filed on Mar. 2, 2000.

(51)

Int. Cl.
G06Q 40/00
(2006.01)
(52)
U.S. Cl.
705/37;
............................................. 705/35;705/3
(58)
Field of Classification
Search .................................. 705/35–45
See application file for complete search history.
(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044
4,750,135
4,903,201
5,038,284
5,077,665

A
A
A
A
A

6/1987 Kalmus et al.
6/1988 Boilen
2/1990 Wagner
8/1991 Kramer
12/1991 Silverman et al.
(Continued)

FOREIGN PATENT DOCUMENTS
EP

1 319 211

B1

4/1998

App. 400
(Continued)
OTHER PUBLICATIONS
Tokyo Stock Exchange, Futures?optionsTrading
System, Pubication 2.*
(Continued)
Primary Examiner—Richard C Weisberger
(74) Attorney, Agent, or Firm—McDonnell Boehnen
Hulbert & Berghoff LLP
(57)

ABSTRACT

A method and system for reducing the time it takes
for a trader to place a trade when electronically trading on an exchange, thus increasing the likelihood
that the trader will have orders filled at desirable
prices and quantities. The “Mercury” display and
trading method of the present invention ensure fast
and accurate execution of trades by displaying market
depth on a vertical or horizontal plane, which fluctuates logically up or down, left or right across the plane
as the market prices fluctuates. This allows the trader
to trade quickly and efficiently.
32 Claims, 6 Drawing Sheets

App. 401

U.S. PATENT DOCUMENTS
5,101,353
5,136,501
5,243,331
5,270,922
5,297,031
5,297,032
5,689,651
5,774,877
5,793,301
5,797,002
5,845,266
5,915,245
5,924,082
5,924,083
5,946,667

A
A
A
A
A
A
A
A
A
A
A
A
A
A
A

3/1992
8/1992
9/1993
12/1993
3/1994
3/1994
11/1997
6/1998
8/1998
8/1998
12/1998
6/1999
7/1999
7/1999
8/1999

Lupien et al.
Silverman et al.
McCausland et al.
Higgins
Gutterman et al.
Trojan et al.
Lozman
Patterson, Jr. et al.
Patterson, Jr. et al.
Patterson, Jr. et al.
Lupien et al.
Patterson, Jr. et al.
Silverman et al.
Silverman et al.
Tull, Jr. et al.

App. 402
5,960,411
5,963,923
6,012,046
6,014,643
6,035,287
6,098,051
6,115,698
6,131,087
6,134,535
6,195,647
6,272,474
6,278,982
6,282,521
6,343,278
6,408,282
6,421,653
6,766,304
6,772,132
6,938,011
2002/0023038
2002/0055899
2002/0138401
2003/0097325
2005/0149429
2006/0195389
2007/0038554
2007/0038555
2007/0038556
2007/0038557

A
A
A
A
A
A
A
A
A
B1
B1
B1
B1
B1
B1
B1
B2
B1
B1
A1
A1
A1
A1
A1
A1
A1
A1
A1
A1

9/1999
10/1999
1/2000
1/2000
3/2000
8/2000
9/2000
10/2000
10/2000
2/2001
8/2001
8/2001
8/2001
1/2002
6/2002
7/2002
7/2004
8/2004
8/2005
2/2002
5/2002
9/2002
5/2003
7/2005
8/2006
2/2007
2/2007
2/2007
2/2007

Hartman et al.
Garber
Lupien et al.
Minton
Stallaert et al.
Lupien et al.
Tuck et al.
Luke et al.
Belzberg
Martyn et al.
Garcia
Korhammer et al.
Howorka
Jain et al.
Buist
May et al.
Kemp, II
Kemp, II
Kemp, II
Fritsch et al.
Williams
Allen et al.
Friesen et al.
Kemp, II
Kemp, II
Kemp, II
Kemp, II
Kemp, II
Kemp, II

FOREIGN PATENT DOCUMENTS
WO
WO

WO 91/14231
WO 95/26005

9/1991
9/1995

App. 403
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO 98/49639
WO 99/19821
WO 99/30259
WO 99/53424
WO 00/52619
WO 00/62187
WO 00/65510
WO 01/16830
WO 01/16852
WO 01/22315
WO 01/88808

11/1998
4/1999
6/1999
10/1999
9/2000
10/2000
11/2000
3/2001
3/2001
3/2001
11/2001

OTHER PUBLICATIONS
www.tradingtechnologies.com/products/xtrade_full.html (viewed May 22, 2001).
Kharouf, “A trading room with a view,” Fututes, 27,
11, Nov. 1998, USPTO Presentation, NASDAQ,
Nov. 8, 2001, enclosed pp. 1-13. Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading System” (participants seminar materials), Sep. 1997.
English Translation of Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading
System” (participants seminar materials), Sep. 1997.
REFCO English Translation of Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading System” (participants seminar materials), Sep. 1997.
Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the
Trading Terminals”, Aug. 1998. English Translation

App. 404
of Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the
Trading Terminals”, Aug. 1998.
REFCO English Translation of Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the Trading Terminals”, Aug. 1998.
Tokyo Stock Exchange, Document 1, “Downloading
the Terminal Program and Sending the Replacement
for the Guidelines for Operating the Trading Terminals”, Jan. 2000.
English Translation of Tokyo Stock Exchange, Document 1, “Downloading the Terminal Program and
Sending the Replacement for the Guidelines for Operating the Trading Terminals”, Jan. 2000.
Tokyo Stock Exchange, Publication 3, “Tokyo Stock
Exchange 50th Anniversary Book of Materials”,
Jul. 31, 2000.
English Translation of Tokyo Stock Exchange, Publication 3, ‘Tokyo Stock Exchange 50th Anniversary
Book of Materials”, Jul. 31, 2000.
REFCO English Translation Tokyo Stock Exchange,
Publication 3, “Tokyo Stock Exchange 50th Anniversary Book of Materials”, Jul. 31, 2000.
English Translation of Tokyo Stock Exchange Offer
Form, Apr. 18, 2005.
Information Offer Form, Apr. 18, 2005.
Notification of Information Offer Form, Jun. 3, 2005.
“APT: A trading system for the future,” The London
International Financial Futures Exchange (LIFFE),
1990, II pages.
Trading Screen, INTEX of Bermuda, 1984, one page.
B.W. Weber, “Information Technology in the Major
International Financial Markets,” Stern School of

App. 405
Business, New York University, Apr. 7, 1993, pp. 143.
Trading Screen, TIFFE Exchange, circa 1989-1990.
one page.
Trading Screen, MEFF Exchange, 1990, one page.
C. Cavaletti, “Order Routing,”, Futures Magazine,
Feb. 1997, pp. 68-70.
“Aurora: The most technologically advanced trading
system available today,” Chicago Board of Trade.
1989, 11 pages.
“One Click Trading Options,” Trading Technologies,
Inc., 1998, one page.
Trading Screen, SWX Exchange, 1990, two pages.
“Expanding futures and options trading around the
world, around the clock,” Globex, 1989, 48 pages.
S. Hansell, “The computer that ate Chicago,” Institutional Investor, Feb. 1989, 5 pages.
“Sydney Futures Exchange Announces Plans to Join
Globex,” Globex Report: An Update on the CME
global electronic exchange, vol. II, No. 2, Feb. 10,
1989, 4 pages.
New York Mercantile Exchange (NYMEX) Access
Documents, Feb. 28, 1992, 413 pages.
The Computer Assisted Trading System (CATS)
Traders’ Manual, Toronto Stock Exchange, Sep. 30,
1977, 142 pages.
Market Watch trading screen, date not available, 1
page.
Grummer et al., “Preliminary Feasibility Study,” Bermudex Ltd., Nov. 1980, 100 pages.
Peake et al., Appendix C of Preliminary Feasibility
Study, “The ABCs of trading on a national market
system,” Bermudex Ltd., Sep. 1997, 16 pages.

App. 406
J.W. Peake, Appendix E of Preliminary Feasibility
Study, “The last fifteen meters,” Bermudex Ltd., Jun.
15, 1997, 18 pages.
Declaration of Brendan Bradley in Case No. 04 C
5312, Nov. 18, 2004, 27 pages.
Memorandum Opinion and Order of Judge James B.
Moran in Case No. 04 C 5312, Feb. 9, 2005, 22 pages.
GL Trade, CAC and Stoxx Futures on MATIF NSC
VF, User Information Notes, pp. 1-14, published by
GL Trade, London, England, Mar. 15, 1999.
eSpeed’s Supplemental Invalidity Contentions,
May 25, 2007.
eSpeed’s Disclosure of Invalidity Contentions Pursuant to 35 USC 282, May 25, 2007.
Invalidity Contentions Re: TradePad Module (Letter
Dated May 25, 2007).
Supplemental Invalidity Contentions Pursuant to 35
U.S.C. 282, Aug. 10, 2007.
eSpeed’s and Ecco’s Answers to Plaintiff’s Eighth Set
of Interrogatories, Aug. 4, 2006.
eSpeed and Ecco’s Supplemental Answers to Plaintiff’s First, Third, Seventh, Eighth, and Ninth Set of
Interrogatories, May 25, 2007.
Defendant GL Trade Americas, Inc’s Supplemental
Responses and Objections to Interrogatory Nos. 5, 17,
and 18, Jul. 24, 2006.
eSpeed’s Objections and Answers to Plaintiff’s Third
Set of Interrogatories to Defendant eSpeed, May 12,
2005.
GL WIN Version 4.50, Mar. 3, 1999, DX 538,
G 107459-G 107480, DTX 538.
Trading Pad User Manual, Aug. 10, 1999, DX 539,
G 112123-G 112131, DTX 539.

App. 407
Email from Wattier to M. Cartier attaching Matif VF:
V4.50 manual, Mar. 30, 1998, DX 592, MC000046MC000116, DTX 592.
User Guide V4.60 LIFFE Connect for Futures by GL
Trade, 06/00/99, DX 605,G 123548-G 123603, DIX
605.
“A System and Method for Conducting Security
Transactions Over a Computer Network”, Mauro &
Buist, Mar. 1, 1999, DX l96, eS 066150-eS 066229,
DTX 196.
RCG’s Presentation re WitCapital, Apr. 22, 2004, DX
208, RCG 000635-RCG 000663, DTX 208.
Mauro, Certified U.S. Appl. No. 09/292,552, filed Apr.
15, 1999, DX 209, eS 065994-eS 066149.
Various declarations Re: U.S. Appl. No. 09/292,552,
Nov. 3, 2003, DX 284, TT 099877-TT 099907, DTX
284.
EVENSTREET Presentation prepared for National
Discount Brokers, 00/00/1999, DX 301, CM 006787CM 006817, DTX 301.
WIT DSM user interface instructions, Aug. 6, 1998,
DX 427, CM 006591-CM 006632, DTX 427.
Presentation re WIT DSM user interface Trade4.ppt,
Oct. 12, 1998, DX 430, CM 008265-CM 008330, DTX
430.
WIT DSM Presentation re Information display and
decision variables, Dec. 20, 1998, DX 431, CM 004334CM 004347, DTX 431.
EVENSTREET Presentation prepared for Flatiron
Partners, 00/00/1999, DX 437, CM 007139-CM
007172, DTX 437.
WIT Capital digital trading facility presentation to
Goldman Sachs, DX 438, CM 004523-CM 004547,
DTX 438.

App. 408
WIT Capital Digital trading facility presentation to
PaineWebber, Inc., DX 439, DTX 439.
WIT Capital after hours trading system, Mauro, Mar.
19, 1999, DX 440, CM 009028-CM 009059, DTX 440.
WIT Capital Corporation digital trading facility
presentation, 03/00/99, DX 441, DTX 441.
WIT Capital pdf operator manual for Digital trading
facility, 00/00/1999, DX 442, CM 006510-CM 006513,
DTX 442.
Overview re Digital trading facility, DX 443, CM
006315-CM 006344, DTX 443.
Utility Patent Application Transmittal Re: Computer
Trading System, Method and Interface, Apr. 15, 1999,
Mauro, Kleia, and Buist, PX368.
Photocopy of Disks containing exhibits A and B to declaration of W. Buist, PX366.
SISS Functional specifications version 2.1, Feb. 16,
1988, DX 445, DTX 445.
Overview re SPATS; the Electronic Broker, DX 446,
DTX 446.
Status review specialist support system study NYSE,
Apr. 10, 1986, DX 447, DTX 447.
Declaration of W. Buist re: WIT DSM System, Apr.
26, 2006, PX 365, DTX 1777.
Sample screens of APT system, DX 150, DTX 150.
Photo of trader w/ APT screen, DX 151, LIFFE 00167LIFFE 00168, DTX 151.
APT User Guide, 01/00/94, DX 152, LIFFE 000262LIFFE 000363, DTX 152.
LIFFE guide/pamphlet, DX 148, DTX 148.
Release Notes—Market Trader V5.2A, Mar. 18, 1999,
DX 617, G 118137-G 118152, DTX 617.

App. 409
Market Trader—Nikkei 225 & Nikkei 300 Index options and Index futures trading users guide, Mar. 20,
1998, DX 618, 0100444-0100462, DTX 618.
Midas Kapiti Delivery Note and Release Note- Market Trader V5.2b, Mar. 31, 1999, DX 619, G 096511G 096527, DTX 619.
Midas Kapiti Release Notes—Market Trader V5.2e,
Apr. 12, 1999, DX 620, G 096694- G 096711, DTX 620.
Midas Kapiti Release Notes—Market Trader V5.2,
DX 621, G 096712 -G 096727, DTX 621, May 26, 1999.
Midas Kapiti Release Notes—Market Trader V5.2e,
DX 622, G 096728-G 096754, DTX 622, Jun. 1, 1999.
Midas Kapiti Delivery Note and Release Note-Market
TraderV5.2e, DX 623, G 105641- G 105667, DTX 623,
May 26, 1999.
Drawing of 1997 TSE terminal by H. Kida, DX 624,
DTX 624.
Directory of Software Solutions for LIFFE Connect,
02/0099, DX 156, DTX 156.
ScreenShots: Patsystem “Canned” Demo, 02/00/97,
DX 120, PATS 00545- PATS 00559, DIX 120.
PTS Client Version 2.1F, DX 119, PATS 00067-PATS
00082, DTX 119.
PTS trading application Version 1.1 Beta H.1, Mar.
31, 1998, DX 118, PATS 00560 -PATS 00560, DTX
118.
Directory of Software Solutions for LIFFE Connect,
Issue 1, 10/00/1998, DX 155, MX 155.
Directory of Software Solutions for LIFFE Connect,
Issue 3, Jun. 10, 1999, DX 157, DTX 157.
Trading Technologies Trader System User Documentation, Apr. 1, 1998, Release 3.10, DX 3, TT 015867TT 015955, DTX 3.

App. 410
Aurora Chicago Board of Trade Brochure, 1990,
ES0021230-ES0021241.
Ecco Consulting Study Report MEFF Software Systems, Mar. 17, 1999, ES0060578-ES0060591.
Osaka Stock Exchange Manual (Japanese Document), Apr. 1996 REFC00009773-REFC00009826.
TSE Manual (Japanese Document), Nov. 15, 2005,
DX179,TSE647-995,w/certified translation eS6225862366 [TSE609-647, 694-711, 714-721, 735-736, 749756, 759-760, 779-782, 784-810, 982-995].
TIFFE Manual (Japanese Document), Jan. 1996,
REFCO0010861-REFCO0011210, (translation included as cite No. 175).
Final Detailed Design Document Nymex Access, May
5, 1992, eS0003127-eS0003541.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.0, Sep. 1998,
DDX 159, DTX 159, eS00060055-eS00060145.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.2, Dec. 1998,
DDX 161, DTX 161, eS00060239-eS00060331.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.3, Jan. 1999,
DDX 162, DTX 162, eS00059959-eS00060054.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 2.7, Sep. 1998,
DDX 163, DTX 163, eS00059868-eS00059958.
OM Click Trade User’s Guide for Windows NT,
10/00/1998, eS00064671-eS00064773.
Globex Members Handbook, 6/00/1992, DX632,
DTX632, eS006974-eS0069818.
The Complete GLOBEX2 Handbook, 5/00/1998,
DX635, DTX635, CME-E0010679-0010891.

App. 411
The Complete GLOBEX2 Handbook, 7/00/1998,
DX637, DTX637, CME-E 014048- CME-E 014286.
MINEX Service Outline User Test/Orientation, Sep.
1992, eS0064647-eS0064670.
ORC Instructions for Use Version 2.2.8., 0/0/1999,
eS0064775-eS0032572.
Interactive Brokers, “Trade Futures Online with Interactive Brokers”, May 9, 2005, eS0032571eS0032572.
Nicholas Economides, “Electronic Call Market Trading”, Journal of Portfolio Management, 2/00/1995,
eS0069585-eS0069610.
GL Trading Pad Manual, G0020819-60020826.
TradePad Instuctions (French), G0025748-G0025749.
TradePad.vsd Document, Feb. 9, 1999, G011169G0111670.
Trading pad.doc Document, Jan. 26, 1999, G0111671G0111672.
GL Win et Logiciels complementaires (French),
10//00/99, G009121-G009486.
GL Win et Logiciels complementaires (French),
7/00/99, G009875-G010238.
Memo re: Dual Access Version 4.5 release, Mar. 21,
1999, G0022956-G0022959:.
tradepad.txt (French), Mar. 8, 2000, G0025616G0025618.
GL Enhancements Software Version 4.11f, Oct. 29,
1998, G0060853-G0060854.
GL Enhancements Update, Jan. 27, 1999, G0101682G0101688.
LIFFE Connect Futures Release Note 050399.doc,
Mar. 3, 1998, G0111402-G0111407.
TradingPad.doc, Apr. 30, 1999, G0112117-G0112122.

App. 412
TradingPadUserManual.doc,
Aug.
10,
1999,
G0112123-G0112131.
GL Win Version 4.51, G0118856-G0118865.
GL Trade Presentation (French), Apr. 25, 1999,
G0118989-G0119044.
LIFFE Connect Futures Functional Technical Issues
to Resolve, Apr. 12, 2007, G0119049-G0119050.
LIFFE Connect for Equity Options User Guide v4.30,
Nov. 1998, G0119052-G0119086.
Member Participation in the Futures Market, Apr. 12,
1999, G0119196-G0119197.
Email from Patricia Gauthier to Sam Page, Jan. 25,
1999, G0119377-G0119380.
LIFFE Connect ISV Circular No. 001.99, Jan. 8, 1999,
G0119566-G0119568.
LIFFE Connect ISV Circular No. 14.99, Mar. 2, 1999,
G0119583-G0119590.
LIFFE Connect ISV Circular No. 004.99, Jan. 15,
1999, G119615-G0119616.
LIFFE Connect ISV Circular No. 001.99, Jan. 15,
1999, G0119617-G0119618.
LIFFE Connect ISV Circular No. 008.98, Dec. 28,
1998, G0119631-G0119632.
Screenshot of GL TradePad, G0119660.
LIFFE Connect for Futures Schedule for Project Deliverables, Feb.4, 1999, G0119681-G0119682.
LIFFE Connect for Futures-Project Update #1, Meeting of Jan. 11, 1999, G0119691-G0119697.
LIFFE Connect for Futures: Project Update 2, Meeting of Feb. 10, 1999, G0119698-G0119704.
LIFFE Connect for Futures: Project Summary: Apr.
19, 1999, G0119705-G0119717.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, G0119718-G0119724.

App. 413
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, G0119725-G0119745.
Functional Enhancements for LIFEE Connect for Futures Project, Mar. 3, 1999.
Installation, Market Entry Test, and Technical Dress
Rehearsal Summary, Feb. 23, 1999.
GL Trade Checklist-Installation Requirements for
Futures, Jan. 1999, 00119795-G0119798.
Cahier de charges.doc, Feb. 9, 1999, G0111752G0111758.
Keyboard example, Feb. 3, 2006, G007308-G007310.
GL Brochure, G0021652-21658.
GL Cost and Services, 00/00/1998, G0108876.
GL Win Summary (French), 6/00/1998, G0091004G0091046.
Swiss Exchange SWX—TS User Manual, Dec. 31,
1998, DTX 2215, eS0032293-eS0032547.
Screen No. 100-Order Book & Order Entry 1 (Single
View), eS060637-eS060639.
Globex User Guide, 01/00/97, DDX 633, DTX 633,
eS069819-eS070081.
QuickTrade Document and Brochure, M21027-21031.
LIFFE Connect for Futures User Guide v4.5
6/00/1999, G0025751-25806.
GL Version 4.70 (French Version), Jan. 5, 2000,
GO026505-26533.
GL Version 4.70 (English Version), Jan. 5, 2000,
G0020593-20621.
GL Win and Related Software Manual, Sep. 11,
2000,1) G0025251-25615.
GL Win and Related Software Manual, 2) G002594226267.
GL Win and Related Software Manual, 3) G01023910610.

App. 414
GL Win et Logiciels complementaires (French),
G0009495-9874.
Internal Product News doc on QuickTrade,
G0020468-20471.
“Introducing the Company: GL Trade” product offerings and slide presentation (to Reuters), G002653426559.
GL Product Leaflet Re: Mosaic, G0022529-22530.
Thomson Financial leaflet, 09/00/2003, G002244522450.
LIFFE Connect for Futures leaflet, G0023885-23888.
TSE Japanese Document, pp. 4-15.
TSE Japanese Document, pp. 6-15.
Megumi Miyoshi, Japanese Patent Application No.
2001-564025, 4/18/200.
“Amazon.com Catapults Electronic Commerce to Next
Level with Powerful New Features,” Amazon.com
Press
Release,
Sep.
23,
1997,
DTX1034,
Dezmelyk000012-13.
Apple Advertisement, Scientific American, Sep. 1984,
Scientific American Inc. NY, NY Dezmelyk000014-33.
Memo Re: Downloading the Terminal Program,
Aug. 18, 2005.
“Specialist vs Saitori: Market-Making in New York
and Tokyo”, Richard Lindsay and Ulrike Schaede,
DTX 1170, 7-8/00/1992, SiIverman000494-Silverman000506.
“Building for Excellence”, MINEX Brochure, DTX
1153, Silverman000330-Silverman000334.
Chicago Mercantile Exchange (CME) Brochure,
DTX1163, Silverman000406- Silverman000407.
MEFF Renta Fija Manual, DTX 1165, 10/00/1997, Silverman000410-Silverman000473.

App. 415
O’Hara and Oldfield, “The Microeconomics of Market
Making”, Journal of Financial and Quanitative Analysis, 12/00/86, DTX 1169 Silverman000478-Silverman000493.
B. Weber, “Information Technology in the Major International Financial Markets”, Apr. 7, 1993, DX 79.
Terminal Use Manual—Windows NT Version, Tokyo
International Financial Futures Exchange (TIFFE),
0/0/1994, Silverman002552-Silverman002616, DTX
1226.
USPTO Press Release, “Electronic Patent Application
Records Replace Paper Files at USPTO”, DTX 2285,
Sep. 19, 2007.
Memorandum Opinion and Order Re: ‘132 and ‘304
Claim Construction [425], Oct. 31, 2006.
Memorandum Opinion and Order Re: TT’s Motion for
Clarification [475], Feb. 21, 2007.
Memorandum Opinion and Order Re: Non-Infringement [708], Jun. 20, 2007.
Memorandum Opinion and Order Re: Motions for Reconsideration [875], Aug. 27, 2007.
Memorandum Opinion and Order Re: “Single Action”
Ruling [963], Sep. 12, 2007.
Memorandum Opinion and Order Re: Preliminary Injunction [83], Feb. 9, 2005.
Memorandum Opinion and Order Re: eSpeed’s Motion for Summary Judgment of Invalidity Denied
[845], Aug. 21, 2007.
Memorandum Opinion and Order Re: TT’s Motion to
Preclude Prior Sale Defense Denied [873], Aug. 27,
2007.
Memorandum Opinion and Order Re: GL’s Motion for
Reconsideration Denied [994], Sep. 19, 2007.

App. 416
Memorandum Opinion and Order Re: Priority Date
[769], Jul. 12, 2007.
Memorandum Opinion and Order Re: Priority Date
[1013], Sep. 25, 2007.
Memorandum Opinion and Order Re: Prior Public
Use [835], Aug. 16, 2007.
Memorandum Opinion and Order Re: Defendant’s
Motion for Judgment as a Matter of Law on Indefiniteness [1141], Jan. 2, 2008.
Notification of Docket Entry Re: Defendants eSpeed’s
Motion for Judgment as a Matter of Law on Invalidity
is denied [1140], Jan. 3, 2008.
Notification of Docket Entry Re: Defendant eSpeed’s
Motion for a New Trial is denied [1142], Jan. 3, 2008.
Memorandum Opinion and Order Re: Defendant’s
Motion for Judgment as a Matter of Law on Willfulness [1144], Jan. 3, 2008.
Deposition testimony of Hiroyuki Kida dated May 17,
2007 and May 18, 2007 with DDX 617-624, PDX 519524 and PDX 531.
Trial testimony of Hiroyuki Kida dated Sep. 28, 2007
and Oct. 1, 2007 with DTX 617.
Deposition testimony of Atsushi Kawashima dated
Nov. 21, 2005 with DDX 178-185.
Trial testimony of Atsushi Kawashima dated Sep. 26,
2007 with DTX 183.
Deposition testimony of Philip Carre dated Jun. 22,
2007, Sep. 6, 2007 & Sep. 13, 2007 with DDX 384-385;
473;494; 527;537-541;
592; 593A; 595-598; 605; 626; 629; 719-723; 728-732;
897-898; 896.
Deposition testimony of Michael Cartier dated May 9,
2007 with DDX 587-588; DDX 592-593A and PDX
498-500.

App. 417
Deposition testimony of Cristina Dobson dated May
18, 2007 with DDX 625-635; DDX 637; PDX 533 and
PDX 535.
Deposition testimony of Nicholas Garrow dated Jun.
14, 2007 with DDX 116 and DDX 592.
Trial testimony of Nicholas Garrow (via expert witness) dated Oct. 2, 2007.
Deposition testimony of Michael Glista dated Feb. 20,
2007 with DDX 382-386.
Trial testimony of Michael Glista dated Sep. 24, 2007
and Sep. 25, 2007 with DTX 382-386; DTX 524; DTX
570; DTX 579; DTX 592; DTX 3020; DTX 3050; DTX
3057; DTX 3110; PTX 1993; PTX 2065; PTX 2092;
PTX 2094.
Deposition testimony of Laurent Havard dated Apr.
24-26, 2007, May 12, 2007, Jun. 21, 2007 and Sep. 5,
2007 with DDX 506; DDX 508; DDX 517; DDX 539;
DDX 551-568; DDX 570-573; DDX 575; DDX 603;
PDX 462; PDX 464-483; PDX 767-769; PDX 771-774;
PDX 875-877; PDX 882-888 and PDX 893.
Trial Testimony of Laurent Havard dated Sep. 21,
2007 with DTX 384; DTX 520; DTX 561-62; DTX 570;
DTX 573; DTX 575; DTX 593; DTX 750-52; DTX 3011;
DTX 3017-18; DTX 3050; PTX 575; PTX 2064; PTX
2074; PTX 2077; PTX 2079.
Deposition testimony of Jean Cedric Jollant dated
Apr. 26, 2007 and Jun. 13, 2007 with DDX 384; DDX
517; DDX 520; DDX 551-568; DDX 575-577; PDX 465483.
Trial testimony of Jean Cedric Jollant dated Sep. 20,
2007 with DTX 157; DTX 473; DTX 719; DTX 551-64;
DTX 598; DTX 722; DTX 1903; DTX 3009-10; DTX
3014; DTX 3016-18 DTX 3020; DTX 3023; DTX 3025;

App. 418
PTX 166; PTX 520; PTX 526; PTX 539; PTX 573; PTX
575; PTX 579; PTX 2065.
Deposition testimony of Marc Lorin dated Sep. 5, 2007
with DDX 385; DDX 721-722; DDX 730.
Deposition testimony of Christopher Malo dated May
23, 2007 with DDX 524.
Deposition testimony of Fred Mastro dated May 21,
2007 with DDX 638; PDX 538; PDX 540-543.
Trial testimony of Fred Mastro dated Sep. 25, 2007
with DTX 592.
Deposition testimony of William McHorris dated Apr.
10, 2007 with PDX 416-417.
Deposition testimony of Josephine Sheng dated Jun.
26, 2007 with DDX 520; DDX 522; DDX 536; DDX
575; PDX 493; PDX 683-683a; PDX 775.
Deposition testimony of Bruno Spada dated Apr. 30,
2007 and May 2, 2007 with DDX 384-385; DDX 51921; DDX 537-38; DDX 579-580; DDX 522; DDX 538;
PDX 493-495; PDX 519-522.
Trial testimony of Bruno Spada dated Sep. 24, 2007
with DTX 306; DTX 384; DTX 518-522; DTX 524; DTX
575; DTX 579-580; DTX 593; DTX 626; DTX 628; DTX
646; DTX 1899 DTX 2086; DTX 3020-3021; DTX 30583059; DTX 3061; DTX 3085; PTX 737; PTX 840; PTX
2083; PTX 2087; PTX 2099; PTX 2101.
Deposition testimony of Marcel Tchitchiama dated
May 10, 2007-May 11, 2007 with DDX 156-157; DDX
168; DDX 384-85; DDX 538; DDX 592-93A; DDX 59598; DDX 602-06; DDX 608-11 DTX 494; PDX 503;
PDX 506; PDX 612.
Deposition testimony of Neil Treloar dated Jun. 19,
2007 with DDX 384; DDX 539-39A; DDX 724; DDX
726; PDX 492; PDX 750-752.

App. 419
Trial testimony of Neil Treloar dated Sep. 21, 2007
and Sep. 24, 2007 with DTX 2040-2042.
Trial testimony of Gerard Varjacques dated Sep. 28,
2007 with PTX 509-510 and PTX 513.
Deposition testimony of Amy Watson dated Jun. 12,
2007 with DDX 626A; DDX 700 and PDX 636.
Deposition testimony of Barbara Wattiez dated Jun.
16, 2007 with DDX 719-723.
Trial testimony of Barbara Wattiez dated Sep. 28,
2007 with DTX 592-593A; DTX 597-598; DTX 718719; DTX 722.
Deposition testimony of Christopher Buist dated Jun.
22, 2006 with PDX 358-364 and DDX 283-284.
Deposition testimony of Walter Buist dated Jun. 23,
2006 with DDX 315; Pdx 310-315; PDX 365 and PDX
368-370.
Digital trading facility weekly operations meeting
outline, DX 444, DTX 444, CM 006661-CM 006661,
May 10, 1999.
Chart re DSM QA Test Plain—project plan in progress, DX 432, DTX 432, Nov. 4, 1998.
User interface design specification for WIT capital
digital stock market, DX 433, DTX 433 CM 008441CM 008478, Jan. 18, 1999.
Updated negotiations design to E. Lang from C.
Mauro for review and approval prior to patent application, DX 434, CM 008410-CM 008414, DTX 434,
Jan. 18, 1999.
Notes re final additions/revisions, DX 435, CM
007949-CM 007955, DTX 435, Apr. 2, 1999.
Position paper: On-line training and customer acquisition; WIT Capital DSM product launch and related
schedule to E. Lang, DX 436, DTX 436, CM 006580CM 006590, Feb. 22, 1999.

App. 420
Meeting outline, DX 428, CM 00750-CM 007501, DTX
428, Sep. 11, 1998.
Presentation re WIT Capital Digital stock martket
Phase 1 usability and customer response testing: Preliminary report of findings, DX 429, CM 007446-CM
007466, May 1, 2006.
WIT Capital limit order book to L. Forrest from C.
Mauro, DX 425, CM 007382-CM 007411, DTX 425,
Apr. 20, 1998.
User Interface Design for display options design, DX
426, CM 000249-CM 000287, DTX 426, July 8, 1998.
Letter from EPO to TT Re: Five Recently Filed European Patent Oppositions, Feb. 21, 2006.
Notice of Opposition to a European Patent EP
1319211 B1, ANITRA Medienprojekte GmbH, Jan.
13, 2006.
Notice of Opposition to a European Patent by
Deutsche Horse AG, Jan. 12, 2006.
Notice of Opposition to a European Patent by EccoWare Ltd., Jan. 13, 2006.
Notice of Opposition to a European Patent by Rosenthal Collins Group LLC, Jan. 12, 2006.
Notice of Opposition to a European Patent by Tick-It
GmBh, Jan. 13, 2006.
Declaration of Walter Buist, Exhibit 17, Apr. 26,
2007; with Faxed Signature Page.
Letter from J. Walaski to the EPO Re: Change of Address, Dec. 19, 2006.
A. Klein, WallStreet.com- Fat Cat Investing at the
Click of a Mouse, Chapt. 14 “Finding Gold in Tribeca”,
1998; Exhibit 16.
A. Klein, WallStreet.com- Fat Cat Investing at the
Click of a Mouse, Chapt. 14-16, 18, 23, 1998; Exhibit
16 (Cont’d).

App. 421
WIT Digital Stock Market, User Interface Rev. 9, Exhibit 15.
Opposition Trading Technologies, Inc. Application
No. 01920183.9 EP 1319211B1, Exhibit 4 (Japanese
and English Versions), 9/00/1997.
System for Buying and Selling Futures and Options
Transaction Terminal Operational Guidlines, TSE
Business Systems Dept., TSE647-995, eS062297eS062380.
Letter from EPO to TT Re: Further European Patent
Opposition, Feb. 23, 2006.
Letter from EPO to TT Re: Five Recently Filed European Patent Oppositions, Feb. 21, 2006.
Letter from EPO to TT Enclosing European Patent
Oppositions, Jan. 25, 2006.
Opposition TT, EP 1 319 211 B1, Copy set 1, Annex
One- Grounds of Opposition, Jan. 19, 2006.
Deposition Transcript of Atsushi Kawashima, Nov.
21, 2005, Opposition EP 1 319 211 B1 Exhibit 3.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, 9/00/1998, release 3.1, EP
1 319 211 B1 Exhibit 7A, eS0060146-eS0060237.
Deposition Transcript of Paul MacGregor, Nov. 1,
2005, Opposition EP 1 319 211 B1 Exhibit 9A.
APT Trading Procedures (ATOM Version) of LIFFE,
Apr. 3, 2001, Opposition EP 1 319 211 B I Exhibit 9B.
APTplus Trading Procedures, Dec. 28, 1995, Opposition EP 1 319 211 B1 Exhibit 9D.
IRIS Investment Support Systems Window Ad, Opposition EP 1 319 211 B1 Exhibit 10.
Fig.2 Substitute Sheet (Rule 26), Opposition EP 1319
211 B1 Exhibit 13A.
U.S. Appl. No. 60/186,322, Opposition EP 1 319 211
B1 Exhibit 13B.

App. 422
LIFFE’s New Electronic Trading Platform for Futures, LIFFE 202-261, Opposition EP 1 319 211 B1
Exhibit 8D.
TIFFE Internet Article, “New On-Screen Trading
Terminals”, E2. System for Buying and Selling Futures and Options Transaction Terminal Operational
Guidlines, TSE Business Systems Dept, TSE00647810, eS0622977-eS062366, D1(2).
ORC Instructions for Use, Version 2.2.8., 1999.
Futures/Options Trading System Guidlines for Operating the Trading Terminals, TSE Business Systems
Dept. TSE00628-643, eS062278-eS062293, D1(3).
Securities Industries News, “TT Upgrades Software
Platform”, Aug. 28, 2000 (D6).
Letter to EPO from Karl Barnfather Enclosing Notice
of Opposition (form 2300.1) and Grounds of Opposition (Annex 1), Jan. 12, 2006.
Dow Jones & Reuters Factiva, “Firms Rush to Make
LIFFE Connect Decision”, Dec. 4, 1998, E6.
Dow Jones & Reuters Factiva, “Date Broadcasting
Partners with Alltech Investment to Provide Customers with Online Trading”, Feb. 25, 1999, E8.
Trading Pad Document (E3).
Japanese Document, TSE00609-627, Dec. 1, 2006
(E5), with Translation.
TT X-Trader Brochure, Dec. 1, 2006 (E7).
Letter to J. Walanski from EPO Re: Payment, Apr. 20,
2005.
Letter to J. Walanski from EPO Re: Decision to Grant
TT Patent, Mar. 3,2005.
German Document from Tick-It GmbH Filing New
European Opposition, Jan. 14, 2006.
Faxed German Document from Tick-IT GmbH Filing
New European Opposition, Jan. 13, 2006.

App. 423
Annex A to TT’s Reply Brief.
Annex B to TT’s Reply Brief.
Memo Re: Futures/Options Trading System and Japanese Patent Application No. 2001-564025 (Japanese), Aug. 18, 2005.
Patsystems News Rd. Nov. 6, 2001.
Court’s ruling on no prior sale.
Memorandum Opinion and Order Re: No prior use.
Memorandum Opinion and Order Re: Inequitable
Conduct.
Memorandum Opinion and Order Re: Court Reaffirming Priority.
Non-final Office Action mailed Oct. 17, 2008 for U.S.
Appl. No. 11/415,163.
Non-final Office Action mailed Mar. 17, 2009 for U.S.
Appl. No. 11/585,905.
Non-final Office Action mailed Nov. 19, 2008 for U.S.
Appl. No. 11/585,906.
Non-final Office Action mailed Oct. 6, 2008 for U.S.
Appl. No. 11/585,907.
Re-exam Certificate for U.S. Patent No. 6,766,304, issued Mar. 31, 2009.
Re-exam Certificate for U.S. Patent No. 6,772,132, issued Mar. 31, 2009.
GL Trade, CAC and Stoxx Futures on MATIF NSC
VF, User Information Notes, pp. 1-14, published by
GL Trade, London, England, Mar. 15, 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4.50 Beta, pp. 1-24, published by GL Trade, London,
England, Jan. 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4.50, pp. 1-39, published by GL Trade, London, England, Feb. 1999.

App. 424
GL Trade, LIFFE Connect for Futures, User Guide,
V4.50, pp. 1-39, published by GL Trade, London, England, Mar. 1999.
GL Trade, LIFFE Connect for Futures, User Guide,
V4.51, pp. 1-57, published by GL Trade, London, England, Jun. 1999.
* cited by examiner

App. 425

App. 426

App. 427

App. 428

App. 429

App. 430
CLICK BASED TRADING WITH INTUITIVE
GRID DISPLAY OF MARKET DEPTH
PRIORITY
The present application is a continuation of Ser.
No. 11/415,163, filed May 2, 2006, which is a continuation of Ser. No. 10/237,131, filed Sep. 9, 2002, now
abandoned which is a continuation of Ser. No.
09/590,692, filed Jun. 9, 2000, which is now U.S. Pat.
No. 6,772,132, issued Aug. 3, 2004, which claims priority to a U.S. Provisional Patent Application
60/186,322, entitled “Market Depth Display Click
Based Trading and Mercury Display” filed Mar. 2,
2000, the contents of which are incorporated herein
by reference.
FIELD OF INVENTION
The present invention is directed to the electronic
trading of commodities. Specifically, the invention
provides a trader with a versatile and efficient tool for
executing trades. It facilitates the display of and the
rapid placement of trade orders within the market
trading depth of a commodity, where a commodity includes anything that can be traded with quantities
and/or prices.
BACKGROUND OF THE INVENTION
At least 60 exchanges throughout the world utilize
electronic trading in varying degrees to trade stocks,
bonds, futures, options and other products. These
electronic exchanges are based on three components:
mainframe computers (host), communications servers, and the exchange participants’ computers (client). The host forms the electronic heart of the fully

App. 431
computerized electronic trading system. The system’s
operations cover order-matching, maintaining order
books and positions, price information, and managing
and updating the database for the online trading day
as well as nightly batch runs. The host is also
equipped with external interfaces that maintain uninterrupted online contact to quote vendors and other
price information systems.
Traders can link to the host through three types of
structures: high speed data lines, highspeed communications servers and the Internet. High speed data
lines establish direct connections between the client
and the host. Another connection can be established
by configuring high speed networks or communications servers at strategic access points worldwide in
locations where traders physically are located. Data
is transmitted in both directions between traders and
exchanges via dedicated high speed communication
lines. Most exchange participants install two lines between the exchange and the client site or between the
communication server and the client site as a safety
measure against potential failures. An exchange’s internal computer system is also often installed with
backups as a redundant measure to secure system
availability. The third connection utilizes the Internet. Here, the exchange and the traders communicate
back and forth through high speed data lines, which
are connected to the Internet. This allows traders to
be located anywhere they can establish a connection
to the Internet.
Irrespective of the way in which a connection is established, the exchange participants’ computers allow

App. 432
traders to participate in the market. They use software that creates specialized interactive trading
screens on the traders’ desktops. The trading screens
enable traders to enter and execute orders, obtain
market quotes, and monitor positions. The range and
quality of features available to traders on their
screens varies according to the specific software application being run. The installation of open interfaces in the development of an exchange’s electronic
strategy means users can choose, depending on their
trading style and internal requirements, the means
by which they will access the exchange.
The world’s stock, bond, futures and options exchanges have volatile products with prices that move
rapidly. To profit in these markets, traders must be
able to react quickly. A skilled trader with the quickest software, the fastest communications, and the
most sophisticated analytics can significantly improve his own or his firm’s bottom line. The slightest
speed advantage can generate significant returns in a
fast moving market. In today’s securities markets, a
trader lacking a technologically advanced interface is
at a severe competitive disadvantage.
Irrespective of what interface a trader uses to enter orders in the market, each market supplies and
requires the same information to and from every
trader. The bids and asks in the market make up the
market data and everyone logged on to trade can receive this information if the exchange provides it.
Similarly, every exchange requires that certain information be included in each order. For example, traders must supply information like the name of the commodity, quantity, restrictions, price and multiple

App. 433
other variables. Without all of this information, the
market will not accept the order. This input and output of information is the same for every trader.
With these variables being constant, a competitive
speed advantage must come from other aspects of the
trading cycle. When analyzing the time it takes to
place a trade order for a given commodity, various
steps contribute in different amounts to the total time
required. Approximately 8% of the total time it takes
to enter an order elapses between the moment the
host generates the price for the commodity and the
moment the client receives the price. The time it takes
for the client application to display the price to the
trader amounts to approximately 4%. The time it
takes for a trade order to be transmitted to the host
amounts to approximately 8%. The remainder of the
total time it takes to place an order, approximately
80%, is attributable to the time required for the trader
to read the prices displayed and to enter a trade order.
The present invention provides a significant advantage during the slowest portion of the trading cycle—while the trader manually enters his order.
Traders recognize that the value of time savings in
this portion may amount to millions of dollars annually.
In existing systems, multiple elements of an order
must be entered prior to an order being sent to market, which is time consuming for the trader. Such elements include the commodity symbol, the desired
price, the quantity and whether a buy or a sell order
is desired. The more time a trader takes entering an
order, the more likely the price on which he wanted to

App. 434
bid or offer will change or not be available in the market. The market is fluid as many traders are sending
orders to the market simultaneously. It fact, successful markets strive to have such a high volume of trading that any trader who wishes to enter an order will
find a match and have the order filled quickly, if not
immediately. In such liquid markets, the prices of the
commodities fluctuate rapidly. On a trading screen,
this results in rapid changes in the price and quantity
fields within the market grid. If a trader intends to
enter an order at a particular price, but misses the
price because the market prices moved before he could
enter the order, he may lose hundreds, thousands,
even millions of dollars. The faster a trader can trade,
the less likely it will be that he will miss his price and
the more likely he will make money.
SUMMARY OF THE INVENTION
The inventors have developed the present invention which overcomes the drawbacks of the existing
trading systems and dramatically reduces the time it
takes for a trader to place a trade when electronically
trading on an exchange. This, in turn, increases the
likelihood that the trader will have orders filled at desirable prices and quantities.
The “Mercury” display and trading method of the
present invention ensure fast and accurate execution
of trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuates. This allows the trader to trade
quickly and efficiently.

App. 435
Specifically, the present invention is directed to a
graphical user interface for displaying the market
depth of a commodity traded in a market, including a
dynamic display for a plurality of bids and for a plurality of asks in the market for the commodity and a
static display of prices corresponding to the plurality
of bids and asks. In this embodiment the pluralities of
bids and asks are dynamically displayed in alignment
with the prices corresponding thereto. Also described
herein is a method and system for placing trade orders using such displays.
These embodiments, and others described in
greater detail herein, provide the trader with improved efficiency and versatility in placing, and thus
executing, trade orders for commodities in an electronic exchange. Other features and advantages of
the present invention will become apparent to those
skilled in the art from the following detailed description. It should be understood, however, that the detailed description and specific examples, while indicating preferred embodiments of the present invention, are given by way of illustration and not limitation. Many changes and modifications within the
scope of the present invention may be made without
departing from the spirit thereof, and the invention
includes all such modifications.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 illustrates the network connections between multiple exchanges and client sites;
FIG. 2 illustrates screen display showing the inside market and the market depth of a given commodity being traded;

App. 436
FIG. 3 illustrates the Mercury display of the present invention;
FIG. 4 illustrates the Mercury display at a later
time showing the movement of values when compared
to FIG. 3;
FIG. 5 illustrates a Mercury display with parameters set in order to exemplify the Mercury trading
method; and
FIG. 6 is a flowchart illustrating the process for
Mercury display and trading.
DETAILED DESCRIPTION OF THE PREFERRED
EMBODIMENTS
As described with reference to the accompanying
figures, the present invention provides a display and
trading method to ensure fast and accurate execution
of trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuates. This allows the trader to place trade
orders quickly and efficiently. A commodity’s market
depth is the current bid and ask prices and quantities
in the market. The display and trading method of the
invention increase the likelihood that the trader will
be able to execute orders at desirable prices and quantities.
In the preferred embodiment, the present invention is implemented on a computer or electronic terminal. The computer is able to communicate either directly or indirectly (using intermediate devices) with
the exchange to receive and transmit market, commodity, and trading order information. It is able to interact with the trader and to generate contents and

App. 437
characteristics of a trade order to be sent to the exchange. It is envisioned that the system of the present
invention can be implemented on any existing or future terminal or device with the processing capability
to perform the functions described herein. The scope
of the present invention is not limited by the type of
terminal or device used. Further, the specification refers to a single click of a mouse as a means for user
input and interaction with the terminal display as an
example of a single action of the user. While this describes a preferred mode of interaction, the scope of
the present invention is not limited to the use of a
mouse as the input device or to the click of a mouse
button as the user’s single action. Rather, any action
by a user within a short period of time, whether comprising one or more clicks of a mouse button or other
input device, is considered a single action of the user
for the purposes of the present invention.
The system can be configured to allow for trading
in a single or in multiple exchanges simultaneously.
Connection of the system of the present invention
with multiple exchanges is illustrated in FIG. 1. This
figure shows multiple host exchanges 101-103 connected through routers 104-106 to gateways 107-109.
Multiple client terminals 110-116 for use as trading
stations can then trade in the multiple exchanges
through their connection to the gateways 107-109.
When the system is configured to receive data from
multiple exchanges, then the preferred implementation is to translate the data from various exchanges
into a simple format. This “translation” function is described below with reference to FIG. 1. An applications program interface (“TT API” as depicted in the
figure) translates the incoming data formats from the

App. 438
different exchanges to a simple preferred data format.
This translation function may be disposed anywhere
in the network, for example, at the gateway server, at
the individual workstations or at both. In addition,
the storage at gateway servers and at the client workstations, and/or other external storage cache historical data such as order books which list the client’s active orders in the market; that is, those orders that
have neither been filled nor cancelled. Information
from different exchanges can be displayed at one or in
multiple windows at the client workstation. Accordingly, while reference is made through the remainder
of the specification to a single exchange to which a
trading terminal is connected, the scope of the invention includes the ability to trade, in accordance with
the trading methods described herein, in multiple exchanges using a single trading terminal.
The preferred embodiments of the present invention include the display of “Market Depth” and allow
traders to view the market depth of a commodity and
to execute trades within the market depth with a single click of a computer mouse button. Market Depth
represents the order book with the current bid and
ask prices and quantities in the market. In other
words, Market Depth is each bid and ask that was entered into the market, subject to the limits noted below, in addition to the inside market. For a commodity
being traded, the “inside market” is the highest bid
price and the lowest ask price.
The exchange sends the price, order and fill information to each trader on the exchange. The present
invention processes this information and maps it

App. 439
through simple algorithms and mapping tables to positions in a theoretical grid program or any other comparable mapping technique known to those skilled in
the art. The present invention is not limited by the
method used to map the data to the screen display.
How far into the market depth the present invention can display depends on how much of the market
depth the exchange provides. Some exchanges supply
an infinite market depth, while others provide no
market depth or only a few orders away from the inside market. The user of the present invention can
also chose how far into the market depth to display on
his screen.
FIG, 2 illustrates a screen display of an invention
described in a commonly owned co-pending application entitled “Click Based Trading with Market Depth
Display” Ser. No. 09/589, 751, filed on Jun. 9, 2000,
the contents of which are incorporated herein by reference, This display shows the inside market and the
market depth of a given commodity being traded. Row
1 represents the “inside market” for the commodity
being traded which is the best (highest) bid price and
quantity and the best (lowest) ask price and quantity.
Rows 2-5 represent the “market depth” for the commodity being traded. In the preferred embodiment of
the present invention, the display of market depth
(rows 2-5) lists the available next-best bids, in column
203, and asks, in column 204. The working bid and
ask quantity for each price level is also displayed in
columns 202 and 205 respectively (inside market—
row 1). Prices and quantities for the inside market
and market depth update dynamically on a real time
basis as such information is relayed from the market.

App. 440
In the screen display shown in FIG, 2, the commodity (contract) being traded is represented in row
1 by the character string “CDHO”, The Depth column
208 will inform the trader of a status by displaying
different colors. Yellow indicates that the program application is waiting for data. Red indicates that the
Market Depth has failed to receive the data from the
server and has “timed out.” Green indicates that the
data has just been updated. The other column headings in this and all of the other figures, are defined as
follows. BidQty (Bid Quantity): the quantity for each
working bid, BidPrc (Bid Price): the price for each
working bid, AskPrc (Ask Price): the price for each
working ask, AskQty (Ask Quantity): the quantity for
each working ask, LastPrc (Last Price): the price for
the last bid and ask that were matched in the market
and LastQty (Last Quantity): the quantity traded at
the last price. Total represents the total quantity
traded of the given commodity,
The configuration of the screen display it self informs the user in a more convenient and efficient
manner than existing systems. Traders gain a significant advantage by seeing the market depth because
they can see trends in the orders in the market. The
market depth display shows the trader the interest
the market has in a given commodity at different
price levels. If a large amount of bids or asks are in
the market near the trader’s position, he may feel he
should sell or buy before the inside market reaches
the morass of orders. A lack of orders above or below
the inside market might prompt a trader to enter orders near the inside market. Without seeing the market depth, no such strategies could be utilized. Having
the dynamic market depth, including the bid and ask

App. 441
quantities and prices of a traded commodity aligned
with and displayed below the current inside market
of the commodity conveys the information to the user
in a more intuitive and easily understandable manner, Trends in the trading of the commodity and other
relevant characteristics are more easily identifiable
by the user through the use of the present invention.
Various abbreviations are used in the screen displays, and specifically, in the column headings of the
screen displays reproduced herein. Some abbreviations have been discussed above. A list of common abbreviations and their meanings is provided in Table 1.
TABLE I
Abbreviations
COLUMN
Month
Bid Mbr(1)
WrkBuys(2)
BidQty
ThrshBid(6)
BidPrc
Bid Qty Accum
BidPrc Avg
AskPrc Avg
AskQty Accum
AskPrc
ThrshAsk(6)
AskQty
WrkSells(2)

DESCRIPTION
Expiration Month/Year
Bid Member ID
Working Buys for entire
Group ID
Bid Quantity
Threshold Bid Price
Bid Price
Accumulated Bid Quantity
Bid Price Average
Ask Price Average
Accumulated Ask Quantity
Ask Price
Threshold Ask Price
Ask Quantity
Working Sells for entire
Group ID

App. 442
Ask Mbr(1)
NetPos
FFNetPos
LastPrc
LastQty
Total
High
Low
Open
Close
Cling
TheoPrc
TheoBid
TheoAsk
QAct
BQQ
BQP
Mkt BQQ
Mkt BQP
Quote
Mkt AQQ
Mkt AQP
AQP
AQQ
Imp BidQty(5)
Imp BidPrc(5)
Imp AskQty(5)
Imp AskPrc(5)
Gamma(3)
Delta(3)

Ask Member ID
Net Position
Fast Fill Net Position
Last Price
Last Quantity
Total Traded Quantity
High Price
Low Price
Opening Price
Closing Price
Last Price-Last Close
Theoretical Price
Theoretical Bid Price
Theoretical Ask Price
Quote Action (Sends individual quotes)
Test Bid Quote Quantity
Test Bid Quote Price
Market Bid Quote Quantity
Market Bid Quote Price
Checkbox activates/deactivates contract for quoting
Market Ask Quote Quantity
Market Ask Quote Price
Ask Quote Price
Ask Quote Quantity
Implied Bid Quantity
Implied Bid Price
Implied Ask Quantity
Implied Ask Price
Change in Delta given 1 pt
change in underlying
Change in price given 1 pt
change in underlying

App. 443
Vola(3)
Vega(3)
Rho(3)
Theta(3)
Click Trd
S (Status)
Expiry

Percent volatility
Price change given 1% change
in Vola
Price change given 1% change
in interest rate
Price change for every day
that elapses
Activate/deactivate click trading by contract
Auction, Closed, FastMkt,
Not Tradable, Pre-trading,
Tradable, S = post-trading
Expiration Month/Year

As described herein, the display and trading
method of the present invention provide the user with
certain advantages over systems in which a display of
market depth, as shown in FIG. 2, is used. The Mercury display and trading method of the present invention ensure fast and accurate execution of trades by
displaying market depth on a vertical or horizontal
plane, which fluctuates logically up or down, left or
right across the plane as the market prices fluctuates.
This allows the trader to trade quickly and efficiently.
An example of such a Mercury display is illustrated
in the screen display of FIG. 3.
The display of market depth and the manner in
which traders trade within the market depth can be
effected in different manners, which many traders
will find materially better, faster and more accurate.
In addition, some traders may find the display of market depth to be difficult to follow. In the display shown
in FIG. 2, the market depth is displayed vertically so
that both Bid and Ask prices descend the grid. The

App. 444
Bid prices descend the market grid as the prices decrease. Ask prices also descend the market grid as
these prices actually increase. This combination may
be considered counterintuitive and difficult to follow
by some traders.
The Mercury display overcomes this problem in an
innovative and logical manner. Mercury also provides
an order entry system, market grid, fill window and
summary of market orders in one simple window.
Such a condensed display materially simplifies the
trading system by entering and tracking trades in an
extremely efficient manner. Mercury displays market
depth in a logical, vertical fashion or horizontally or
at some other convenient angle or configuration. A
vertical field is shown in the figures and described for
convenience, but the field could be horizontal or at an
angle. In turn, Mercury further increases the speed of
trading and the likelihood of entering orders at desired prices with desired quantities. In the preferred
embodiment of the invention, the Mercury display is
a static vertical column of prices with the bid and ask
quantities displayed in vertical columns to the side of
the price column and aligned with the corresponding
bid and ask prices. An example of this display is
shown in FIG. 3.
Bid quantities are in the column 1003 labeled
BidQ and ask quantities are in column 1004 labeled
AskQ. The representative ticks from prices for the
given commodity are shown in column 1005. The column does not list the whole prices (e.g. 95.89), but rather, just the last two digits (e.g. 89). In the example
shown, the inside market, cells 1020, is 18 (best bid

App. 445
quantity) at 89 (best bid price) and 20 (best ask quantity) at 90 (best ask price). In the preferred embodiment of the invention, these three columns are shown
in different colors so that the trader can quickly distinguish between them.
The values in the price column are static; that is,
they do not normally change positions unless a re-centering command is received (discussed in detail later).
The values in the Bid and Ask columns however, are
dynamic; that is, they move up and down (in the vertical example) to reflect the market depth for the
given commodity. The LTQ column 1006 shows the
last traded quantity of the commodity. The relative
position of the quantity value with respect to the Price
values reflects the price at which that quantity was
traded. Column 1001 labeled E/W (entered/working)
displays the current status of the trader’s orders. The
status of each order is displayed in the price row
where it was entered. For example, in cells 1007, the
number next to S indicates the number of the trader’s
ordered lots that have been sold at the price in the
specific row. The number next to W indicates the
number of the trader’s ordered lots that are in the
market, but have not been filled—i.e. the system is
working on filling the order. Blanks in this column indicate that orders are entered or working at that
price. In cells 1008, the number next to B indicates
the number of the trader’s ordered lots that have been
bought at the price in the specific row. The number
next to W indicates the number of the trader’s ordered
lots that are in the market, but have not been filled—
i.e. the system is working on filling the order.

App. 446
Various parameters are set and information is provided in column 1002. For example, “10:48:44” in cell
1009 shows the actual time of day. The L and R fields
in cell 1010 indicate a quantity value, which may be
added to the order quantity entered. This process is
explained below with respect to trading under Mercury. Below the L and R fields, in cell 1011, a number
appears which represents the current market volume.
This is the number of lots that have been traded for
the chosen contract. Cell 1012, “X 10”, displays the
Net Quantity, the current position of the trader on the
chosen contract. The number “10” represents the
trader’s buys minus sells. Cell 1013 is the “Current
Quantity”; this field represents the quantity for the
next order that the trader will send to market. This
can be adjusted with right and left clicks (up and
down) or by clicking the buttons which appear below
the Current Quantity in cells 1014. These buttons increase the current quantity by the indicated amount;
for example, “10” will increase it by 10; “1H” will increase it by 100; “1K” will increase it by 1000. Cell
1015 is the Clear button; clicking this button will
clear the Current Quantity field. Cell 1016 is the
Quantity Description; this is a pull down menu allowing the trader to chose from three Quantity Descriptions. The pull down menu is displayed when the arrow button in the window is clicked. The window includes NetPos, Offset and a field allowing the trader
to enter numbers. Placing a number in this field will
set a default buy or sell quantity. Choosing “Offset” in
this field will enable the L/R buttons of cell 1010.
Choosing “NetPos” in this field will set the current
Net Quantity (trader’s net position) as the trader’s
quantity for his next trade. Cell 1017 are +/- buttons;

App. 447
these buttons will alter the size of the screen—either
larger (+) or smaller (-). Cell 1018 is used to invoke
Net 0; clicking this button will reset the Net Quantity
(cell 1011) to zero. Cell 1019 is used to invoke Net
Real; clicking this button will reset the Net Quantity
(cell 1011) to its actual position.
The inside market and market depth ascend and
descend as prices in the market increase and decrease. For example, FIG. 4 shows a screen displaying
the same market as that of FIG. 3 but at a later interval where the inside market, cells 1101, has risen
three ticks. Here, the inside market for the commodity is 43 (best bid quantity) at 92 (best bid price) and
63 (best ask quantity) at 93 (best ask price). In comparing FIGS. 3 and 4, it can be seen that the price
column remained static, but the corresponding bids
and asks rose up the price column. Market Depth similarly ascends and descends the price column, leaving
a vertical history of the market.
As the market ascends or descends the price column, the inside market might go above or below the
price column displayed on a trader’s screen. Usually
a trader will want to be able to see the inside market
to assess future trades. The system of the present invention addresses this problem with a one click centering feature. With a single click at any point within
the gray area, 1021, below the “Net Real” button, the
system will re-center the inside market on the
trader’s screen. Also, when using a three-button
mouse, a click of the middle mouse button, irrespective of the location of the mouse pointer, will re-center
the inside market on the trader’s screen.

App. 448
The same information and features can be displayed and enabled in a horizontal fashion. Just as
the market ascends and descends the vertical Mercury display shown in FIGS. 3 and 4, the market will
move left and right in the horizontal Mercury display.
The same data and the same information gleaned
from the dynamical display of the data is provided. It
is envisioned that other orientations can be used to
dynamically display the data and such orientations
are intended to come within the scope of the present
invention.
Next, trading commodities, and specifically, the
placement of trade orders using the Mercury display
is described. Using the Mercury display and trading
method, a trader would first designate the desired
commodity and, if applicable, the default quantities.
Then he can trade with single clicks of the right or left
mouse button. The following equations are used by
the system to generate trade orders and to determine
the quantity and price to be associated with the trade
order. The following abbreviations are used in these
formulas: P =Price value of row clicked, R=Value in R
field, L=Value in L field, Q =Current Quantity,
Qa=Total of all quantities in AskQ column at an equal
or better price than P, Qb=Total of all quantities in
BidQ column at an equal or better price than P,
N=Current Net Position, Bo=Buy order sent to market and So=Sell order sent to market.
Any order entered using right mouse button
Bo=(Qa+R)P

(Eq. 1) If BidQ field clicked.

So=(Qb+R)P

(Eq. 2) If AskQ field clicked.

Orders Entered Using the Left Mouse Button

App. 449
If “Offset” mode chosen in Quantity Description
field then:
Bo=(Qa+L)P

(Eq. 3) If BidQ field clicked.

So=(Qb+L)P

(Eq. 4) If AskQ field clicked.

If “number” mode chosen in Quantity Description
field then:
Bo=QP

(Eq. 5)

So=QP

(Eq. 6)

If “NetPos” mode chosen in Quantity Description
field then:
Bo=NP

(Eq. 7)

So=NP

(Eq. 8)

Orders can also be sent to market for quantities
that vary according to the quantities available in the
market; quantities preset by the trader; and which
mouse button the trader clicks. Using this feature, a
trader can buy or sell all of the bids or asks in the
market at or better than a chosen price with one click.
The trader could also add or subtract a preset quantity from the quantities outstanding in the market. If
the trader clicks in a trading cell—i.e. in the BidQ or
AskQ column, he will enter an order in the market.
The parameters of the order depend on which mouse
button he clicks and what preset values he set.
Using the screen display and values from FIG. 5,
the placement of trade orders using the Mercury display and trading method is now described using examples. A left click on the 18 in the BidQ column 1201
will send an order to market to sell 17 lots (quantity
# chosen on the Quantity Description pull down menu

App. 450
cell 1204) of the commodity at a price of 89 (the corresponding price in the Prc column 1203). Similarly, a
left click on the 20 in the AskQ column 1202 will send
an order to market to buy 17 lots at a price of 90.
Using the right mouse button, an order would be
sent to market at the price that corresponds to the
row clicked for the total quantity of orders in the market that equal or better the price in that row plus the
quantity in the R field 1205. Thus, a right click in the
AskQ column 1202 in the 87 price row will send a sell
order to market at a price of 87 and a quantity of 150.
150 is the sum of all the quantities 30, 97, 18 and 5.30,
97 and 18 are all of the quantities in the market that
would meet or better the trader’s sell order price of 87.
These quantities are displayed in the BidQ column
1201 because this column represents the orders outstanding in the market to purchase the commodity at
each corresponding price. The quantity 5 is the quantity pre-set in the R field 1205.
Similarly, a right click in the BidQ column 1201 at
the same price level of 87 would send a buy limit order
to market for a quantity of 5 at a price of 87. The
quantity is determined in the same manner as above.
In this example, though, there are no orders in the
market that equal or better the chosen price—there
are no quantities in the AskQ column 1202 that equal
or better this price. Therefore, the sum of the equal or
better quantities is zero (“0”). The total order entered
by the trader will be the value in the R field, which is
5.
An order entered with the left mouse button and
the “Offset” option chosen in the quantity description
field 1204 will be calculated in the same way as above,

App. 451
but the quantity in the L field 1206 will be added instead of the quantity in the R field 1205. Thus, a left
click in the BidQ column 1201 in the 92 price row will
send a buy order to market at a price of 92 and a quantity of 96. 96 is the sum of all the quantities 45, 28, 20
and 3.45, 28 and 20 are all quantities in the market
that would meet or better the trader’s buy order price
of 92. These quantities are displayed in the AskQ column 1202 because this column represents the orders
outstanding in the market to sell the commodity at
each corresponding price. The quantity 3 is the quantity pre-set in the L field 1206.
The values in the L or R fields may be negative
numbers. This would effectively decrease the total
quantity sent to market. In other words, in the example of a right click in the AskQ column 1202 in the 87
price row, if the R field was -5, the total quantity sent
to market would be 140 (30+97+18+(-5)).
If a trader chose the “NetPos” option in the quantity description field 1204, a right click would still
work as explained above. A left click would enter an
order with a price corresponding to the price row
clicked and a quantity equal to the current Net position of the trader. The Net position of the trader is the
trader’s current position on the chosen contract. In
other words, if the trader has bought 10 more contracts than he has sold, this value would be 10. NetPos would not affect the quantity of an order sent with
a right click.
If the trader chose a number value in the quantity
description, a left click would send an order to market
for the current quantity chosen by the trader. The default value of the current quantity will be the number

App. 452
entered in the quantity description field, but it could
be changed by adjusting the figure in the current
quantity field 1204.
This embodiment of the invention also allows a
trader to delete all of his working trades with a single
click of either the right or left mouse button anywhere
in the last traded quantity (LTQ) column 1207. This
allows a trader to exit the market immediately. Traders will use this feature when they are losing money
and want to stop the losses from pilling up. Traders
may also use this feature to quickly exit the market
upon making a desired profit. The invention also allows a trader to delete all of his orders from the market at a particular price level. A click with either
mouse button in the Entered/Working (E/W) column
1208 will delete all working orders in the cell that was
clicked. Thus, if a trader believes that previously sent
orders at a particular price that have not been filled
would be poor trades, he can delete these orders with
a single click.
The process for placing trade orders using the
Mercury display and trading method of the present
invention as described above is shown in the
flowchart of FIG. 6. First, in step 1301, the trader has
the Mercury display on the trading terminal screen
showing the market fora given commodity. In step
1302, the parameters are set in the appropriate fields,
such as the L and R fields and the Current Quantity,
NetPos or Offset fields from the pull down menu. In
step 1303, the mouse pointer is positioned and clicked
over a cell in the Mercury display by the trader. In
step 1304, the system determines whether the cell
clicked is a tradeable cell (i.e. in the AskQ column or

App. 453
BidQ column). If not, then in step 1305, no trade order
is created or sent and, rather, other quantities are adjusted or functions are performed based upon the cell
selected. Otherwise, in step 1306, the system determines whether it was the left or the right button of
the mouse that was clicked. If it was the right, then
in step 1307, the system will use the quantity in the
R field when it determines the total quantity of the
order in step 1310. If the left button was clicked, then
in step 1308, the system determines which quantity
description was chosen: Offset. NetPos or an actual
number.
If Offset was chosen, then the system, in step
1309, will use the quantity in the L field when it determines the total quantity of the order in step 1310.
If NetPos was chosen, then the system, in step 1312,
will determine that the total quantity for the trade order will be current NetPos value, i.e. the net position
of the trader in the given commodity. If an actual
number was used as the quantity description, then, in
step 1311, the system will determine that the total
quantity for the trade order will be the current quantity entered. In step 1310, the system will determine
that the total quantity for the trade order will be the
value of the R field (if step 1307 was taken) or the
value of the L field (if step 1309 was taken) plus all
quantities in the market for prices better than or
equal to the price in the row clicked. This will add up
the quantities for each order in the market that will
fill the order being entered by the trader (plus the L
or R value).
After either steps 1310, 1311 or 1312, the system,
in step 1313, determines which column was clicked,

App. 454
BidQ or AskQ. If AskQ was clicked, then, in step
1314, the system sends a sell limit order to the market at the price corresponding to the row for the total
quantity as already determined. If BidQ was clicked,
then, in step 1315, the system sends a buy limit order
to the market at the price corresponding to the row
for the total quantity as already determined.
It should be understood that the above description
of the invention and specific examples, while indicating preferred embodiments of the present invention,
are given by way of illustration and not limitation.
Many changes and modifications within the scope of
the present invention may be made without departing
from the spirit thereof, and the present invention includes all such changes and modifications.
We claim:
1. A method of canceling an order entered fora commodity at an electronic exchange, the method comprising:
receiving data relating to the commodity from the
electronic exchange, the data comprising an inside market having a current highest bid price
and a current lowest ask price available for the
commodity;
setting a trade order parameter;
dynamically displaying by a computing device a
first indicator at a first area corresponding to a
first price level along a static price axis, the
first indicator being associated with the current highest bid price for the commodity;

App. 455
dynamically displaying by the computing device a
second indicator at a second area corresponding to a second price level along the static price
axis, the second indicator being associated with
the current lowest ask price for the commodity;
updating the dynamic display of the first and second indicators such that at least one of the first
and second indicators is moved relative to the
static price axis to a different area corresponding to a different price level along the static
price axis in response to the receipt of new data
representing a new inside market;
displaying by the computing device an order entry
region comprising a plurality of areas, each
area corresponding to a price level along the
static price axis and each area being selectable
by a user input device so as to receive a command to send an order message based on the
trade order parameter and the price level that
corresponds with the selected area to the electronic exchange;
displaying by the computing device an entered order indicator at a location corresponding to a
particular price level along the static price axis,
the entered order indicator being associated
with an order entered at the electronic exchange at the particular price level; and
receiving a single action command that selects the
location associated with the entered order indicator so as to cancel the order at the electronic
exchange.

App. 456
2. The method of claim 1, wherein the single action
command consists of a single click of the user input
device.
3. The method of claim 1, wherein the single action
command consists of a double click of the user input
device.
4. The method of claim 1, further comprising:
displaying an entered order region for displaying
the entered order indicator, the entered order
region comprising a plurality of locations, such
that each location corresponds to a price level
along the static price axis.
5. The method of claim 1, wherein the entered order indicator displays a current status of the order at
the electronic exchange.
6. The method of claim 5, wherein displaying the
current status comprises dynamically displaying a
number of ordered lots of the commodity that have
been bought or sold since the order was placed at the
electronic exchange.
7. The method of claim 5, wherein displaying the
current status comprises dynamically displaying a
number of ordered lots of the commodity that are currently working at the particular price level since the
order was placed at the electronic exchange.
8. The method of claim 5, wherein price levels
along the static price axis are displayed.
9. The method of claim 1, wherein the static price
axis is positioned vertically, horizontally, or at some
other angle.

App. 457
10.

The method of claim 1, further comprising:

receiving a command to enter the order at the electronic exchange, the command resulting from
selecting a particular area in the order entry
region corresponding to a desired price level as
part of a single action of a user with a pointer
of the user input device positioned over the particular area to both set an order price parameter for the order based on the desired price level
and send the order to the electronic exchange.
11.

The method of claim 1, further comprising:

receiving a re-positioning instruction causing the
price levels to change positions along the static
price axis.
12.
The method of claim 11, wherein the re-positioning instruction is a re-centering command.
13.
The method of claim 12, wherein as a result
of the first and second indicators moving away from
the center portion of the static price axis because of
changes in the inside market, the re-centering command positions the first and second indicators back in
a center portion of the static price axis.
14.
The method of claim 12, wherein the recentering command is further based on receipt of a
manual command from a user input device.
15.
The method of claim 11, wherein the price
levels change positions when a value for each price
level dynamically changes to a different value for each
price level.
16.
The method of claim 1, wherein the trade
order parameter is an order quantity.

App. 458
17.
A computer readable medium having program code recorded thereon for execution on a computer having a graphical user interface and a user input device, the program code causing a machine to
perform the following method of canceling an order
entered for a commodity at an electronic exchange:
receiving data relating to the commodity from the
electronic exchange, the data comprising an inside market having a current highest bid price
and a current lowest ask price available for the
commodity;
setting a trade order parameter;
dynamically displaying a first indicator at a first
area corresponding to a first price level along a
static price axis, the first indicator being associated with the current highest bid price for the
commodity;
dynamically displaying a second indicator at a second area corresponding to a second price level
along the static price axis, the second indicator
being associated with the current lowest ask
price for the commodity;
updating the dynamic display of the first and second indicators such that at least one of the first
and second indicators is moved relative to the
static price axis to a different area corresponding to a different price level along the static
price axis in response to the receipt of new data
representing a new inside market;
displaying an order entry region comprising a plurality of areas, each area corresponding to a
price level along the static price axis and each

App. 459
area being selectable by the user input device
so as to receive a command to send an order
message based on the trade order parameter
and the price level that corresponds with the
selected area to the electronic exchange;
displaying an entered order indicator at a location
corresponding to a particular price level along
the static price axis, the entered order indicator
being associated with an order entered at the
electronic exchange at the particular price
level; and
receiving a single action command that selects the
location associated with the entered order indicator so as to cancel the order at the electronic
exchange.
18.
The computer readable medium of
claim 17, further comprising program code causing
the machine to perform the following method step:
receiving a command to enter the order at the electronic exchange, the command resulting from
selecting a particular area in the order entry
region corresponding to a desired price level as
part of a single action of a user with a pointer
of the user input device positioned over the particular area to both set an order price parameter for the order based on the desired price level
and send the order to the electronic exchange.
19.
The computer readable medium of
claim 17, wherein the single action command consists
of a single click of the user input device.

App. 460
20.
The computer readable medium of
claim 17, wherein the single action command consists
of a double click of the user input device.
21.
The computer readable medium of
claim 17, further comprising program code causing
the machine to perform the following method step:
displaying an entered order region for displaying
the entered order indicator, the entered order
region comprising a plurality of locations, such
that each location corresponds to a price level
along the static price axis.
22.
The computer readable medium of
claim 17, wherein the entered order indicator displays a current status of the order at the electronic
exchange.
23.
The computer readable medium of
claim 17, wherein displaying the current status comprises dynamically displaying a number of ordered
lots of the commodity that have been bought or sold
since the order was placed at the electronic exchange.
24.
The computer readable medium of
claim 17, wherein displaying the current status comprises dynamically displaying a number of ordered
lots of the commodity that are currently working at
the particular price level since the order was placed
at the electronic exchange.
25.
The computer readable medium of
claim 17, wherein price levels along the static price
axis are displayed.

App. 461
26.
The computer readable medium of
claim 17, wherein the static price axis is positioned
vertically, horizontally, or at some other angle.
27.
The computer readable medium of
claim 17, further comprising program code causing
the machine to perform the following method step:
receiving a re-positioning instruction causing the
price levels to change positions along the static
price axis.
28.
The computer readable medium of
claim 27, wherein the re-positioning instruction is a
re-centering command.
29.
The computer readable medium of claim
28, wherein as a result of the first and second indicators moving away from the center portion of the static
price axis because of changes in the inside market, the
re-centering command positions the first and second
indicators back in a center portion of the static price
axis.
30.
The computer readable medium of
claim 28, wherein the re-centering command is further based on receipt of a manual command from a
user input device.
31.
The computer readable medium of
claim 27, wherein the price levels change positions
when a value for each price level dynamically changes
to a different value for each price level.
32.
The computer readable medium of
claim 11, wherein the trade order parameter is an order quantity.
*****

App. 462
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

:
:
:
:

7,725,382 B2
11/585966
May 25, 2010
Gary Allan Kemp, II et al.

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:
Claim 23, column 14, line 45: please delete
“claim 17” and insert --claim 22--.
Claim 32, column 16, Line 5: please delete
“claim 11” and insert --claim 17--.
Signed and Sealed this
Twenty-seventh Day of December, 2011
David J. Kappos

Director of the United States Patent and Trademark
Office

